         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                  Contents
                  Introduction
                  Objectives_________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Methodology _____________________________________________________________________________________1
                  Summary of Results _____________________________________________________________________________2
                  Findings Requiring Immediate Corrective Action_____________________________________________3

                  Follow-up Reviews
                  Systemic Electrical Standards Issues_________________________________________________________ 17
                  Recommendations and Management Response_____________________________________________ 18
                  Systemic Fire Protection Issues_______________________________________________________________ 21
                  Recommendations and Management Response_____________________________________________ 22
                  Conclusion _____________________________________________________________________________________ 26

                  Appendix A
                  Scope and Methodology_______________________________________________________________________ 27

                  Appendix B
                  Notice of Concerns and Responses - KAF____________________________________________________ 28
                        NOC Electrical Standards Kandahar Air Field (Jun 29, 2012)________________________ 28
                        NOC Fire Protection Systems Kandahar Air Field (Jun 29, 2012)_ __________________ 35
                        CENTCOM Response to KAF NOCs (Jul 26, 2012)_____________________________________ 51
                        OIG Response to CENTCOM - KAF______________________________________________________ 98

                  Appendix C
                  Notice of Concerns and Responses - BAF_ ___________________________________________________ 99
                        NOC Electrical Standards Bagram Air Field (Oct 10, 2012)__________________________ 99
                        NOC Fire Protection Systems Bagram Air Field (Oct 10, 2012)_____________________124
                        CENTCOM Response to BAF NOCs (Nov 11, 2012)__________________________________144
                        OIG Response to CENTCOM - BAF_____________________________________________________177

                  Appendix D
                  CENTCOM Comments (Received June 3, 2013)_____________________________________________179

                  Acronyms and Abbreviations_____________________________________________190
iv │ DODIG-2013-099
                                                                                                                                Introduction




Introduction
Objectives
The objective of the Electrical Systems Inspection was to determine whether selected
U.S. controlled and occupied facilities in Afghanistan were in compliance with standards
defined in the National Electrical Code (NEC).

The objective of the Fire Protection Systems Inspection was to determine whether selected
U.S. controlled and occupied facilities in Afghanistan are in compliance with Unified
Facilities Criteria (UFC) and National Fire Protection Association (NFPA) standards.

The objective of the follow-up inspections was to review corrective actions for previous
DoD Office of the Inspector General (OIG) electrical and fire protection findings.

Government contract administration policies and practices were not the focus of this
inspection. Additionally, we did not identify and review the performance of specific
service contractors supporting U.S. Forces-Afghanistan (USFOR-A), although we are aware
that contractors provide electrical and fire protection services for many U.S. occupied
facilities in Afghanistan. For informational purposes, we requested copies of all original
construction contracts, but they were not readily available at the time of these inspections
and therefore were not reviewed in a comprehensive or detailed manner.


Background
Previous OIG inspections identified multiple and recurring NEC violations and fire
protection systems deficiencies in U.S. occupied facilities in Afghanistan. Therefore the
DoD OIG announced this inspection on February 14, 2012, which identified the inspection
locations of Kandahar Air Field (KAF), and Bagram Air Field (BAF).


Methodology
We inspected facilities for compliance with NEC, UFC, and NFPA standards. Two teams
conducted the inspections; one team inspected electrical systems and one team inspected
fire protection systems. The facilities were selected for inspection from the density lists1,
and non-density lists (when available) and then prioritized by occupancy and use. Also
facilities were selected for verification of corrective actions from previous DoD OIG
assessments and inspections, and from information gained during the inspections.

	1	
      The “density list” is a list of facilities which are under maintenance contracts with the Government Logistics Civil
      Augmentation Program (LOGCAP) support contractors.




                                                                                                                             DODIG-2013-099 │ 1
Introduction



                 We conducted inspections at KAF and BAF. At the end of each site inspection, we briefed
                 the garrison commands and USFOR-A representatives and provided them draft copies of
                 all findings. We issued Notices of Concerns (NOCs) to U.S. Central Command (CENTCOM)
                 at the conclusion of each team’s site inspection. CENTCOM then had 30 days to respond
                 to our NOC. The individual NOCs included all findings and identified the major areas of
                 concern grouped into broad categories. The NOCs also highlighted findings of a critical
                 nature requiring immediate corrective action.

                 CENTCOM responded to our NOCs (see Appendices B and C). This report covers the
                 major areas of concern that we identified as systemic issues during the KAF and BAF
                 inspections. In addition, we conducted follow-up reviews of corrective actions taken in
                 response to DoD OIG Reports at KAF and BAF.


                 Summary of Results
                 We conducted electrical and fire protection inspections first at KAF from April 26, 2012, to
                 May 21, 2012, and then at BAF from July 12, 2012, to August 21, 2012. During the course
                 of these inspections, we inspected a total of 222 facilities and documented a total of 1,089
                 findings 2: 440 electrical and 649 fire protection findings (Table 1). Of the 440 electrical
                 findings, 44 required immediate corrective action; and of the 649 fire protection findings,
                 27 required immediate corrective action (Tables 2a and 2b). All findings affect life, health,
                 and safety, however these 71 findings present an immediate danger to personnel and
                 therefore require immediate corrective action; they are listed in detail in the following
                 section and in the main body of the KAF and BAF NOCs issued June 29, 2012, and
                 October 10, 2012, respectively (see Appendices B and C). Also, a complete list of all
                 electrical and fire protection findings are in the logs attached to these NOCs.

                 Table 1. Total Findings for KAF and BAF
                                                     Facilities                 Electrical              Fire Protection             Site Location
                           Location                 Inspected                   Findings                    Findings                    Total
                     KAF                                 104                        109                        304                          413
                     BAF                                 118                        331                        345                          676
                     Total                               222                        440                        649                       1,089


                 Table 2a. Findings Requiring Immediate Corrective Action for KAF and BAF
                           Location                Electrical Findings              Fire Protection Findings                Site Location Total
                     KAF                                       5                                  18                                   23
                     BAF                                       39                                  9                                   48
                     Total                                     44                                 27                                   71


                 	2	
                       All findings are violations of criteria from NEC, UFC, or NFPA standards. They contain a complete description with the location of
                       the violation; also attached to the findings are the criteria that was violated, and descriptive pictures of the actual violations.
2 │ DODIG-2013-099
                                                                                                      Introduction



Table 2b. 71 Critical findings listed by site

                     Locations                                  Critical Findings
 KAF - 5 Critical Electrical Findings           KAF-EL-120426-025, -026, -047, -084, & -097
                                                KAF-FP-120426-097, -098, -099, -100, -101,
 KAF - 18 Critical Fire Protection Findings     -102, -103, -104, -105, -106, -107, -108, -110,
                                                -140, -162, -186, -292, & -314
                                                BAF-EL-120709-014, -026, -030, -031A, -036,
                                                -041, -043, -056, -074, -087, -124B, -142, -145,
                                                -150, -152, -161, -163, -168, -170, -197, -199,
 BAF - 39 Critical Electrical Findings          -214, -223, -225, -228, -230, -240, -242, -248,
                                                -250, -272, -274, -283, -285, -291A, -295, -332,
                                                -335, & -336,
                                                BAF-FP-120709-041A, -043, -044, -045, -065,
 BAF - 9 Critical Fire Protection Findings      -069, -095, -129 & -241


Findings Requiring Immediate Corrective Action
Electrical Standards - KAF
At KAF, the five electrical standards findings requiring immediate corrective action are:

          •	 In Building 518, reverse polarity and no grounding of kitchen receptacles:
             (Finding KAF-EL-120426-026)

          •	 In Building 518, main electrical panel wires are not color-coded to any
             standard: (Finding KAF-EL-120426-025)

          •	 In Building 156 “Old Kandahar Hotel,” live power cables placed directly on
             roof top: (Finding KAF-EL-120426-084)

          •	 In Building 156 “Old Kandahar Hotel,” there are unprotected wires used
             throughout the living quarters: (Finding KAF-EL-120426-047)

          •	 In Building RLB7B, living quarters are unsafe for occupancy due to severe
             wiring issues: (Finding KAF-EL-120426-097)

Electrical Standards - BAF
At BAF, the eight areas with their respective 39 findings electrical standards findings
requiring immediate corrective action are:

          •	 In Building 25170, the Craig Joint Theater Hospital, the automatic power
             transfer switch for the back-up power generator is non-operational: Finding
             (BAF-EL-120709-030)




                                                                                                   DODIG-2013-099 │ 3
Introduction



                         •	 In front of Building 25022 along Disney Street, there are low hanging overhead
                            power lines. A Mine Resistant Ambush Protected (MRAP) Vehicle was found
                            with one of its antennas in contact with an overhead power line: Finding (BAF-
                            EL-120709-036)

                         •	 In Building 25059, Aircraft Hangar, the conductors are overheated, one conductor
                            wire is noticeably smaller than the other, and the conduit to the high bay lighting
                            has an electrical frequency vibration: Finding (BAF-EL-120709-041)

                         •	 Outside Building 16534B at Camp McCool, the service panel is wired directly
                            to the transformer and has no main disconnecting means or circuit breaker
                            to de-energize the circuit breakers that feed out to various buildings: Finding
                            (BAF-EL-120709-074)

                         •	 In Buildings 14993 & 14996 Clamshell Gyms, main distribution panel is
                            grounded with undersized conductor wire, and subpanels are earth grounded to
                            the building frame and earth: Finding (BAF-EL-120709-336)

                         •	 No main bonding jumper to earth ground in the main service equipment panels:
                            Findings (BAF-EL-120709-014, -043, -124B, -150, & -240)

                         •	 Systemically throughout BAF, flexible cords such as extension cords, appliance
                            cords, power strips, etc. were found to have no ground contact (ground prong):
                            Findings (BAF-EL-120709-026, -031A, -087, -142, -152, -161, -168, -197, -199,
                            -225, -228, -230, -250, -272, -283, -285, & -335)

                         •	 Ground Fault Circuit Interrupter (GFCI) not installed or are nonfunctional:
                            Findings (BAF-EL-120709-056, -145, -163, -170, -214, -223, -242, -248, -274,
                            -291A, -295, & -332)

                Fire Protection Standards - KAF
                At KAF, the five areas with their respective 18 fire protection findings requiring immediate
                corrective action are:

                         •	 In building 156 “Old Kandahar Hotel,” there are insufficient numbers of sprinklers
                            and fire alarms, egress deficiencies, and combustible construction material is
                            present: Findings (KAF-FP-120426-097 through -107)

                         •	 In Building 543B, there is no HVAC emergency electrical disconnect: Finding
                            (KAF-FP-120426-314)




4 │ DODIG-2013-099
                                                                                              Introduction



        •	 The Yankee aircraft hangars that are occupied, have no operable fire protection:
           Findings (KAF-FP-120426-108 & -110)

        •	 In the Kandahar Medical clinic, one exit is blocked:            Finding (KAF-
           FP-120426-292)

        •	 There are missing and disabled smoke detectors throughout KAF: Findings
           (KAF-FP-120426-140, -162, & -186)

Fire Protection Standards - BAF
At BAF, the three areas with their respective nine fire protection findings requiring
immediate corrective action are:

        •	 In Building 25059 ‘Dust-off Hangar’, living areas within the hangar violate
           multiple code sections: Findings (BAF-FP-120709-041A, -043, -044, -045,
           -065, & -069)

        •	 In Building 66175, ‘Detention Facility in Parwan’ (DFIP), the fire pumps do
           not function automatically: Finding (BAF-FP-120709-129)

        •	 In Building 15854, ‘Camp Alpha Gym,’ and Building 25107, ‘Rock Gym’
           the interior foam insulation in gym is highly flammable: Finding (BAF-
           FP-120709-095, & -241)




                                                                                          DODIG-2013-099 │ 5
Follow-up Reviews




                 Follow-up Reviews
                 We conducted follow-up reviews at KAF of corrective actions taken in response to two
                 previous DoD OIG reports; one from the DoD OIG Special Plans and Operations (Report
                 No. SPO-2009-005, July 24, 2009) titled, “Assessment of Electrical Safety in Afghanistan”,
                 and one from DoD OIG Audit (Project No. D2010-D000JB-0078, April 13, 2010) titled,
                 “Maintenance of Electrical Wiring in Buildings at Kandahar Air Field, Afghanistan”. We
                 identified several corrective actions that were not fully implemented or completed in the
                 NOCs for KAF (see Appendix B).

                 We also conducted a follow-up review at BAF of corrective actions taken in response to
                 findings from a previous DoD OIG audit of the Detention Facility in Parwan (DFIP) (Report
                 No. DODIG-2012-089, May 17, 2012) titled, “Better Contract Oversight Could Have
                 Prevented Deficiencies in the Detention Facility in Parwan, Afghanistan”. We identified
                 electrical corrective actions that were not fully implemented or completed in the NOCs
                 for BAF (see Appendix C).



                 Electrical Finding Categories
                 We categorized the 440 electrical findings into 6 categories. See Table 3 for the number of
                 electrical findings per category and the total number of findings at each site.

                       1.	   Grounding and bonding:         No bonding between neutral and grounding
                             bus bars in main panels, many cases of exposed grounding conductors and
                             electrodes unprotected from damage, missing ground prongs, and missing and
                             incorrectly wired Ground Fault Circuit Interrupter (GFCI) receptacles (Figure
                             1). The missing ground contact does not provide a return path for the ground
                             fault current. A ground fault could energize the metal on any device plugged
                             into extension cords without tripping the circuit breaker. Metal surfaces on
                             appliances can also become energized without tripping the circuit breaker.
                             These grounding issues could lead to fire, electrical shock, and/or electrocution.

                       2.	   Misuse of plastic-sheathed cables: Multiple cases of indoor-rated, plastic-
                             sheathed cables used in damp outdoor locations, unsupported and unprotected
                             by conduit and raceways (Figures 2, 3, and 4). Improperly mounted cables and
                             breaks in raceways increases the risk of abrasion and breaks in conductors,
                             which could cause fire, electrical shock, and/or electrocution.

                       3.	   Misuse of extension cords: Use of extension cords penetrating walls, run
                             under floor mats, and run through doorways rather than approved fixed wiring



6 │ DODIG-2013-099
                                                                                             Follow-up Reviews



               was significant. Extension cords used under these conditions are subject to
               damage and abrasion (figure 5). The use of an extension cord instead of fixed
               wiring creates the possibility of fire, electrical shock, and/or electrocution
               due to unprotected live conductors and overloading of circuitry.

         4.	   Hazardous electrical service to facilities: Electrical wires supported by
               rooftops, many cases of incomplete or damaged electrical panels, and electrical
               panels that are missing front covers and other covers for openings (Figures
               6, 7, 8 and 9). Power lines draped over the top of buildings and structures
               present a high risk for fire and electrocution. Energized panel enclosures with
               front covers that do not fit properly expose energized wires, increasing the risk
               of electrocution to personnel accessing the circuit breakers. Also, damaged
               electrical panels present the possibility of other unseen internal damage and
               could result in ground faults/arc flash and potential fire, electrical shock, and/
               or electrocution.

         5.	   No means to disconnect equipment: Appliances, primarily air-conditioning
               units, which are permanently wired to building power with no means
               of disconnect, such as an outlet or switch, is systemic. In the event of a
               malfunction, no means of disconnection is readily available and this increases
               the risk of a fire or electrical shock and/or electrocution to personnel working
               on the unit.

         6.	   Other:    Non-systemic issues include the lack of an automatic charging
               system for the fire pump house water pump engines, nonoperational hospital
               standby/backup power system, improper color coding of electrical wires
               (Figure 10), and electrical receptacles filled with paint.

Table 3. Electrical Findings at Each Site
                     Category                              KAF                     BAF
 Grounding and bonding                                     21                      65
 Misuse of plastic-sheathed cables                          7                      17
 Misuse of extension cords                                 29                      51
 Hazardous electrical service to facilities                35                      161
 No means to disconnect equipment                           9                      15
 Other                                                      8                      22
 Total                                                     109                     331




                                                                                                DODIG-2013-099 │ 7
Follow-up Reviews



                 Fire Protection Finding Categories
                 We grouped the 649 fire protection findings into 6 categories. See Table 4 for the number
                 of fire protection findings per category, and the total number of findings at each site.

                       1.	   Means of egress:        Locked and obstructed exits and inadequate exit
                             configurations, signage, and emergency lighting. Many cases where the exits
                             are locked, obstructed (Figure 11) or not clearly identified in all lighting levels;
                             occupants may become confused or even trapped by not being able to readily
                             locate the exit during an emergency.

                       2.	   Fire suppression:      Lack of sprinkler systems, and fire sprinkler pump
                             houses that are nonfunctional or not maintained. This is significant as fire
                             sprinklers are the most effective means of controlling a fire in the incipient
                             stages and reducing the risk of injury or loss of life. Also includes kitchen
                             hood extinguishers that are nonfunctional or not maintained (Figure 12).
                             Kitchens have deep fryers and cooking equipment that produce grease-laden
                             vapors. Failure to maintain a functional fire suppression system for kitchen
                             cooking equipment results in an increased risk of fire and a significant risk of
                             fire spreading rapidly throughout the facility.

                       3.	   Fire alarm and notification systems: Many systems are out of service or not
                             connected to dispatch and insufficient smoke or heat detection (Figure 13). An
                             out of service fire alarm system results in an increased threat to safety because
                             it does not detect fire or smoke or notify building occupants. The inoperable
                             system also provides a false sense of security to building occupants.

                       4.	   Fire prevention: Overgrown vegetation, trash around many buildings, and
                             fuel tanks positioned too close to buildings. Vegetation that builds up around
                             buildings becomes a fire hazard and fuel tanks are an obvious fire risk.

                       5.	   Construction–passive protection:          Lack of firewalls in sleeping areas,
                             inadequate exit protection, and combustible materials (Figure 14). The
                             systemic use of combustible materials in sleeping areas creates an increased
                             risk of fire, which could lead to the loss of life and mission-critical assets.

                       6.	   Building separation: Non-adherence to fire separation distance requirements
                             is significant. Buildings are spaced too close to one another without properly
                             rated walls or installed revetments to protect the openings of other structures,
                             which contributes to the rapid spread of fire from one structure to another.




14 │ DODIG-2013-099
                                                                                                  Follow-up Reviews



Table 4. Fire Protection Findings at Each Site
                       Category                                     KAF                     BAF
 Means of egress                                                     76                     113
 Fire suppression                                                    21                     94
 Fire alarm and notification systems                                 78                     75
 Fire prevention                                                     44                     30
 Construction-passive protection                                     81                     19
 Building separation                                                 4                      14
 Total                                                              304                     345




 BAF-FP-120709-147
 Figure 11. Blocked Exit and View From the Other Side the Door in Military Police Station




                                                                                                    DODIG-2013-099 │ 15
Follow-up Reviews



                 Force POWER (TF POWER)3 had one Government civilian electrician at each air field with
                 the capability of contacting TF POWER support contractors to effect repairs. Even though
                 TF POWER had 196 contract electrical inspectors in Afghanistan, the number of DoD OIG
                 findings suggest that the TF POWER workforce is insufficient to meet the requirements
                 of this critical mission.

                 In addition, during our discussions with Bagram Regional Contracting Command (BRCC),
                 we were informed that contracting officer’s representatives (CORs) provide critical
                 support and information to BRCC for contract management. However, according to the
                 BRCC official, there is a lack of qualified CORs serving in that capacity. BRCC acknowledged
                 that CORs were often overloaded with projects and lacked the necessary technical
                 backgrounds to approve electrical and fire suppression systems installations.

                 The lack of sufficient Government oversight can create an overreliance on construction
                 or maintenance contractors to identify and correct compliance deficiencies.                                                Per
                 our discussions, facility construction contractors perform inspections during initial
                 construction. LOGCAP maintenance contractors (Dyncorp and Fluor) perform inspections
                 prior to acceptance of facilities onto the density lists but may also perform inspections
                 during construction to generate deficiency lists to aid in repair during construction. These
                 contractor inspections aid in identifying deficiencies that the construction contractor is
                 required to repair. Once a facility is placed on the density list, the LOGCAP maintenance
                 contractor becomes contractually responsible for the maintenance. These contractor
                 inspections do not supplant the need for independent Government verification of contractor
                 compliance with electrical and fire safety codes at the time of construction and during
                 contract maintenance or repair effort. Additionally, the requirement for maintenance and
                 repair of some facility items, as well as critical systems, such as back-up power systems
                 and fire suppression systems, may be excluded from the maintenance contract. Verifying
                 compliance of contract work to code standards remains the responsibility of the assigned
                 COR or other Government technical personnel such as TF POWER. However, the number
                 of findings indicates a lack of sufficient qualified Government technical personnel.


                 Recommendations - Electrical Standards
                 Recommendation 1
                 We recommend that a priority be given to correcting the 44 critical electrical findings
                 tallied in Tables 2a and 2b of this report.


                 	3	
                       Task Force POWER Overview July 12, 2012, states that TF POWER’s roles and responsibilities are to inspect fire and
                       electrical life, health, and safety hazards throughout the Combined/Joint Operations Area- Afghanistan (CJOA-A).




18 │ DODIG-2013-099
                                                                                      Follow-up Reviews



CENTCOM Comments
Response: Concur. USCENTCOM continues to work with USFOR-A to assist with
correcting the 44 critical electrical standard safety deviations. Per the USFOR-A response
memorandum dated 26 MAY, USFOR-A has taken actions to correct 29 of the 44 electrical
standard deviations. USCENTCOM Engineer Division continues to coordinate with
USFOR-A in this effort. USFOR-A estimates that the remaining 15 electrical standard
deviations will be corrected before 1 January 2014.


DoD OIG Response
CENTCOM comments were responsive. No additional comments from CENTCOM are
required.


Recommendation 2
We recommend that all 440 electrical findings (which includes the 44 critical electrical
findings) be addressed and prioritized according to a robust risk management plan.
Furthermore this plan should be approved and coordinated with AT&L (I&E).


CENTCOM Response
Response: Partially Concur. USFOR-A continues to evaluate and address life, health and
safety standard deviations in accordance with risk management standard operating
procedures and practices that have identified and corrected approximately 326,000
deviations. A new plan, coordinated with an agency external to USCENTCOM would not
be in place to address the remaining deviations in a timely manner. USCENTCOM remains
committed to ensuring the safety of all personnel and resources are not jeopardized due
to electrical standard deviations, and concurs with USFOR-A’s assessment that a new plan
is not required.


DoD OIG Response
CENTCOM has expressed their intention to work corrective actions for the findings
identified by these inspections. We recommend that CENTCOM coordinate their plan for
addressing these findings with AT&L (I&E), however, we accept their explanation for the
logistical limitations to implementing this in a timely manner. Therefore we consider
their comments responsive. No additional comments from CENTCOM are required.


Recommendation 3
We recommend that USFOR-A review the Government oversight and inspection
requirements for electrical systems and ensure that sufficient qualified resources



                                                                                         DODIG-2013-099 │ 19
Follow-up Reviews



                 are available and deployed to meet requirements throughout the USFOR-A area of
                 responsibility.


                 CENTCOM Response
                 Response: Concur. USFOR-A has developed a plan that ensures electrical repair and
                 inspection personnel are available to evaluate the life, health and safety standards of
                 4,469 facilities that will be occupied until US Forces vacate in December 2014. The
                 remaining 4,227 facilities that will remain occupied beyond December 2014 will also
                 be brought into code compliance in order to bring them onto the LOGCAP maintenance
                 contracts, enabling recurring operations and maintenance support.


                 DoD OIG Response
                 CENTCOM comments were responsive.           No additional comments from CENTCOM
                 are required.


                 Recommendation 4
                 We recommend that provision be made for regular inspection and maintenance of
                 electrical systems.


                 CENTCOM Response
                 Response:        Concur.   Following the DoD 10 inspection, USFOR-A implemented an
                 aggressive plan to evaluate facilities in theater to assess their current compliance with
                 electrical safety standards. Once the assessment is complete, USFOR-A will address any
                 deviations identified to meet applicable electrical code and codify a schedule to ensure
                 routine inspections and maintenance is conducted. USCENTCOM Engineer Division
                 continues to coordinate with USFOR-A in this effort.


                 DoD OIG Response
                 CENTCOM comments were responsive.           No additional comments from CENTCOM
                 are required.


                 Recommendation 5
                 We recommend that the Commander, CENTCOM Joint Theater Support Contracting
                 Command (C-JTSCC), review applicable contracts to determine if contractual remedies,
                 including financial recovery, are appropriate in those cases where contract requirements
                 for electrical or fire protection construction, maintenance, or repair services were
                 not satisfied.



20 │ DODIG-2013-099
                                                                                       Follow-up Reviews



CENTCOM Response
Response: Concur. Our review of the report indicates that buildings had various
electrical fire code and fire protection systems violations in direct noncompliance
with Unified Facilities Criteria (UFC) and National Fire Protection Association (NFPA)
standards. C-JTSCC, for its minor constructions projects, does include clause Warranty
Clause 52.246.21 in its contracts to provide a contractual remedy where contract
requirements were not satisfied. In addition, the verification of compliance to contract
requirements are the responsibility of our assigned Contracting Officer Representatives
(CORs), Quality Assurance Specialists (QAS’), and Construction Representatives
(CONREPs).


DoD OIG Response
CENTCOM comments were partially responsive.             C-JTSCC identified a Warranty
clause that establishes the requirement for contract compliance for a period of 1
year from date of final acceptance, without limiting the Government’s rights under
the contract’s Inspection and Acceptance clause with respect to latent defects,
gross mistakes, or fraud.     The C-JTSCC response (see Appendix D) does not say,
however, whether it intends to initiate, direct, or otherwise oversee Government
action to determine if any of these contractual remedies are actually appropriate
in response to the electrical and fire protection noncompliances identified
in the audit report.   Identifying contract provisions that provide the potential for
contractual remedies is not sufficient.     CENTCOM should ensure that Government
contract officials undertake an assessment to determine whether any of the identified,
potential contractual remedies are appropriate by evaluating the facts known about
the electrical and fire protection noncompliances against the legal standards or other
requirements associated with the potential contractual remedies.


Systemic Fire Protection Issues
The inspections identified that KAF and BAF have inadequate Government resources
to conduct fire protection inspections of facilities and to ensure that minimum UFC and
NFPA requirements are met, as evidenced by the 649 findings.

Our discussions with the garrison commands and their staffs revealed that, at the time
of these inspections, they lacked qualified Government fire alarm or fire suppression
technicians to perform inspection, testing, and maintenance. Also, that in many cases, fire
alarm and fire suppression systems were required as part of the construction contract;
however, many of these systems were either not operational or not maintained after
installation. Additionally, the LOGCAP support contractors (Dyncorp and Fluor) were


                                                                                          DODIG-2013-099 │ 21
Follow-up Reviews



                 not contractually required to inspect, maintain, and repair fire alarm and suppression
                 systems even after their installation. This paradigm is supported by our observations
                 and findings identified against these systems as outlined in this report. There were
                 some limited Government and LOGCAP contractor inspections on fire extinguishers and
                 smoke detectors in some facilities, but this was not universal. Also, as discussed earlier,
                 we invited technical personnel from both Government and LOGCAP support contractors
                 (Dyncorp and Fluor) to accompany our inspections. However, only technical personnel
                 from Dyncorp at KAF attended, and personnel from Fluor at BAF attended intermittently.

                 Neither KAF nor BAF had a fire protection plan (FPP) in the BCMPs as required by “The
                 Sand Book.4” An FPP would define organizational authorities and responsibilities for fire
                 protection and implement guidelines and policy for building classifications. In addition,
                 a plan would provide an organized strategy to modify UFC and NFPA requirements to the
                 unique wartime environment. The FPP would also define resources and responsibilities
                 for inspection, testing, and maintenance of existing systems and buildings. Finally,
                 a plan with modified requirements would contribute to practical and effective code
                 implementation over the life cycle of the buildings, thereby enhancing the safety of the
                 warfighter and preserving mission-critical assets.

                 The Sand Book, section 5-7 (3) (d), requires compliance with the UFC for semipermanent
                 construction (defined as 2 years to less than 25 years). Exceptions are allowed with an
                 approved FPP. The Sand Book, section 5-7 (3) (b), states, “An effective fire protection
                 plan is critical to the safety of personnel, facilities, and equipment. The plan provides
                 alternatives to the impracticable criteria in the UFC.” According to the Sand Book,
                 Appendix C, Item 7 (f), the FPP is listed as a component of the BCMP. The BCMPs for KAF
                 and BAF lack a comprehensive FPP.


                 Recommendations – Fire Protection Systems
                 Recommendation 1
                 We recommend that a priority be given to correcting the 27 critical fire protection findings
                 tallied in Tables 2a and 2b of this report.


                 CENTCOM Response
                 Response: Concur. Per the USFOR-A response memorandum dated 26 MAY, USFOR-A
                 has taken actions to correct all 27 of the fire standard deviations either through remedial
                 action or a post-construction waiver request consistent with the Defense Federal


                 	4	
                       USCENTCOM Regulation 415-1 (17 Oct 2011), “Construction and Base Camp Development in the USCENTCOM Area of
                       Responsibility,” (The Sand Book).


22 │ DODIG-2013-099
                                                                                    Follow-up Reviews



Acquisition Regulation (OFAR) and USCENTCOM Regulation 415-1 which specify that
any deviation from the requirements of Unified Facility Criteria due to prevailing
operational conditions must be approved by the Combatant Commander or delegated
engineering authority in writing. Waivers granted for fire standard deviations are
scrutinized to ensure proper egress procedures and risk mitigation measures are
implemented to safeguard personnel and resources.


DoD OIG Response
CENTCOM comments were responsive.          No additional comments from CENTCOM
are required.


Recommendation 2
We recommend that all 649 fire protection findings (which includes the 27 critical fire
protection findings) be addressed and prioritized according to a robust risk management
plan. Furthermore this plan should be approved and coordinated with AT&L (I&E).


CENTCOM Response
Response:   Partially Concur.   USFOR-A continues to evaluate fire protection safety
standard deviations in accordance with risk management standard operating procedures
and practices that have identified and corrected approximately 326,000 deviations. A
new plan coordinated with an agency external to USCENTCOM would not be in place to
address the remaining deviations in a timely manner. USCENTCOM remains committed
to ensuring the safety of all personnel and resources are not jeopardized due to fire
standard deviations, and concurs with USFOR-A’s assessment that a new plan is
not required.


DoD OIG Response
CENTCOM comments were responsive. No additional comments from CENTCOM
are required. CENTCOM has expressed their intention to work corrective actions for the
findings identified by these inspections. We recommend that CENTCOM coordinate their
plan for addressing these findings with AT&L (I&E), however, we accept their explanation
for the logistical limitations to implementing this in a timely manner.       Therefore
we consider their comments responsive. No additional comments from CENTCOM
are required.




                                                                                       DODIG-2013-099 │ 23
Follow-up Reviews



                 Recommendation 3
                 We recommend that USFOR-A review the Government oversight and inspection
                 requirements for fire protection systems and ensure that sufficient qualified resources
                 are available and deployed to meet requirements throughout the USFOR-A area
                 of responsibility.


                 CENTCOM Response
                 Response: Concur. USFOR-A has contracted services from certified fire protection
                 engineers who provide the requisite technical expertise with fire alarm and suppression
                 systems in theater. Any deviations from fire safety standards continue to be addressed in
                 coordination with USCENTCOM Engineer Division.


                 DoD OIG Response
                 CENTCOM comments were responsive.           No additional comments from CENTCOM
                 are required.


                 Recommendation 4
                 We recommend that provision be made for regular inspection and maintenance of fire
                 protection systems.


                 CENTCOM Response
                 Response: Concur. Following the DoD IG inspection, USFOR-A implemented an aggressive
                 plan to evaluate facilities in theater to assess their current compliance with fire safety
                 standards. Once the assessment is complete, USFOR-A will address any deviations
                 identified and codify a schedule to ensure routine inspections and maintenanc is
                 conducted. USCENTCOM Engineer Division continues to coordinate with USFOR-A in
                 this effort.


                 DoD OIG Response
                 CENTCOM comments were responsive.           No additional comments from CENTCOM
                 are required.


                 Recommendation 5
                 We recommend that the Base Camp Master Plans include a comprehensive fire
                 protection plan.




24 │ DODIG-2013-099
                                                                                         Follow-up Reviews



CENTCOM Response
Response:        Concur.   USCENTCOM Regulation 415-1, Construction and Base Camp
Development in the USCENTCOM Area of Responsibility, requires fire protection plans
as part of the Base Camp Master Plan (BCMP). CCR 41 5-1 provides alternatives to the
criteria detailed in the Unified Facilities Criteria (UFC) 1-200-01 to ensure minimum life
safety, and habitability for facilities constructed in contingency environments. Should
the fire protection plan include deviations to those requirements, it must be reviewed
by the appropriate authority having jurisdiction with experience and expertise for fire
protection to ensure risk mitigation strategies effectively address any deviation.


DoD OIG Response
CENTCOM comments were responsive.             No additional comments from CENTCOM
are required.


Recommendation 6
We recommend that the Commander, CENTCOM Joint Theater Support Contracting
Command, review applicable contracts to determine if contractual remedies, including
financial recovery, are appropriate in those cases where contract requirements
for electrical or fire protection construction, maintenance, or repair services were
not satisfied.


CENTCOM Response
Response: Concur. Our review of the report indicates that buildings had various
electrical fire code and fire protection systems violations in direct noncompliance
with Unified Facilities Criteria (UFC) and National Fire protection Association (NAPA)
standards. C-JTSCC, for its minor constructions projects, does include clause Warranty
Clause 52.246.21 in its contracts to provide a contractual remedy where contract
requirements were not satisfied. In addition, the verification of compliance to contract
requirements are the responsibility of our assigned Contracting Officer Representatives
(CORs), Quality Assurance Specialists (QAS’), and Construction Representatives
(CONREPs).


DoD OIG Response
CENTCOM comments were partially responsive. C-JTSCC identified a Warranty clause that
establishes the requirement for contract compliance for a period of 1 year from date of final
acceptance, without limiting the Government’s rights under the contract’s Inspection and




                                                                                           DODIG-2013-099 │ 25
Follow-up Reviews



                 Acceptance clause with respect to latent defects, gross mistakes, or fraud. The C-JTSCC
                 response (see Appendix D) does not say, however, whether it intends to initiate, direct, or
                 otherwise oversee Government action to determine if any of these contractual remedies
                 are actually appropriate in response to the electrical and fire protection noncompliances
                 identified in the audit report. Identifying contract provisions that provide the potential
                 for contractual remedies is not sufficient. CENTCOM should ensure that Government
                 contract officials undertake an assessment to determine whether any of the identified,
                 potential contractual remedies are appropriate by evaluating the facts known about
                 the electrical and fire protection noncompliances against the legal standards or other
                 requirements associated with the potential contractual remedies.


                 Conclusion
                 KAF and BAF did not consistently adhere to minimum NEC and NFPA standards as
                 evidenced by the 1,089 findings; 440 electrical findings and 649 fire protection standards
                 findings.

                 Government Contracting Officer’s Representatives do not have adequate independent
                 technical support and therefore are over reliant on facility construction and maintenance
                 contractors to provide technical expertise.      Garrison commands also do not have
                 adequate qualified Government or dedicated contractor electricians and fire alarm, or
                 fire suppression technicians on their staffs to perform facilities maintenance inspection,
                 testing, and repair activities.

                 In general, we found conditions that do not promote a safe environment for the warfighter.
                 These conditions include electrical and fire protection violations that have significant
                 potential for fire, electrical shock, and/or electrocution if they remain unchecked, and
                 that the BCMPs lacked comprehensive fire protection plans necessary to improve and
                 maintain the overall safety of the facilities.

                 Although, as stated earlier, government contract administration policies and practices
                 were not the focus of this inspection, we recommend that the Commander, CENTCOM
                 Joint Theater Support Contracting Command, review applicable contracts to determine if
                 contractual remedies, including financial recovery, are appropriate in those cases where
                 contract requirements for electrical or fire protection construction, maintenance, or
                 repair services were not satisfied.




26 │ DODIG-2013-099
                                                                                             Appendices




Appendix A
Scope and Methodology
We conducted the inspections on site at KAF and BAF from April through August 2012
in accordance with the Council of the Inspectors General on Integrity and Efficiency,
“Quality Standards for Inspection and Evaluation.” Those standards require that we
plan and perform the inspection to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our inspection objectives. The
evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives.


Use of Computer-Processed Data
We did not use computer-processed data to perform this inspection.




                                                                                        DODIG-2013-099 │ 27
Appendices




                 Appendix B
                 Notice of Concerns and Responses - KAF
                 NOC Electrical Standards Kandahar Air Field (Jun 29, 2012)




28 │ DODIG-2013-099
Appendices



      Kandahar Finding Log
      Electrical	       21 May 2012

                               Finding Number
        Building      Date                                                          Abstract
                              or Control Number
           241        2-May   KAF-EL-120426-001A   Building 241 has non-metallic raceway contains wire splices
           241        2-May   KAF-EL-120426-002A   Five cases of over accessed circuits were found in building 241
           241        2-May   KAF-EL-120426-003B   The hot water heater in Building 241 was found with improper grounding
                                                   The exterior bottom of the main distribution electrical panel was found
           241        2-May   KAF-EL-120426-004A   with exposed wiring and a wooden raceway.
           241        2-May   KAF-EL-120426-005A   Extension cords were found to be constructed improperly in building 241.
                                                   The exterior bottom of main distribution electrical panel was found with
           243        2-May   KAF-EL-120426-006A
                                                   exposed wiring and wooden raceway.
           244        2-May   KAF-EL-120426-007B   The hot water heater in Building 244 was found with improper grounding.
                                                   Standard receptacles were installed on the outside of Bldg 244 where
           244        2-May   KAF-EL-120426-008A   Ground-Fault Circuit-Interrupt (GFCI) protected outlet receptacles are
                                                   required.
           244        2-May   KAF-EL-120426-009A   An extension cord was used instead of fixed wiring in Building 244
                                                   The hot water heaters in Building 243 were found with improper
           243        2-May   KAF-EL-120426-010C   grounding.
           243        2-May   KAF-EL-120426-011A   A male plug was found to be constructed improperly in Building 243
                                                   The hot water heater in Building 5868 was found with improper
          5868        2-May   KAF-EL-120426-013B   grounding
          5865        2-May   KAF-EL-120426-014A   Non-metallic raceway contains wire splices were found in building 5868.
           525        4-May   KAF-EL-120426-015A   Unsecured and unprotected cables were found in building 525.
        hanger 7      4-May   KAF-EL-120426-017A   A defective Ground-Fault Circuit-Interrupt (GFCI) was found in Hanger 7
           518        4-May   KAF-EL-120426-018A   The ground wire outside Building 518 is exposed and unpotected.
        hanger 5      4-May   KAF-EL-120426-019A   Three male plugs were found to be constructed improperly in Hanger 5.
        hanger 7      4-May   KAF-EL-120426-020A   An extension cord was used instead of fixed wiring in Hanger 7.
           518        4-May   KAF-EL-120426-021    Cables were routed through a hole in an external wall in building 518.
                                                   There are no means to disconnect power to the two air conditioner units
           518        4-May   KAF-EL-120426-022    in Bldg 518.
           518        4-May   KAF-EL-120426-023    The wiring outside Building 518 is exposed and unprotected
                                                   There are wires in the main panel in Building 518 that are improperly
           518        4-May   KAF-EL-120426-025    color coded.
           518        4-May   KAF-EL-120426-026    There are two outlet receptacles in Building 518 improperly wired.
                                                   There are outlet boxes with missing side knockouts and receptacles not
           721        4-May   KAF-EL-120426-027    accessible in Buildings 721, 722, 723, and 724
           309        4-May   KAF-EL-120426-028    There are inadequate number of receptacle outlet in building 309.




30 │ DODIG-2013-099
                                                                                                                   Appendices



Kandahar Finding Log Continued
Electrical	     21 May 2012

                       Finding Number
 Building     Date                                                           Abstract
                      or Control Number
                                           Incorrect wire type and unprotected conductors were found feeding the
   721        6-May   KAF-EL-120426-029    distribution panel in Building 721,722,723, and 7
                                           An incorrect wire type and unprotected conductors are feeding the
   309        6-May   KAF-EL-120426-030    distribution panel, and unprotected grounding wire were found in outside
                                           Building 309.
                                           The Building 164 air conditioning unit has an improper external
   164        6-May   KAF-EL-120426-031    connector.
   168        6-May   KAF-EL-120426-032A   The ground electrode outside Building 168 is exposed and unprotected
   209        6-May   KAF-EL-120426-033A   Building 209 has exposed and unprotected ground electrodes outside.
   209        6-May   KAF-EL-120426-034    Building 209 has an improper external connector.
                                           There are three instances of unprotected wiring penetrating walls in
   518        6-May   KAF-EL-120426-035    Building 518D.
                                           There is no means to disconnect power to the air conditioner unit in Bldg
   309        6-May   KAF-EL-120426-036    309C
                                           The water feed pump outside of Bldg 309C has no means of
   309        6-May   KAF-EL-120426-037A   disconnecting power.
                                           The male latrine outside of Building 245 has an electrical distribution
   245        6-May   KAF-EL-120426-038    panel mounted in a non dedicated space inside the latrine.
                                           There is a power distribution panel located inside the latrine Building
   309        7-May   KAF-EL-120426-039    309C.
                                           There is a distribution panel located inside the female latrine in front of
   310        7-May   KAF-EL-120426-040    Building 310.
                                           There is a power distribution panel located inside the male latrine in front
   310        7-May   KAF-EL-120426-041    of Building 310.
   157        7-May   KAF-EL-120426-043    Building 157A has an uncovered outlet switch on the outside wall.
   157        7-May   KAF-EL-120426-044    There are no means of disconnect for a refrigerator in Building 157A.
   157        7-May   KAF-EL-120426-045    There are no means of disconnect for an air conditioner in Building 157A.
   156        7-May   KAF-EL-120426-046    Standard outlets were used on the exterior of Building 156.
                                           Building 156 has numerous instances of nonmetallic (NM) type electrical
   156        7-May   KAF-EL-120426-047    wiring that is not concelaed
                                           There is not a front panel covering wires inside the service panel board as
   156        7-May   KAF-EL-120426-048    required.
                                           Building 156 has several instances of "daisy chaining" of power strips and
   156        7-May   KAF-EL-120426-049    extension cords.
   143        8-May   KAF-EL-120426-050    The ground wire outside Building 143 is exposed and unprotected.
                                           Non Metallic type wire (Romex) is improperly installed inside Building
   143        8-May   KAF-EL-120426-051    143.




                                                                                                             DODIG-2013-099 │ 31
Appendices



      Kandahar Finding Log Continued
      Electrical	       21 May 2012

                                Finding Number
        Building       Date                                                           Abstract
                               or Control Number
                                                    There are no power disconnection means for the two air conditioner
           143        8-May    KAF-EL-120426-052    units in Bldg 143.
           157        8-May    KAF-EL-120426-053    There are no means of disconnect for a refrigerator in Building 157A.
           157        8-May    KAF-EL-120426-054    There are no means of disconnect for an air conditioner in Building 157A.
           156        8-May    KAF-EL-120426-055    Raceways routing wires outside Building 156 are not continuous.
           156        8-May    KAF-EL-120426-056B   Wires running to Building 156 are supported by a palm tree.
                                                    Cables feeding the Building 156 panel board are not enclosed or
           156        8-May    KAF-EL-120426-057
                                                    protected from physical damage.
                                                    The compression clamp connector on a Building 157A junction box is not
           157        8-May    KAF-EL-120426-058    properly connected to the power cord.
                                                    There is an improper wire splice to an electrical discharge insert control
           157        8-May    KAF-EL-120426-059    system cord in Building 157A
           309        12-May   KAF-EL-120426-060    The ground electrode outside Building 309 is exposed and unprotected.
                                                    The ground wire and electrode outside Building 724 are exposed and
           724        12-May   KAF-EL-120426-061    unpotected.
                                                    Flexible cords and cables are used as a substitute for fixed wiring in
           149        12-May   KAF-EL-120426-062    building 149.
                                                    There are no means to disconnect power to the two air conditioner units
           157        12-May   KAF-EL-120426-063    in Building 157.
                                                    Standard receptacles were installed on the outside of the Z Hut where
          Z Hut       12-May   KAF-EL-120426-064    Ground-Fault Circuit-Interrupt (GFCI) protected outlet receptacles are
                                                    required.
                                                    Building 149 has numerous instances of nonmetallic (NM) type electrical
           149        12-May   KAF-EL-120426-065    wiring that is not approved for use in exposed applications.
                                                    There is no dead front panel covering wires inside the main panel in
           157        12-May   KAF-EL-120426-066    building 157.
           149        12-May   KAF-EL-120426-067    Building 149 panel box M3 A3 has an unsupported electrical cable.
           149        12-May   KAF-EL-120426-068    The circuits are not labeled in panel box M3 A3 in Building 149.
                                                    The panel box outside Building 156 has several issues that do not meet
           156        12-May   KAF-EL-120426-069A   NEC requirements.
                                                    Conductors entering a lighting fixture box were not protected from
          Z Hut       12-May   KAF-EL-120426-070A   abrasion in the Z Hut.
                                                    External lights are connected to outlet receptacles that are not-Ground-
          8882        12-May   KAF-EL-120426-071    Fault Circuit-Interrupt (GFCI)protected outside building 8882.
                                                    There are multiple instances of flexible cords routed through doorways in
          8882        12-May   KAF-EL-120426-072    building 8882.
                                                    There is an improper splice made in a flexible cord hanging from roof
           709        12-May   KAF-EL-120426-073    outside Building 709.




32 │ DODIG-2013-099
                                                                                                                   Appendices



Kandahar Finding Log Continued
Electrical	     21 May 2012

                        Finding Number
 Building      Date                                                          Abstract
                       or Control Number
   709        12-May   KAF-EL-120426-074   There are unsupported cables run through the roof of Building 709.
   709        12-May   KAF-EL-120426-075   The wiring outside of Building 709 exhibits poor workmanship.
   709        12-May   KAF-EL-120426-076   There is an exposed ground wire and electrode outside of Building 709.
   516        15-May   KAF-EL-120426-077   A distribution panel did not have the proper clearances in building 516B.
   5816       15-May   KAF-EL-120426-078   The water heater in Building 5816 was found with improper grounding.
   5816       15-May   KAF-EL-120426-079   The ground wire outside Building 516B is exposed and unprotected.
   309        15-May   KAF-EL-120426-080   The wiring outside Building 309 exhibits poor workmanship.
                                           There are no means of disconnect for a electrical discharge insect control
   157        15-May   KAF-EL-120426-081   system in Building 157A.
   157        15-May   KAF-EL-120426-082   The Building 157A electrical junction box cover is missing.
   157        15-May   KAF-EL-120426-083   Electrical junction box cover is missing on the exterior of building 157.
                                           Live conductors were found placed directly on top of the roof of The Old
   156        15-May   KAF-EL-120426-084   Hotel building 156.
                                           Required bonding jumpers are missing in the Stryker and Engineering
  Stryker     15-May   KAF-EL-120426-085   Brigade Buildings.
                                           There are an inadequate number of receptacle outlets in billeting rooms
   166        15-May   KAF-EL-120426-086   inside building 166.
                                           There are three instances of unprotected wiring penetrating walls in
   8882       16-May   KAF-EL-120426-087   Building 8882.
                                           Electrical receptacle boxes were installed in the floor that were not
   162        16-May   KAF-EL-120426-088   specifically designed for floor use.
   162        16-May   KAF-EL-120426-089   The wiring outside Building 162L exhibits poor workmanship.
                                           Building 166, has an uncovered outlet switch on the outside wall
   166        16-May   KAF-EL-120426-090   between 166 and 162L.
   242        16-May   KAF-EL-120426-091   The hot water heater in Building 242 was found with improper grounding.
                                           The circuit breakers in the South Park Re-Locatable Building (RLB) billeting
  SP RLBs     16-May   KAF-EL-120426-092   unit 134 are mounted too high.
                                           There is a missing conduit connector leading into the air conditioning
  SP RLBs     16-May   KAF-EL-120426-093   unit. In addition, the conduit is not glued in the South Park Re-Locatable
                                           Building (RLB) billeting unit room 134.
                                           There is an unused opening in a junction box in South Park Re-Locatable
  SP RLBs     16-May   KAF-EL-120426-094   Building (RLB) room 134.
                                           The outlet receptacles and switch box are not grounded in South Park Re-
  SP RLBs     16-May   KAF-EL-120426-095   Locatable Building (RLB) room 134.
                                           The light switch box in the hall way of the South Park Re- Locatable
  SP RLBs     16-May   KAF-EL-120426-096   Building (RLB) is not ground and improperly color coded.




                                                                                                            DODIG-2013-099 │ 33
Appendices



      Kandahar Finding Log Continued
      Electrical	       21 May 2012

                                Finding Number
        Building       Date                                                         Abstract
                               or Control Number
                                                   There are several NFPA electrical noncomformances related to the air
         SP RLBs      16-May   KAF-EL-120426-097   conditioners and disconnect box located in the showers of the Re-
                                                   Locatable Buildings (RLB).
                                                   Panelboards are located in the shower rooms of the Re- Locatable
         SP RLBs      16-May   KAF-EL-120426-098   Building (RLB) units.
                                                   The GFCI receptacles boxes are not grounded in the shower rooms of the
         SP RLBs      16-May   KAF-EL-120426-099   Re-Locatable Building (RLB) units at South Park.
                                                   Panelboards are located inside the latrines of the Re- Locatable Building
         SP RLBs      16-May   KAF-EL-120426-100   (RLB) units at South Park.
                                                   There are several NFPA electrical noncomformances related to the
         SP RLBs      16-May   KAF-EL-120426-101   air conditioners and disconnect box located in the latrines of the Re-
                                                   Locatable Buildings (RLB) at South Park.
                                                   The light switch box and GFCI receptacles boxes are not grounded in the
         SP RLBs      16-May   KAF-EL-120426-102   latrines of the Re-Locatable Building (RLB) units at South Park.
                                                   In building 8766A an extension cord was used to power outside
         8766A        17-May   KAF-EL-120426-103   equipment from an inside receptacle that is not GFCI protected.
         8766F        17-May   KAF-EL-120426-104   There are an insufficient number of outlets in Building 8766F.
           231        17-May   KAF-EL-120426-105   Two extension cords were used instead of fixed wiring in Building 231.
                                                   An outlet receptacle was found installed in the floor that is not
           228        17-May   KAF-EL-120426-106   specifically designed for floor use in building 228.
          Camp                                     There are no warning signs outside the entrance to a high voltage
                      17-May   KAF-EL-120426-107
         Losano                                    substation and no warning signs on equipment in Camp Losano area.
                                                   There are an inadequate number of receptacle outlets inside building
           231        17-May   KAF-EL-120426-108   231.
                                                   The corrective actions in response to the DOD IG audit titled "National
                      17-May   KAF-EL-120426-109   Electrical Code Violations - Kandahar Airfield, Afghanistan (Project No.
                                                   D2010-D000JB-0078.000)" have not been completed.
           SP                                      The breaker panel at the South Park dinning facility is missing cover plates
                      17-May   KAF-EL-120426-110
         Dinning                                   for unused breaker openings.
                               KAF-EL-120426-111   Observations from Report NO. SPO-2009-005 are not fully corrected.




34 │ DODIG-2013-099
                                                                     Appendices




Appendix B Continued
Notice of Concerns and Responses - KAF
NOC Fire Protection Systems Kandahar Air Field (Jun 29, 2012)




                                                                DODIG-2013-099 │ 35
                                                                                                                   Appendices



Kandahar Finding Log
Fire Protection	     21 May, 2012

                     Finding Number
 Building   Date                                                           Abstract
                    or Control Number
  5868      2-May   KAF-FP-120426-001A   An emergency light fixture was not functional during testing
   241      2-May   KAF-FP-120426-003B   Automatic detection is not provided in the latrines of building 241.
   241      2-May   KAF-FP-120426-005A   Corridor smoke detection spacing in building 241 is insufficient
                                         The building 241 fire alarm visual notification appliance (strobe light)
   241      2-May   KAF-FP-120426-006A   spacing is insufficient in corridor.
   241      2-May   KAF-FP-120426-007A   The fire alarm system in building 241 is non-operable.
   241      2-May   KAF-FP-120426-008A   Smoke detectors in building 241 are loosely mounted to conduit.
   242      2-May   KAF-FP-120426-010A   Building 242 does not provide the required fire sprinkler system.
                                         Building 242 fire alarm visual notification device (strobes) spacing is
   242      2-May   KAF-FP-120426-011    insufficient on the corridor..
   242      2-May   KAF-FP-120426-012    The fire alarm system in building 242 is currently out of service.
                                         Building 242 corridor smoke detection (hard-wired and battery unit)
   242      2-May   KAF-FP-120426-013    spacing is insufficient.
                                         Automatic smoke/heat detection is not provided in the building 242
   242      2-May   KAF-FP-120426-014    latrines.
   242      5-May   KAF-FP-120426-016    The glass rod is missing from the fire alarm pull station in building 242.
                                         The lighting fixtures for the discharge area outside the exit doors are not
   243      5-May   KAF-FP-120426-017    on emergency power in building 243.
   243      5-May   KAF-FP-120426-018    An exit sign was hanging by the electrical wires in building 243.
   243      5-May   KAF-FP-120426-019    Building 243 does not provide the required fire sprinkler system.
                                         The Building 243 fire alarm visual notification device (strobes) spacing is
   243      5-May   KAF-FP-120426-020    insufficient on the corridor.
   243      5-May   KAF-FP-120426-021    The fire alarm system is currently out of service in building 243.
   243      5-May   KAF-FP-120426-022    Automatic detection is not provided in the latrines in building 243
   243      5-May   KAF-FP-120426-024    Glass rod is missing from fire alarm pull station in building 243.
                                         Corridor smoke detection (hardwired and battery unit) spacing is
   244      5-May   KAF-FP-120426-025    insufficient in Building 244
                                         The fire alarm visual notification device (strobes) spacing is insufficient on
   244      5-May   KAF-FP-120426-026    the corridor of building 244.
   244      5-May   KAF-FP-120426-027    The fire alarm system is currently out of service in building 244.
   244      5-May    KAF-FP-120426-28    Automatic detection is not provided in the latrines in building 244.
                                         There are fire sprinklers which are too far from the ceiling in building
   250      5-May   KAF-FP-120426-030    350A.
   525      5-May   KAF-FP-120426-031    There is no illuminated exit sign in building 525




                                                                                                              DODIG-2013-099 │ 37
Appendices



      Kandahar Finding Log Continued
      Fire Protection	         21 May, 2012

                               Finding Number
        Building      Date                                                           Abstract
                              or Control Number
           525        5-May   KAF-FP-120426-032    Means of egress is not level for building 525
           525        5-May   KAF-FP-120426-033    Fire extinguisher inspection unknown within building 525
           525        5-May   KAF-FP-120426-034A   Smoke detectors are not interconnected in building 525.
           525        5-May   KAF-FP-120426-035    Smoke detectors are missing or disabled in building 525
           709        5-May   KAF-FP-120426-038    There is no illuminated exit sign in building 709
           709        5-May   KAF-FP-120426-039    Exit discharge stairs are noncompliant for Building 709
           709        5-May   KAF-FP-120426-040    Fire extinguisher inspection unknown within building 709
                                                   There was no fire extinguisher provided in the north business area of
           709        5-May   KAF-FP-120426-041    building 709.
                                                   The Building 518 rear exit door has inappropriate locks for a means of
           518        8-May   KAF-FP-120426-042A   egress.
           518        8-May   KAF-FP-120426-043    Building 518 exterior exit discharge lighting was not on emergency power.
           518        8-May   KAF-FP-120426-044    Building 518 has only one means of egress.
                      8-May   KAF-FP-120426-045    Fire extinguisher monthly maintenance has not been regularly conducted.
           518        8-May   KAF-FP-120426-046    The smoke detector spacing is non-compliant in building 518.
                                                   The fuel container outside of the building 518 does not have label
           518        8-May   KAF-FP-120426-047    indicating fuel type and capacity.
           518        8-May   KAF-FP-120426-048    Building 518's perimeter is overgrown with vegetation
           709        8-May   KAF-FP-120426-049    Building 709 has a missing smoke detector.
           709        8-May   KAF-FP-120426-050    Smoke detectors are not interconnected in building 709.
                                                   The separation distance between Building 710 and the building behind it
           710        8-May   KAF-FP-120426-052    is inadequate.
                                                   Building 710 contains a storage area that is not separated by a fire-rated
           710        8-May   KAF-FP-120426-053    wall.
           710        8-May   KAF-FP-120426-054    There is no illuminated exit signs in building 710.
                                                   Building 710 has raised threshold at the kitchen door that exceeds
           710        8-May   KAF-FP-120426-055    requirements
                                                   Building 710 has exit stairs that do not meet the requirements of NFPA
           710        8-May   KAF-FP-120426-056    101.
                                                   Building 710 has non-compliant exit stair dimensions that lead to the
           710        8-May   KAF-FP-120426-057    sidewalk.
                                                   The Building 710 fire extinguishers have not been inspected or
           710        8-May   KAF-FP-120426-058    maintained.
           710        8-May   KAF-FP-120426-059    Building 710 has a missing smoke detector




38 │ DODIG-2013-099
                                                                                                                  Appendices



Kandahar Finding Log Continued
Fire Protection	     21 May, 2012

                     Finding Number
 Building   Date                                                           Abstract
                    or Control Number
   710      8-May   KAF-FP-120426-060    Smoke detectors are not interconnected in building 710.
                                         Building 710 is partially constructed with exposed plywood walls on
   710      8-May   KAF-FP-120426-061A   interior of building
                                         The modular housing buildings 5868 and 5882 lighting fixtures for the
  5868      8-May   KAF-FP-120426-062    discharge area outside the exit doors are not on emergency power.
                                         Modular housing buildings 5868 and 5882 do not provide the required
  5868      8-May   KAF-FP-120426-063    fire sprinkler system.
                                         Corridor smoke detection (hardwired and battery unit) spacing is
  5868      8-May   KAF-FP-120426-064    insufficient in modular housing buildings 5868 and 5882
                                         The fire alarm visual notification device (strobes) spacing is insufficient on
  5868      8-May   KAF-FP-120426-065    the corridor of modular housing buildings 5868 and 5882.
  5868      8-May   KAF-FP-120426-066    The fire alarm system in buildings 5868 and 5882 is non-operable
                                         Automatic detection is not provided in the latrines in the modular
  5868      8-May   KAF-FP-120426-067    housing buildings 5868 and 5882.
  5868      8-May   KAF-FP-120426-068    The fire alarm pull station in building 5868 is missing the glass rod.
                                         The building separation distance between building 143 and the building
   143      9-May   KAF-FP-120426-069    behind it is non-compliant.
                                         Building 143 contains a storage area that is not separated by a fire-rated
   143      9-May   KAF-FP-120426-070    wall.
   143      9-May   KAF-FP-120426-071    Illuminated exit/directional signage is insufficient in building 143
                                         The building 143 exit sign at the main entrance does not have adequate
   143      9-May   KAF-FP-120426-072    visibility in the corridor.
   143      9-May   KAF-FP-120426-073A   The front deck of building 143 does not meet dimensional requirements.
                                         Fire extinguishers in building 143 are not properly mounted, inspected or
   143      9-May   KAF-FP-120426-074    maintained
                                         Building 143 corridor smoke detection (battery unit) spacing is
   143      9-May   KAF-FP-120426-075    insufficient.
                                         Automatic detection is not provided in the latrine or storage closet within
   143      9-May   KAF-FP-120426-076    building 143
   143      9-May   KAF-FP-120426-077    Smoke detectors are not interconnected in building 143.
                                         Building 143 is constructed with exposed plywood walls on interior of
   143      9-May   KAF-FP-120426-078A   building.
                                         There are no emergency lighting fixtures for the discharge area outside
   157      9-May   KAF-FP-120426-079    the exit doors in building 157A.
                                         The building separation distance between buildings 157A and the old
   157      9-May   KAF-FP-120426-080    hotel building does not meet IBC requirements.
   157      9-May   KAF-FP-120426-081    There is no illuminated exit signage in building 157A.




                                                                                                           DODIG-2013-099 │ 39
Appendices



      Kandahar Finding Log Continued
      Fire Protection	          21 May, 2012

                                Finding Number
        Building       Date                                                           Abstract
                               or Control Number
           157        9-May    KAF-FP-120426-082    There is no emergency lighting in the kitchen within building 157A.
                                                    There are several egress paths in building 157A that do not meet
           157        9-May    KAF-FP-120426-083A   requirements.
           157        9-May    KAF-FP-120426-084    Exit doors are not equipped with panic hardware in building 157A.
                                                    Fire extinguishers in building 157A are not correctly mounted or
           157        9-May    KAF-FP-120426-085    inspected.
                                                    Building 157A does not have adequate fire suppression systems for
           157        9-May    KAF-FP-120426-086    kitchen cooking equipment.
                                                    The smoke detector is not properly located in the kitchen office area of
           157        9-May    KAF-FP-120426-087    building 157A.
                                                    Automatic smoke and heat detection is not provided in some areas of
           157        9-May    KAF-FP-120426-088    building 157A.
                                                    An open fuel tanks is located adjacent to an in use barbecue outside of
           157        9-May    KAF-FP-120426-089    building 157A.
                                                    There is no illuminated exit signage provided at the corridor intersections
           164        10-May   KAF-FP-120426-090    of building 164.
           164        10-May   KAF-FP-120426-091    Smoke detectors are missing and not interconnected in building 164.
           164        10-May   KAF-FP-120426-092A   Buildings 164A and 164B have non-compliant stair dimensions.
                                                    The showers in Building 164A do not have automatic smoke or heat
           164        10-May   KAF-FP-120426-093    detection.
           164        10-May   KAF-FP-120426-094    The fire extinguisher in building 164B does not have an inspection tag.
                                                    The exit stairs leading from the second floor of building 212 are in
           156        10-May   KAF-FP-120426-095    disrepair.
                                                    The smoke detector shown in building 212 is too far down from the
           156        10-May   KAF-FP-120426-096    ceiling.
           156        10-May   KAF-FP-120426-097    There is no emergency lighting in the Building 156.
                                                    Exit discharge stair handrails and guards are noncompliant in Building
           156        10-May   KAF-FP-120426-098    156.
           156        10-May   KAF-FP-120426-099    Building 156 entry door raised thresholds exceed requirements.
           156        10-May   KAF-FP-120426-100    Door clear (leaf) width is insufficient in the building 156.
           156        10-May   KAF-FP-120426-101    The ceiling height in many units in the building 156 is too low.
           156        10-May   KAF-FP-120426-102    Building 165 does not provide the required fire sprinkler system.
                                                    Fire extinguisher outside building 156 are not inspected or properly
           156        10-May   KAF-FP-120426-103    mounted.
                                                    Building 156 smoke detection devices in many of the units (battery type)
           156        10-May   KAF-FP-120426-104    do not have any UL label/stamp and are not correctly mounted or missing
                                                    .




40 │ DODIG-2013-099
                                                                                                                  Appendices



Kandahar Finding Log Continued
Fire Protection	      21 May, 2012

                      Finding Number
 Building    Date                                                          Abstract
                     or Control Number
                                          A fire alarm system with occupant notification is not installed in building
   156      10-May   KAF-FP-120426-105    156.
   156      10-May   KAF-FP-120426-106    Building 156 is constructed with combustible insulating material.
                                          The building 156 exterior discharge stair landing does not meet
   156      10-May   KAF-FP-120426-107    requirements
  Yankee    11-May   KAF-FP-120426-108    The Yankee Ramp fire pumps are out of service.
   Ramp
  Yankee                                  The separation distance between each hangar at yankee ramp is
            11-May   KAF-FP-120426-109
   Ramp                                   insufficient.
  Yankee                                  The pressure maintenance pump was disassembled for the hangars at
            11-May   KAF-FP-120426-110
   Ramp                                   Yankee Ramp.
  Yankee                                  Hangars at Yankee Ramp have unprotected fire hydrants and post
            11-May   KAF-FP-120426-111
   Ramp                                   indicator valves.
  Yankee                                  Piping and fitting material used on the hangars at yankee ramp are non-
            11-May   KAF-FP-120426-112
   Ramp                                   listed material.
  Yankee    11-May   KAF-FP-120426-113    Yankee Ramp foam concentrate tanks have leaking fittings.
   Ramp
  Yankee    11-May   KAF-FP-120426-114    Hangar #3 at Yankee Ramp has a mezzanine with no sprinkler protection.
   Ramp
  Yankee                                  Dielectric unions and welds were not installed on dissimilar material
            11-May   KAF-FP-120426-115
   Ramp                                   within the hangars at yankee ramp.
  Yankee                                  There is no reserve supply of fire suppression foam concentrate for the
            11-May   KAF-FP-120426-116A
   Ramp                                   hangars at Yankee Ramp.
   164      11-May   KAF-FP-120426-117    Building 164 has exposed plywood walls on interior exit corridors.
  Yankee                                  The foam concentrate control valve handle was obstruction in hangar #1
            11-May   KAF-FP-120426-119
   Ramp                                   of Yankee Ramp.
   156      11-May   KAF-FP-120426-120    Building 156 has exposed plywood walls on interior exit corridors.
                                          General Fire Protection and Life Safety issues of building 156 present a
   156      11-May   KAF-FP-120426-121    high risk to personnel.
                                          Building 543B has poor quality hardware & installation of fire door
   543      11-May   KAF-FP-120426-122    assemblies in the latrines, corridors, and exits.
                                          Building 543B is not provided with the required automatic fire sprinkler
  543B      11-May   KAF-FP-120426-123    system.
                                          There are unoccupied rooms opening into the stair enclosure within
  543B      11-May   KAF-FP-120426-124    building 543B.
                                          Building 543B plumbing, conduit, and duct work penetrating walls were
  543B      11-May   KAF-FP-120426-125    not provided with the proper opening protection.




                                                                                                           DODIG-2013-099 │ 41
Appendices



      Kandahar Finding Log Continued
      Fire Protection	          21 May, 2012

                                Finding Number
        Building       Date                                                          Abstract
                               or Control Number
                                                    There are door closers missing from the fire doors leading into the exit
          543B        11-May   KAF-FP-120426-126    stairs in building 543B.
                                                    Camel hair joint compound was used in the threaded pipe joints for
          543B        11-May   KAF-FP-120426-127    building 543B.
          543B        11-May   KAF-FP-120426-128    Fire Department Connection (FDC) is obstructed in building 543B.
          543B        11-May   KAF-FP-120426-129    Building 543B has latrines without fire sprinklers.
                                                    Class II Type Fire hoses have been provided in building 543B which are
          543B        11-May   KAF-FP-120426-130    non-operational.
                                                    There are no lighting fixtures for the discharge areas outside the exit
          Z-Hut       11-May   KAF-FP-120426-131A   doors in the Z Huts.
                                                    Exit discharge stair handrails and guards are noncompliant in the Z Hut
          Z-Hut       11-May   KAF-FP-120426-132A   Dormitory Building.
          Z-Hut       11-May   KAF-FP-120426-133A   The Z Huts have exit discharge paths over a combustible plywood roof.
          Z-Hut       11-May   KAF-FP-120426-134A   Exterior discharge stair landing in the Z Huts are non compliant.
          Z-Hut       11-May   KAF-FP-120426-135A   The Z Hut building has raised threshold at exit doors.
          Z-Hut       11-May   KAF-FP-120426-136A   The Z Hut building does not provide the required fire sprinkler system.
          Z-Hut       11-May   KAF-FP-120426-137A   Fire extinguisher inspection is unknown in the Z Hut.
                                                    A fire alarm system with occupant notification is not provided in the Z
          Z-Hut       11-May   KAF-FP-120426-138A   Hut.
          Z-Hut       11-May   KAF-FP-120426-139A   Smoke detectors are not interconnected in the Z Hut.
          Z-Hut       11-May   KAF-FP-120426-140A   A missing smoke detector was noted in the Z Hut.
         Camp
         Brown        11-May   KAF-FP-120426-141A   Means of egress is not level in the Camp Brown Laundry.
        Laundry
         Camp                                       The Camp Brown Laundry stairs do not have handrails and have improper
         Brown        11-May   KAF-FP-120426-142A   dimensions.
        Laundry
         Camp
         Brown        11-May   KAF-FP-120426-143A   Front exit door obstructed in the Camp Brown Laundry.
        Laundry
         Camp                                       Raised threshold at the building front and rear exit doors in the Camp
         Brown        11-May   KAF-FP-120426-144A   Brown Laundry.
        Laundry
         Camp
         Brown        11-May   KAF-FP-120426-145A   Fire extinguisher inspection are unknown in the Camp Brown Laundry.
        Laundry




42 │ DODIG-2013-099
                                                                                                                  Appendices



Kandahar Finding Log Continued
Fire Protection	      21 May, 2012

                      Finding Number
 Building    Date                                                           Abstract
                     or Control Number
  Camp
  Brown     11-May   KAF-FP-120426-146A   Smoke detection devices in the Camp Brown Laundry are not UL listed.
 Laundry
  Camp
  Brown     11-May   KAF-FP-120426-147A   Smoke detectors are not interconnected in the Camp Brown Laundry.
 Laundry
   149      12-May   KAF-FP-120426-148    There is no illuminated exit sign or emergency lighting in building 149.
                                          Building 149 has egress non compliances including exit discharge
   149      12-May   KAF-FP-120426-149    obstacles and an exit doors that swing the wrong way.
                                          Fire extinguishers in building 149 are missing inspection tags and are
   149      12-May   KAF-FP-120426-150    unmounted.
   149      12-May   KAF-FP-120426-151    Automatic detection is not provided in building 149.
   T-3      12-May   KAF-FP-120426-152    Building T-3 does not have the required illuminated exit sign.
                                          Building T-3 has exit discharge stair landings and handrails that are
   T-3      12-May   KAF-FP-120426-153    missing.
   T-3      12-May   KAF-FP-120426-154    Building T3 has raised threshold at exit doors.
                                          Building T-3 has fire extinguishers that have an unknown inspection
   T-3      12-May   KAF-FP-120426-155    status.
                                          Building T-3 contain smoke detectors that are not interconnected and are
   T-3      12-May   KAF-FP-120426-156    not located in the proper mounting position.
  156B,                                   The lighting fixtures for the discharge area outside the exit doors are not
            12-May   KAF-FP-120426-157
  156C                                    on emergency power in buildings 156B and 156C.
  156B,                                   Buildings 156B and 156C have stairways, thresholds, handrails, and
            12-May   KAF-FP-120426-158
  156C                                    landings that are non compliant with NFPA 101.
  156B,     12-May   KAF-FP-120426-159    Buildings 156B and 156C do not have the required fire sprinkler systems.
  156C
  156B,                                   Buildings 156B and 156C have fire extinguishers that are missing a
            12-May   KAF-FP-120426-160
  156C                                    inspection tags and are not UL listed.
                                          The fire alarm systems in buildings 156B and 156C have non-conformities
  156B,     12-May   KAF-FP-120426-161    including being out of service, missing glass rods, and insufficient strobes
  156C                                    spacing.
  156B,                                   Buildings 156B and 156C are missing smoke detectors in some areas and
            12-May   KAF-FP-120426-162
  156C                                    have non-compliant smoke detectors in others.
  156B,                                   The fire alarm electrical circuit breakers are not identified or secured to
            12-May   KAF-FP-120426-163
  156C                                    the on position in buildings 156B and 156C.
  8780A     12-May   KAF-FP-120426-164    Building 8780A has non-separated storage areas.
  8780A     12-May   KAF-FP-120426-165    Building 8780A had wood stud partitions.
  8780A     12-May   KAF-FP-120426-166    Means of egress is not level for building 8780A.




                                                                                                            DODIG-2013-099 │ 43
Appendices



      Kandahar Finding Log Continued
      Fire Protection	         21 May, 2012

                                Finding Number
        Building       Date                                                          Abstract
                               or Control Number
         8780A        12-May   KAF-FP-120426-167   Building 8780A has no exit discharge stair handrails.
         8780A        12-May   KAF-FP-120426-168   Camel hair pipe sealant was used within building 8780A.
         8780A        12-May   KAF-FP-120426-169   Piping and fitting material used in building 8780A are non-listed material.
                                                   The fire alarm visual notification device (strobes) spacing is insufficient in
         8780A        12-May   KAF-FP-120426-170   building 8780A.
         8780A        12-May   KAF-FP-120426-171   Building 8780A does not have the required Local Operating Console.
         8780A        12-May   KAF-FP-120426-172   Building 8780A has a fire alarm system that is currently out of service.
                                                   Building 8889Q has higher hazard areas and storage areas that are not
         8889Q        12-May   KAF-FP-120426-173   separated by a fire-rated wall or door.
                                                   Building 8889Q does not have emergency lighting fixtures for the
         8889Q        12-May   KAF-FP-120426-174   discharge area outside the exit doors.
                                                   Building 8889Q lacks the required illuminated directional signage and
         8889Q        12-May   KAF-FP-120426-175   emergency exit signage.
         8889Q        12-May   KAF-FP-120426-176   Building 8889Q has exit stairs with several non- compliances.
                                                   Building 8889Q has a sleeping room in which the exit pathway is through
         8889Q        12-May   KAF-FP-120426-177   a storage room.
         8889Q        12-May   KAF-FP-120426-178   Building 8889Q has raised thresholds at the ancillary training annex.
                                                   Building 8889Q has fire extinguishers in which the status of inspection is
         8889Q        12-May   KAF-FP-120426-179   unknown.
                                                   Building 8889Q does not have interconnected smoke detectors or
         8889Q        12-May   KAF-FP-120426-180   adequate smoke detector coverage.
                                                   Building 8889Q has exposed plywood walls on the interior of the exit
         8889Q        12-May   KAF-FP-120426-181   corridors.
         8881A        12-May   KAF-FP-120426-182   Building 8881A lacks the required illuminated directional exit signage.
                                                   Building 8881A has a ceiling height on the front porch exit stairs that is
         8881A        12-May   KAF-FP-120426-183   too low.
         8881A        12-May   KAF-FP-120426-184   Building 8881A has non-compliant stair dimensions.
         8881A        12-May   KAF-FP-120426-185   Building 8881A has fire extinguishers that had out of date inspections.
                                                   Building 8881A has smoke detectors that have insufficient spacing, are
         8881A        12-May   KAF-FP-120426-186   not interconnected, or are missing.
         8881A        12-May   KAF-FP-120426-187   Building 8881A has exposed plywood walls on interior exit corridors.
          8882        12-May   KAF-FP-120426-188   Building 8882 has non-separated storage areas.
          8882        12-May   KAF-FP-120426-189   Building 8882 lacks illuminated directional signage and exit signage.
                                                   Building 8882 has exit discharge stairs that exceed riser variation
          8882        12-May   KAF-FP-120426-190   limitations and that do not have two handrails.




44 │ DODIG-2013-099
                                                                                                                  Appendices



Kandahar Finding Log Continued
Fire Protection	      21 May, 2012

                       Finding Number
 Building     Date                                                         Abstract
                      or Control Number
   8882      12-May   KAF-FP-120426-191   Building 8882 has raised thresholds at the exit doors.
                                          Building 8882 has an office with an exit access way through a storage
   8882      12-May   KAF-FP-120426-192   room.
   8882      12-May   KAF-FP-120426-193   Building 8882 has fire extinguishers that have out of date inspections.
                                          Building 8882 has inadequate smoke detector coverage and the smoke
   8882      12-May   KAF-FP-120426-194   detectors are not interconnected.
   8882      12-May   KAF-FP-120426-195   Building 8882 has exposed plywood walls on interior of exit corridors.
   309       13-May   KAF-FP-120426-196   There are power cords obstructing the means of egress in building 309.
   309       13-May   KAF-FP-120426-197   Exit signs are not illuminated within building 309.
                                          No emergency backup is provided on the exit discharge lighting on the
   309       13-May   KAF-FP-120426-198   exterior of building 309.
                                          Smoke detectors are connected to ropes at the top of the metal framing
   309       13-May   KAF-FP-120426-199   within building 309.
   309B      13-May   KAF-FP-120426-200   Fire extinguisher has not been serviced regularly at building 309B.
                                          No smoke or heat detection is present in the latrine and shower of
   309B      13-May   KAF-FP-120426-201   building 309B.
 162L, 166   13-May   KAF-FP-120426-202   Buildings 162L and 166 do not have illuminated exit signage.
   162L      13-May   KAF-FP-120426-203   Building 162L does not provide adequate emergency lighting.
   166       13-May   KAF-FP-120426-204   Building 166 has an obstructed exit door.
 162L, 166   13-May   KAF-FP-120426-205   Buildings 162L and 166 do not have a level means of egress.
                                          Building 162L and 166 have unknown inspection status fire extinguishers,
 162L, 166   13-May   KAF-FP-120426-206   which are also mounted improperly.
                                          Building 166 has a smoke detector that is located on a sidewall too low
   166       13-May   KAF-FP-120426-207   from the ceiling.
                                          Buildings 162L and 166 has smoke detectors that are not interconnected
 162L, 166   13-May   KAF-FP-120426-208   and some that are missing.
                                          Buildings 162L and 166 do not have fire alarm systems with occupant
   162L      13-May   KAF-FP-120426-209   notification.
   162L      13-May   KAF-FP-120426-210   Building 162L has exposed plywood walls on interior exit corridors.
   209       13-May   KAF-FP-120426-211   Exit discharge stair guards are noncompliant in building 209.
   209       13-May   KAF-FP-120426-212   Fire extinguisher inspection unknown within building 209.
  Yankee
  Hanger     13-May   KAF-FP-120426-213   A Yankee hangar has an emergency exit sign that is burnt out.
    #1
 Yankee                                   Multiple fire alarm panels in varying conditions with multiple alarms
             13-May   KAF-FP-120426-214
 Hangers                                  conditions in the hangars at yankee ramp were found.




                                                                                                          DODIG-2013-099 │ 45
Appendices



      Kandahar Finding Log Continued
      Fire Protection	         21 May, 2012

                                Finding Number
        Building       Date                                                          Abstract
                               or Control Number
        Yankee                                     Fire alarm electrical circuit breakers are not being properly identified or
                      13-May   KAF-FP-120426-215
        Hangers                                    secured within the hangars at yankee ramp.
           168        13-May   KAF-FP-120426-216   There are no illuminated exit signs within building 168.
                                                   Exit discharge stair handrails and guards are noncompliant at building
           168        13-May   KAF-FP-120426-217   168.
                                                   Fire extinguishers building 168 are missing inspection tags and are not
           168        13-May   KAF-FP-120426-218   properly mounted.
                                                   Building 168 has smoke detectors that are not interconnected and some
           168        13-May   KAF-FP-120426-219   that are missing.
           168        13-May   KAF-FP-120426-220   Exposed plywood walls on interior exit corridors of building 168.
        SP Dining     14-May   KAF-FP-120426-221   The dining tent at South Park does not have an illuminated exit sign.
          Tent
        SP Dining     14-May   KAF-FP-120426-222   The dining tent at South Park has raised threshold at exit doors.
          Tent
        SP Dining                                  The dining tent at South Park have aisle width dimensions that are too
                      14-May   KAF-FP-120426-223
          Tent                                     small.
        SP Dining                                  The dining tent at South Park has non-UL listed smoke detectors which do
                      14-May   KAF-FP-120426-224
          Tent                                     not meet spacing requirements.
                                                   The SWA Huts have hazard areas that are not separated by fire-rated
        SWA Huts      14-May   KAF-FP-120426-225   construction or fire-rated doors.
        SWA Huts      14-May   KAF-FP-120426-226   The SWA Huts have doors in which the gaskets are detaching.
                                                   The SWA Huts have lighting fixtures for the discharge area outside the
        SWA Huts      14-May   KAF-FP-120426-227   exit doors that are not on emergency power.
        SWA Huts      14-May   KAF-FP-120426-228   The SWA Huts have exit stair doors that are not properly labeled.
                                                   The SWA Huts have cable penetrations in corridor walls that are not
        SWA Huts      14-May   KAF-FP-120426-229   protected.
        SWA Huts      14-May   KAF-FP-120426-230   The SWA Huts had an office door that was missing the handle hardware.
        SWA Huts      14-May   KAF-FP-120426-231   The SWA Huts have assembly seating stairs that do not have handrails.
        SWA Huts      14-May   KAF-FP-120426-232   The SWA Huts do not have the required fire sprinkler system.
                                                   The SWA Huts have fire extinguishers that have an unknown inspection
        SWA Huts      14-May   KAF-FP-120426-233   status.
        SWA Huts      14-May   KAF-FP-120426-234   The SWA Huts do not have a fire alarm evacuation system.
         Senior                                    The Senior Leader Housing does not have lighting fixtures for the
                      15-May   KAF-FP-120426-235
        Housing                                    discharge area outside the exit doors on emergency power.
         Senior                                    The Senior Leader Housing has fire extinguishers with an unknown
                      15-May   KAF-FP-120426-236
        Housing                                    inspection status.




46 │ DODIG-2013-099
                                                                                                                 Appendices



Kandahar Finding Log Continued
Fire Protection	     21 May, 2012

                      Finding Number
 Building    Date                                                          Abstract
                     or Control Number
  Senior                                 The latrines of the Senior Leader Housing do not have automatic smoke
            15-May   KAF-FP-120426-237
 Housing                                 or heat detection.
                                         The doors in the corridors of buildings 759-C, 759-D, 759-E, and 759-F did
   759      15-May   KAF-FP-120426-238   not have self closing devices installed on them.
                                         Firestopping into main corridor of building 759-E was loose and not
  759-E     15-May   KAF-FP-120426-239   sufficient to control smoke or hot gases.
                                         Buildings 759-C, 759-D, 759-E and 759-F do not have fire-rated doors
   759      15-May   KAF-FP-120426-240   separating the sleeping units from the main corridor.
                                         Buildings 759C, 759D, 759E, and 759F did not have self illuminated exit
   759      15-May   KAF-FP-120426-241   signs.
                                         The exit doors in buildings 759-C, 759-D, 759-E, and 759-F require two
   759      15-May   KAF-FP-120426-242   actions to open the door.
  759-D     15-May   KAF-FP-120426-243   In building 759-D the exit door handle did not have a set screw installed.
                                         Buildings 759-C, 759-D, 759-E and 759-F were not provided with
   759      15-May   KAF-FP-120426-244   automatic fire sprinkler systems.
  759-D,                                 Buildings 759-D and 759-E have fire alarm systems that are non-
            15-May   KAF-FP-120426-245
  759-E                                  functional.
  162D      15-May   KAF-FP-120426-246   There is no illuminated exit sign in building 162D.
                                         Second means of egress door hardware is non compliant in building
  162D      15-May   KAF-FP-120426-247   162D.
                                         A fire extinguisher with out of date inspection was found in building
  162D      15-May   KAF-FP-120426-248   162D.
  162D      15-May   KAF-FP-120426-249   Building 162D has only one smoke detector which is improperly mounted.
                                         A fire alarm system with occupant notification is not provided in building
  162D      15-May   KAF-FP-120426-250   162D.
                                         The smoke detectors in buildings 8766F and 8766G are placed too far
  8766F,    15-May   KAF-FP-120426-251   down from the peak of the ceiling and there are missing smoke detectors
  8766G                                  in building 8766F.
  8766F,                                 Buildings 8766F and 8766G each have an emergency exit light is burned
            15-May   KAF-FP-120426-252
  8766G                                  out and have exit signs that are not illuminated.
  8766A,                                 Buildings 8766 A, B, and E, did not have exit discharge lighting connected
            15-May   KAF-FP-120426-253
   B, E                                  to emergency power.
  8766A,                                 The the exit stairs of buildings 8766A, B and E, have stair guardrails and
            15-May   KAF-FP-120426-254
   B, E                                  handrails that do not comply with NFPA 101.
                                         The fire alarm systems in buildings 5781 and 5816 have non-conformities
  5781,     15-May   KAF-FP-120426-255   including being out of service, missing glass rods, and insufficient strobe
  5816                                   and smoke detector spacing.




                                                                                                          DODIG-2013-099 │ 47
Appendices



      Kandahar Finding Log Continued
      Fire Protection	         21 May, 2012

                                Finding Number
        Building       Date                                                          Abstract
                               or Control Number
        721, 722,                                  A padlock is able to be applied to the exit doors of tents 721, 722, 723,
        723, 724,     15-May   KAF-FP-120426-256   724 and 725.
          725
        721, 722,                                  Housing tents 721, 722, and 723 have smoke detectors that are not
                      15-May   KAF-FP-120426-257
          723                                      interconnected and are spaced too far from wall and from each other.
                                                   A hard-wired fire alarm system was installed in tents 724 and 725 but
        724, 725      15-May   KAF-FP-120426-258   they are not functional.
           721        15-May   KAF-FP-120426-259   Tent 721 has a 50 gallon fuel tank that is within two feet.
                                                   Building 516B, the customs office building, has several emergency exit
          516B        16-May   KAF-FP-120426-260   and egress lighting issues.
                                                   Building 516B has stairways, thresholds, and handrails that are not
          516B        16-May   KAF-FP-120426-261   compliant with NFPA 101.
                                                   Fire extinguishers in building 516B are not properly mounted, inspected,
          516B        16-May   KAF-FP-120426-262   or maintained.
                                                   Building 516B has smoke detectors that are not interconnected, not
          516B        16-May   KAF-FP-120426-263   spaced correctly, and non-UL listed.
                                                   Building 516B has exposed plywood walls on interior corridor and exit
          516B        16-May   KAF-FP-120426-264   stair walls.
          509I,                                    Buildings 509I and 509J have rooms containing hazards that are not
                      16-May   KAF-FP-120426-265
          509J                                     separated from the rest of the building.
          509I,                                    Buildings 509I and 509J each have lighting fixtures for the discharge area
                      16-May   KAF-FP-120426-266
          509J                                     outside the exit doors that are not on emergency power.
          509I,                                    Buildings 509I and 509J have exit discharge stair guards that are
                      16-May   KAF-FP-120426-267
          509J                                     noncompliant.
          509I,       16-May   KAF-FP-120426-268   Buildings 509I and 509J have raised thresholds at the interior office doors
          509J                                     and raised thresholds for the exit doors.
          509I,       16-May   KAF-FP-120426-269   Fire extinguishers in buildings 509I and 509J do not have inspection tags.
          509J
          509I,                                    Buildings 509I and 509J have smoke detector devices that are consistent
                      16-May   KAF-FP-120426-270
          509J                                     with non-UL listed devices, and a smoke detector that is missing.
                                                   Buildings 516B has rooms containing hazards not separated from the rest
          516B        16-May   KAF-FP-120426-271   of the building.
          041G        16-May   KAF-FP-120426-272   Building 041G has an emergency exit light that is burnt out.
          041G,                                    Buildings 041G, 041H, and 041I have landings outside of the ground floor
          041H,       16-May   KAF-FP-120426-273   exits that step down as you exit the buildings.
           041I
          041G,                                    Buildings 041G, 041H and 041I have stair guardrails and handrails that do
          041H,       16-May   KAF-FP-120426-274   not comply with NFPA 101.
           041I




48 │ DODIG-2013-099
                                                                                                                Appendices



Kandahar Finding Log Continued
Fire Protection	     21 May, 2012

                      Finding Number
 Building    Date                                                         Abstract
                     or Control Number
  041G,                                  Buildings 041G, 041H, and 041I have fire extinguishers that have an
  041H,     16-May   KAF-FP-120426-275   unknown inspection status.
   041I
  041G,                                  Buildings 041G, 041H, and 041I have manual pull stations for the fire
  041H,     16-May   KAF-FP-120426-276   alarm system 5’-01” from the floor.
   041I
  041G,                                  Buildings 041G, 041H, and 041I have smoke detectors 40 feet apart in
  041H,     16-May   KAF-FP-120426-277   corridors.
   041I
  041G,                                  Buildings 041G, 041H, and 041I have smoke detectors that are not
  041H,     16-May   KAF-FP-120426-278   correctly located or are missing.
   041I
                                         Building 301-J had a walk-in refrigerator that could only be opened if
  301-J     16-May   KAF-FP-120426-279   there was power to the building.
  301-J     16-May   KAF-FP-120426-280   Building 301-J has a common path of travel distance that exceeds 50 feet.
                                         There are smoke detectors that are installed too far from the ceiling in
  301-J     16-May   KAF-FP-120426-281   building 301-J.
   306      16-May   KAF-FP-120426-282   Building 306 has an exit door that does not meet the NFPA requirements.
                                         Buildings 041A, 041B, 041C, 041D, and 041E, have stair guardrails and
  041A-E    16-May   KAF-FP-120426-283   handrails that do not comply with NFPA 101.
                                         Fire extinguishers in buildings 041A though 041E are not properly
  041A-E    16-May   KAF-FP-120426-284   inspected or maintained.
  041A-E    16-May   KAF-FP-120426-285   The fire alarm systems in buildings 041A-E are currently out of service.
                                         Buildings 041A through E have manual pull stations for the fire alarm
  041A-E    16-May   KAF-FP-120426-286   system too far from the floor.
  041A-E    16-May   KAF-FP-120426-287   The perimeter of buildings 041A through E has overgrown vegetation.
                                         Building 041F has storage in the corridor where the means of egress go
  041F      16-May   KAF-FP-120426-288   down to 28 inches in width.
  041F      16-May   KAF-FP-120426-289   Building 041F has a rear exit that is through a hazardous storage room.
                                         There are keyed locks on the egress side of doors in the Losano Medical
  041F      16-May   KAF-FP-120426-290   Clinic, building 041F.
                                         The Kandahar Medical Clinic has an adjacent warehouse that is of
   KMC      17-May   KAF-FP-120426-291   a higher hazard and is not separated by 1-hour fire resistance rated
                                         construction.
                                         In the Kandahar Medical Clinic, the rear exit may not always be available
   KMC      17-May   KAF-FP-120426-292   to occupants.
                                         The Kandahar Medical Clinic has a noncompliant exit landing at the rear
   KMC      17-May   KAF-FP-120426-293   of the building.
                                         The Kandahar Medical Clinic has battery operated smoke detectors that
   KMC      17-May   KAF-FP-120426-294   are not interconnected.




                                                                                                         DODIG-2013-099 │ 49
Appendices



      Kandahar Finding Log Continued
      Fire Protection	         21 May, 2012

                                Finding Number
        Building       Date                                                          Abstract
                               or Control Number
                                                   The Kandahar Medical Clinic has plywood construction that is used in the
          KMC         17-May   KAF-FP-120426-295   exit access corridors.
          KMC         17-May   KAF-FP-120426-296   Vegetation has grown up to the structure of the Kandahar Medical Clinic.
                                                   The RLB 7 project had wall penetrations without fire barriers from living
          RLB 7       17-May   KAF-FP-120426-297   unit to living unit.
                                                   The exit access corridors have unprotected windows and door openings
          RLB 7       17-May   KAF-FP-120426-298   in the RLB 7 buildings.
          RLB 7       17-May   KAF-FP-120426-299   The RLB 7 living unit doors have key locks on the egress side of the doors.
          RLB 7       17-May   KAF-FP-120426-300   There is no automatic sprinkler system installed in the RLB 7 buildings.
          5781,       17-May   KAF-FP-120426-301   Buildings 5781 and 5816 have wood stud partitions.
          5816
          5781,                                    The lighting fixtures for the discharge area outside the exit doors are not
                      17-May   KAF-FP-120426-302
          5816                                     on emergency power in buildings 5781 and 5816.
          5781,       17-May   KAF-FP-120426-303   Buildings 5781 and 5816 have entry door thresholds that are too high.
          5816
          5781,                                    Buildings 5781 and 5816 do not provide the required fire sprinkler
                      17-May   KAF-FP-120426-304
          5816                                     system.
          5781,                                    The fire alarm electrical circuit breakers are not identified or secured in
                      17-May   KAF-FP-120426-305
          5816                                     the "on" position in buildings 5781 and 5816.
          5816        17-May   KAF-FP-120426-306   The perimeter for building 5816 is overgrown with vegetation.
                                                   The Engineering and Stryker HQ buildings have interior doors that require
         Stryker      17-May   KAF-FP-120426-307   the use of a key from the egress side of the door.
                                                   The fire sprinkler seismic bracing is not compliant in the Engineering and
         Stryker      17-May   KAF-FP-120426-308   Stryker HQ buildings.
                                                   The valve pits for the underground fire water supply at the Engineering
         Stryker      17-May   KAF-FP-120426-309   and Stryker HQ buildings did not have a means of protecting against the
                                                   accumulation of water.
                                                   The ducts for the HVAC system for the Engineering and Stryker HQ
         Stryker      17-May   KAF-FP-120426-310   buildings do not contain duct detectors for automatic shutdown.
                                                   The fire alarm system in the Engineering and Stryker HQ buildings did not
         Stryker      17-May   KAF-FP-120426-311   have a backup battery.
                                                   There is a general lack of testing and maintenance for fire protection and
                      17-May   KAF-FP-120426-312   life safety systems on Kandahar Airfield.
                                                   The Base Camp Master Plan for Kandahar Airfield (KAF) lacks an effective
                      17-May   KAF-FP-120426-313   fire protection plan.
                                                   The out of service fire alarm system in building 543A poses significant risk
          543A        17-May   KAF-FP-120426-314   to building occupants.




50 │ DODIG-2013-099
                                                                                                                                                                                                       Appendices




                                                                           ELECTRICAL
# of Findings: 109           # Completed: 40                 Percent Complete: 36.7%
           Kandahar Finding Log                ELECTRICAL   21 May 2012                                Responsible   On Original     Repair
  Bldg #         Date     Control Number                             Abstract                            Party       List Yes/No     Status                        Comments / Notes
                                           Building 241 has non-metallic raceway contains wire
                                                                                                       DynCorp           No        Not Started   Wooden raceways are not suitable.
    241         2-May   KAF-EL-120426-001A splices
                                                                                                                                                 4BK1121470117 . Existing outlets are installed to code.
                                                                                                                                                 Customer is using extension cords and power strips
                                           Five cases of over accessed circuits were found in          DynCorp           No        Not Started   improperly. Customer needs to open a Work Order to have
    241         2-May   KAF-EL-120426-002A building 241                                                                                          additional outlets installed for their needs.
                                           The hot water heater in Building 241 was found with
                                                                                                       DynCorp           No        Complete      4BK1121470123
    241         2-May   KAF-EL-120426-003A improper grounding
                                           The exterior bottom of the main distribution electrical                                               DI requested variance for this installation of Steel Wire
                                           panel was found with exposed wiring and a wooden            DynCorp           No        Not Started   Armor Cable, which was denied. Wooden raceways are not
    241         2-May   KAF-EL-120426-004A raceway.                                                                                              suitable.
                                                                                                                                                 4BK1121470125 Existing outlets are installed to code.
                                                                                                                                                 Customer is using extension cords and power strips
                                           Extension cords were found to be constructed                DynCorp           No        Not Started   improperly. Customer needs to open a Work Order to have
    241         2-May   KAF-EL-120426-005A improperly in building 241.                                                                           additional outlets installed for their needs.
                                                                                                                                                 DI requested variance for this installation of Steel Wire
                                           The exterior bottom of main distribution electrical panel   DynCorp           No        Not Started   Armor Cable, which was denied. Wooden raceways are not
    243         2-May   KAF-EL-120426-006A was found with exposed wiring and wooden raceway.                                                     suitable.
                                           The hot water heater in Building 244 was found with
                                                                                                       DynCorp           No        Complete      4BK1121470127
    244         2-May   KAF-EL-120426-007B improper grounding.
                                           Standard receptacles were installed on the outside of
                                           Bldg 244 where Ground-Fault Circuit-Interrupt (GFCI)        DynCorp           No        Complete      4BK1121470322
    244         2-May   KAF-EL-120426-008A protected outlet receptacles are required.
                                                                                                                                                 4BK1121470323 Existing outlets are installed to code.
                                                                                                                                                 Customer is using extension cords and power strips
                                           An extension cord was used instead of fixed wiring in       DynCorp           No        Not Started   improperly. Customer needs to open a Work Order to have
    244         2-May   KAF-EL-120426-009A Building 244                                                                                          additional outlets installed for their needs.
                                           The hot water heaters in Building 243 were found with
                                                                                                       DynCorp           No        Complete      4BK1121470129
    243         2-May   KAF-EL-120426-010C improper grounding.
                                                                                                                                                 4BK1121470328 ; Customer is using an extension
                                                                                                                                   Customer
                                           A male plug was found to be constructed improperly in       Occupant          No                      cord that is in poor repair. Removal needs to be
                                                                                                                                     Issue
    243         2-May   KAF-EL-120426-011A Building 243                                                                                          validated
    241         2-May   KAF-EL-120426-012A (this finding is an duplicate of KAF-EL-120426-001A)        DynCorp           No        Complete      4BK11214770121
                                           The hot water heater in Building 5868 was found with
                                                                                                       DynCorp           No        Complete      4BK1121470131
   5868         2-May   KAF-EL-120426-013A improper grounding
                                                                                                                                                 DI requested variance for this installation of Steel Wire
                                           Non-metallic raceway contains wire splices were found       DynCorp           No        Not Started   Armor Cable, which was denied. Wooden raceways are not
   5865         2-May   KAF-EL-120426-014A in building 5868.                                                                                     suitable.



                                                                                        Page 1 of 9



52 │ DODIG-2013-099
                                                                                                                                                                                                Appendices




                                                                           ELECTRICAL
 # of Findings: 109           # Completed: 40                 Percent Complete: 36.7%
             Kandahar Finding Log               ELECTRICAL   21 May 2012                               Responsible   On Original     Repair
    Bldg #        Date     Control Number                            Abstract                            Party       List Yes/No     Status                     Comments / Notes
                                            Unsecured and unprotected cables were found in
                                                                                                           No           N/A        Not Started
     525         4-May   KAF-EL-120426-015A building 525.
     709         4-May   KAF-EL-120426-016B duplicate of KAF-EL-120426-074                                No            N/A        Not Started

                                                                                                                                                 Job Order (P838) submitted to 451st ECES for
                                            A defective Ground-Fault Circuit-Interrupt (GFCI) was                       N/A        In Progress
                                                                                                                                                 repair.
  Hanger 7       4-May   KAF-EL-120426-017A found in Hanger 7
                                            The ground wire outside Building 518 is exposed and                                                  Job Order (P838) submitted to 451st ECES for
                                                                                                       DynCorp           No        Complete
     518         4-May   KAF-EL-120426-018A unprotected.                                                                                         repair.
                                                                                                                                                 Job Order (P840) submitted to 451st ECES for
                                            Three male plugs were found to be constructed                               N/A        In Progress
                                                                                                                                                 repair.
  Hanger 5       4-May   KAF-EL-120426-019A improperly in Hanger 5.

                                                                                                                                                 Job Order (P839) submitted to 451st ECES for
                                            An extension cord was used instead of fixed wiring in                       N/A        In Progress
                                                                                                                                                 repair.
  Hanger 7       4-May   KAF-EL-120426-020A Hanger 7.
                                            Cables were routed through a hole in an external wall in
                                                                                                       DynCorp           No        Complete      4BK1121480224
     518         4-May    KAF-EL-120426-021 building 518.
                                            There are no means to disconnect power to the two air
                                                                                                       DynCorp           No        Complete      4BK1121400037
     518         4-May    KAF-EL-120426-022 conditioner units in Bldg 518.
                                            The wiring outside Building 518 is exposed and
                                                                                                       DynCorp           No        Complete      4BK1121310088
     518         4-May    KAF-EL-120426-023 unprotected
                                            The ground wire outside Building 518 is exposed and
                                                                                                       DynCorp           No        Complete      4BK1121400043
     518         4-May    KAF-EL-120426-024 unprotected.
                                            There are wires in the main panel in Building 518 that
                                                                                                       DynCorp           No        Complete      4BK1121450502
     518         4-May    KAF-EL-120426-025 are improperly color coded.
                                            There are two outlet receptacles in Building 518
                                                                                                       DynCorp           No        Complete      4BK1121450500
     518         4-May    KAF-EL-120426-026 improperly wired.
                                            There are outlet boxes with missing side knockouts and
(721,722,723,7                              receptacles not accessible in Buildings 721, 722, 723,       BOS-I          N/A        Not Started
   24) 721       4-May    KAF-EL-120426-027 and 724
                                            There are inadequate number of receptacle outlet in
                                                                                                       DynCorp           No        Not Started   Work order to be opened by customer.
     309         4-May    KAF-EL-120426-028 building 309.
                                            Incorrect wire type and unprotected conductors were
(721,722,723,7                              found feeding the distribution panel in Building             BOS-I          N/A        Not Started
   24) 721       6-May    KAF-EL-120426-029 721,722,723, and 7




                                                                                        Page 2 of 9



                                                                                                                                                                                        DODIG-2013-099 │ 53
                                                                                                                                                                                               Appendices




                                                                               ELECTRICAL
 # of Findings: 109           # Completed: 40                   Percent Complete: 36.7%
             Kandahar Finding Log               ELECTRICAL    21 May 2012                                     Responsible   On Original     Repair
    Bldg #        Date     Control Number                                Abstract                               Party       List Yes/No     Status                    Comments / Notes
                                                In building 8766A an extension cord was used to power
                                                outside equipment from an inside receptacle that is not       DynCorp           No        Complete      4BK1121480076
    8766A        17-May   KAF-EL-120426-103     GFCI protected.
                                                There are an insufficient number of outlets in Building
                                                                                                                 No             No        Not Started
    8766F        17-May   KAF-EL-120426-104     8766F.
                                                Two extension cords were used instead of fixed wiring in
                                                                                                              DynCorp           No        Not Started   Work order to be opened by customer.
     231         17-May   KAF-EL-120426-105     Building 231.

                                                An outlet receptacle was found installed in the floor that    DynCorp           No        Complete      4BK1121370239
     228         17-May   KAF-EL-120426-106     is not specifically designed for floor use in building 228.
                                                There are no warning signs outside the entrance to a
                                                high voltage substation and no warning signs on                  N/A                      Complete      4BK1121480493
 Camp Losano     17-May   KAF-EL-120426-107     equipment in Camp Losano area.
                                                There are an inadequate number of receptacle outlets
                                                                                                              DynCorp           No        Not Started   Work order to be opened by customer.
     231         17-May   KAF-EL-120426-108     inside building 231.
  Tent 15 (SP                                   The breaker panel at the South Park dinning facility is
                                                                                                              DynCorp          Yes        Complete      4BK1121470477
   Dinning)      17-May   KAF-EL-120426-110     missing cover plates for unused breaker openings.




                                                                                             Page 9 of 9




60 │ DODIG-2013-099
                                                                                                                                                                                                Appendices




                                                                  FIRE PROTECTION
         # of Findings: 303                                                              # Completed: 55          Percent Complete: 18.15%
          Kandahar Finding Log                FIRE PROTECTION      21 May 2012                             Responsible               Repair
Bldg #       Date        Control Number    Abstract                                                          Party       SOR         Status                        KAF Comments
                                           An emergency light fixture was not functional during                                                  4BK1121490379/Complete with pictures for
5868         2-May      KAF-FP-120426-001A                                                                 DynCorp        Yes       Complete
                                           testing                                                                                               verification
                                           Automatic detection is not provided in the latrines of
 241         2-May      KAF-FP-120426-003B                                                                 DynCorp        No       Not Started   Will install detectors
                                           building 241.
                                           Corridor smoke detection spacing in building 241 is                                                   Outside scope of LOGCAP O&M. Task order or
 241         2-May      KAF-FP-120426-005A                                                                 DynCorp        No       In progress
                                           insufficient                                                                                          separate contract must be executed.
                                              The building 241 fire alarm visual notification appliance                                          Outside scope of LOGCAP O&M. Task order or
 241         2-May      KAF-FP-120426-006A                                                                 DynCorp        No       Not Started
                                              (strobe light) spacing is insufficient in corridor.                                                separate contract must be executed.

                                                                                                                                                 This building has been placed on the Fire Alarm
 241         2-May      KAF-FP-120426-007A The fire alarm system in building 241 is non-operable.          DynCorp        No        Complete
                                                                                                                                                 Technicians list to repair and return to FMC status

                                              Smoke detectors in building 241 are loosely mounted to                                             This building has been placed on the Fire Alarm
 241         2-May      KAF-FP-120426-008A                                                                 DynCorp        No        Complete
                                              conduit.                                                                                           Technicians list to repair and return to FMC status
                                                                                                                                               A waiver from CENTCOM may be pursued.
                                              Building 242 does not provide the required fire sprinkler                           Awaiting USG
 242         2-May      KAF-FP-120426-010A                                                                 DynCorp        No                   Outside scope of LOGCAP O&M. Task order or
                                              system.                                                                               Decision
                                                                                                                                               separate contract must be executed.
                                                                                                                                               This deficiency cannot be corrected through SOR.
                                                                                                                                               The building O&M was assumed with alarm
                                                                                                                                               system in place. Alarm system may be maintained
                                                                                                                                               in current arrangement under standard O&M
                                              Building 242 fire alarm visual notification device                                               function. Any changes will require re-design and
 242         2-May       KAF-FP-120426-011                                                                 DynCorp        No       Not Started
                                              (strobes) spacing is insufficient on the corridor..                                              addition of materials to comply with this
                                                                                                                                               requirement. DI has not received governmental
                                                                                                                                               direction to provide estimate of labor and
                                                                                                                                               materials required to bring the current system
                                                                                                                                               into code compliance.
                                              The fire alarm system in building 242 is currently out of                                          This building has been placed on the Fire Alarm
 242         2-May       KAF-FP-120426-012                                                                 DynCorp        No        Complete
                                              service.                                                                                           Technicians list to repair and return to FMC status
                                              Building 242 corridor smoke detection (hard-wired and                                              Outside scope of LOGCAP O&M. Task order or
 242         2-May       KAF-FP-120426-013                                                                 DynCorp        No       Not Started
                                              battery unit) spacing is insufficient.                                                             separate contract must be executed.
                                              Automatic smoke/heat detection is not provided in the
 242         2-May       KAF-FP-120426-014                                                                 DynCorp        No       Not Started   Will install detectors
                                              building 242 latrines.



                                                                                           Page 1 of 37



                                                                                                                                                                                         DODIG-2013-099 │ 61
                                                                                                                                                                                                  Appendices




                                                                   FIRE PROTECTION
           # of Findings: 303                                                            # Completed: 55            Percent Complete: 18.15%
            Kandahar Finding Log               FIRE PROTECTION      21 May 2012                              Responsible               Repair
  Bldg #       Date        Control Number      Abstract                                                        Party       SOR         Status                        KAF Comments

                                               The glass rod is missing from the fire alarm pull station                                           This building has been placed on the Fire Alarm
   242         5-May       KAF-FP-120426-016                                                                 DynCorp        No        Complete
                                               in building 242.                                                                                    Technicians list to repair and return to FMC status
                                                                                                                                                 IAW NFPA 101 29.2.9.1 Emergency lighting in
                                                                                                                                                 accordance with Section 7.9 shall be provided in
                                               The lighting fixtures for the discharge area outside the
   243         5-May       KAF-FP-120426-017                                                                 DynCorp        No       Researching all buildings with more than 25 rooms. These
                                               exit doors are not on emergency power in building 243.
                                                                                                                                                 facilities are not required to possess emergency
                                                                                                                                                 lighting
                                               An exit sign was hanging by the electrical wires in                                               4BK1121490379/Complete with pictures for
   243         5-May       KAF-FP-120426-018                                                                 DynCorp        Yes       Complete
                                               building 243.                                                                                     verification
                                                                                                                                                 A waiver from CENTCOM may be pursued.
                                               Building 243 does not provide the required fire sprinkler                            Awaiting USG
   243         5-May       KAF-FP-120426-019                                                                 DynCorp        No                   Outside scope of LOGCAP O&M. Task order or
                                               system.                                                                                Decision
                                                                                                                                                 separate contract must be executed.
                                               The Building 243 fire alarm visual notification device                                            Outside scope of LOGCAP O&M. Task order or
   243         5-May       KAF-FP-120426-020                                                                 DynCorp        No       Not Started
                                               (strobes) spacing is insufficient on the corridor.                                                separate contract must be executed.
                                               The fire alarm system is currently out of service in                                                This building has been placed on the Fire Alarm
   243         5-May       KAF-FP-120426-021                                                                 DynCorp        No        Complete
                                               building 243.                                                                                       Technicians list to repair and return to FMC status
                                               Automatic detection is not provided in the latrines in
   243         5-May       KAF-FP-120426-022                                                                 DynCorp        No       Not Started   Will install detectors
                                               building 243
                                               Glass rod is missing from fire alarm pull station in
   243         5-May       KAF-FP-120426-024                                                                 DynCorp        No       Not Started
                                               building 243.
                                               Corridor smoke detection (hardwired and battery unit)                                               Outside scope of LOGCAP O&M. Task order or
   244         5-May       KAF-FP-120426-025                                                                 DynCorp        No       Not Started
                                               spacing is insufficient in Building 244                                                             separate contract must be executed.
                                               The fire alarm visual notification device (strobes) spacing                                         Outside scope of LOGCAP O&M. Task order or
   244         5-May       KAF-FP-120426-026                                                                 DynCorp        No       Not Started
                                               is insufficient on the corridor of building 244.                                                    separate contract must be executed.
                                               The fire alarm system is currently out of service in                                                This building has been placed on the Fire Alarm
   244         5-May       KAF-FP-120426-027                                                                 DynCorp        No        Complete
                                               building 244.                                                                                       Technicians list to repair and return to FMC status
                                               Automatic detection is not provided in the latrines in
   244         5-May       KAF-FP-120426-028                                                                 DynCorp        NO       Not Started   Will install detectors
                                               building 244.
                                                                                                                                                 A waiver from CENTCOM may be pursued.
                                               There are fire sprinklers which are too far from the                                 Awaiting USG
   250         5-May       KAF-FP-120426-030                                                                 DynCorp        No                   Outside scope of LOGCAP O&M. Task order or
                                               ceiling in building 350A.                                                              Decision
                                                                                                                                                 separate contract must be executed.



                                                                                            Page 2 of 37



62 │ DODIG-2013-099
                                                                                                                                                                                               Appendices




                                                                 FIRE PROTECTION
         # of Findings: 303                                                            # Completed: 55          Percent Complete: 18.15%
          Kandahar Finding Log               FIRE PROTECTION      21 May 2012                            Responsible               Repair
Bldg #       Date        Control Number      Abstract                                                      Party       SOR         Status                        KAF Comments
                                                                                                                                             Work Order to be submitted to correct this
 525         5-May       KAF-FP-120426-031   There is no illuminated exit sign in building 525           DynCorp        No       Not Started
                                                                                                                                             deficiency.
                                                                                                                                             A waiver from CENTCOM may be pursued.
                                                                                                                                Awaiting USG
 525         5-May       KAF-FP-120426-032   Means of egress is not level for building 525               DynCorp        No                   Outside scope of LOGCAP O&M. Task order or
                                                                                                                                  Decision
                                                                                                                                             separate contract must be executed.
                                                                                                                                             The building occupants were informed of their
                                                                                                                                             responsibilities to comply with the USFOR-A Fire
                                             Fire extinguisher inspection unknown within building
 525         5-May       KAF-FP-120426-033                                                               DynCorp        No       Not Started Warden Program. The inspection is the
                                             525
                                                                                                                                             occupant's responsibility under the USFOR-A Fire
                                                                                                                                             Prevention SOP 2-8(p)
                                                                                                                                Awaiting USG Outside scope of LOGCAP O&M. Task order or
 525         5-May      KAF-FP-120426-034A Smoke detectors are not interconnected in building 525.       DynCorp        No
                                                                                                                                  Decision   separate contract must be executed.
                                                                                                                                               All smoke detectors were inspected and repaired
                                                                                                                                               under LOTD 6454 to DI. Any units missing or
 525         5-May       KAF-FP-120426-035   Smoke detectors are missing or disabled in building 525     DynCorp                 In progress
                                                                                                                                               disabled were either installed, replaced or
                                                                                                                                               returned to FMC status through additional means

                                                                                                                                               This is not required IAW NFPA 101 A.7.10.1.2.1
                                                                                                                                               Where a main entrance also serves as an exit, it
 709         5-May       KAF-FP-120426-038   There is no illuminated exit sign in building 709           DynCorp        No       Researching
                                                                                                                                               will usually be sufficiently obvious to occupants so
                                                                                                                                               that no exit sign is needed.
                                                                                                                                               A waiver from CENTCOM may be pursued.
 709         5-May       KAF-FP-120426-039   Exit discharge stairs are noncompliant for Building 709        No          No       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                                                                                                               separate contract must be executed.
                                                                                                                                               The building occupants were informed of their
                                                                                                                                               responsibilities to comply with the USFOR-A Fire
                                             Fire extinguisher inspection unknown within building
 709         5-May       KAF-FP-120426-040                                                                  No          No       In progress   Warden Program. The inspection is the
                                             709
                                                                                                                                               responsibility under the USFOR-A Fire Prevention
                                                                                                                                               SOP 2-8(p)




                                                                                         Page 3 of 37



                                                                                                                                                                                        DODIG-2013-099 │ 63
                                                                                                                                                                                             Appendices




                                                                  FIRE PROTECTION
           # of Findings: 303                                                           # Completed: 55          Percent Complete: 18.15%
            Kandahar Finding Log               FIRE PROTECTION     21 May 2012                            Responsible               Repair
  Bldg #       Date        Control Number      Abstract                                                     Party       SOR         Status                      KAF Comments
                                                                                                                                              This deficiency cannot be corrected through SOR.
                                                                                                                                              The building occupants were informed of their
                                                                                                                                              responsibilities to comply with the USFOR-A Fire
                                               There was no fire extinguisher provided in the north
   709         5-May       KAF-FP-120426-041                                                                 No          No        Complete   Warden Program. The inspection is the
                                               business area of building 709.
                                                                                                                                              responsibility under the USFOR-A Fire Prevention
                                                                                                                                              SOP 2-8(p). Occupants were provided with the
                                                                                                                                              necessary extinguisher
                                                                                                                                              The building occupants were informed of the
                                                                                                                                              deficiency. Occupant stated they would remove
                                               The Building 518 rear exit door has inappropriate locks
   518         8-May      KAF-FP-120426-042A                                                                 No          No        Complete   slide bolt without the need for SOR. Follow -up
                                               for a means of egress.
                                                                                                                                              for this deficiency will be required to ensure
                                                                                                                                              continued compliance.
                                                                                                                                              IAW NFPA 101 39.2.9.1 Emergency lighting shall
                                                                                                                                              be provided in accordance with Section 7.9 in any
                                                                                                                                              building where any one of the following
                                                                                                                                              conditions exists:
                                                                                                                                              (1)The building is three or more stories in height.
                                                                                                                                              (2)The occupancy is subject to 100 or more
                                               Building 518 exterior exit discharge lighting was not on
   518         8-May       KAF-FP-120426-043                                                              DynCorp        No           N/A     occupants above or below the level of exit
                                               emergency power.
                                                                                                                                              discharge.
                                                                                                                                              (3)The occupancy is subject to 1000 or more total
                                                                                                                                              occupants.
                                                                                                                                              None of these conditions apply, therefore
                                                                                                                                              emergency lighting is not required.\




                                                                                          Page 4 of 37



64 │ DODIG-2013-099
                                                                                                                                                                                             Appendices




                                                               FIRE PROTECTION
         # of Findings: 303                                                         # Completed: 55           Percent Complete: 18.15%
          Kandahar Finding Log               FIRE PROTECTION    21 May 2012                            Responsible               Repair
Bldg #       Date        Control Number      Abstract                                                    Party       SOR         Status                        KAF Comments
                                                                                                                                             This is allowed under NFPA 101 39.2.4.3 A single
                                                                                                                                             exit shall be permitted for a room or area with a
                                                                                                                                             total occupant load of less than 100 persons,
                                                                                                                                             provided that all of the following criteria are met:
                                                                                                                                             (1)The exit shall discharge directly to the outside
                                                                                                                                             at the level of exit discharge for the building.
                                                                                                                                             (2)The total distance of travel from any point,
                                                                                                                                             including travel within the exit, shall not exceed
                                                                                                                                             100 ft (30 m).
                                                                                                                                             (3)The total distance of travel specified in
                                                                                                                                             39.2.4.3(2) shall be on the same story, or, if
                                                                                                                                             traversing of stairs is necessary, such stairs shall
 518         8-May       KAF-FP-120426-044   Building 518 has only one means of egress.                DynCorp        No           N/A
                                                                                                                                             not exceed 15 ft (4570 mm) in height, and both of
                                                                                                                                             the following also shall apply:
                                                                                                                                             (a)Interior stairs shall be provided with complete
                                                                                                                                             enclosures to separate them from any other part
                                                                                                                                             of the building, with no door openings therein.
                                                                                                                                             (b)A single outside stair in accordance with 7 2.2
                                                                                                                                             shall be permitted to serve all stories permitted
                                                                                                                                             within the 15 ft (4570 mm) vertical travel
                                                                                                                                             limitation.




                                                                                                                                             The building occupants were informed of their
                                                                                                                                             responsibilities to comply with the USFOR-A Fire
                                             Fire extinguisher monthly maintenance has not been
 518         8-May       KAF-FP-120426-045                                                             DynCorp        No       In progress   Warden Program. The inspection is the
                                             regularly conducted.
                                                                                                                                             responsibility under the USFOR-A Fire Prevention
                                                                                                                                             SOP 2-8(p)
                                             The smoke detector spacing is non-compliant in building                                         Outside scope of LOGCAP O&M. Task order or
 518         8-May       KAF-FP-120426-046                                                             DynCorp        No       Not Started
                                             518.                                                                                            separate contract must be executed.




                                                                                      Page 5 of 37



                                                                                                                                                                                      DODIG-2013-099 │ 65
                                                                                                                                                                                               Appendices




                                                                   FIRE PROTECTION
           # of Findings: 303                                                            # Completed: 55          Percent Complete: 18.15%
            Kandahar Finding Log               FIRE PROTECTION      21 May 2012                            Responsible               Repair
  Bldg #       Date        Control Number      Abstract                                                      Party       SOR         Status                       KAF Comments
                                                                                                                                                 This deficiency cannot be corrected through SOR.
                                                                                                                                                 The building occupant was advised to have the
                                                                                                                                                 entity owning responsibility for the tank to
                                               The fuel container outside of the building 518 does not                                           properly label it IAW NFPA 704. The capacity
   518         8-May       KAF-FP-120426-047                                                               DynCorp        No       In progress
                                               have label indicating fuel type and capacity.                                                     placard was located on top the tank and building
                                                                                                                                                 occupant advised to locate this placard on the
                                                                                                                                                 tank where it is visible for emergency responders.

                                                                                                                                                  The building occupants were informed of their
   518         8-May       KAF-FP-120426-048   Building 518's perimeter is overgrown with vegetation       DynCorp        No       In progress   responsibilities to comply with the USFOR-A Fire
                                                                                                                                                 Warden Program.
                                                                                                                                                 Outside scope of LOGCAP O&M - non-density list
                                               Building 709 has a missing smoke detector.                    BOS-I                               facility. Task order or separate contract must be
   709         8-May       KAF-FP-120426-049                                                                                       Not Started   executed.
                                                                                                                                                 Outside scope of LOGCAP O&M. Task order or
   709         8-May       KAF-FP-120426-050   Smoke detectors are not interconnected in building 709.        No          No       Not Started
                                                                                                                                                 separate contract must be executed.
                                                                                                                                                 A waiver will be sought from CENTCOM.
                                               The separation distance between Building 710 and the
   710         8-May       KAF-FP-120426-052                                                               DynCorp        No       Not Started
                                               building behind it is inadequate.
                                                                                                                                                 This deficiency cannot be corrected through SOR.
                                                                                                                                                 The current storage room is used for MP evidence.
                                                                                                                                                 Any changes will require re-design and addition of
                                               Building 710 contains a storage area that is not                                                  materials to comply with this requirement. DI has
   710         8-May       KAF-FP-120426-053                                                               DynCorp        No       Not Started
                                               separated by a fire-rated wall.                                                                   not received governmental direction to provide
                                                                                                                                                 estimate of labor and materials required to bring
                                                                                                                                                 the current system into code compliance.

   710         8-May       KAF-FP-120426-054   There is no illuminated exit signs in building 710.         DynCorp        Yes      In progress SOR complete; verification in progress
                                                                                                                                               Occupants were informed of the deficiency and
                                               Building 710 has raised threshold at the kitchen door                                           elected to correct this deficiency without the need
   710         8-May       KAF-FP-120426-055                                                               DynCorp        No       In progress
                                               that exceeds requirements                                                                       for an SOR. Follow-up will be required to ensure
                                                                                                                                               compliance of this deficiency
                                               Building 710 has exit stairs that do not meet the                                  Awaiting USG Seeking CENTCOM Waiver.
   710         8-May       KAF-FP-120426-056                                                               DynCorp        No
                                               requirements of NFPA 101.                                                             Decision




                                                                                            Page 6 of 37



66 │ DODIG-2013-099
                                                                                                                                                                                              Appendices




                                                                FIRE PROTECTION
         # of Findings: 303                                                           # Completed: 55            Percent Complete: 18.15%
          Kandahar Finding Log               FIRE PROTECTION     21 May 2012                              Responsible               Repair
Bldg #       Date        Control Number      Abstract                                                       Party       SOR         Status                       KAF Comments
                                                                                                                                                The building occupants have been informed of this
                                                                                                                                                deficiency and have elected to bring this into code
                                             Building 710 has non-compliant exit stair dimensions                                               compliance by the use of stone gravel to fill the
 710         8-May       KAF-FP-120426-057                                                                DynCorp        No        Complete
                                             that lead to the sidewalk.                                                                         gap, thereby changing the dimensions. Upon
                                                                                                                                                Folow up Occupants did not submit SOR; SOR
                                                                                                                                                initiated by FP
                                                                                                                                                 The building occupants were informed of their
                                                                                                                                                responsibilities to comply with the USFOR-A Fire
                                                                                                                                                Warden Program. The inspection is the
                                             The Building 710 fire extinguishers have not been
 710         8-May       KAF-FP-120426-058                                                                DynCorp        No        Complete     responsibility under the USFOR-A Fire Prevention
                                             inspected or maintained.
                                                                                                                                                SOP 2-8(p) Monthly inspection stickers were
                                                                                                                                                attached to all extinguishers which were missing
                                                                                                                                                inspection labels
                                                                                                                                                All smoke detectors were inspected and repaired
                                                                                                                                                under LOTD 6454. Any units missing or disabled
 710         8-May       KAF-FP-120426-059   Building 710 has a missing smoke detector                    DynCorp        No        Complete     were either installed, replaced or returned to FMC
                                                                                                                                                status through additional means

                                                                                                                                              Outside scope of LOGCAP O&M. Task order or
 710         8-May       KAF-FP-120426-060   Smoke detectors are not interconnected in building 710.      DynCorp        No       Not Started
                                                                                                                                              separate contract must be executed.
                                             Building 710 is partially constructed with exposed                                               Suitable for contingency construction. Seeking
 710         8-May      KAF-FP-120426-061A                                                                DynCorp        No       Not Started
                                             plywood walls on interior of building                                                            waiver from CENTCOM.
                                                                                                                                              IAW NFPA 101 29.2.9.1 Emergency lighting in
                                             The modular housing buildings 5868 and 5882 lighting                                             accordance with Section 7.9 shall be provided in
5868         8-May       KAF-FP-120426-062   fixtures for the discharge area outside the exit doors are   DynCorp        No           N/A     all buildings with more than 25 rooms.
                                             not on emergency power.                                                                          These facilities are not required to possess
                                                                                                                                              emergency lighting
                                                                                                                                              A waiver from CENTCOM may be pursued.
                                             Modular housing buildings 5868 and 5882 do not                                      Awaiting USG
5868         8-May       KAF-FP-120426-063                                                                DynCorp        No                   Outside scope of LOGCAP O&M. Task order or
                                             provide the required fire sprinkler system.                                            Decision
                                                                                                                                              separate contract must be executed.
                                             Corridor smoke detection (hardwired and battery unit)                                            Outside scope of LOGCAP O&M. Task order or
5868         8-May       KAF-FP-120426-064   spacing is insufficient in modular housing buildings 5868    DynCorp        No       In progress separate contract must be executed.
                                             and 5882




                                                                                         Page 7 of 37



                                                                                                                                                                                        DODIG-2013-099 │ 67
                                                                                                                                                                                                   Appendices




                                                                    FIRE PROTECTION
           # of Findings: 303                                                             # Completed: 55            Percent Complete: 18.15%
            Kandahar Finding Log                FIRE PROTECTION      21 May 2012                              Responsible               Repair
  Bldg #       Date        Control Number       Abstract                                                        Party       SOR         Status                        KAF Comments
                                                The fire alarm visual notification device (strobes) spacing                                         Outside scope of LOGCAP O&M. Task order or
   5868        8-May       KAF-FP-120426-065    is insufficient on the corridor of modular housing            DynCorp        No       Not Started   separate contract must be executed.
                                                buildings 5868 and 5882.
                                                                                                                                                    This building has been placed on the Fire Alarm
                                                The fire alarm system in buildings 5868 and 5882 is non-
   5868        8-May       KAF-FP-120426-066                                                                  DynCorp        No       In progress   Technicians list to repair and return to FMC status
                                                operable
                                                Automatic detection is not provided in the latrines in the                                          Will install detectors
   5868        8-May       KAF-FP-120426-067                                                                  DynCorp        No       Not Started
                                                modular housing buildings 5868 and 5882.
                                                The fire alarm pull station in building 5868 is missing the                                         This building has been placed on the Fire Alarm
   5868        8-May       KAF-FP-120426-068                                                                  DynCorp        No        Complete
                                                glass rod.                                                                                          Technicians list to repair and return to FMC status
                                                                                                                                                  Separation distances were set at current length
                                                                                                                                                  prior to DI assuming O&M responsibility. It is not
                                                The building separation distance between building 143                                             feasible to increase the distance to adjacent
   143         9-May       KAF-FP-120426-069                                                                  DynCorp        No           N/A
                                                and the building behind it is non-compliant.                                                      building without additional funds and the loss of
                                                                                                                                                  the adjacent structure. A waiver will be sought
                                                                                                                                                  from CENTCOM
                                                                                                                                                  A waiver from CENTCOM may be pursued.
                                                Building 143 contains a storage area that is not                                     Awaiting USG
   143         9-May       KAF-FP-120426-070                                                                  DynCorp        No                   Outside scope of LOGCAP O&M. Task order or
                                                separated by a fire-rated wall.                                                         Decision
                                                                                                                                                  separate contract must be executed.
                                             Illuminated exit/directional signage is insufficient in                                              Electricians added directionality to exit signage
   143         9-May       KAF-FP-120426-071                                                                  DynCorp        No       In progress
                                             building 143
                                             The building 143 exit sign at the main entrance does not                                               4BK1121640268;
   143         9-May       KAF-FP-120426-072                                                                  DynCorp        No       In progress
                                             have adequate visibility in the corridor.
                                             The front deck of building 143 does not meet                                                           Open SOR to evaluate safety and construction of
   143         9-May      KAF-FP-120426-073A                                                                  DynCorp        No       In progress
                                             dimensional requirements.                                                                              current front deck.
                                                                                                                                                    The building occupants were informed of their
                                                                                                                                                    responsibilities to comply with the USFOR-A Fire
                                                Fire extinguishers in building 143 are not properly                                                 Warden Program. The inspection is the
   143         9-May       KAF-FP-120426-074                                                                  DynCorp        No        Complete
                                                mounted, inspected or maintained                                                                    responsibility under the USFOR-A Fire Prevention
                                                                                                                                                    SOP 2-8(p). Fire extinguishers were properly
                                                                                                                                                    mounted




                                                                                            Page 8 of 37



68 │ DODIG-2013-099
                                                                                                                                                                                              Appendices




                                                                  FIRE PROTECTION
           # of Findings: 303                                                           # Completed: 55          Percent Complete: 18.15%
            Kandahar Finding Log               FIRE PROTECTION     21 May 2012                            Responsible               Repair
  Bldg #       Date        Control Number      Abstract                                                     Party       SOR         Status                       KAF Comments
                                               Building 157A does not have adequate fire suppression                                            Outside scope of LOGCAP O&M. Task order or
   157         9-May       KAF-FP-120426-086                                                                             No       Not Started
                                               systems for kitchen cooking equipment.                                                           separate contract must be executed.
                                                                                                                                                All smoke detectors were inspected and repaired
                                                                                                                                                under LOTD 6454. Any units missing or disabled
                                               The smoke detector is not properly located in the
   157         9-May       KAF-FP-120426-087                                                                             No        Complete     were either installed, replaced or returned to FMC
                                               kitchen office area of building 157A.
                                                                                                                                                status through additional means

                                                                                                                                                Outside scope of LOGCAP O&M. Task order or
                                               Automatic smoke and heat detection is not provided in
   157         9-May       KAF-FP-120426-088                                                                             No       Not Started   separate contract must be executed. Not on
                                               some areas of building 157A.
                                                                                                                                                density list for LOGCAP.
                                               An open fuel tanks is located adjacent to an in use                                              Fuel tank was removed by occupants
   157         9-May       KAF-FP-120426-089                                                                             No        Complete
                                               barbecue outside of building 157A.
                                               There is no illuminated exit signage provided at the                                             Outside scope of LOGCAP O&M. Task order or
   164        10-May       KAF-FP-120426-090                                                              DynCorp        No       In progress
                                               corridor intersections of building 164.                                                          separate contract must be executed.
                                                                                                                                                All smoke detectors were inspected and repaired
                                                                                                                                                under LOTD 6454. Any units missing or disabled
                                               Smoke detectors are missing and not interconnected in
   164        10-May       KAF-FP-120426-091                                                              DynCorp        No        Complete     were either installed, replaced or returned to FMC
                                               building 164.
                                                                                                                                                status through additional means

                                                                                                                                                A waiver from CENTCOM may be pursued.
                                               Buildings 164A and 164B have non-compliant stair
   164        10-May       KAF-FP-120426-092                                                              DynCorp        No       Not Started   Outside scope of LOGCAP O&M. Task order or
                                               dimensions.
                                                                                                                                                separate contract must be executed.
                                               The showers in Building 164A do not have automatic                                               Will install detectors
   164        10-May       KAF-FP-120426-093                                                              DynCorp        No       Not Started
                                               smoke or heat detection.
                                                                                                                                                This deficiency cannot be corrected through SOR.
                                                                                                                                                The building occupants were informed of their
                                                                                                                                                responsibilities to comply with the USFOR-A Fire
                                               The fire extinguisher in building 164B does not have an
   164        10-May       KAF-FP-120426-094                                                              DynCorp        No       In progress   Warden Program. The inspection is the
                                               inspection tag.
                                                                                                                                                responsibility under the USFOR-A Fire Prevention
                                                                                                                                                SOP 2-8(p). Fire extinguisher tag was added




                                                                                          Page 10 of 37



70 │ DODIG-2013-099
                                                                                                                                                                                                Appendices




                                                                  FIRE PROTECTION
           # of Findings: 303                                                          # Completed: 55            Percent Complete: 18.15%
              Kandahar Finding Log             FIRE PROTECTION     21 May 2012                             Responsible               Repair
  Bldg #         Date        Control Number    Abstract                                                      Party       SOR         Status                       KAF Comments
                                                                                                                                                 AF 332 (KAF-574) submitted to 451st to install
                                               Hangars at Yankee Ramp have unprotected fire hydrants                                             bollards around hydrants and valves. Due to
Yankee Ramp     11-May     KAF-FP-120426-111                                                                              No       Not Started
                                               and post indicator valves.                                                                        amount of hydrants, this will be accomplished via
                                                                                                                                                 contract
                                                                                                                                                 The 451st is currently working with USFOR-A
                                                                                                                                                 South Fire Chief (Mr. Mullane), USFOR-A Fire
                                                                                                                                                 Protection Engineer (Mr. Conroy) and DynCorp
                                               Piping and fitting material used on the hangars at Yankee                                         Deputy Fire Chief (Mr. Klug) to evaluate the entire
Yankee Ramp     11-May     KAF-FP-120426-112                                                                              No       In progress
                                               ramp are non-listed material.                                                                     system from the Pump House to all hangars on
                                                                                                                                                 Yankee, Sierra and Zulu to make all repairs and
                                                                                                                                                 recertify the systems and have a contract to
                                                                                                                                                 perform O&M.
                                                                                                                                                 The 451st is currently working with USFOR-A
                                                                                                                                                 South Fire Chief (Mr. Mullane), USFOR-A Fire
                                                                                                                                                 Protection Engineer (Mr. Conroy) and DynCorp
                                               Yankee Ramp foam concentrate tanks have leaking                                                   Deputy Fire Chief (Mr. Klug) to evaluate the entire
Yankee Ramp     11-May     KAF-FP-120426-113                                                                              No       In progress
                                               fittings.                                                                                         system from the Pump House to all hangars on
                                                                                                                                                 Yankee, Sierra and Zulu to make all repairs and
                                                                                                                                                 recertify the systems and have a contract to
                                                                                                                                                 perform O&M.
                                                                                                                                                 AF 332 (KAF-576) submitted to 451st to install
                                               Hangar #3 at Yankee Ramp has a mezzanine with no
Yankee Ramp     11-May     KAF-FP-120426-114                                                                              No       Not Started   Dielectric unions and welds. This will be
                                               sprinkler protection.
                                                                                                                                                 accomplished via contract
                                                                                                                                                 AF 332 (KAF-575) submitted to 451st to install
                                               Dielectric unions and welds were not installed on
Yankee Ramp     11-May     KAF-FP-120426-115                                                                              No       Not Started   Dielectric unions and welds. This will be
                                               dissimilar material within the hangars at Yankee ramp.
                                                                                                                                                 accomplished via contract
                                                                                                                                                 The 451st is currently working with USFOR-A
                                                                                                                                                 South Fire Chief (Mr. Mullane), USFOR-A Fire
                                                                                                                                                 Protection Engineer (Mr. Conroy) and DynCorp
                                               There is no reserve supply of fire suppression foam                                               Deputy Fire Chief (Mr. Klug) to evaluate the entire
Yankee Ramp     11-May    KAF-FP-120426-116A                                                                              No       In progress
                                               concentrate for the hangars at Yankee Ramp.                                                       system from the Pump House to all hangars on
                                                                                                                                                 Yankee, Sierra and Zulu to make all repairs and
                                                                                                                                                 recertify the systems and have a contract to
                                                                                                                                                 perform O&M.




                                                                                         Page 13 of 37



                                                                                                                                                                                         DODIG-2013-099 │ 73
                                                                                                                                                                                                Appendices




                                                                  FIRE PROTECTION
           # of Findings: 303                                                           # Completed: 55            Percent Complete: 18.15%
              Kandahar Finding Log             FIRE PROTECTION     21 May 2012                              Responsible               Repair
  Bldg #         Date        Control Number    Abstract                                                       Party       SOR         Status                       KAF Comments
                                                                                                                                                  A waiver from CENTCOM may be pursued.
                                               Building 164 has exposed plywood walls on interior exit
   164          11-May     KAF-FP-120426-117                                                                DynCorp        No       Not Started   Outside scope of LOGCAP O&M. Task order or
                                               corridors.
                                                                                                                                                  separate contract must be executed.
                                                                                                                                                  A waiver from CENTCOM may be pursued.
                                               Building 157A has exposed plywood walls on interior exit
   157          11-May     KAF-FP-120426-118                                                                               No       Not Started   Outside scope of LOGCAP O&M. Task order or
                                               corridors
                                                                                                                                                  separate contract must be executed.
                                                                                                                                                  The 451st is currently working with USFOR-A
                                                                                                                                                  South Fire Chief (Mr. Mullane), USFOR-A Fire
                                                                                                                                                  Protection Engineer (Mr. Conroy) and DynCorp
                                               The foam concentrate control valve handle was                                                      Deputy Fire Chief (Mr. Klug) to evaluate the entire
Yankee Ramp     11-May     KAF-FP-120426-119                                                                               No       In progress
                                               obstruction in hangar #1 of Yankee Ramp.                                                           system from the Pump House to all hangars on
                                                                                                                                                  Yankee, Sierra and Zulu to make all repairs and
                                                                                                                                                  recertify the systems and have a contract to
                                                                                                                                                  perform O&M.
                                                                                                                                                  A waiver from CENTCOM may be pursued.
                                               Building 156 has exposed plywood walls on interior exit
   156          11-May     KAF-FP-120426-120                                                                               No       Not Started   Outside scope of LOGCAP O&M. Task order or
                                               corridors.
                                                                                                                                                  separate contract must be executed.
                                               General Fire Protection and Life Safety issues of building                                          This item is currently being worked by a 3rd party
   156          11-May     KAF-FP-120426-121                                                                               No       In progress
                                               156 present a high risk to personnel.                                                              contractor for repair
                                               Building 543B has poor quality hardware & installation                                             . All hardware is currently on order through an
   543          11-May     KAF-FP-120426-122   of fire door assemblies in the latrines, corridors, and      DynCorp        No       In progress   existing CO. Items will be replaced upon receipt of
                                               exits.                                                                                             materials.
                                                                                                                                                  A waiver from CENTCOM may be pursued.
                                               Building 543B is not provided with the required
   543B         11-May     KAF-FP-120426-123                                                                DynCorp        No       Not Started   Outside scope of LOGCAP O&M. Task order or
                                               automatic fire sprinkler system.
                                                                                                                                                  separate contract must be executed.
                                               There are unoccupied rooms opening into the stair                                                  Outside scope of LOGCAP O&M. Task order or
   543B         11-May     KAF-FP-120426-124                                                                DynCorp        No       Not Started
                                               enclosure within building 543B.                                                                    separate contract must be executed.
                                               Building 543B plumbing, conduit, and duct work                                                     The building is currently under renovation, and
   543B         11-May     KAF-FP-120426-125   penetrating walls were not provided with the proper          DynCorp        No       In progress   similar to 534C, the openings and penetrations
                                               opening protection.                                                                                will be sealed before renovations are finished.
                                                                                                                                                   All hardware is currently on order through an
                                               There are door closers missing from the fire doors                                                 existing CO. Items will be replaced upon receipt of
   543B         11-May     KAF-FP-120426-126                                                                DynCorp        No       In progress
                                               leading into the exit stairs in building 543B.                                                     materials. W.O. Submitted to correct deficiency.




                                                                                          Page 14 of 37



74 │ DODIG-2013-099
                                                                                                                                                                                                Appendices




                                                                 FIRE PROTECTION
         # of Findings: 303                                                            # Completed: 55          Percent Complete: 18.15%
          Kandahar Finding Log               FIRE PROTECTION      21 May 2012                            Responsible                Repair
Bldg #       Date        Control Number      Abstract                                                      Party       SOR          Status                        KAF Comments
                                             Camel hair joint compound was used in the threaded                                                 Outside scope of LOGCAP O&M. Task order or
543B        11-May       KAF-FP-120426-127                                                               DynCorp        No       Not Started
                                             pipe joints for building 543B.                                                                     separate contract must be executed.
                                             Fire Department Connection (FDC) is obstructed in                                                  Outside scope of LOGCAP O&M. Task order or
543B        11-May       KAF-FP-120426-128                                                               DynCorp        No       Not Started
                                             building 543B.                                                                                     separate contract must be executed.
                                                                                                                                                A waiver from CENTCOM may be pursued.
543B        11-May       KAF-FP-120426-129   Building 543B has latrines without fire sprinklers.         DynCorp        No       Not Started    Outside scope of LOGCAP O&M. Task order or
                                                                                                                                                separate contract must be executed.
                                             Class II Type Fire hoses have been provided in building                                            Outside scope of LOGCAP O&M. Task order or
543B        11-May       KAF-FP-120426-130                                                               DynCorp        No       Not Started
                                             543B which are non-operational.                                                                    separate contract must be executed.
                                             There are no lighting fixtures for the discharge areas                             Awaiting Initial DI Fire Initial Inspection Complete on 27 June 12.
Z-Hut       11-May       KAF-FP-120426-131
                                             outside the exit doors in the Z Huts.                                               Inspection Facility is Non-Density. Sent to Gov on 16 June 12

                                             Exit discharge stair handrails and guards are                                      Awaiting Initial DI Fire Initial Inspection Complete on 27 June 12.
Z-Hut       11-May       KAF-FP-120426-132
                                             noncompliant in the Z Hut Dormitory Building.                                       Inspection Facility is Non-Density. Sent to Gov on 16 June 12

                                             The Z Huts have exit discharge paths over a combustible                            Awaiting Initial DI Fire Initial Inspection Complete on 27 June 12.
Z-Hut       11-May       KAF-FP-120426-133
                                             plywood roof.                                                                       Inspection Facility is Non-Density. Sent to Gov on 16 June 12

                                             Exterior discharge stair landing in the Z Huts are non                             Awaiting Initial DI Fire Initial Inspection Complete on 27 June 12.
Z-Hut       11-May       KAF-FP-120426-134
                                             compliant.                                                                          Inspection Facility is Non-Density. Sent to Gov on 16 June 12

                                                                                                                                Awaiting Initial DI Fire Initial Inspection Complete on 27 June 12.
Z-Hut       11-May       KAF-FP-120426-135   The Z Hut building has raised threshold at exit doors.
                                                                                                                                 Inspection Facility is Non-Density. Sent to Gov on 16 June 12

                                             The Z Hut building does not provide the required fire                              Awaiting Initial DI Fire Initial Inspection Complete on 27 June 12.
Z-Hut       11-May       KAF-FP-120426-136
                                             sprinkler system.                                                                   Inspection Facility is Non-Density. Sent to Gov on 16 June 12

                                                                                                                                Awaiting Initial DI Fire Initial Inspection Complete on 27 June 12.
Z-Hut       11-May       KAF-FP-120426-137   Fire extinguisher inspection is unknown in the Z Hut.
                                                                                                                                 Inspection Facility is Non-Density. Sent to Gov on 16 June 12

                                             A fire alarm system with occupant notification is not                              Awaiting Initial DI Fire Initial Inspection Complete on 27 June 12.
Z-Hut       11-May       KAF-FP-120426-138
                                             provided in the Z Hut.                                                              Inspection Facility is Non-Density. Sent to Gov on 16 June 12




                                                                                         Page 15 of 37



                                                                                                                                                                                         DODIG-2013-099 │ 75
                                                                                                                                                                                                     Appendices




                                                                    FIRE PROTECTION
            # of Findings: 303                                                            # Completed: 55            Percent Complete: 18.15%
                Kandahar Finding Log             FIRE PROTECTION     21 May 2012                              Responsible                Repair
   Bldg #          Date        Control Number    Abstract                                                       Party       SOR          Status                        KAF Comments

                                                                                                                                     Awaiting Initial DI Fire Initial Inspection Complete on 27 June 12.
   Z-Hut          11-May     KAF-FP-120426-139   Smoke detectors are not interconnected in the Z Hut.
                                                                                                                                      Inspection Facility is Non-Density. Sent to Gov on 16 June 12

                                                                                                                                     Awaiting Initial DI Fire Initial Inspection Complete on 27 June 12.
   Z-Hut          11-May     KAF-FP-120426-140   A missing smoke detector was noted in the Z Hut.
                                                                                                                                      Inspection Facility is Non-Density. Sent to Gov on 16 June 12
                                                                                                                                                     DI Fire Initial Inspection complete; DI was unable
                                                                                                                                                     to locate any laundry facility in the Camp Brown
                                                                                                                                     Awaiting USG    compound. Need clarrification from the
Z-Hut Laundry     11-May     KAF-FP-120426-141   Means of egress is not level in the Z Hut Laundry.
                                                                                                                                       Decision      Government on what the facility looked like as it
                                                                                                                                                     may have been removed since the date of the
                                                                                                                                                     inspection.
                                                                                                                                                     DI Fire Initial Inspection complete; DI was unable
                                                                                                                                                     to locate any laundry facility in the Camp Brown
                                                 The Z Hut Laundry stairs do not have handrails and have                             Awaiting USG    compound. Need clarrification from the
Z-Hut Laundry     11-May     KAF-FP-120426-142
                                                 improper dimensions.                                                                  Decision      Government on what the facility looked like as it
                                                                                                                                                     may have been removed since the date of the
                                                                                                                                                     inspection.
                                                                                                                                                     DI Fire Initial Inspection complete; DI was unable
                                                                                                                                                     to locate any laundry facility in the Camp Brown
                                                                                                                                     Awaiting USG    compound. Need clarrification from the
Z-Hut Laundry     11-May     KAF-FP-120426-143   Front exit door obstructed in the Z Hut Laundry.
                                                                                                                                       Decision      Government on what the facility looked like as it
                                                                                                                                                     may have been removed since the date of the
                                                                                                                                                     inspection.
                                                                                                                                                     DI Fire Initial Inspection complete; DI was unable
                                                                                                                                                     to locate any laundry facility in the Camp Brown
                                                 Raised threshold at the building front and rear exit doors                          Awaiting USG    compound. Need clarrification from the
Z-Hut Laundry     11-May     KAF-FP-120426-144
                                                 in the Z Hut Laundry.                                                                 Decision      Government on what the facility looked like as it
                                                                                                                                                     may have been removed since the date of the
                                                                                                                                                     inspection.




                                                                                            Page 16 of 37


76 │ DODIG-2013-099
                                                                                                                                                                                                 Appendices




                                                                    FIRE PROTECTION
            # of Findings: 303                                                            # Completed: 55            Percent Complete: 18.15%
                Kandahar Finding Log             FIRE PROTECTION     21 May 2012                              Responsible               Repair
   Bldg #          Date        Control Number    Abstract                                                       Party       SOR         Status                       KAF Comments
                                                                                                                                                  DI Fire Initial Inspection complete; DI was unable
                                                                                                                                                  to locate any laundry facility in the Camp Brown
                                                 Fire extinguisher inspection are unknown in the Z Hut                               Awaiting USG compound. Need clarrification from the
Z-Hut Laundry     11-May     KAF-FP-120426-145
                                                 Laundry.                                                                              Decision   Government on what the facility looked like as it
                                                                                                                                                  may have been removed since the date of the
                                                                                                                                                  inspection.
                                                                                                                                                  DI Fire Initial Inspection complete; DI was unable
                                                                                                                                                  to locate any laundry facility in the Camp Brown
                                                 Smoke detection devices in the Z Hut Laundry are not UL                             Awaiting USG compound. Need clarrification from the
Z-Hut Laundry     11-May     KAF-FP-120426-146
                                                 listed.                                                                               Decision   Government on what the facility looked like as it
                                                                                                                                                  may have been removed since the date of the
                                                                                                                                                  inspection.
                                                                                                                                                  DI Fire Initial Inspection complete; DI was unable
                                                                                                                                                  to locate any laundry facility in the Camp Brown
                                                 Smoke detectors are not interconnected in the Z Hut                                 Awaiting USG compound. Need clarrification from the
Z-Hut Laundry     11-May     KAF-FP-120426-147
                                                 Laundry.                                                                              Decision   Government on what the facility looked like as it
                                                                                                                                                  may have been removed since the date of the
                                                                                                                                                  inspection.
                                                 There is no illuminated exit sign or emergency lighting in                                       Outside scope of LOGCAP O&M. Task order or
    149           12-May     KAF-FP-120426-148                                                                               NO       Not Started
                                                 building 149.                                                                                    separate contract must be executed.
                                                 Building 149 has egress non compliances including exit                                           Outside scope of LOGCAP O&M. Task order or
    149           12-May     KAF-FP-120426-149   discharge obstacles and an exit doors that swing the                        NO       Not Started separate contract must be executed.
                                                 wrong way.
                                                                                                                                                    The building occupants were informed of their
                                                                                                                                                    responsibilities to comply with the USFOR-A Fire
                                                 Fire extinguishers in building 149 are missing inspection                                          Warden Program. The inspection is the
    149           12-May     KAF-FP-120426-150                                                                               NO      Awaiting final
                                                 tags and are unmounted.                                                                            responsibility under the USFOR-A Fire Prevention
                                                                                                                                                    SOP 2-8(p). Fire extinguisher tag was added and
                                                                                                                                                    extinguishers mounted
                                                                                                                                                    A waiver from CENTCOM may be pursued.
    149           12-May     KAF-FP-120426-151   Automatic detection is not provided in building 149.                        NO       Not Started Outside scope of LOGCAP O&M. Task order or
                                                                                                                                                    separate contract must be executed.




                                                                                            Page 17 of 37



                                                                                                                                                                                           DODIG-2013-099 │ 77
                                                                                                                                                                                                     Appendices




                                                                     FIRE PROTECTION
             # of Findings: 303                                                           # Completed: 55          Percent Complete: 18.15%
              Kandahar Finding Log               FIRE PROTECTION     21 May 2012                            Responsible               Repair
  Bldg #         Date        Control Number      Abstract                                                     Party       SOR         Status                        KAF Comments
                                                                                                                                                  This is not required IAW NFPA 101 A.7.10.1.2.1
                                                 Building T-3 does not have the required illuminated exit                                         Where a main entrance also serves as an exit, it
   T-3          12-May       KAF-FP-120426-152                                                              DynCorp        NO           N/A
                                                 sign.                                                                                            will usually be sufficiently obvious to occupants so
                                                                                                                                                  that no exit sign is needed.
                                                                                                                                                  Work Order placed to correct deficieny DENIED.
                                                 Building T-3 has exit discharge stair landings and
   T-3          12-May       KAF-FP-120426-153                                                              DynCorp        NO       In progress   Site Management instructed that an SOR be
                                                 handrails that are missing.
                                                                                                                                                  submitted to correct deficiency. SOR Submitted
                                                                                                                                                  4BK1121560261; Complete with pictures for
   T-3          12-May       KAF-FP-120426-154   Building T3 has raised threshold at exit doors.            DynCorp        Yes       Complete
                                                                                                                                                  verification
                                                                                                                                                   The building occupants were informed of their
                                                                                                                                                  responsibilities to comply with the USFOR-A Fire
                                                 Building T-3 has fire extinguishers that have an unknown                                         Warden Program. The inspection is the
   T-3          12-May       KAF-FP-120426-155                                                              DynCorp        NO        Complete
                                                 inspection status.                                                                               responsibility under the USFOR-A Fire Prevention
                                                                                                                                                  SOP 2-8(p). Fire extinguisher tag was added

                                                 Building T-3 contain smoke detectors that are not                                                Outside scope of LOGCAP O&M. Task order or
   T-3          12-May       KAF-FP-120426-156   interconnected and are not located in the proper           DynCorp        NO       Not Started   separate contract must be executed.
                                                 mounting position.
                                                                                                                                                  IAW NFPA 101 29.2.9.1 Emergency lighting in
                                                                                                                                                  accordance with Section 7.9 shall be provided in
                                                                                                                                                  all buildings with more than 25 rooms.
                                                 The lighting fixtures for the discharge area outside the                                         These facilities are not required to possess
156B, 156C      12-May       KAF-FP-120426-157   exit doors are not on emergency power in buildings         DynCorp        NO           N/A       emergency lighting
                                                 156B and 156C.




                                                 Buildings 156B and 156C have stairways, thresholds,
                                                                                                                                                  Initiate SOR to install hand rails that are NFPA
156B, 156C      12-May       KAF-FP-120426-158   handrails, and landings that are non compliant with        DynCorp        NO       In progress
                                                                                                                                                  Compliant
                                                 NFPA 101.
                                                                                                                                                  A waiver from CENTCOM may be pursued.
                                                 Buildings 156B and 156C do not have the required fire
156B, 156C      12-May       KAF-FP-120426-159                                                              DynCorp        NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                 sprinkler systems.
                                                                                                                                                  separate contract must be executed.




                                                                                            Page 18 of 37



78 │ DODIG-2013-099
                                                                                                                                                                                                    Appendices




                                                                     FIRE PROTECTION
             # of Findings: 303                                                            # Completed: 55            Percent Complete: 18.15%
              Kandahar Finding Log               FIRE PROTECTION     21 May 2012                               Responsible               Repair
  Bldg #         Date        Control Number      Abstract                                                        Party       SOR         Status                        KAF Comments
                                                                                                                                                      The building occupants were informed of their
                                                                                                                                                     responsibilities to comply with the USFOR-A Fire
                                                 Buildings 156B and 156C have fire extinguishers that are                                            Warden Program. The inspection is the
156B, 156C      12-May       KAF-FP-120426-160                                                                 DynCorp        NO        Complete
                                                 missing a inspection tags and are not UL listed.                                                    responsibility under the USFOR-A Fire Prevention
                                                                                                                                                     SOP 2-8(p). Fire extinguisher tag was added.

                                                 The fire alarm systems in buildings 156B and 156C have                                              This building has been placed on the Fire Alarm
156B, 156C      12-May       KAF-FP-120426-161   non-conformities including being out of service, missing      DynCorp        NO       In progress   Technicians list to repair and return to FMC status
                                                 glass rods, and insufficient strobes spacing.
                                                 Buildings 156B and 156C are missing smoke detectors in                                              This building has been placed on the Fire Alarm
156B, 156C      12-May       KAF-FP-120426-162   some areas and have non-compliant smoke detectors in          DynCorp        NO       In progress   Technicians list to repair and return to FMC status
                                                 others.
                                                 The fire alarm electrical circuit breakers are not                                                  This building has been placed on the Fire Alarm
156B, 156C      12-May       KAF-FP-120426-163   identified or secured to the on position in buildings 156B    DynCorp        NO       In progress   Technicians list to repair and return to FMC status
                                                 and 156C.
                                                                                                                                                     A waiver from CENTCOM may be pursued.
  8780A         12-May       KAF-FP-120426-164   Building 8780A has non-separated storage areas.                  NO          NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                                                                                                                     separate contract must be executed.
                                                                                                                                                     Suitable for contingency construction. Seeking
  8780A         12-May       KAF-FP-120426-165   Building 8780A had wood stud partitions.                         NO          NO       Not Started
                                                                                                                                                     waiver from CENTCOM.
                                                                                                                                                     Occupant will level means of egress. Follow-up
                                                                                                                                                     will be required to verify compliance. Initiate and
  8780A         12-May       KAF-FP-120426-166   Means of egress is not level for building 8780A.                 NO          NO        Complete
                                                                                                                                                     SOR to evalute corrective action Sent to Gov on
                                                                                                                                                     17 June 12
                                                                                                                                                     Initiate Work Order to install hand rails that are
  8780A         12-May       KAF-FP-120426-167   Building 8780A has no exit discharge stair handrails.            NO          NO       in progress
                                                                                                                                                     NFPA Compliant
                                                                                                                                                     Outside scope of LOGCAP O&M. Task order or
  8780A         12-May       KAF-FP-120426-168   Camel hair pipe sealant was used within building 8780A.          NO          NO       In Progress
                                                                                                                                                     separate contract must be executed.
                                                 Piping and fitting material used in building 8780A are                                              Outside scope of LOGCAP O&M. Task order or
  8780A         12-May       KAF-FP-120426-169                                                                    NO          NO       Not Started
                                                 non-listed material.                                                                                separate contract must be executed.
                                                 The fire alarm visual notification device (strobes) spacing                                         Outside scope of LOGCAP O&M. Task order or
  8780A         12-May       KAF-FP-120426-170                                                                    NO          NO       Not Started
                                                 is insufficient in building 8780A.                                                                  separate contract must be executed.




                                                                                            Page 19 of 37



                                                                                                                                                                                             DODIG-2013-099 │ 79
                                                                                                                                                                                                 Appendices




                                                                   FIRE PROTECTION
           # of Findings: 303                                                           # Completed: 55            Percent Complete: 18.15%
            Kandahar Finding Log               FIRE PROTECTION     21 May 2012                              Responsible               Repair
  Bldg #       Date        Control Number      Abstract                                                       Party       SOR         Status                       KAF Comments
                                                                                                                                                   The occupant will be responsible for ordering and
                                                                                                                                                  placement. Follow-up will be required to ensure
  8780A       12-May       KAF-FP-120426-171                                                                   NO          NO       In progress
                                                                                                                                                  code compliance in a timely manner Sent to Gov
                                                                                                                                                  on 17 June 12
                                               Building 8780A has a fire alarm system that is currently                                           Outside scope of LOGCAP O&M. Task order or
  8780A       12-May       KAF-FP-120426-172                                                                   NO          NO       Not Started
                                               out of service.                                                                                    separate contract must be executed.
                                                                                                                                                  A waiver from CENTCOM may be pursued.
                                               Building 8889Q has higher hazard areas and storage
  8889Q       12-May       KAF-FP-120426-173                                                                DynCorp        NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                               areas that are not separated by a fire-rated wall or door.
                                                                                                                                                  separate contract must be executed.
                                                                                                                                                  IAW NFPA 101 39.2.9.1 Emergency lighting shall
                                                                                                                                                  be provided in accordance with Section 7.9 in any
                                                                                                                                                  building where any one of the following
                                                                                                                                                  conditions exists:
                                                                                                                                                  (1)The building is three or more stories in height.
                                                                                                                                                  (2)The occupancy is subject to 100 or more
                                               Building 8889Q does not have emergency lighting                                                    occupants above or below the level of exit
  8889Q       12-May       KAF-FP-120426-174                                                                DynCorp        NO           N/A
                                               fixtures for the discharge area outside the exit doors.                                            discharge.
                                                                                                                                                  (3)The occupancy is subject to 1000 or more total
                                                                                                                                                  occupants.
                                                                                                                                                  None of these conditions apply, therefore
                                                                                                                                                  emergency lighting is not required.


                                               Building 8889Q lacks the required illuminated directional                                          4BK1121490380/Complete with pictures for
  8889Q       12-May       KAF-FP-120426-175                                                                DynCorp        YES       Complete
                                               signage and emergency exit signage.                                                                verification
                                                                                                                                                  A waiver from CENTCOM may be pursued.
                                               Building 8889Q has exit stairs with several non-
  8889Q       12-May       KAF-FP-120426-176                                                                DynCorp        NO       Not Started Outside scope of LOGCAP O&M. Task order or
                                               compliances.
                                                                                                                                                  separate contract must be executed.
                                                                                                                                                  The deficiency cannot be corrected through SOR.
                                                                                                                                                  The client needs to move the layout of the room
                                               Building 8889Q has a sleeping room in which the exit
  8889Q       12-May       KAF-FP-120426-177                                                                DynCorp        NO      Awaiting final to become compliant. Follow-up needs to be
                                               pathway is through a storage room.
                                                                                                                                                  completed to ensure code compliance




                                                                                          Page 20 of 37



80 │ DODIG-2013-099
                                                                                                                                                                                            Appendices




                                                                FIRE PROTECTION
         # of Findings: 303                                                          # Completed: 55            Percent Complete: 18.15%
          Kandahar Finding Log               FIRE PROTECTION     21 May 2012                             Responsible               Repair
Bldg #       Date        Control Number      Abstract                                                      Party       SOR         Status                       KAF Comments
                                                                                                                                               Work Order placed to correct deficieny DENIED.
                                             Building 8889Q has raised thresholds at the ancillary                                             Site Management instructed that an SOR be
8889Q       12-May       KAF-FP-120426-178                                                               DynCorp        NO       In progress
                                             training annex.                                                                                   submitted to correct deficiency. SOR Submitted

                                                                                                                                                The building occupants were informed of their
                                                                                                                                               responsibilities to comply with the USFOR-A Fire
                                             Building 8889Q has fire extinguishers in which the status                                         Warden Program. The inspection is the
8889Q       12-May       KAF-FP-120426-179                                                               DynCorp        NO        Complete
                                             of inspection is unknown.                                                                         responsibility under the USFOR-A Fire Prevention
                                                                                                                                               SOP 2-8(p). Fire extinguisher tag was added

                                             Building 8889Q does not have interconnected smoke                                                 Outside scope of LOGCAP O&M. Task order or
8889Q       12-May       KAF-FP-120426-180                                                               DynCorp        NO       Not Started
                                             detectors or adequate smoke detector coverage.                                                    separate contract must be executed.
                                             Building 8889Q has exposed plywood walls on the                                                   Outside scope of LOGCAP O&M. Task order or
8889Q       12-May       KAF-FP-120426-181                                                               DynCorp        NO       In progress
                                             interior of the exit corridors.                                                                   separate contract must be executed.
                                             Building 8881A lacks the required illuminated directional                                         4BK1121490380; re-open; verified not complete
8881A       12-May       KAF-FP-120426-182                                                               DynCorp        YES      In progress
                                             exit signage.                                                                                     as of 27 June 12
                                             Building 8881A has a ceiling height on the front porch                                            Open SOR to raise or eliminate the overhang
8881A       12-May       KAF-FP-120426-183                                                               DynCorp        NO       In progress
                                             exit stairs that is too low.
                                                                                                                                               A waiver from CENTCOM may be pursued.
8881A       12-May       KAF-FP-120426-184   Building 8881A has non-compliant stair dimensions.          DynCorp        NO       In progress   Outside scope of LOGCAP O&M. Task order or
                                                                                                                                               separate contract must be executed.
                                                                                                                                                The building occupants were informed of their
                                                                                                                                               responsibilities to comply with the USFOR-A Fire
                                             Building 8881A has fire extinguishers that had out of                                             Warden Program. The inspection is the
8881A       12-May       KAF-FP-120426-185                                                               DynCorp        NO        complete
                                             date inspections.                                                                                 responsibility under the USFOR-A Fire Prevention
                                                                                                                                               SOP 2-8(p). Fire extinguisher tag was added




                                                                                       Page 21 of 37



                                                                                                                                                                                     DODIG-2013-099 │ 81
                                                                                                                                                                                               Appendices




                                                                  FIRE PROTECTION
           # of Findings: 303                                                           # Completed: 55           Percent Complete: 18.15%
            Kandahar Finding Log               FIRE PROTECTION     21 May 2012                             Responsible               Repair
  Bldg #       Date        Control Number      Abstract                                                      Party       SOR         Status                       KAF Comments
                                                                                                                                                 All smoke detectors were inspected and repaired
                                                                                                                                                 under LOTD 6454. Any units missing or disabled
                                                                                                                                                 were either installed, replaced or returned to FMC
                                                                                                                                                 status through additional means
                                                                                                                                                 The building O&M was assumed without an fixed
                                                                                                                                                 fire detection system in place. Single station
                                               Building 8881A has smoke detectors that have                                                      alarms were placed as a best business practice to
  8881A       12-May       KAF-FP-120426-186   insufficient spacing, are not interconnected, or are        DynCorp        NO        complete     protect the current occupancy. Any changes will
                                               missing.                                                                                          require re-design and addition of materials to
                                                                                                                                                 comply with this requirement. DI has not received
                                                                                                                                                 governmental direction to provide estimate of
                                                                                                                                                 labor and materials required to bring the current
                                                                                                                                                 system into code compliance.


                                               Building 8881A has exposed plywood walls on interior                                              Outside scope of LOGCAP O&M. Task order or
  8881A       12-May       KAF-FP-120426-187                                                               DynCorp        NO       Not Started
                                               exit corridors.                                                                                   separate contract must be executed.
                                                                                                                                                 A waiver from CENTCOM may be pursued.
   8882       12-May       KAF-FP-120426-188   Building 8882 has non-separated storage areas.              DynCorp        NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                                                                                                                 separate contract must be executed.
                                               Building 8882 lacks illuminated directional signage and                                           4BK1121540733; Closed with pictures for
   8882       12-May       KAF-FP-120426-189                                                               DynCorp        Yes       Complete
                                               exit signage.                                                                                     verification
                                                                                                                                                 Open WO to install second handrail as well as
                                               Building 8882 has exit discharge stairs that exceed riser
   8882       12-May       KAF-FP-120426-190                                                               DynCorp        NO       In progress   correct riser variation
                                               variation limitations and that do not have two handrails.
                                                                                                                                                 4BK1121710041; Closed with pictures for
   8882       12-May       KAF-FP-120426-191   Building 8882 has raised thresholds at the exit doors.      DynCorp        NO        Complete
                                                                                                                                                 verification
                                                                                                                                                 The building occupants were informed of their
                                                                                                                                                 responsibilities to comply with the USFOR-A Fire
                                               Building 8882 has an office with an exit access way                                               Warden Program. The inspection is the
   8882       12-May       KAF-FP-120426-192                                                               DynCorp        NO        Complete
                                               through a storage room.                                                                           responsibility under the USFOR-A Fire Prevention
                                                                                                                                                 SOP 2-8(p). Fire extinguisher tag was added.




                                                                                          Page 22 of 37



82 │ DODIG-2013-099
                                                                                                                                                                                               Appendices




                                                                   FIRE PROTECTION
            # of Findings: 303                                                           # Completed: 55          Percent Complete: 18.15%
             Kandahar Finding Log               FIRE PROTECTION     21 May 2012                            Responsible               Repair
 Bldg #         Date        Control Number      Abstract                                                     Party       SOR         Status                        KAF Comments
                                                                                                                                                  The building occupants were informed of their
                                                                                                                                                 responsibilities to comply with the USFOR-A Fire
                                                Building 8882 has fire extinguishers that have out of                                            Warden Program. The inspection is the
  8882         12-May       KAF-FP-120426-193                                                              DynCorp        NO        Complete
                                                date inspections.                                                                                responsibility under the USFOR-A Fire Prevention
                                                                                                                                                 SOP 2-8(p). Fire extinguisher tag was added.

                                                                                                                                                 All smoke detectors were inspected and repaired
                                                                                                                                                 under LOTD 6454. Any units missing or disabled
                                                Building 8882 has inadequate smoke detector coverage
  8882         12-May       KAF-FP-120426-194                                                              DynCorp        NO        Complete     were either installed, replaced or returned to FMC
                                                and the smoke detectors are not interconnected.
                                                                                                                                                 status through additional means

                                                Building 8882 has exposed plywood walls on interior of                                           Outside scope of LOGCAP O&M. Task order or
  8882         12-May       KAF-FP-120426-195                                                              DynCorp        NO       Not Started
                                                exit corridors.                                                                                  separate contract must be executed.
                                                There are power cords obstructing the means of egress                                            Complete with pictures for verification
  309          13-May       KAF-FP-120426-196                                                              DynCorp        NO        Complete
                                                in building 309.
  309          13-May       KAF-FP-120426-197   Exit signs are not illuminated within building 309.        DynCorp        NO       In progress   4BK1121490391
                                                                                                                                                 IAW NFPA 101 29.2.9.1 Emergency lighting in
                                                                                                                                                 accordance with Section 7.9 shall be provided in
                                                No emergency backup is provided on the exit discharge
  309          13-May       KAF-FP-120426-198                                                              DynCorp        NO           N/A       all buildings with more than 25 rooms.
                                                lighting on the exterior of building 309.
                                                                                                                                                 These facilities are not required to possess
                                                                                                                                                 emergency lighting
                                                Smoke detectors are connected to ropes at the top of                                             4BK1121640267
  309          13-May       KAF-FP-120426-199                                                              DynCorp        NO       In progress
                                                the metal framing within building 309.
                                                                                                                                                  The building occupants were informed of their
                                                                                                                                                 responsibilities to comply with the USFOR-A Fire
                                                Fire extinguisher has not been serviced regularly at                                             Warden Program. The inspection is the
  309B         13-May       KAF-FP-120426-200                                                              DynCorp        NO        Complete
                                                building 309B.                                                                                   responsibility under the USFOR-A Fire Prevention
                                                                                                                                                 SOP 2-8(p). Fire extinguisher tag was added

                                                No smoke or heat detection is present in the latrine and                                         Will install detectors
  309B         13-May       KAF-FP-120426-201                                                              DynCorp        NO       Not Started
                                                shower of building 309B.
                                                Buildings 162L and 166 do not have illuminated exit                                              4BK1121490380
162L, 166      13-May       KAF-FP-120426-202                                                              DynCorp        YES      In progress
                                                signage.
                                                Building 162L does not provide adequate emergency                                                4BK1121490380
  162L         13-May       KAF-FP-120426-203                                                              DynCorp        YES      In progress
                                                lighting.



                                                                                           Page 23 of 37



                                                                                                                                                                                        DODIG-2013-099 │ 83
                                                                                                                                                                                                   Appendices




                                                                     FIRE PROTECTION
              # of Findings: 303                                                          # Completed: 55            Percent Complete: 18.15%
                Kandahar Finding Log              FIRE PROTECTION     21 May 2012                             Responsible               Repair
   Bldg #          Date        Control Number     Abstract                                                      Party       SOR         Status                       KAF Comments
    166           13-May      KAF-FP-120426-204   Building 166 has an obstructed exit door.                   DynCorp        NO        Complete     Corrected on the spot by occupant
                                                                                                                                                    The building occupants have been informed of this
                                                  Buildings 162L and 166 do not have a level means of                                               deficiency and have elected to bring this into code
  162L, 166       13-May      KAF-FP-120426-205                                                               DynCorp        NO       In progress
                                                  egress.                                                                                           compliance by the use of stone gravel to level the
                                                                                                                                                    area.
                                                                                                                                                     The building occupants were informed of their
                                                                                                                                                    responsibilities to comply with the USFOR-A Fire
                                                  Building 162L and 166 have unknown inspection status                                              Warden Program. The inspection is their
  162L, 166       13-May      KAF-FP-120426-206                                                               DynCorp        NO       In progress
                                                  fire extinguishers, which are also mounted improperly.                                            responsibility under the USFOR-A Fire Prevention
                                                                                                                                                    SOP 2-8(p). Fire extinguisher tag was added. Fire
                                                                                                                                                    extinguishers remounted
                                                  Building 166 has a smoke detector that is located on a                                            The smoke detector was moved to the proper
    166           13-May      KAF-FP-120426-207                                                               DynCorp        NO        Complete
                                                  sidewall too low from the ceiling.                                                                position
                                                                                                                                                    Outside scope of LOGCAP O&M. Task order or
                                                  Buildings 162L and 166 has smoke detectors that are not
  162L, 166       13-May      KAF-FP-120426-208                                                               DynCorp        NO       In progress   separate contract must be executed. Missing and
                                                  interconnected and some that are missing.
                                                                                                                                                    inop detectors have been fixed.
                                                  Buildings 162L and 166 do not have fire alarm systems                                             Outside scope of LOGCAP O&M. Task order or
    162L          13-May      KAF-FP-120426-209                                                               DynCorp        NO       Not Started
                                                  with occupant notification.                                                                       separate contract must be executed.
                                                                                                                                                    A waiver from CENTCOM may be pursued.
                                                  Building 162L has exposed plywood walls on interior exit
    162L          13-May      KAF-FP-120426-210                                                                  NO          NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                  corridors.
                                                                                                                                                    separate contract must be executed.
                                                  Exit discharge stair guards are noncompliant in building                                          Open work order to install handrails and guards
    209           13-May      KAF-FP-120426-211                                                               DynCorp        NO       In progress
                                                  209.
                                                                                                                                                     The building occupants were informed of their
                                                                                                                                                    responsibilities to comply with the USFOR-A Fire
                                                  Fire extinguisher inspection unknown within building                                              Warden Program. The inspection is the
    209           13-May      KAF-FP-120426-212                                                               DynCorp        NO       In progress
                                                  209.                                                                                              responsibility under the USFOR-A Fire Prevention
                                                                                                                                                    SOP 2-8(p). Fire extinguisher tag was added

                                                                                                                                                    Job Order (P841) submitted to 451st ECES for
Yankee Hanger                                     A Yankee hangar has an emergency exit sign that is burnt
                  13-May      KAF-FP-120426-213                                                                              NO       In progress   repair.
     #1                                           out.




                                                                                              Page 24 of 37



 84 │ DODIG-2013-099
                                                                                                                                                                                             Appendices




                                                                 FIRE PROTECTION
          # of Findings: 303                                                           # Completed: 55          Percent Complete: 18.15%
           Kandahar Finding Log               FIRE PROTECTION     21 May 2012                            Responsible               Repair
Bldg #        Date        Control Number      Abstract                                                     Party       SOR         Status                       KAF Comments
                                                                                                                                             The 451st is currently working with USFOR-A
                                                                                                                                             South Fire Chief (Mr. Mullane), USFOR-A Fire
                                                                                                                                             Protection Engineer (Mr. Conroy) and DynCorp
                                              Multiple fire alarm panels in varying conditions with
Yankee                                                                                                                                       Deputy Fire Chief (Mr. Klug) to evaluate the entire
             13-May       KAF-FP-120426-214   multiple alarms conditions in the hangars at Yankee                       NO       In Progress
Hangers                                                                                                                                      system from the Pump House to all hangars on
                                              ramp were found.
                                                                                                                                             Yankee, Sierra and Zulu to make all repairs and
                                                                                                                                             recertify the systems and have a contract to
                                                                                                                                             perform O&M.
                                                                                                                                             The 451st is currently working with USFOR-A
                                                                                                                                             South Fire Chief (Mr. Mullane), USFOR-A Fire
                                                                                                                                             Protection Engineer (Mr. Conroy) and DynCorp
                                              Fire alarm electrical circuit breakers are not being
Yankee                                                                                                                                       Deputy Fire Chief (Mr. Klug) to evaluate the entire
             13-May       KAF-FP-120426-215   properly identified or secured within the hangars at                      NO       In Progress
Hangers                                                                                                                                      system from the Pump House to all hangars on
                                              Yankee ramp.
                                                                                                                                             Yankee, Sierra and Zulu to make all repairs and
                                                                                                                                             recertify the systems and have a contract to
                                                                                                                                             perform O&M.
                                                                                                                                             This is not required IAW NFPA 101 A.7.10.1.2.1
                                                                                                                                             Where a main entrance also serves as an exit, it
                                                                                                                                Awaiting USG
 168         13-May       KAF-FP-120426-216   There are no illuminated exit signs within building 168.   DynCorp        NO                   will usually be sufficiently obvious to occupants so
                                                                                                                                   Decision
                                                                                                                                             that no exit sign is needed.

                                              Exit discharge stair handrails and guards are                                                    Does not have handrails. As the stairs are less
 168         13-May       KAF-FP-120426-217                                                              DynCorp        NO           N/A
                                              noncompliant at building 168.                                                                    than 3 steps, handrails are not required
                                                                                                                                                The building occupants were informed of their
                                                                                                                                               responsibilities to comply with the USFOR-A Fire
                                                                                                                                               Warden Program. The inspection is the
                                              Fire extinguishers building 168 are missing inspection
 168         13-May       KAF-FP-120426-218                                                              DynCorp        NO        complete     responsibility under the USFOR-A Fire Prevention
                                              tags and are not properly mounted.
                                                                                                                                               SOP 2-8(p). Fire extinguisher tag was added. Fire
                                                                                                                                               extinguishers mounted properly

                                              Building 168 has smoke detectors that are not                                                    Outside scope of LOGCAP O&M. Task order or
 168         13-May       KAF-FP-120426-219                                                              DynCorp        NO       Not Started
                                              interconnected and some that are missing.                                                        separate contract must be executed.
                                                                                                                                               A waiver from CENTCOM may be pursued.
                                              Exposed plywood walls on interior exit corridors of
 168         13-May       KAF-FP-120426-220                                                              DynCorp        NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                              building 168.
                                                                                                                                               separate contract must be executed.



                                                                                         Page 25 of 37



                                                                                                                                                                                      DODIG-2013-099 │ 85
                                                                                                                                                                                                    Appendices




                                                                     FIRE PROTECTION
             # of Findings: 303                                                            # Completed: 55            Percent Complete: 18.15%
                 Kandahar Finding Log             FIRE PROTECTION     21 May 2012                              Responsible               Repair
   Bldg #           Date        Control Number    Abstract                                                       Party       SOR         Status                        KAF Comments
                                                  The dining tent at South Park does not have an                                                     4BK1121490391
SP Dining Tent     14-May     KAF-FP-120426-221                                                                DynCorp        YES      In progress
                                                  illuminated exit sign.
                                                                                                                                                     The building occupants have been informed of this
                                                  The dining tent at South Park has raised threshold at exit                                         deficiency and have elected to bring this into code
SP Dining Tent     14-May     KAF-FP-120426-222                                                                DynCorp        NO       In progress
                                                  doors.                                                                                             compliance by the use of stone gravel to level the
                                                                                                                                                     threshold.
                                                  The dining tent at South Park have aisle width                                                     No SOR required. Occupant repositioned table to
SP Dining Tent     14-May     KAF-FP-120426-223                                                                DynCorp        NO        Complete
                                                  dimensions that are too small.                                                                     gain the required egress clearances.
                                                                                                                                                     All smoke detectors were inspected and repaired
                                                                                                                                                     under LOTD 6454. Any units missing or disabled
                                                  The dining tent at South Park has non-UL listed smoke
SP Dining Tent     14-May     KAF-FP-120426-224                                                                DynCorp        NO      Awaiting final were either installed, replaced or returned to FMC
                                                  detectors which do not meet spacing requirements.
                                                                                                                                                     status through additional means

                                                                                                                                                     A waiver from CENTCOM may be pursued.
                                                  The SWA Huts have hazard areas that are not separated
  SWA Huts         14-May     KAF-FP-120426-225                                                                   NO          NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                  by fire-rated construction or fire-rated doors.
                                                                                                                                                     separate contract must be executed.
                                                  The SWA Huts have doors in which the gaskets are                                                   Deficiency has not been mitigated by the
  SWA Huts         14-May     KAF-FP-120426-226                                                                   NO          NO      Awaiting final
                                                  detaching.                                                                                         occupant. SOR initiated as of 27 June 12
                                                                                                                                                     IAW NFPA 101 39.2.9.1 Emergency lighting shall
                                                                                                                                                     be provided in accordance with Section 7.9 in any
                                                                                                                                                     building where any one of the following
                                                                                                                                                     conditions exists:
                                                                                                                                                     (1)The building is three or more stories in height.
                                                                                                                                                     (2)The occupancy is subject to 100 or more
                                                  The SWA Huts have lighting fixtures for the discharge
                                                                                                                                                     occupants above or below the level of exit
  SWA Huts         14-May     KAF-FP-120426-227   area outside the exit doors that are not on emergency           NO          NO          N/A
                                                                                                                                                     discharge.
                                                  power.
                                                                                                                                                     (3)The occupancy is subject to 1000 or more total
                                                                                                                                                     occupants.
                                                                                                                                                     None of these conditions apply, therefore
                                                                                                                                                     emergency lighting is not required.


                                                  The SWA Huts have exit stair doors that are not properly                                           Exit signs were applied
  SWA Huts         14-May     KAF-FP-120426-228                                                                DynCorp        NO        Complete
                                                  labeled.




                                                                                             Page 26 of 37



86 │ DODIG-2013-099
                                                                                                                                                                                                   Appendices




                                                                     FIRE PROTECTION
             # of Findings: 303                                                            # Completed: 55           Percent Complete: 18.15%
                 Kandahar Finding Log             FIRE PROTECTION     21 May 2012                             Responsible               Repair
    Bldg #          Date        Control Number    Abstract                                                      Party       SOR         Status                       KAF Comments
                                                                                                                                                    The corridor noted within this deficiency is a non-
                                                                                                                                                    smoke partition corridor. The NFPA referenced is
                                                  The SWA Huts have cable penetrations in corridor walls
  SWA Huts         14-May     KAF-FP-120426-229                                                                  NO          NO       Not Started   for penetrations in a smoke partition. The walls in
                                                  that are not protected.
                                                                                                                                                    this facility do not extend to the ceiling.

                                                                                                                                                    No deficiency to be corrected. The broken door
                                                  The SWA Huts had an office door that was missing the
  SWA Huts         14-May     KAF-FP-120426-230                                                                  NO          NO        complete     handle was replaced by building occupant with a
                                                  handle hardware.
                                                                                                                                                    non-latching T-handle.
                                                                                                                                                    A waiver from CENTCOM may be pursued.
                                                  The SWA Huts have assembly seating stairs that do not
  SWA Huts         14-May     KAF-FP-120426-231                                                                  NO          NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                  have handrails.
                                                                                                                                                    separate contract must be executed.
                                                                                                                                                    A waiver from CENTCOM may be pursued.
                                                  The SWA Huts do not have the required fire sprinkler
  SWA Huts         14-May     KAF-FP-120426-232                                                                  NO          NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                  system.
                                                                                                                                                    separate contract must be executed.
                                                                                                                                                    The building occupants were informed of their
                                                                                                                                                    responsibilities to comply with the USFOR-A Fire
                                                  The SWA Huts have fire extinguishers that have an                                                 Warden Program. The inspection is the
  SWA Huts         14-May     KAF-FP-120426-233                                                                  NO          NO        Complete
                                                  unknown inspection status.                                                                        responsibility under the USFOR-A Fire Prevention
                                                                                                                                                    SOP 2-8(p). Fire extinguisher tag was added

                                                                                                                                                    A waiver from CENTCOM may be pursued.
                                                  The SWA Huts do not have a fire alarm evacuation
  SWA Huts         14-May     KAF-FP-120426-234                                                                  NO          NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                  system.
                                                                                                                                                    separate contract must be executed.
                                                                                                                                                    IAW NFPA 101 29.2.9.1 Emergency lighting in
                                                                                                                                                    accordance with Section 7.9 shall be provided in
                                                                                                                                                    all buildings with more than 25 rooms.
                                                  The Senior Leader Housing does not have lighting                                                  These facilities are not required to possess
Senior Housing     15-May     KAF-FP-120426-235   fixtures for the discharge area outside the exit doors on      NO          NO           N/A       emergency lighting
                                                  emergency power.




                                                                                             Page 27 of 37



                                                                                                                                                                                            DODIG-2013-099 │ 87
                                                                                                                                                                                                         Appendices




                                                                       FIRE PROTECTION
                # of Findings: 303                                                           # Completed: 55            Percent Complete: 18.15%
                 Kandahar Finding Log               FIRE PROTECTION     21 May 2012                              Responsible               Repair
    Bldg #          Date        Control Number      Abstract                                                       Party       SOR         Status                         KAF Comments
                                                                                                                                                       This deficiency cannot be corrected through SOR.
                                                                                                                                                       The building occupants were informed of their
                                                                                                                                                       responsibilities to comply with the USFOR-A Fire
                                                    The Senior Leader Housing has fire extinguishers with an
Senior Housing     15-May       KAF-FP-120426-236                                                                   NO          NO        complete     Warden Program. The inspection is the
                                                    unknown inspection status.
                                                                                                                                                       responsibility under the USFOR-A Fire Prevention
                                                                                                                                                       SOP 2-8(p). Fire extinguisher tag was added

                                                    The latrines of the Senior Leader Housing do not have                                              Will install detectors
Senior Housing     15-May       KAF-FP-120426-237                                                                   NO          NO       Not Started
                                                    automatic smoke or heat detection.
                                                    The doors in the corridors of buildings 759-C, 759-D, 759-                                         This is a non-density list facilitiy. Outside scope of
     759           15-May       KAF-FP-120426-238   E, and 759-F did not have self closing devices installed        NO          NO       Not Started   LOGCAP O&M. Task order or separate contract
                                                    on them.                                                                                           must be executed.
                                                                                                                                                       This is a non-density list facilitiy. Outside scope of
                                                    Fire stopping into main corridor of building 759-E was
    759-E          15-May       KAF-FP-120426-239                                                                   NO          NO       Not Started   LOGCAP O&M. Task order or separate contract
                                                    loose and not sufficient to control smoke or hot gases.
                                                                                                                                                       must be executed.
                                                    Buildings 759-C, 759-D, 759-E and 759-F do not have fire-                                          Outside scope of LOGCAP O&M. Task order or
     759           15-May       KAF-FP-120426-240   rated doors separating the sleeping units from the main         NO          NO       Not Started   separate contract must be executed.
                                                    corridor.
                                                                                                                                                       This is a non-density list facilitiy. Outside scope of
                                                    Buildings 759C, 759D, 759E, and 759F did not have self
     759           15-May       KAF-FP-120426-241                                                                   NO          NO       Not Started   LOGCAP O&M. Task order or separate contract
                                                    illuminated exit signs.
                                                                                                                                                       must be executed.
                                                                                                                                                       This is a non-density list facilitiy. Outside scope of
                                                    The exit doors in buildings 759-C, 759-D, 759-E, and 759-
     759           15-May       KAF-FP-120426-242                                                                   NO          NO       Not Started   LOGCAP O&M. Task order or separate contract
                                                    F require two actions to open the door.
                                                                                                                                                       must be executed.
                                                                                                                                                       This is a non-density list facilitiy. Outside scope of
                                                    In building 759-D the exit door handle did not have a set
    759-D          15-May       KAF-FP-120426-243                                                                   NO          NO       Not Started   LOGCAP O&M. Task order or separate contract
                                                    screw installed.
                                                                                                                                                       must be executed.
                                                                                                                                                       A waiver from CENTCOM may be pursued.
                                                    Buildings 759-C, 759-D, 759-E and 759-F were not
     759           15-May       KAF-FP-120426-244                                                                   NO          NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                    provided with automatic fire sprinkler systems.
                                                                                                                                                       separate contract must be executed.
                                                    Buildings 759-D and 759-E have fire alarm systems that                                             Outside scope of LOGCAP O&M. Task order or
 759-D, 759-E      15-May       KAF-FP-120426-245                                                                   NO          NO       Not Started
                                                    are non-functional.                                                                                separate contract must be executed.
    162D           15-May       KAF-FP-120426-246   There is no illuminated exit sign in building 162D.          DynCorp        NO       in progress   SOR placed to correct deficieny
                                                    Second means of egress door hardware is non compliant                                              Work Order placed to correct deficieny
    162D           15-May       KAF-FP-120426-247                                                                DynCorp        NO       in progress
                                                    in building 162D.



                                                                                              Page 28 of 37



 88 │ DODIG-2013-099
                                                                                                                                                                                                Appendices




                                                                   FIRE PROTECTION
            # of Findings: 303                                                           # Completed: 55           Percent Complete: 18.15%
               Kandahar Finding Log             FIRE PROTECTION     21 May 2012                             Responsible               Repair
   Bldg #         Date        Control Number    Abstract                                                      Party       SOR         Status                       KAF Comments
                                                                                                                                                  The building occupants were informed of their
                                                                                                                                                  responsibilities to comply with the USFOR-A Fire
                                                A fire extinguisher with out of date inspection was found                                         Warden Program. The inspection is the
   162D          15-May     KAF-FP-120426-248                                                               DynCorp        NO        Complete
                                                in building 162D.                                                                                 responsibility under the USFOR-A Fire Prevention
                                                                                                                                                  SOP 2-8(p). Fire extinguisher tag was added

                                                                                                                                                  All smoke detectors were inspected and repaired
                                                                                                                                                  under LOTD 6454. Any units missing or disabled
                                                Building 162D has only one smoke detector which is
   162D          15-May     KAF-FP-120426-249                                                               DynCorp        NO      Awaiting final were either installed, replaced or returned to FMC
                                                improperly mounted.
                                                                                                                                                  status through additional means

                                                                                                                                                  A waiver from CENTCOM may be pursued.
                                                A fire alarm system with occupant notification is not
   162D          15-May     KAF-FP-120426-250                                                               DynCorp        NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                provided in building 162D.
                                                                                                                                                  separate contract must be executed.
                                                                                                                                                  All smoke detectors were inspected and repaired
                                                The smoke detectors in buildings 8766F and 8766G are                                              under LOTD 6454. Any units missing or disabled
8766F, 8766G     15-May     KAF-FP-120426-251   placed too far down from the peak of the ceiling and        DynCorp        NO       In progress   were either installed, replaced or returned to FMC
                                                there are missing smoke detectors in building 8766F.                                              status through additional means

                                                Buildings 8766F and 8766G each have an emergency exit                                             4BK1121490391
8766F, 8766G     15-May     KAF-FP-120426-252   light is burned out and have exit signs that are not        DynCorp        YES      In progress
                                                illuminated.




                                                                                          Page 29 of 37



                                                                                                                                                                                         DODIG-2013-099 │ 89
                                                                                                                                                                                                      Appendices




                                                                       FIRE PROTECTION
               # of Findings: 303                                                           # Completed: 55             Percent Complete: 18.15%
                 Kandahar Finding Log              FIRE PROTECTION     21 May 2012                               Responsible               Repair
   Bldg #           Date        Control Number     Abstract                                                        Party       SOR         Status                        KAF Comments
                                                                                                                                                       IAW NFPA 101 39.2.9.1 Emergency lighting shall
                                                                                                                                                       be provided in accordance with Section 7.9 in any
                                                                                                                                                       building where any one of the following
                                                                                                                                                       conditions exists:
                                                                                                                                                       (1)The building is three or more stories in height.
                                                                                                                                                       (2)The occupancy is subject to 100 or more
                                                   Buildings 8766 A, B, and E, did not have exit discharge                                             occupants above or below the level of exit
 8766A, B, E       15-May      KAF-FP-120426-253                                                                 DynCorp        NO           N/A
                                                   lighting connected to emergency power.                                                              discharge.
                                                                                                                                                       (3)The occupancy is subject to 1000 or more total
                                                                                                                                                       occupants.
                                                                                                                                                       None of these conditions apply, therefore
                                                                                                                                                       emergency lighting is not required.
                                                                                                                                                        Sent to Gov on 16 June 12

                                                   The exit stairs of buildings 8766A, B and E, have stair                                             Require s work order for second handrail
 8766A, B, E       15-May      KAF-FP-120426-254   guardrails and handrails that do not comply with NFPA         DynCorp        NO       In progress
                                                   101.
                                                   The fire alarm systems in buildings 5781 and 5816 have
                                                   non-conformities including being out of service, missing                                            This building has been placed on the Fire Alarm
 5781, 5816        15-May      KAF-FP-120426-255                                                                 DynCorp        NO       In progress
                                                   glass rods, and insufficient strobe and smoke detector                                              Technicians list to repair and return to FMC status
                                                   spacing.
721, 722, 723,                                     A padlock is able to be applied to the exit doors of tents
                   15-May      KAF-FP-120426-256                                                                    NO          NO        Complete     All hasps were removed
  724, 725                                         721, 722, 723, 724 and 725.
                                                   Housing tents 721, 722, and 723 have smoke detectors                                                Outside scope of LOGCAP O&M. Task order or
721, 722, 723      15-May      KAF-FP-120426-257   that are not interconnected and are spaced too far from          NO          NO       Not Started   separate contract must be executed.
                                                   wall and from each other.
                                                   A hard-wired fire alarm system was installed in tents 724                                           Outside scope of LOGCAP O&M. Task order or
  724, 725         15-May      KAF-FP-120426-258                                                                    NO          NO       Not Started
                                                   and 725 but they are not functional.                                                                separate contract must be executed.
                                                                                                                                                       Outside scope of LOGCAP O&M. Task order or
     721           15-May      KAF-FP-120426-259   Tent 721 has a 50 gallon fuel tank that is within two feet.      NO          NO       Not Started
                                                                                                                                                       separate contract must be executed.




                                                                                              Page 30 of 37



90 │ DODIG-2013-099
                                                                                                                                                                                                 Appendices




                                                                    FIRE PROTECTION
             # of Findings: 303                                                           # Completed: 55          Percent Complete: 18.15%
              Kandahar Finding Log               FIRE PROTECTION     21 May 2012                            Responsible               Repair
 Bldg #          Date        Control Number      Abstract                                                     Party       SOR         Status                        KAF Comments

                                                                                                                                                  IAW NFPA 101 39.2.9.1 Emergency lighting shall
                                                                                                                                                  be provided in accordance with Section 7.9 in any
                                                                                                                                                  building where any one of the following
                                                                                                                                                  conditions exists:
                                                                                                                                                  (1)The building is three or more stories in height.
                                                                                                                                                  (2)The occupancy is subject to 100 or more
                                                                                                                                                  occupants above or below the level of exit
                                                 Building 516B, the customs office building, has several
  516B          16-May       KAF-FP-120426-260                                                              DynCorp        NO           N/A       discharge.
                                                 emergency exit and egress lighting issues.
                                                                                                                                                  (3)The occupancy is subject to 1000 or more total
                                                                                                                                                  occupants.
                                                                                                                                                  None of these conditions apply, therefore
                                                                                                                                                  emergency lighting is not required, however, an
                                                                                                                                                  SOR is required to replace currently mounted
                                                                                                                                                  lights due to expectation of operation


                                                                                                                                                  A waiver from CENTCOM may be pursued.
                                                 Building 516B has stairways, thresholds, and handrails
  516B          16-May       KAF-FP-120426-261                                                              DynCorp        NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                 that are not compliant with NFPA 101.
                                                                                                                                                  separate contract must be executed.
                                                                                                                                                   The building occupants were informed of their
                                                                                                                                                  responsibilities to comply with the USFOR-A Fire
                                                 Fire extinguishers in building 516B are not properly                                             Warden Program. The inspection is the
  516B          16-May       KAF-FP-120426-262                                                              DynCorp        NO        Complete
                                                 mounted, inspected, or maintained.                                                               responsibility under the USFOR-A Fire Prevention
                                                                                                                                                  SOP 2-8(p). Fire extinguisher tag was added

                                                                                                                                                  Outside scope of LOGCAP O&M. Task order or
                                                 Building 516B has smoke detectors that are not
  516B          16-May       KAF-FP-120426-263                                                              DynCorp        NO       Not Started   separate contract must be executed.
                                                 interconnected, not spaced correctly, and non-UL listed.
                                                                                                                                                  A waiver from CENTCOM may be pursued.
                                                 Building 516B has exposed plywood walls on interior
  516B          16-May       KAF-FP-120426-264                                                              DynCorp        NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                 corridor and exit stair walls.
                                                                                                                                                  separate contract must be executed.
                                                                                                                                                  A waiver from CENTCOM may be pursued.
                                                 Buildings 509I and 509J have rooms containing hazards
509I, 509J      16-May       KAF-FP-120426-265                                                              DynCorp        NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                 that are not separated from the rest of the building.
                                                                                                                                                  separate contract must be executed.




                                                                                            Page 31 of 37



                                                                                                                                                                                          DODIG-2013-099 │ 91
                                                                                                                                                                                                   Appendices




                                                                     FIRE PROTECTION
             # of Findings: 303                                                            # Completed: 55          Percent Complete: 18.15%
              Kandahar Finding Log               FIRE PROTECTION      21 May 2012                            Responsible               Repair
  Bldg #         Date        Control Number      Abstract                                                      Party       SOR         Status                        KAF Comments
                                                                                                                                                   IAW NFPA 101 39.2.9.1 Emergency lighting shall
                                                                                                                                                   be provided in accordance with Section 7.9 in any
                                                                                                                                                   building where any one of the following
                                                                                                                                                   conditions exists:

                                                                                                                                                   (1)The building is three or more stories in height.

                                                                                                                                                   (2)The occupancy is subject to 100 or more
                                                                                                                                                   occupants above or below the level of exit
                                                 Buildings 509I and 509J each have lighting fixtures for                                           discharge.
509I, 509J      16-May       KAF-FP-120426-266   the discharge area outside the exit doors that are not on   DynCorp        NO           N/A
                                                 emergency power.                                                                                  (3)The occupancy is subject to 1000 or more total
                                                                                                                                                   occupants.

                                                                                                                                                   None of these conditions apply, therefore
                                                                                                                                                   emergency lighting is not required, however, an
                                                                                                                                                   SOR is required to replace currently mounted
                                                                                                                                                   lights due to expectation of operation

                                                                                                                                                   Sent to Gov on 16 June 12

                                                                                                                                                   A waiver from CENTCOM may be pursued.
                                                 Buildings 509I and 509J have exit discharge stair guards
509I, 509J      16-May       KAF-FP-120426-267                                                               DynCorp        NO       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                 that are noncompliant.
                                                                                                                                                   separate contract must be executed.
                                                                                                                                                   The building occupants have been informed of this
                                                 Buildings 509I and 509J have raised thresholds at the
                                                                                                                                                   deficiency and have elected to bring this into code
509I, 509J      16-May       KAF-FP-120426-268   interior office doors and raised thresholds for the exit    DynCorp        NO       In progress
                                                                                                                                                   compliance by the use of stone gravel to level the
                                                 doors.
                                                                                                                                                   area.
                                                                                                                                                    The building occupants were informed of their
                                                                                                                                                   responsibilities to comply with the USFOR-A Fire
                                                 Fire extinguishers in buildings 509I and 509J do not have                                         Warden Program. The inspection is the
509I, 509J      16-May       KAF-FP-120426-269                                                               DynCorp        NO        Complete
                                                 inspection tags.                                                                                  responsibility under the USFOR-A Fire Prevention
                                                                                                                                                   SOP 2-8(p). Fire extinguisher tag was added




                                                                                             Page 32 of 37



92 │ DODIG-2013-099
                                                                                                                                                                                                  Appendices




                                                                     FIRE PROTECTION
              # of Findings: 303                                                           # Completed: 55           Percent Complete: 18.15%
               Kandahar Finding Log               FIRE PROTECTION     21 May 2012                             Responsible               Repair
  Bldg #          Date        Control Number      Abstract                                                      Party       SOR         Status                       KAF Comments
                                                                                                                                                    All smoke detectors were inspected and repaired
                                                  Buildings 509I and 509J have smoke detector devices                                               under LOTD 6454. Any units missing or disabled
 509I, 509J      16-May       KAF-FP-120426-270   that are consistent with non-UL listed devices, and a       DynCorp        NO      Awaiting final were either installed, replaced or returned to FMC
                                                  smoke detector that is missing.                                                                   status through additional means

                                                                                                                                                  A waiver from CENTCOM may be pursued.
                                                  Buildings 516B has rooms containing hazards not
   516B          16-May       KAF-FP-120426-271                                                               DynCorp        NO       Not Started Outside scope of LOGCAP O&M. Task order or
                                                  separated from the rest of the building.
                                                                                                                                                  separate contract must be executed.
                                                  Building 041G has an emergency exit light that is burnt                            Awaiting USG 4BK1121540739
   041G          16-May       KAF-FP-120426-272                                                               DynCorp        Yes
                                                  out.                                                                                  Decision
                                                                                                                                                  The building occupants have been informed of this
                                                  Buildings 041G, 041H, and 041I have landings outside of
041G, 041H,                                                                                                                                       deficiency and have elected to bring this into code
                 16-May       KAF-FP-120426-273   the ground floor exits that step down as you exit the       DynCorp        NO       In progress
   041I                                                                                                                                           compliance by the use of stone gravel to level the
                                                  buildings.
                                                                                                                                                  area.
041G, 041H,                                       Buildings 041G, 041H and 041I have stair guardrails and                                         Open work order to install handrails and guards
                 16-May       KAF-FP-120426-274                                                               DynCorp        NO       In progress
   041I                                           handrails that do not comply with NFPA 101.
                                                                                                                                                     The building occupants were informed of their
                                                                                                                                                    responsibilities to comply with the USFOR-A Fire
041G, 041H,                                       Buildings 041G, 041H, and 041I have fire extinguishers                                            Warden Program. The inspection is the
                 16-May       KAF-FP-120426-275                                                               DynCorp        NO        Complete
   041I                                           that have an unknown inspection status.                                                           responsibility under the USFOR-A Fire Prevention
                                                                                                                                                    SOP 2-8(p). Fire extinguisher tag was added


041G, 041H,                                       Buildings 041G, 041H, and 041I have manual pull
                 16-May       KAF-FP-120426-276                                                               DynCorp        NO       in progress   Fire Alarm technicians will lower by 1 inch
   041I                                           stations for the fire alarm system 5’-01” from the floor.
                                                                                                                                                    All smoke detectors were inspected and repaired
                                                                                                                                                    under LOTD 6454. Any units missing or disabled
041G, 041H,                                       Buildings 041G, 041H, and 041I have smoke detectors 40
                 16-May       KAF-FP-120426-277                                                               DynCorp        NO       In progress   were either installed, replaced or returned to FMC
   041I                                           feet apart in corridors.
                                                                                                                                                    status through additional means

                                                                                                                                                    All smoke detectors were inspected and repaired
                                                                                                                                                    under LOTD 6454. Any units missing or disabled
041G, 041H,                                       Buildings 041G, 041H, and 041I have smoke detectors
                 16-May       KAF-FP-120426-278                                                               DynCorp        NO       In progress   were either installed, replaced or returned to FMC
   041I                                           that are not correctly located or are missing.
                                                                                                                                                    status through additional means




                                                                                             Page 33 of 37



                                                                                                                                                                                            DODIG-2013-099 │ 93
                                                                                                                                                                                                Appendices




                                                                  FIRE PROTECTION
           # of Findings: 303                                                           # Completed: 55           Percent Complete: 18.15%
            Kandahar Finding Log               FIRE PROTECTION     21 May 2012                             Responsible               Repair
  Bldg #       Date        Control Number      Abstract                                                      Party       SOR         Status                       KAF Comments
                                               Building 301-J had a walk-in refrigerator that could only
  301-J       16-May       KAF-FP-120426-279                                                               DynCorp        NO       In progress   Building occupant repaired the locking mechanism
                                               be opened if there was power to the building.
                                                                                                                                               This building must be evaluated as to how a
                                               Building 301-J has a common path of travel distance that                           Awaiting USG
  301-J       16-May       KAF-FP-120426-280                                                               DynCorp        NO                   secondary method of egress to meet common
                                               exceeds 50 feet.                                                                      Decision
                                                                                                                                               path of travel can be achieved
                                                                                                                                               All smoke detectors were inspected and repaired
                                                                                                                                               under LOTD 6454. Any units missing or disabled
                                               There are smoke detectors that are installed too far
  301-J       16-May       KAF-FP-120426-281                                                               DynCorp        NO       In progress were either installed, replaced or returned to FMC
                                               from the ceiling in building 301-J.
                                                                                                                                               status through additional means

                                               Building 306 has an exit door that does not meet the                                              Open work order to create NFPA compliant 3rd
   306        16-May       KAF-FP-120426-282                                                               DynCorp        NO       In progress
                                               NFPA requirements.                                                                                exit
                                               Buildings 041A, 041B, 041C, 041D, and 041E, have stair                                            Open work order to install handrails and guards
  041A-E      16-May       KAF-FP-120426-283   guardrails and handrails that do not comply with NFPA       DynCorp        NO       In progress
                                               101.
                                                                                                                                                 The building occupants were informed of their
                                                                                                                                                 responsibilities to comply with the USFOR-A Fire
                                               Fire extinguishers in buildings 041A though 041E are not                                          Warden Program. The inspection is the
  041A-E      16-May       KAF-FP-120426-284                                                               DynCorp        NO        complete
                                               properly inspected or maintained.                                                                 responsibility under the USFOR-A Fire Prevention
                                                                                                                                                 SOP 2-8(p). Fire extinguishers remounted


                                               The fire alarm systems in buildings 041A-E are currently                                          This building has been placed on the Fire Alarm
  041A-E      16-May       KAF-FP-120426-285                                                               DynCorp        NO       In progress
                                               out of service.                                                                                   Technicians list to repair and return to FMC status

                                               Buildings 041A through E have manual pull stations for                                            This building has been placed on the Fire Alarm
  041A-E      16-May       KAF-FP-120426-286                                                               DynCorp        NO       In progress
                                               the fire alarm system too far from the floor.                                                     Technicians list to repair and return to FMC status
                                                                                                                                                 The building occupants were informed of their
                                                                                                                                                 responsibilities to comply with the USFOR-A Fire
                                               The perimeter of buildings 041A through E has
  041A-E      16-May       KAF-FP-120426-287                                                               DynCorp        NO        complete     Warden Program. The inspection is the
                                               overgrown vegetation.
                                                                                                                                                 responsibility under the USFOR-A Fire Prevention
                                                                                                                                                 SOP 2-8(e).
                                               Building 041F has storage in the corridor where the
   041F       16-May       KAF-FP-120426-288                                                               DynCorp        NO       In progress   Occupant removed storage in egress path
                                               means of egress go down to 28 inches in width.




                                                                                          Page 34 of 37



94 │ DODIG-2013-099
                                                                                                                                                                                            Appendices




                                                                FIRE PROTECTION
         # of Findings: 303                                                           # Completed: 55           Percent Complete: 18.15%
          Kandahar Finding Log               FIRE PROTECTION     21 May 2012                             Responsible               Repair
Bldg #       Date        Control Number      Abstract                                                      Party       SOR         Status                       KAF Comments
                                                                                                                                             This deficiency cannot be corrected through SOR.
                                                                                                                                             This hazard was present at the time of
                                                                                                                                             assumption. Any changes will require re-design
                                             Building 041F has a rear exit that is through a hazardous                                       and addition of materials to comply with this
041F        16-May       KAF-FP-120426-289                                                               DynCorp        NO       In progress
                                             storage room.                                                                                   requirement. DI has not received governmental
                                                                                                                                             direction to provide estimate of labor and
                                                                                                                                             materials required to bring the current system
                                                                                                                                             into code compliance.
                                             There are keyed locks on the egress side of doors in the                                        4BK11210540736; Closed with pictures for
041F        16-May       KAF-FP-120426-290                                                               DynCorp        Yes       Complete
                                             Losano Medical Clinic, building 041F.                                                           verification
                                                                                                                                              DI has not received governmental direction to
                                             The Kandahar Medical Clinic has an adjacent warehouse                                           provide estimate of labor and materials required
                                                                                                                                Awaiting USG
KMC         17-May       KAF-FP-120426-291   that is of a higher hazard and is not separated by 1-hour   DynCorp        NO                   to bring the current system into code compliance.
                                                                                                                                   Decision
                                             fire resistance rated construction.                                                             a waiver may be sought from CENTCOM

                                             In the Kandahar Medical Clinic, the rear exit may not                                             Outside scope of LOGCAP O&M. Task order or
KMC         17-May       KAF-FP-120426-292                                                               DynCorp        NO       Not Started
                                             always be available to occupants.                                                                 separate contract must be executed.
                                             The Kandahar Medical Clinic has a noncompliant exit                                               Open an work order to provide landing at door in
KMC         17-May       KAF-FP-120426-293                                                               DynCorp        NO       In progress
                                             landing at the rear of the building.                                                              rear of building
                                             The Kandahar Medical Clinic has battery operated smoke                                            Outside scope of LOGCAP O&M. Task order or
KMC         17-May       KAF-FP-120426-294                                                               DynCorp        NO       Not Started
                                             detectors that are not interconnected.                                                            separate contract must be executed.
                                                                                                                                               A waiver from CENTCOM may be pursued.
                                             The Kandahar Medical Clinic has plywood construction
KMC         17-May       KAF-FP-120426-295                                                               DynCorp        NO       Not Started Outside scope of LOGCAP O&M. Task order or
                                             that is used in the exit access corridors.
                                                                                                                                               separate contract must be executed.
                                                                                                                                               The building occupants were informed of their
                                                                                                                                               responsibilities to comply with the USFOR-A Fire
                                             Vegetation has grown up to the structure of the
KMC         17-May       KAF-FP-120426-296                                                               DynCorp        NO      Awaiting final Warden Program. The inspection is the
                                             Kandahar Medical Clinic.
                                                                                                                                               responsibility under the USFOR-A Fire Prevention
                                                                                                                                               SOP 2-8(e).
                                             The RLB 7 project had wall penetrations without fire                                              Outside scope of LOGCAP O&M. Task order or
RLB 7       17-May       KAF-FP-120426-297                                                                                       Not Started
                                             barriers from living unit to living unit.                                                         separate contract must be executed.
                                             The exit access corridors have unprotected windows and                                            Outside scope of LOGCAP O&M. Task order or
RLB 7       17-May       KAF-FP-120426-298                                                                                       Not Started
                                             door openings in the RLB 7 buildings.                                 )                           separate contract must be executed.




                                                                                        Page 35 of 37



                                                                                                                                                                                     DODIG-2013-099 │ 95
                                                                                                                                                                                                   Appendices




                                                                     FIRE PROTECTION
             # of Findings: 303                                                            # Completed: 55          Percent Complete: 18.15%
              Kandahar Finding Log               FIRE PROTECTION      21 May 2012                            Responsible               Repair
  Bldg #         Date        Control Number      Abstract                                                      Party       SOR         Status                        KAF Comments

                                                 The RLB 7 living unit doors have key locks on the egress                                          Outside scope of LOGCAP O&M. Task order or
  RLB 7         17-May       KAF-FP-120426-299                                                                                       Not Started
                                                 side of the doors.                                                                                separate contract must be executed.
                                                 There is no automatic sprinkler system installed in the                                           Outside scope of LOGCAP O&M. Task order or
  RLB 7         17-May       KAF-FP-120426-300                                                                                       Not Started
                                                 RLB 7 buildings.                                                                                  separate contract must be executed.
                                                                                                                                                   A waiver from CENTCOM may be pursued.
5781, 5816      17-May       KAF-FP-120426-301   Buildings 5781 and 5816 have wood stud partitions.          DynCorp        No       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                                                                                                                   separate contract must be executed.
                                                                                                                                                   IAW NFPA 101 39.2.9.1 Emergency lighting shall
                                                                                                                                                   be provided in accordance with Section 7.9 in any
                                                                                                                                                   building where any one of the following
                                                                                                                                                   conditions exists:

                                                                                                                                                   (1)The building is three or more stories in height.

                                                                                                                                                   (2)The occupancy is subject to 100 or more
                                                 The lighting fixtures for the discharge area outside the                                          occupants above or below the level of exit
5781, 5816      17-May       KAF-FP-120426-302   exit doors are not on emergency power in buildings 5781     DynCorp        No           N/A       discharge.
                                                 and 5816.
                                                                                                                                                   (3)The occupancy is subject to 1000 or more total
                                                                                                                                                   occupants.

                                                                                                                                                   None of these conditions apply, therefore
                                                                                                                                                   emergency lighting is not required.




                                                 Buildings 5781 and 5816 have entry door thresholds that                                           4BK1121540734; Complete with pictures for
5781, 5816      17-May       KAF-FP-120426-303                                                               DynCorp        Yes       Complete
                                                 are too high.                                                                                     verification
                                                                                                                                                   A waiver from CENTCOM may be pursued.
                                                 Buildings 5781 and 5816 do not provide the required fire
5781, 5816      17-May       KAF-FP-120426-304                                                               DynCorp        No       Not Started   Outside scope of LOGCAP O&M. Task order or
                                                 sprinkler system.
                                                                                                                                                   separate contract must be executed.
                                                 The fire alarm electrical circuit breakers are not
                                                                                                                                                   Open SOR to identify breakers and secure into the
5781, 5816      17-May       KAF-FP-120426-305   identified or secured in the "on" position in buildings     DynCorp        No       in progress
                                                                                                                                                   on position
                                                 5781 and 5816.



                                                                                             Page 36 of 37



96 │ DODIG-2013-099
                                                                                                                                                                                                Appendices




                                                                  FIRE PROTECTION
          # of Findings: 303                                                            # Completed: 55           Percent Complete: 18.15%
           Kandahar Finding Log               FIRE PROTECTION      21 May 2012                             Responsible               Repair
Bldg #        Date        Control Number      Abstract                                                       Party       SOR         Status                       KAF Comments
                                                                                                                                                  The building occupants were informed of their
                                                                                                                                                 responsibilities to comply with the USFOR-A Fire
                                              The perimeter for building 5816 is overgrown with
 5816        17-May       KAF-FP-120426-306                                                                DynCorp        No        Complete     Warden Program. The inspection is the
                                              vegetation.
                                                                                                                                                 responsibility under the USFOR-A Fire Prevention
                                                                                                                                                 SOP 2-8(e).
                                              The Engineering and Stryker HQ buildings have interior
Stryker      17-May       KAF-FP-120426-307   doors that require the use of a key from the egress side      USACE         Yes      In progress   4BK1121560259
                                              of the door.
                                              The fire sprinkler seismic bracing is not compliant in the                                         New construction…potential warranty work or
Stryker      17-May       KAF-FP-120426-308                                                                 USACE         No       Not Started
                                              Engineering and Stryker HQ buildings.                                                              modification.
                                                                                                                                                 New construction…potential warranty work or
                                              The valve pits for the underground fire water supply at
                                                                                                                                                 modification.
Stryker      17-May       KAF-FP-120426-309   the Engineering and Stryker HQ buildings did not have a       USACE         No       Not Started
                                              means of protecting against the accumulation of water.
                                              The ducts for the HVAC system for the Engineering and
                                                                                                                                                 This building has been placed on the Fire Alarm
Stryker      17-May       KAF-FP-120426-310   Stryker HQ buildings do not contain duct detectors for        USACE         No       In progress
                                                                                                                                                 Technicians list to repair and return to FMC status
                                              automatic shutdown.
                                              The fire alarm system in the Engineering and Stryker HQ                                            This building has been placed on the Fire Alarm
Stryker      17-May       KAF-FP-120426-311                                                                 USACE         No       In progress
                                              buildings did not have a backup battery.                                                           Technicians list to repair and return to FMC status
                                              The out of service fire alarm system in building 543A                                              Outside scope of LOGCAP O&M. Task order or
543A         17-May       KAF-FP-120426-314                                                                DynCorp        No       Not Started
                                              poses significant risk to building occupants.                                                      separate contract must be executed.




                                                                                          Page 37 of 37



                                                                                                                                                                                         DODIG-2013-099 │ 97
Appendices




                 Appendix B Continued
                 Notice of Concerns and Responses - KAF
                 OIG Response to CENTCOM - KAF
                 We commend the Kandahar Garrison Command, and Task Force POWER on their rapid
                 response in the correction of findings identified during the assessment of Kandahar Air
                 Field, and their general agreement with all findings as indicated in their “Responses to
                 Notice of Concern (Project D2012-DT0TAD-0001/2)”, dated 26 July 2012 (see appendix
                 B). The actions described in Item 3 and the attached Finding Tracking Spreadsheets
                 (which lists status of corrective actions to our findings) appear to be a step in the right
                 direction.

                 However, although we recognize CENTCOM and TF POWER’s authority to grant exceptions
                 to electrical findings, we consider the authorization of certain electrical practices to
                 be unsafe. Item 2 of the CENTCOM response to the DoD OIG NOC states, “Some of the
                 electrical findings are governed by Technical Directive Bulletins (TDB) issued by Task
                 Force POWER (TF POWER) as Authority Having Jurisdiction5 allowing the practices.
                 Those findings are noted in Attachment 1 with explanation.”

                 We remain concerned about the installation of electrical power distribution panels
                 inside latrines as authorized by a TF Power Technical Directive Bulletin (TFP_
                 TDB_012_2011_05_23 LSS). Moisture or water in the service disconnects can cause a
                 ground fault condition, resulting in possible injury or shock hazard to personnel. Allowing
                 service disconnect in bathrooms violates NFPA 70, National Electrical Code 2008, article
                 230.70 (A) (2), which states, “Service disconnecting means shall not be installed in
                 bathrooms.” We consider the continuation of this practice to be unsafe.

                 Also, TF Power Technical Directive Bulletin (TFP_ TDB_007_2011_02_16) allows wire
                 splicing in nonmetallic raceways. This is contrary to NFPA 70, National Electrical Code
                 384.100 (A), which states, “Raceways and accessories shall be formed of steel, stainless
                 steel, or aluminum.” Raceways constructed of wood are more prone to damage and
                 deterioration, leaving conductors unprotected and exposed, and therefore the raceways
                 do not provide adequate protection or grounding, posing a risk of electrical shock to
                 personnel. We consider it unsafe to continue this practice.




                 	5	
                       Task Force POWER Overview, 12 July 2012 states tha the Task Force POWER Officer In Charge has been appointed the role
                       of Authority Having Jurisdiction (AHJ) since 2009 by USFOR-A DCG-S




98 │ DODIG-2013-099
                                                                Appendices




Appendix C
Notice of Concerns and Responses - BAF
NOC Electrical Standards Bagram Air Field (Oct 10, 2012)




                                                           DODIG-2013-099 │ 99
                                                                                                               Appendices



Bagram Finding Log Continued
Electrical	    19 August 2012

              Submittal
  Building                 Finding Number                             Abstract
                Date
                                              A metal pull box has a missing cover in Aircraft Hangar
   25059      7/19/2012   BAF-EL-120709-033   building 25059
                                              A metal receptacle box not securely mounted in
   25059      7/19/2012   BAF-EL-120709-034   Aircraft Hangar building 25059, Gym area
                                              Circuit breakers are not properly identified on a sub
   25059      7/19/2012   BAF-EL-120709-035   panel in Aircraft Hangar building 25059
                                              There are low hanging overhead power conductors
                                              strung along Disney St. A Mine Resistant Ambush
 Disney St    7/19/2012   BAF-EL-120709-036   Protected Vehicle was found with one of it's antennas
                                              in contact with one of the conductors
                                              There are metal raceway sections that are not
   25059      7/19/2012   BAF-EL-120709-037   electrically continuous (solidly bonded) in the Aircraft
                                              Hangar, building 25059
                                              There are wires in contact with sharp metal edges
   25059      7/19/2012   BAF-EL-120709-038   of raceways and enclosures in the Aircraft Hangar,
                                              building 25059
                                              A wire was found making a poor connection in sub-
   25059      7/19/2012   BAF-EL-120709-039   panel 16-18-A-1-A in Aircraft Hangar, building 25059
                                              An electrical metallic tubing installation was noted in
                           BAF-EL-120709-     the Aircraft Hangar, building 25059, with no chaffing
   25059      7/19/2012         040A          bushing installed to protect the wiring from sharp
                                              edges
                                              The hangar's high bay lighting Electrical Metallic
                           BAF-EL-120709-     Tubing (EMT) has an electrical frequency vibration and
   25059      7/20/2012         041A          is warm/hot to the touch in Aircraft Hangar, building
                                              25059
                                              The aluminum metal blank material used to cover
   25059      7/20/2012   BAF-EL-120709-042   a hole on sub-panel 16-18-A-1-A is too thin in the
                                              Aircraft Hangar, building 25059
                                              There is no main bonding jumper in the main service
   25054      7/20/2012   BAF-EL-120709-043   equipment panel 16-4-B-1 outside building 25054, a
                                              male latrine
                                              An unapproved application of underground feeder
   25048      7/20/2012   BAF-EL-120709-044   cable, and an unsecured receptacle box were found
                                              upstairs in building 25048, a medical clinic
                                              There are improperly color coded grounding
                                              conductors in the Life Safety Board (LDB[sic]) panel
   25170      7/20/2012   BAF-EL-120709-045   enclosure in the Craig Joint Theater Hospital, building
                                              25170
                                                                                                          Deleted -
                                              A junction box has an unsecured cover in the Craig
   25170      7/20/2012   BAF-EL-120709-046                                                              Duplicated
                                              Joint Theater Hospital, building 25170                       in 50




                                                                                                         DODIG-2013-099 │ 103
Appendices



      Bagram Finding Log Continued
      Electrical	       19 August 2012

                       Submittal
         Building                   Finding Number                             Abstract
                         Date
                                                       There is inadequate working clearance in front of two
          25170        7/20/2012   BAF-EL-120709-047   air- conditioner disconnects located outside the Craig
                                                       Joint Theater Hospital, building 25170
                                                       A flexible cord is being run through a doorway and
          25059        7/20/2012   BAF-EL-120709-048   exposed to physical damage in Aircraft Hangar,
                                                       building 25059
                                                       There is inadequate working clearance in front of
          25059        7/20/2012   BAF-EL-120709-049   several electrical panels in theAircraft Hangar, building
                                                       25059
                                                       Junction box and receptacle box covers are missing or
          25170        7/21/2012   BAF-EL-120709-050   unsecured in the Craig Joint Theater Hospital, building
                                                       25170
                                                       There are unprotected conductors and an unused
                                                       opening in a pump motor control box in the Craig Joint
          25170        7/21/2012   BAF-EL-120709-051   Theater Hospital, building 25170 Craig Joint Theater
                                                       Hospital
                                                       A standard junction box is installed in a damp location
          25170        7/21/2012   BAF-EL-120709-052   outside the mechanical room, at the Craig Joint
                                                       Theater Hospital, building 25170
                                                       There are numerous flexible cords and cables that
          25170        7/21/2012   BAF-EL-120709-053   have the outer sheath pulled out of equipment boxes
                                                       in the Craig Joint Theater Hospital, building 25170
                                                       The load connected to the branch circuit in the Aircraft
          25059        7/21/2012   BAF-EL-120709-054   Hanger, building 25059, exceeds the branch circuit
                                                       capacity
                                                       A liquidtight flexible metal conduit is strapped by
          25170        7/21/2012   BAF-EL-120709-055   non- listed means in the Craig Joint Theater Hospital,
                                                       building 25170
                                                       There is a defective Ground-Fault Current Interrupter
          25180        7/21/2012   BAF-EL-120709-056   (GFCI) receptacle in building 25180, the Letterman
                                                       Barracks
                                                       A junction box is unsecured in a male latrine, building
         25118A        7/23/2012   BAF-EL-120709-057   25118A
                                                       There are several loose grounding strap bolts in
          25180        7/23/2012   BAF-EL-120709-058   building 25180, the Letterman Barracks
                                                       A flexible cord was found attached to the floor in place
          25180        7/23/2012   BAF-EL-120709-059   of fixed wiring in the Letterman Barracks, building
                                                       25180
                                                       There is a broken handle for the main disconnect box
          25180        7/23/2012   BAF-EL-120709-060   outside the Letterman Barracks, building 25180
                                                       There are unlisted floor mounted receptacle outlet
          15817        7/23/2012   BAF-EL-120709-061   boxes and listed receptacle outlet boxes missing
                                                       covers in the Enduring Faith Chapel, building 15817




104 │ DODIG-2013-099
                                                                                                              Appendices



Bagram Finding Log Continued
Electrical	    19 August 2012

              Submittal
  Building                 Finding Number                            Abstract
                Date
                                              Three receptacle boxes and receptacle mounting
   15817      7/23/2012   BAF-EL-120709-062   attachments were found loose at the Enduring Faith
                                              Chapel, building 15817
                                              A main power panel was found severely damaged at
   15817      7/23/2012   BAF-EL-120709-063   the Enduring Faith Chapel, building 15817
                                              Several unused openings were found in distribution
   15817      7/23/2012   BAF-EL-120709-064   panel 15-33.6-A-2 and other electrical boxes at
                                              Enduring Faith Chapel, building 15817
                                              Wiring for an air-conditioning unit's disconnect is not
   15817      7/23/2012   BAF-EL-120709-065   protected from water damage outside Enduring Faith
                                              Chapel, building 15817
                                              A flexible cord was found attached to the baseboard
   15916      7/23/2012   BAF-EL-120709-066   with a drywall screw in the Chapel Annex, building
                                              15916
                                              Nonmetallic-sheathed cable (NM) was noted in the
   15916      7/23/2012   BAF-EL-120709-067   Chapel Annex, building 15916, in a surface mounted
                                              application which is not approved
                                              There is inadequate protection for Nonmetallic-
   15916      7/23/2012   BAF-EL-120709-068   sheathed cable and wiring at a light switch box in the
                                              Blessed Sacrament Chapel in building 15916
                                              Energized wires were left exposed outside the
   15817      7/23/2012   BAF-EL-120709-069   Enduring Faith Chapel, building 15817
                                              A receptacle junction box is not securely fastened in
   15920      7/23/2012   BAF-EL-120709-070   place at Moral, Welfare & Recreation (MWR), building
                                              15920
                                              A Flexible cord is being used as a substitute for fixed
   15920      7/23/2012   BAF-EL-120709-071   wiring at Moral, Welfare & Recreation (MWR), building
                                              15920
                                              The grounding electrode conductor for the Safety
   15813      7/23/2012   BAF-EL-120709-072   Office, building 15813, is not protected from physical
                                              damage
                                              An underground feeder (UF) rated cable is used in
  16534B      7/23/2012   BAF-EL-120709-073   an unapproved application outside the Century Post,
                                              building 16534B, in Camp McCool
                                              A Service Panel powered directly from a transformer
                                              has no disconnecting means or overcurrent protection
  16534B      7/23/2012   BAF-EL-120709-074   outside a Sentry Post, building 16534B at Camp
                                              McCool
                                              An energized exhaust fan's flexible cord is damaged
   16530      7/23/2012   BAF-EL-120709-075   exposing wire conductors in a male shower, building
                                              16530 in Camp McCool




                                                                                                        DODIG-2013-099 │ 105
Appendices



      Bagram Finding Log Continued
      Electrical	       19 August 2012

                       Submittal
         Building                   Finding Number                             Abstract
                         Date
                                                       There is Nonmetallic (NM) sheathed cable used in
                                                       an unapproved surface mounted application in the
         16533B        7/23/2012   BAF-EL-120709-076   Medical Clinic Bunker 6, building 16533B in Camp
                                                       McCool
         26002B,                                       There are no readily accessible power disconnection
         26002C,                                       means for Chigo air-conditioning units located at "B
                       7/23/2012   BAF-EL-120709-077
           and                                         Hut" buildings 26002B, 26002C, and 26002D in Camp
         26002D                                        McCool
                                                       There are unprotected energized air-conditioner wires
         26002B        7/23/2012   BAF-EL-120709-078   at B Hut 26002B in Camp McCool
                                                       There is an unapproved wire splice in an air-
          15920        7/24/2012   BAF-EL-120709-079   conditioner cable at Moral, Welfare & Recreation
                                                       (MWR), building 15920
                                                       There is Nonmetallic (NM) sheathed cable used in an        Camp
          15849        7/25/2012   BAF-EL-120709-080   unapproved surface mount application at Camp Alpha         Alpha
                                                       laundry room/recreation room, building 15849
                                                       There is inadequate working clearance in front of two      Camp
          15849        7/25/2012   BAF-EL-120709-081   distribution panels at the Camp Alpha laundry room,        Alpha
                                                       building 15849
                                                       There is an unused opening in a junction box directly      Camp
          15849        7/25/2012   BAF-EL-120709-082   west of distribution panel 15-16.02-B-3 at the Camp        Alpha
                                                       Alpha laundry room, building 15849
                                                       There is a mounting screw missing from a receptacle
                                                       causing a loose faceplate at the Camp Alpha                Camp
          15849        7/25/2012   BAF-EL-120709-083   recreation room, building 15849, upstairs near the         Alpha
                                                       stairwell doorway
                                                       There is 4" PVC electrical conduit that is not glued       Camp
          15851        7/25/2012   BAF-EL-120709-084   and is separating at the joints outside the Rooster        Alpha
                                                       Barracks, building 15851
                                                       There is Nonmetallic (NM) sheathed cable used in an        Camp
         15837A        7/24/2012   BAF-EL-120709-085   unapproved application in a "B-Hut", building 15837A       Alpha
                                                       in Camp Alpha
                                                       An unsafe junction box was found in a "B-Hut"              Camp
         15837A        7/24/2012   BAF-EL-120709-086   building 15837A, in Camp Alpha                             Alpha
                                                       Two flexible cords were found missing the ground
                                                       prongs on their plugs in the motor pool repair facility,   Camp
         15856A        7/25/2012   BAF-EL-120709-087   building 15856A, and outside building 15783 in Camp        Alpha
                                                       Alpha
                                                       One portable lampholder was found damaged and              Camp
          15783        7/25/2012   BAF-EL-120709-088   another was of the incorrect type at the motor pool        Alpha
                                                       repair facility building 15783, Camp Alpha




106 │ DODIG-2013-099
Appendices



      Bagram Finding Log Continued
      Electrical	       19 August 2012

                       Submittal
         Building                   Finding Number                             Abstract
                         Date
                                                       There is a conduit entering through the door opening
          66482        7/26/2012   BAF-EL-120709-103   of a panel in the Battalion Headquarters, building           DFIP
                                                       66482, in the Detention Facility in Parwan (DFIP)
                                                       There are unsupported cables at the Main Distribution
                                                       Panel-4 of the KIOSK4 Power Distribution Center,
          66482        7/26/2012   BAF-EL-120709-104                                                                DFIP
                                                       beside building 66482 in the Detention Facility in
                                                       Parwan (DFIP)
                                                       There are unprotected cables running out of a conduit
                                                       body opening into the back of a panel outside the
          66482        7/26/2012   BAF-EL-120709-105                                                                DFIP
                                                       server room in the Battalion Head Quarters, building
                                                       66482 in the Detention Facility in Parwan (DFIP)
                                                       A conduit pull box is missing a cover in the Repair and
          66477        7/26/2012   BAF-EL-120709-106   Utility Facility, building 66477 in the Detention Facility   DFIP
                                                       in Parwan (DFIP)
                                                       There is a damaged dead front cover in a panel
          66477        7/26/2012   BAF-EL-120709-107   enclosure, in the Repair and Utility Facility, building      DFIP
                                                       66477 in the Detention Facility in Parwan (DFIP)
                                                       There is no overload protection for a new grinder
            Lift       7/26/2012   BAF-EL-120709-108   pump motor in the sewage Lift Station 1, at the              DFIP
         Station 1                                     Detention Facility In Parwan (DFIP)
                                                       Panel BCP-L&P-MP8 is missing a dead front cover
                                    BAF-EL-120709-
          66482        8/10/2012                       leaving energized electrical parts exposed in building       DFIP
                                         109A          66482 in the Detention Facility in Parwan (DFIP)
                                                       The new grinder pump motors in the sewage Lift
            Lift       7/27/2012   BAF-EL-120709-110   Station 1 have no disconnecting means, at the                DFIP
         Station 1                                     Detention Facility In Parwan (DFIP)
                                                       A junction box was found open with conductors
            Lift       7/27/2012   BAF-EL-120709-111   exposed to physical damage near Lift Station 2 at the        DFIP
         Station 1                                     Detention Facility In Parwan (DFIP)
                                                       There is improperly supported and unsecured conduit
            Lift       7/27/2012   BAF-EL-120709-112   at Lift Station 2 of the Detention Facility in Parwan        DFIP
         Station 1                                     (DFIP)
                                                       An unapproved junction box cover was found in
          66691        7/27/2012   BAF-EL-120709-113   building 66691, at the Detention Facility in Parwan          DFIP
                                                       (DFIP)
                                                       There is an unprotected ground cable running through
          66691        7/27/2012   BAF-EL-120709-114   a hole in the Medical Housing Unit, building 66691 in        DFIP
                                                       the Detention Facility in Parwan (DFIP)
                                                       A water heater with inaccessible power wiring was
          66691        7/27/2012   BAF-EL-120709-115   found in the Medical Housing Unit, building 66691 in         DFIP
                                                       the Detention Facility in Parwan (DFIP)




108 │ DODIG-2013-099
Appendices



      Bagram Finding Log Continued
      Electrical	       19 August 2012

                       Submittal
         Building                   Finding Number                             Abstract
                         Date
                                                       A flexible cord was not properly attached to the cord's
          25209        7/24/2012   BAF-EL-120709-130   plug at the PAX terminal, building 25209
                                                       There is an unused opening in a junction box at
          25032        7/26/2012   BAF-EL-120709-131   Distinguished Visitor's (DV) billeting quarters, building
                                                       25032
                                                       A small refrigerator was found with an improper splice
          25209        7/25/2012   BAF-EL-120709-132   in the flexible cord in the palletization room of the PAX
                                                       terminal, building 25209
        15804 and                                      Power strips were found run in series in buildings
          15805        7/28/2012   BAF-EL-120709-133   15804 and 15805
                                                       There are no readily accessible power disconnecting
        15804 and      7/28/2012   BAF-EL-120709-134   means for Chigo air-conditioning units located at
          15805                                        buildings 15804 and 15805
                                                       There are exposed and abandoned energized wires
          15805        7/28/2012   BAF-EL-120709-135   outside Motel 8, building 15805
                                                       There are unused openings in the panel box inside
          15805        7/28/2012   BAF-EL-120709-136   Motel 8, building 15805
                                                       A flexible cord was found routed through a doorway in
          15804        7/28/2012   BAF-EL-120709-137   Motel 6, building 15804
                                                       There is inadequate working clearance in front of two
          15804        7/28/2012   BAF-EL-120709-138   power panels in Motel 6, building 15804
                                                       Electrical metallic tubing (EMT) conduit was found
          15804        7/28/2012   BAF-EL-120709-139   damaged in Motel 6, building 15804
                                                       There is no lighting provided in a "storage closet"
          15804        7/28/2012   BAF-EL-120709-140   where electrical panels are located in Motel 6,
                                                       building 15804
                                                       Several floor mounted receptacle mounting boxes             Camp
          15854        7/26/2012   BAF-EL-120709-141   are missing the protective receptacle covers at Camp        Alpha
                                                       Alpha Gym, building 15854
                                                       Two plug ground prongs were found broken off inside
                                                       wall receptacles in Camp Alpha, one in the Joint            Camp
          15735        7/26/2012   BAF-EL-120709-142   Operation Center (JOC), building 15735 and one in the       Alpha
                                                       Chapel Annex, building 15835A
                                                       A flexible cord (power strip) is used as a substitute       Camp
         15835B        7/26/2012   BAF-EL-120709-143   for fixed wiring at Camp Alpha Commons Memorial             Alpha
                                                       Chapel, building 15835B
                                                       There are nonmetallic, plastic, "nail on" style             Camp
         15835B        7/26/2012   BAF-EL-120709-144   receptacle outlet boxes used in an unapproved               Alpha
                                                       application in building 15835B at Camp Alpha
                                                       A receptacle outlet located within 6 feet of a sink is      Camp
          15843        7/27/2012   BAF-EL-120709-145   not GFCI protected at the Speer Clinic, building 15843,     Alpha
                                                       in Camp Alpha




110 │ DODIG-2013-099
                                                                                                                Appendices



Bagram Finding Log Continued
Electrical	    19 August 2012

              Submittal
  Building                 Finding Number                             Abstract
                Date
                                              There is a Nonmetallic (NM) sheathed cable used in an         Camp
   15843      7/30/2012   BAF-EL-120709-146   unapproved application at the Speer Clinic, building          Alpha
                                              15843, Camp Alpha
                                              There are no readily accessible means of disconnect           Camp
   15843      7/30/2012   BAF-EL-120709-147   for air-conditioners outside of the Speer Clinic,             Alpha
                                              building 15843, in Camp Alpha
                                              There is an open ground circuit and reversed polarity
                           BAF-EL-120709-     condition at all wall receptacles tested in building
   15915      7/27/2012         148A          15915, Military Police Station/Bagram Provost Marshal
                                              Office
                                              There is an unlocked knife switch power panel at
   15915      7/27/2012   BAF-EL-120709-149   Military Police Station/Bagram Provost Marshal Office,
                                              building 15915
                                              There is no main bonding jumper in the first
  32470B      7/29/2012   BAF-EL-120709-150   disconnecting means in the service panel in the Power
                                              Station Control Building, 32470B
                                              There is an exposed underground service entrance
                                              cable that is not protected from damage entering the
   15915      7/29/2012   BAF-EL-120709-151   Military Police Station/Bagram Provost Marshal Office,
                                              building 15915
                                              The grounding contacts are missing from some
   24094      7/29/2012   BAF-EL-120709-152   shredder power cord plugs in the Garrison Command
                                              Building, 24094
                                              The panel doors of the "Balance of Plant Panel
                                              (SCADA) 00-BOP-PANEL" are not adequately bonded
  32470B      7/29/2012   BAF-EL-120709-153   to the enclosure in the Power Station Control Building,
                                              32470B
                                              There were several examples of power strips and
                                              extension cords found run in series in rooms 112, 114,
   24094      7/29/2012   BAF-EL-120709-154   213, and the Main Conference Room in the Garrison
                                              Command Building, building 24094
                                              There are no readily accessible power disconnection
   24094      7/29/2012   BAF-EL-120709-155   means for Chigo type air-conditioning units located at
                                              the Garrison Command Building 24094
                                              There is inadequate working clearance in front
   14993      7/29/2012   BAF-EL-120709-156   of electrical panel 15-4-B-3 in the Dragon Arena/
                                              Basketball Court Tent, building 14993
                                              There are electrical receptacles filled with paint at the
   24094      7/30/2012   BAF-EL-120709-157   Garrison Command, building 24094
                                              There is an unused opening in an outlet box in the
   14993      7/30/2012   BAF-EL-120709-158   Dragon Arena/ Basketball Court Tent, building 14993.
                                              There is a floor use type receptacle outlet box missing
   14993      7/30/2012   BAF-EL-120709-159   its cover in the Dragon Arena/Basketball Court Tent,
                                              building 14993




                                                                                                          DODIG-2013-099 │ 111
Appendices



      Bagram Finding Log Continued
      Electrical	       19 August 2012

                       Submittal
         Building                   Finding Number                             Abstract
                         Date
                                                       There is a loose receptacle box in the Dragon Arena
          14993        7/30/2012   BAF-EL-120709-160   Basketball Court Tent, building 14993
                                                       There is an open ground circuit in an extension cord
          14993        7/30/2012   BAF-EL-120709-161   tested in the Dragon Arena Basketball Court Tent,
                                                       building 14993
                                                       There is a distribution panel missing the circuit
          15920        7/30/2012   BAF-EL-120709-162   directory at Moral, Welfare & Recreation (MWR)
                                                       building 15920
                                                       A defective Ground-Fault Circuit Interrupter (GFCI) was
          25209        7/30/2012   BAF-EL-120709-163   observed on the outside wall of PAX terminal, building
                                                       25209
                                                       There are several lampholders with broken and
          15804        7/27/2012   BAF-EL-120709-164   missing parts mounted on the exterior walls of Motel
                                                       6, building 15804
                                                       There are numerous flexible cords being used as a
          15804        7/27/2012   BAF-EL-120709-165   substitution for fixed wiring in "Motel 6", building
                                                       15804
                                                       There is a metal pull box not grounded/bonded in the
          24094        7/30/2012   BAF-EL-120709-166   Female latrine room 106 at the Garrison Command
                                                       Building, 24094
                                                       There is a junction box with exposed energized wiring
          24094        7/30/2012   BAF-EL-120709-167   near the attic access ladder in the Garrison Command
                                                       Building 24094
                                                       A flexible cord was found missing the ground prong on
          14993        7/30/2012   BAF-EL-120709-168   the plug in the Dragon Arena/Basketball Court Tent,
                                                       building 14993
                                                       There are numerous instances of Nonmetallic (NM)
         14843A        7/31/2012   BAF-EL-120709-169   sheathed cable used in unapproved applications
                                                       throughout the Main Post Exchange, building 14843A
                                                       Standard interior receptacles are installed on the
                                                       outside of building 25108, where weatherproof boxes
          25108        7/31/2012   BAF-EL-120709-170   and Ground-Fault Circuit Interrupter (GFCI) protected
                                                       receptacles are required
                                                       There are numerous instances of Nonmetallic (NM)
          25108        7/31/2012   BAF-EL-120709-171   sheathed cable used in unapproved applications
                                                       throughout the "The Attic", building 25108
                                                       There are unused openings in junction boxes and
         14843A        7/31/2012   BAF-EL-120709-172   panelboards at the Main Post Exchange, Building
                                                       14843A
                                                       There is inadequate working clearance in front of
         14843A        7/31/2012   BAF-EL-120709-173   several panels at the Main Post Exchange, building
                                                       14843A




112 │ DODIG-2013-099
                                                                                                             Appendices



Bagram Finding Log Continued
Electrical	    19 August 2012

              Submittal
  Building                 Finding Number                            Abstract
                Date
                                              There are several examples of power strips and
  14843A      7/31/2012   BAF-EL-120709-174   extension cords found run in series at the Main Post
                                              Exchange, building 14843A
                                              A power strip receptacle was found with an open
                           BAF-EL-120709-     ground circuit and reversed polarity condition in the
  14843A      7/31/2012         175A          "cashier's cage" of the Main Post Exchange, building
                                              14843A
                                              A dry location junction box was found being used in a
  14843A      7/31/2012   BAF-EL-120709-176   damp/wet location outside of the Main Post Exchange,
                                              building 14843A
                                              There are no readily accessible power disconnecting
  14843A      7/31/2012   BAF-EL-120709-177   means for the refrigeration coolers in the Main Post
                                              Exchange, building 14843A
   Power                                      There is an open wire-way near the center of the dike
              7/31/2012   BAF-EL-120709-178
   Plant                                      of the fuel storage tank area outside the power plant
                                              A flexible cord is used in an unapproved manner being
  14843A      7/31/2012   BAF-EL-120709-179   routed through a hole in the wall in the Main Post
                                              Exchange, building 14843A
                                              There is an ineffective ground rod connection outside
  14843A      7/31/2012   BAF-EL-120709-180   the Main Post Exchange, building 14843A.
                                              There is a damaged conduit with insulated conductors
   Power      7/31/2012   BAF-EL-120709-181   exposed within the fuel tank storage dike area at the
   Plant                                      Power Plant
                                              There is an unused opening in an outlet receptacle box
   25108      7/31/2012   BAF-EL-120709-182   in the Air Force Moral Welfare and Recreation (MWR)
                                              Center, building 25108
                                              There are numerous missing light bulbs on a light
                                              string on the outside of the building at the Air Force
   25108      7/31/2012   BAF-EL-120709-183   Moral Welfare and Recreation (MWR) Center, building
                                              25108
                                              A flexible cord has the outer sheath pulled out of the
   25108      7/31/2012   BAF-EL-120709-184   rear of the plug at the Air Force Moral Welfare and
                                              Recreation (MWR) Center, building 25108
                                              There is inadequate working clearance in front of
   25108      7/31/2012   BAF-EL-120709-185   a circuit panel at the Air Force Moral Welfare and
                                              Recreation (MWR) Center, building 25108
                                              An AR-5000 power convertor was found showing an
                           BAF-EL-120709-     open ground circuit and reversed polarity condition at
   25108      7/31/2012         186A          the Air Force Morale Welfare and Recreation (MWR)
                                              Center, building 25108
                                              There is inadequate working clearance in front of the
   27328      8/1/2012    BAF-EL-120709-187   disconnect box for the jockey pump in the AC-130
                                              Hangar Fire Pump House, building 27328




                                                                                                       DODIG-2013-099 │ 113
Appendices



      Bagram Finding Log Continued
      Electrical	       19 August 2012

                       Submittal
         Building                   Finding Number                             Abstract
                         Date
                                                       There are improperly color coded insulated grounding
          27328        8/1/2012    BAF-EL-120709-188   conductors in the AC-130 Hangar Pump House,
                                                       building 27328
                                                       There are inaccessible junction boxes in a hallway and
          27331        8/1/2012    BAF-EL-120709-189   office room area in the AC-130 Hangar, building 27331
                                                       There is inadequate working clearance in front of
          27337        8/1/2012    BAF-EL-120709-190   several panels in the Sheet Metal Shop, building 27337
                                                       There is no automatic charging means for the fire
          27328        8/2/2012    BAF-EL-120709-191   pump batteries in the AC-130 Hangar Fire Pump
                                                       House, building 27328
                                                       The jockey pump disconnect is not properly grounded
          27328        8/2/2012    BAF-EL-120709-192   in the Fire Pump House for the AC-130 Hangar,
                                                       building 27328
                                                       Multiple extension cords are plugged into each other
          27331        8/2/2012    BAF-EL-120709-193   ("daisy chained") and are of the wrong type at the AC-
                                                       130 Aircraft Hangar, building 27331
                                                       There are unsecured receptacles and a faceplate in the
          27337        8/2/2012    BAF-EL-120709-194   Sheet Metal Shop, building 27337
                                                       There is a loose ground connection in the AC-130
          27328        8/2/2012    BAF-EL-120709-195   Hangar Fire Pump House, building 27328
                                                       There are live parts not being guarded from contact,
          27331        8/2/2012    BAF-EL-120709-196   by an approved enclosure, in the smoke shack outside
                                                       of the AC-130 Hanger, building 27331
                                                       Two flexible cords were found to be missing the
          27331        8/2/2012    BAF-EL-120709-197   grounding contact pin (ground prong) in the AC-130
                                                       Aircraft Hangar, Building 27331
                                                       A flexible cord (extension cord) has the outer sheath
          27331        8/2/2012    BAF-EL-120709-198   pulled out of the plug exposing the conductor wires to
                                                       damage at the AC-130 Aircraft Hangar, building 27331
                                                       There is a flexible cord with a broken ground prong
          27337        8/2/2012    BAF-EL-120709-199   found in the Sheet Metal Shop, building 27337
                                                       There is inadequate working clearance in front of the
          25021        8/2/2012    BAF-EL-120709-200   electrical panel in the transient lodging tent, building
                                                       25021
                                                       There is an unsupported switch box hanging by
          25021        8/2/2012    BAF-EL-120709-201   conductors in Hotel California, building 25021
                                                       There are two Liquidtight Flexible Metal Conduit
          27331        8/3/2012    BAF-EL-120709-202   (LFMC) fittings not properly connected at the AC-130
                                                       aircraft hangar, Building 27331
                                                       There is a service disconnect located inside of a
          27331        8/3/2012    BAF-EL-120709-203   bathroom in the shower stall at the AC-130 Aircraft
                                                       Hangar, building 27331




114 │ DODIG-2013-099
                                                                                                              Appendices



Bagram Finding Log Continued
Electrical	    19 August 2012

              Submittal
  Building                 Finding Number                            Abstract
                Date
                                              There are two light fixtures in the men's latrine
   27331      8/3/2012    BAF-EL-120709-204   that are no longer suitable for use in a "damp/wet"
                                              location in the AC-130 Aircraft Hangar, building 27331
                                              There was a multiple outlet device connected to an
   25021      8/3/2012    BAF-EL-120709-205   extension cord (daisy chained) in the transient housing
                                              tent, building 25021
                                              A flexible cord was found used in place of fixed wiring
   25018      8/3/2012    BAF-EL-120709-206   in the hallway in Camp Cunningham Housing, building
                                              25018
                                              There is an unsecured conduit pull box cover
   25012      8/3/2012    BAF-EL-120709-207   connection to a generator outside of Camp
                                              Cunningham Housing, building 25012
                                              There are several missing or broken receptacle
   25012      8/3/2012    BAF-EL-120709-208   faceplates in Camp Cunningham Housing, building
                                              25012
                                              There are several light fixtures missing covers in Camp
   25012      8/3/2012    BAF-EL-120709-209   Cunningham Housing, building 25012
                                              A junction box was found with a missing cover in
   25012      8/3/2012    BAF-EL-120709-210   Camp Cunningham Housing, building 25012
                                              There is inadequate working clearance in front of
   25003      8/3/2012    BAF-EL-120709-211   electrical panels in Camp Cunningham Housing,
                                              building 25003
                                              There are several light fixtures missing covers in Camp
   25003      8/3/2012    BAF-EL-120709-212   Cunningham Housing, building 25003
                                              The grounding and grounded conductors are
   25018      8/3/2012    BAF-EL-120709-213   improperly color coded in Camp Cunningham Housing,
                                              building 25018
                                              There is a defective Ground-Fault Circuit Interupter
   25003      8/4/2012    BAF-EL-120709-214   (GFCI) receptacle in a latrine in Camp Cunningham
                                              Housing, building 25003
                                              Electrical Nonmetallic Tubing (ENT) is not continuous
   25003      8/4/2012    BAF-EL-120709-215   and therefore not providing the proper conductor
                                              protection in building 25003
                                              There are no means of disconnect within sight from
   25003      8/4/2012    BAF-EL-120709-216   water heaters at Camp Cunningham Housing, building
                                              25003
                                              A weatherproof receptacle has its cover broken off at
   25003      8/4/2012    BAF-EL-120709-217   Camp Cunningham Housing, building 25003
                                              There are no readily accessible power disconnecting
   25003      8/4/2012    BAF-EL-120709-218   means for Chigo air-conditioning units located at
                                              Camp Cunningham Housing, building 25003
                                              There are unused openings in a light switch box and
   25112      8/4/2012    BAF-EL-120709-219   junction box at the Old Russian Tower, building 25112




                                                                                                        DODIG-2013-099 │ 115
Appendices



      Bagram Finding Log Continued
      Electrical	       19 August 2012

                       Submittal
         Building                   Finding Number                            Abstract
                         Date
                                                       The insulated conductors hanging in the showers in
          25003        8/4/2012    BAF-EL-120709-220   building 25003 are not listed for wet/damp locations
                                                       and are not properly terminated to the junction box
                                                       Several outlet devices (power strips) and extension
          24299        8/4/2012    BAF-EL-120709-221   cords were found connected in series at the USO,
                                                       Building 24299
                                                       There is an unused opening in a junction box in a male
         25023A        8/4/2012    BAF-EL-120709-222   latrine, building 25023A
                                                       A Ground-Fault Circuit Interrupter (GFCI) receptacle
         25023A        8/4/2012    BAF-EL-120709-223   outlet box was found with a broken cover at a male
                                                       latrine in Camp Cunningham, building 25023A
                                                       There are floor use receptacle outlet boxes missing the
         25117A        8/4/2012    BAF-EL-120709-224   covers in the Pebble Fitness Center, building 25117A
                                                       A grounding prong was found broken off inside a
         25117A        8/4/2012    BAF-EL-120709-225   floor receptacle in the Pebble Fitness Center, building
                                                       25117A
                                                       There is inadequate working clearance in front of the
         25117A        8/4/2012    BAF-EL-120709-226   electrical panel in the Pebble Fitness Center, building
                                                       25117A
                                                       Non-metallic wiring is surface mounted without
         25117A        8/4/2012    BAF-EL-120709-227   proper protection or support in the Pebble Fitness
                                                       Center, building 25117A
                                                       A grounding prong was found broken off inside a floor
          25218        8/4/2012    BAF-EL-120709-228   receptacle in the Learning Resource Center, building
                                                       25218
                                                       There are two outlet boxes missing covers in the
          25218        8/4/2012    BAF-EL-120709-229   Learning Resource Center, building 25218
                                                       There are numerous flexible cords missing the
          25107        8/4/2012    BAF-EL-120709-230   grounding contacts at The Rock Fitness Center,
                                                       building 25107
                                                       There is unsupported nonmetalic (NM) cable
          25218        8/4/2012    BAF-EL-120709-231   throughout building 25218
                                                       Electrical Metallic Tubing (EMT) is missing locking/
          25107        8/5/2012    BAF-EL-120709-232   bonding nuts at The Rock Fitness Center, Building
                                                       25107
                                                       There are no readily accessible power disconnecting
         25023B                                        means for the Chigo air-conditioning units in the
           and         8/5/2012    BAF-EL-120709-233   B-Huts in Camp Cunningham, buildings 25023B and
         25124A                                        25124A
         25023B,                                       There is surface mounted non-metallic (NM) cable
         25023D                                        without proper protection or support units inside
                       8/5/2012    BAF-EL-120709-234
           and                                         and underneath the B-Huts in Camp Cunningham,
         25124A                                        buildings 25023B, 25023D and 25124A




116 │ DODIG-2013-099
                                                                                                                Appendices



Bagram Finding Log Continued
Electrical	    19 August 2012

              Submittal
  Building                 Finding Number                             Abstract
                Date
                                              There are no automatic charging means for the
                                              batteries that start the two pump engines in the fire
   35587      8/5/2012    BAF-EL-120709-235   pump room, building 35587 for the Air Traffic Control
                                              Tower
                                              A flexible cord was found being used as a substitute
   25107      8/5/2012    BAF-EL-120709-236   for fixed wiring at The Rock Fitness Center, building
                                              25107.
                                              Unused openings were found on three junction boxes
   25107      8/5/2012    BAF-EL-120709-237   at The Rock Fitness Center, building 25107
                                              There is a defective Atlas SVC 5000 power convertor/
                           BAF-EL-120709-
   25107      8/5/2012                        regulator powering the refrigerator in The Rock Fitness
                                238A          Center, building 25107
                                              There is inadequate working clearance in front of
  35586B      8/5/2012    BAF-EL-120709-239   several panels in the Air Traffic Control Tower, building
                                              35586B
                                              There is no main bonding jumper connected in the
   35991      8/5/2012    BAF-EL-120709-240   main service disconnect for the building, located
                                              outside the Approach Control, building 35991
                                              There are service disconnects located in two bathroom
  35586B      8/5/2012    BAF-EL-120709-241   areas in the Air Traffic Control Tower, building 35586B
                                              A Ground-Fault Circuit Interrupter (GFCI) receptacle is
  35586B      8/5/2012    BAF-EL-120709-242   not properly secured at the Air Traffic Control Tower,
                                              building 35586B
                                              A section of Electrical Metallic Tubing (EMT) is not
  35586B      8/5/2012    BAF-EL-120709-243   properly attached to a junction box at the Air Traffic
                                              Control Tower, Building 35586B
                                              There is a broken light fixture being supported by the
  35586B      8/5/2012    BAF-EL-120709-244   insulated conductors observed outside the Air Traffic
                                              Control Tower, building 35586B.
                                              There is an improper splice in a Tripp-Lite
   25209      8/6/2012    BAF-EL-120709-245   Uninterrupted Power Supply (UPS) power cord found
                                              in the PAX terminal, building 25209
                                              There are multiple enclosures without equipment
  35586B      8/6/2012    BAF-EL-120709-246   identification labeling in the electrical room of the Air
                                              Traffic Control Tower, building 35586B
                                              A desktop fan was found hanging from it's flexible
   25058      8/6/2012    BAF-EL-120709-247   cord at the "Snack Shack", building 25058
                                              Receptacles installed inside and outside of building
                                              35762 where Ground-Fault Circuit Interrupter (GFCI)
   35762      8/6/2012    BAF-EL-120709-248   protected receptacles are required, were tested and
                                              found to not be GFCI protected
                                              There is an unused opening in a panelboard at the
   35768      8/6/2012    BAF-EL-120709-249   Housing Office, building 35768.




                                                                                                          DODIG-2013-099 │ 117
Appendices



      Bagram Finding Log Continued
      Electrical	       19 August 2012

                       Submittal
         Building                   Finding Number                             Abstract
                         Date
                                                       There is a refrigerator with a missing grounding prong
          35768        8/6/2012    BAF-EL-120709-250   in the Housing Office, building 35768
                                                       There is no dedicated equipment space in front of the
          27331        8/6/2012    BAF-EL-120709-251   motor control center at the AC-130 Aircraft Hangar,
                                                       building 27331
                                    BAF-EL-120709-     Three power transformers were found to be defective
          35770        8/6/2012          252A          at the AMC Laundry Facility, building 35770
                                                       There is inadequate working clearance in front of the
          35770        8/6/2012    BAF-EL-120709-253   electrical panel in the AMC Laundry Facility, building
                                                       35770
                                                       There is unsecured and unsupported conduit outside
          35770        8/6/2012    BAF-EL-120709-254   the AMC Laundry Facility, building 35770
                                                       There is a junction box on an outside wall not
          35770        8/6/2012    BAF-EL-120709-255   grounded, and not rated for outdoor use at the AMC
                                                       Laundry Facility, building 35770
                                                       There is a flexible cord that has the outer sheath
          35770        8/6/2012    BAF-EL-120709-256   pulled out of plug at the AMC Laundry Facility
                                                       A receptacle faceplate is broken and wires entering
          35762        8/8/2012    BAF-EL-120709-257   the box are not protected from damage at Sabre
                                                       Recreation Building 35762
                                                       During inspection of building 16844, Water Treatment
          16844        8/8/2012    BAF-EL-120709-258   Plant #2, it was observed that a branch circuit was
                                                       overloaded
                                                       There is no readily available disconnecting means for
         35771C        8/8/2012    BAF-EL-120709-259   an air-conditioner in the Re-locatable Building (RLB)
                                                       room 246, in building 35771C
                                                       A receptacle tested indicates an open ground circuit
                                    BAF-EL-120709-
          35762        8/8/2012                        and reversed polarity condition at the Sabre Morale,
                                         260A          Welfare and Recreation Center (MWR), building 35762
         24087B                                        There are no automatic charging means for the fire
           and         8/9/2012    BAF-EL-120709-261   pump engine batteries in the two Fire Pump Rooms,
         24087C                                        buildings 24087B and 24087C
                                                       A flexible cord is being used as a substitute for fixed
          24095        8/9/2012    BAF-EL-120709-262   wiring in the 1st floor conference room of the 455th
                                                       Air Expeditionary Wing, building 24095
                                                       Power strips were found run in series inside various
          24095        8/9/2012    BAF-EL-120709-263   offices at the 455th Air Expeditionary Wing, building
                                                       24095
                                                       Two non-listed power converters were found wired
                                                       with exposed energized conductors on the outside of
          24095        8/9/2012    BAF-EL-120709-264   the device in the 455th Air Expeditionary Wing (AEW),
                                                       building 24095




118 │ DODIG-2013-099
                                                                                                               Appendices



Bagram Finding Log Continued
Electrical	    19 August 2012

              Submittal
  Building                 Finding Number                             Abstract
                Date
                                              Three branch circuits were found overloaded in the
   24095      8/10/2012   BAF-EL-120709-265   455th Air Expeditionary Wing, building 24095
                                              There are improperly secured receptacles with
   24095      8/10/2012   BAF-EL-120709-266   attached faceplate at the 455th Air Expeditionary
                                              Wing, building 24095
                                              There is an unidentified disconnect in the mechanical
   24095      8/10/2012   BAF-EL-120709-267   room of the 455th Air Expeditionary Wing,building
                                              24095
                                              There are two instances of improper conduit
   24095      8/10/2012   BAF-EL-120709-268   connections in the mechanical room of the 455th Air
                                              Expeditionary Wing, building 24095
                                              A pull box cover was found not properly secured in the
   24095      8/10/2012   BAF-EL-120709-269   mechanical room of building 24095
                                              Several broken or missing faceplates and missing
   24095      8/10/2012   BAF-EL-120709-270   receptacles exposing live wires were found in offices in
                                              building 24095
                                              An unsafe receptacle junction box was found in the
   24095      8/10/2012   BAF-EL-120709-271   455th Air Expeditionary Wing, building 24095
                                              Two flexible cords were found with no plug grounding
   24095      8/10/2012   BAF-EL-120709-272   pin (prongs) in building 24095
                                              Two unlisted European type power convertors/
                           BAF-EL-120709-
   24095      8/10/2012                       transformers were found with open ground circuit
                                273A          and reversed polarity condition in building 24095
                                              A defective Ground-Fault Circuit Interrupter (GFCI)
   24095      8/10/2012   BAF-EL-120709-274   receptacle was found in the 2nd floor male latrine in
                                              building 24095
                                              A flexible cord is being used as a substitute for fixed
   24051      8/11/2012   BAF-EL-120709-275   wiring at the MWR 8 Ball movie theater, building
                                              24051
                                              There are no readily accessible power disconnecting
   24051      8/11/2012   BAF-EL-120709-276   means for Chigo air-conditioning units located at MWR
                                              8 Ball, building 24051
                                              Two flexible cords were found being improperly used
   24051      8/11/2012   BAF-EL-120709-277   in the MWR 8 Ball, building 24051.
                                              There is inadequate working clearance in front of
   24049      8/12/2012   BAF-EL-120709-278   electrical panels and disconnect boxes in the Koele
                                              Dining Facility (DFAC), building 24049
                                              There are energized wires exposed in two junction
   24049      8/12/2012   BAF-EL-120709-279   boxes in the Koele Dining Facility (DFAC), building
                                              24049
                                              A receptacle was noted in building 24049 that was not
   24049      8/12/2012   BAF-EL-120709-280   securely fastened to its outlet box




                                                                                                         DODIG-2013-099 │ 119
Appendices



      Bagram Finding Log Continued
      Electrical	       19 August 2012

                       Submittal
         Building                   Finding Number                            Abstract
                         Date
                                                       There were two instances found of unprotected
          24049        8/12/2012   BAF-EL-120709-281   surface mounted nonmetallic (NM) cable in the Koele
                                                       Dining Facility (DFAC), building 24049
                                                       A transformer was found unlocked and unattended
          24051        8/12/2012   BAF-EL-120709-282   outside of the 8 Ball MWR, building 24051
                                                       A flexible power cord was found missing the ground
          24049        8/12/2012   BAF-EL-120709-283   contact on the plug in the Koele Dining Facility (DFAC),
                                                       building 24049
                                                       An open weatherproof rated electrical panel enclosure
          24051        8/12/2012   BAF-EL-120709-284   was discovered outside of the 8 Ball MWR, building
                                                       24051
                                                       Two flexible cords were found missing their grounding
          25132        8/12/2012   BAF-EL-120709-285   contacts at the Dragon DFAC, Building 25132
                                                       There are two missing covers on the wiring gutter in
          25132        8/12/2012   BAF-EL-120709-286   the mechanical/electrical room of the Dragon Dinning
                                                       Facility, building 25132
                                                       Two receptacles are not securely mounted in the
          25132        8/12/2012   BAF-EL-120709-287   outlet boxes at the Dragon DFAC, building 25132
                                                       Two damaged and improperly repaired flexible cords
          25132        8/12/2012   BAF-EL-120709-288   were found in the Dragon Dining Facility, building
                                                       25132
                                                       There is an incomplete panel schedule in an electrical
          25132        8/12/2012   BAF-EL-120709-289   panel in the Dragon Dining Facility (DFAC), building
                                                       25132
                                                       A conduit body is missing a cover exposing energized
          25132        8/12/2012   BAF-EL-120709-290   wires inside in building 25132
                                    BAF-EL-120709-     Four receptacles are wired incorrectly at the Dragon
          25132        8/12/2012         291A          Dining Facility (DFAC), building 25132
                                                       An octagon junction box was found with an
          24049        8/13/2012   BAF-EL-120709-292   incompatible square cover in the Koele Overflow
                                                       Dining Facility, building 24049
                                                       A receptacle was found contaminated with paint at
          25132        8/13/2012   BAF-EL-120709-293   the Dragon DFAC, building 25132
                                                       A flexible cord powering a "swamp cooler" in building
          25132        8/13/2012   BAF-EL-120709-294   25132 has the outer sheath pulled out of the plug
                                                       A defective Ground Fault Circuit Interrupter (GFCI)
          25132        8/13/2012   BAF-EL-120709-295   receptacle was found at the Dragon Dining Facility
                                                       (DFAC), building 25132
                                                       A power strip and extension cord were found daisy
          25132        8/13/2012   BAF-EL-120709-296   chained at the Dragon Dining Facility (DFAC), building,
                                                       25132




120 │ DODIG-2013-099
                                                                                                              Appendices



Bagram Finding Log Continued
Electrical	    19 August 2012

              Submittal
  Building                 Finding Number                            Abstract
                Date
                                              A wire with damaged insulation inside a disconnect
   25132      8/13/2012   BAF-EL-120709-297   box was found at Dragon DFAC, building 25132
                                              There is no visible means of disconnect for a booster
   25132      8/13/2012   BAF-EL-120709-298   water heater unit at the Dragon Dining Facility (DFAC),
                                              building 25132
                                              There were unsecured flexible cables suspended
   25132      8/13/2012   BAF-EL-120709-299   from service disconnects at the Dragon Dining Facility
                                              (DFAC), building 25132
                                              There were three instances of multiple outlet devices
                                              (power strips) and extension cords connected               Camp
   14977      8/14/2012   BAF-EL-120709-300   together in the Medical Facility, building 14977, in      Montrond
                                              Camp Montrond
                                              Several flexible cords were found used improperly and      Camp
   14977      8/14/2012   BAF-EL-120709-301   as a substitute for fixed wiring in the Camp Montrond     Montrond
                                              Medical Facility, building 14977
                                              Two defective European type power convertors/
                                              transformers were found that are also not                  Camp
   14977      8/14/2012   BAF-EL-120709-302   Underwriters Laboratory (UL) listed in the Camp           Montrond
                                              Montrond Medical Facility, building 14977
                                              There is an unused opening in a junction box in the        Camp
   14977      8/14/2012   BAF-EL-120709-303   Camp Montrond Medical Facility, building 14977            Montrond
                                              There is unsecured and unsupported Electrical              Camp
   14977      8/14/2012   BAF-EL-120709-304   Metallic Tubing (EMT) conduit in the Camp Montrond        Montrond
                                              Medical Facility, building 14977
                                              There is inadequate working clearance in front of          Camp
   14985      8/14/2012   BAF-EL-120709-305   distribution panels at Camp Montrond Dining Facility      Montrond
                                              (DFAC), building 14985
                                              There are four ceiling fans that have exposed wire
                                              exiting Electrical Metallic Tubing (EMT) conduit which     Camp
   14985      8/14/2012   BAF-EL-120709-306   is not protected from damage at Camp Montrond             Montrond
                                              DFAC, building 14985
                                              Numerous flexible cords are missing the grounding          Camp
   14985      8/14/2012   BAF-EL-120709-307   contacts at Camp Montrond Dining Facility (DFAC)          Montrond
                                              building 14985
                                              There are numerous instances of Nonmetallic (NM)
                                              sheathed cable used in unapproved applications             Camp
   14977      8/14/2012   BAF-EL-120709-308   throughout the Camp Montrond Medical Facility,            Montrond
                                              building 14977
                                              There are unused openings in two junction boxes in         Camp
   14882      8/14/2012   BAF-EL-120709-309   the upstairs shower/laundry room, building 14882          Montrond
                                              A receptacle was found recessed into the face plate        Camp
   14782      8/14/2012   BAF-EL-120709-310   of the outlet box in Camp Montrond office building        Montrond
                                              14782




                                                                                                        DODIG-2013-099 │ 121
Appendices



      Bagram Finding Log Continued
      Electrical	       19 August 2012

                       Submittal
         Building                   Finding Number                             Abstract
                         Date
                                                       There are several flexible cords and cables that have      Camp
          14985        8/14/2012   BAF-EL-120709-311   the outer sheath pulled out of plugs or boxes at the      Montrond
                                                       Camp Montrond DFAC, building 14985
                                                       There is Nonmetallic (NM) sheathed cable used in           Camp
          14985        8/14/2012   BAF-EL-120709-312   unapproved applications at the Camp Montrond DFAC,        Montrond
                                                       building 14985
                                                       There is inadequate working clearance in front of          Camp
          14983        8/15/2012   BAF-EL-120709-313   distribution panels in the Camp Montrond Kitchen &        Montrond
                                                       Preparation area, building 14983
                                                       There are numerous flexible cables that are not            Camp
          14983        8/15/2012   BAF-EL-120709-314   properly supported at the Camp Montrond DFAC              Montrond
                                                       Kitchen, building 14983
                                                       Several flexible cords were found with no grounding        Camp
          14782        8/15/2012   BAF-EL-120709-315   contacts in the Camp Montrond office building, 14782      Montrond
                                                       A non-approved circuit breaker handle tie was found        Camp
          14983        8/15/2012   BAF-EL-120709-316   at Camp Montrond Kitchen, building 14983                  Montrond
                                                       Several instances were found of flexible cords used        Camp
          14951        8/15/2012   BAF-EL-120709-317   improperly and as a substitute for permanent wiring in    Montrond
                                                       the Joint Operations Command Center, building 14951
                                                       The distribution panel has unused openings allowing        Camp
          14983        8/15/2012   BAF-EL-120709-318   access to live wires at Camp Montrond Kitchen & Prep      Montrond
                                                       area, building 14983
                                                       Non-listed, plumbing type Polyvinyl Chloride (PVC)
                                                       conduit was found used in an electrical installation in    Camp
          14983        8/15/2012   BAF-EL-120709-319   the Camp Montrond Dining Facility (DFAC) Kitchen,         Montrond
                                                       building 14983
                                                       A disconnect is subject to excessive radiant heat from
                                                       nearby stove tops and there is inadequate working          Camp
          14983        8/15/2012   BAF-EL-120709-320   clearance around it at the Camp Montrond Kitchen,         Montrond
                                                       building 14983
                                                       A light switch box cover is missing in the Joint           Camp
          14951        8/15/2012   BAF-EL-120709-321   Operations Command Center, building 14951                 Montrond
                                                       A Ground-Fault Circuit Interrupter (GFCI) receptacle       Camp
          14766        8/15/2012   BAF-EL-120709-322   cover is missing in the female latrine, building 14766    Montrond
                                                       Nonmetallic cable (NM) was incorrectly installed           Camp
         14966B        8/15/2012   BAF-EL-120709-323   under, building 14966B                                    Montrond
                                                       Two European type power convertors/transformers
                                    BAF-EL-120709-                                                                Camp
          14977        8/15/2012                       were found that are not Underwriters Laboratory (UL)
                                         324A                                                                    Montrond
                                                       listed in the Camp Montrond Office Building, 14977
                                                       There was a broken receptacle faceplate found in the       Camp
         14769A        8/15/2012   BAF-EL-120709-325   Camp Montrond MWR, building 14769A                        Montrond




122 │ DODIG-2013-099
                                                                                                              Appendices



Bagram Finding Log Continued
Electrical	    19 August 2012

              Submittal
  Building                 Finding Number                            Abstract
                Date
                                              A flexible cord was found with an improper repair          Camp
  14769A      8/15/2012   BAF-EL-120709-326   in the game room of the Heredia MWR in Camp               Montrond
                                              Montrond, building 14769A
                                              A flexible cord was found with no grounding pin in the     Camp
  14769C      8/15/2012   BAF-EL-120709-327   Camp Montrond Chapel, building 14769C                     Montrond
                                              Two instances of flexible cords were found used            Camp
  14769C      8/15/2012   BAF-EL-120709-328   improperly and as a substitute for fixed wiring in Camp   Montrond
                                              Montrond Chapel, building 14769C
                                              Two flexible cords were found used improperly and as
   14767      8/15/2012   BAF-EL-120709-329   a substitute for permanent wiring in the Miller Fitness    Camp
                                                                                                        Montrond
                                              Center, building 14767
                                              There is an unused opening in two junction boxes in        Camp
   14767      8/15/2012   BAF-EL-120709-330   the Miller Fitness Center, building 14767, in Camp        Montrond
                                              Montrond
                                              Two flexible cords were found improperly repaired in       Camp
   14767      8/15/2012   BAF-EL-120709-331   the Miller Fitness Center, building 14767                 Montrond
                                              There is a defective power strip in the Camp Montrond      Camp
   14951      8/16/2012   BAF-EL-120709-332   Joint Operations Center, building 14951                   Montrond
                                              Circuit breakers are not identified and labeled in an      Camp
   14985      8/16/2012   BAF-EL-120709-333   electrical panel at Camp Montrond Dining Facility         Montrond
                                              (DFAC), building 14985
  Camp                                        During the review of the exterior of Camp Montrond         Camp
 Montrond     8/16/2012   BAF-EL-120709-334   Re- locatable Buildings (RLBs), several panels were       Montrond
   RLBs                                       found to have no circuit directory
                                              A ground pin was found broken off in a receptacle in       Camp
   14767      8/16/2012   BAF-EL-120709-335   the Miller Fitness Center, building 14767                 Montrond
                                              During the review of buildings 14993 and 14996, it
                                              was noted the Main Distribution Panel is not safely/
 14993 and    8/17/2012   BAF-EL-120709-336   correctly connected to the main system grounding
   14996                                      electrode at the first disconnecting means, and several
                                              sub panels were grounded independently




                                                                                                        DODIG-2013-099 │ 123
Appendices




                 Appendix C Continued
                 Notice of Concerns and Responses - BAF
                 NOC Fire Protection Systems Bagram Air Field (Oct 10, 2012)




124 │ DODIG-2013-099
Appendices



      Bagram Finding Log
      Fire Protection	       19 August 2012

           Building       Finding Number                                 Abstract
           25118A        BAF-FP-120709-001   Building 25118A does not have automatic fire detection
            25055        BAF-FP-120709-002   Building 25055 does not have a functioning smoke detector
                                             The storage shed outside of Building 25118A is labeled with
           25118A        BAF-FP-120709-003   incorrect information on the hazardous materials warning sign
                                             (NFPA 704 Diamond)
                                             There is a lack of emergency lighting and exit signage
            25048      BAF-FP-120709-004A    throughout building 25048
                                             The fire pumps in building 25170, Craig Joint Theater Hospital,
            25170        BAF-FP-120709-005   are not being tested or maintained
            25048        BAF-FP-120709-006   Building 25048 does not have smoke detectors in all rooms
            25058        BAF-FP-120709-007   Building 25058 does not have a smoke detector
                                             The visual notification devices (Strobes) within building 25170
            25170        BAF-FP-120709-008   are not synchronized
                                             The fire hydrant located near the fire pump room at Building
            25170      BAF-FP-120709-009A    25170 is not protected from damage
           25118B        BAF-FP-120709-010   Building 25118B does not have automatic fire detection
            25170        BAF-FP-120709-011   Conduit housing fire alarm wiring is not secured
            25170        BAF-FP-120709-012   Building 25170 fire sprinkler seismic bracing is not compliant
                                             The Fire Department Connections located at Building
            25170        BAF-FP-120709-013   25170, Craig Joint Theater Hospital are not clearly identified
                                             The material stored in rooms F117 and F103 of building
            25170      BAF-FP-120709-014A    25170, Craig Joint Theater Hospital, is too close to the ceiling
                                             Building 25170, Craig Joint Theater Hospital, has plumbing,
                                             conduit, and duct work penetrating fire rated walls. In
            25170        BAF-FP-120709-015   numerous instances these penetrations were observed to be
                                             lacking fire rated protection
                                             Sprinkler heads in building 25170, Craig Joint Theater Hospital
            25170        BAF-FP-120709-016   are spaced outside the maximum allowable distance
                                             Patient Rooms in the Craig Joint Theater Hospital's Intensive
            25170      BAF-FP-120709-017A    Care Unit / Emergency Ward do not have smoke detectors or
                                             visibility from the nurses' station
                                             There is insufficient smoke detection in the Craig Joint Theater
            25170      BAF-FP-120709-018A    Hospital, specifically in the storage room F103 and the
                                             Nutritional Medicine area
                                             An exit corridor within the Craig Joint Theater Hospital is
            25170      BAF-FP-120709-019A    obstructed with storage of cleaning supplies
                                             A standard-response sprinkler head is installed in the same
            25170        BAF-FP-120709-020   compartment as quick-response sprinkler heads




126 │ DODIG-2013-099
                                                                                                             Appendices



Bagram Finding Log Continued
Fire Protection	       19 August 2012

   Building         Finding Number                                 Abstract
                                       Door "feet" have been installed, defeating the required self-
    25170          BAF-FP-120709-021   closing feature of the doors in Building 25170
                                       Hanging signs obstruct water flow from the sprinkler heads in
    25170          BAF-FP-120709-022   the Craig Joint Theater Hospital
                                       Fire doors are not self-latching in the Craig Joint Theater
    25170          BAF-FP-120709-023   Hospital
                                       The stairs serving the occupiable roof deck of building 25058
    25058      BAF-FP-120709-024A      are out of compliance
                                       Building 25058 does not have adequate fire suppression
    25058          BAF-FP-120709-025   systems for the stove
                                       Building 25050A contains a mixture of highly combustible
   25050A          BAF-FP-120709-026   materials and is located adjacent to building 25048, which is
                                       used as a medical clinic
   25118A,
   25118B,                             The perimeter of buildings 25118A, 25118B, 25120C, 25122C
                   BAF-FP-120709-027
   25120C,                             are overgrown with vegetation
   25122C
                                       The fire separation distance does not meet Code between
    25120C     BAF-FP-120709-028A      Building 25120C and neighboring buildings
                                       A hazardous self-help wooden structure and storage area has
    25048          BAF-FP-120709-029   been constructed adjacent to building 25048
                                       The fire extinguisher at Building 25050A has not been
   25050A          BAF-FP-120709-030   inspected and is not properly mounted
                                       Multiple fire extinguishers in Building 25048 have not been
    25048          BAF-FP-120709-031   inspected since prior to 2012 and are not properly mounted
                                       Building 25120C has multiple fire extinguishers that have not
    25120C         BAF-FP-120709-032   been inspected
                                       Hangar Building 25059 is not protected by a fire suppression
    25059          BAF-FP-120709-033   system
                                       Hangar 25059 is not separated from adjacent structures by
    25059      BAF-FP-120709-034A      the minimum separation distance
                                       Hangar 25059 has been altered using combustible
    25059          BAF-FP-120709-035   construction materials
                                       The service and storage area in Hangar 25059 is not separated
    25059          BAF-FP-120709-036   from other areas in the building by fire rated construction.
    25120C         BAF-FP-120709-037   Building 25120C has exit doors that are too short
    45329          BAF-FP-120709-038   The Fire Riser Room door is mislabeled as the Fire Pump Room
                                       Building 45329 fire sprinkler pipe joining material does not
    45329          BAF-FP-120709-039   meet Code




                                                                                                       DODIG-2013-099 │ 127
Appendices



      Bagram Finding Log Continued
      Fire Protection	       19 August 2012

           Building       Finding Number                                 Abstract
                                             Plans for construction/renovation projects are not submitted
             BAF         BAF-FP-120709-083   for review by a certified fire inspector and registered fire
                                             protection engineer
                                             The Medical Storage Drash Tent 25175 has a raised threshold
            25175        BAF-FP-120709-084   at a door that exceeds the allowable height
                                             The Medical Storage Drash Tent 25175 has no smoke
            25175        BAF-FP-120709-085   detectors
                                             The Chapel Annex, Building 15916, main assembly room east
            15916        BAF-FP-120709-086   exit door does not meet door height requirements
                                             The width of the primary means of egress is too narrow for
            15920        BAF-FP-120709-087   building 15920, MWR (dragon)
                                             Medical Staff Housing Building 25180 has fire rated doors that
            25180        BAF-FP-120709-088   cannot be fully closed
                                             The fire separation distance between Building 25170, Craig
                                             Joint Theater Hospital, and Building 25175, Medical Storage
            25170        BAF-FP-120709-089   Drash Tent, is less than what is required by the International
                                             Building Code (IBC)
                                             There is a lack of inspection and maintenance on Fire            Camp
         Camp Alpha      BAF-FP-120709-090   Extinguishers in Camp Alpha                                      Alpha
                                                                                                              Camp
         Camp Alpha      BAF-FP-120709-091   The B-Huts at Camp Alpha have non-compliant exit stairs          Alpha
                                             Smoke detection is not provided throughout buildings in          Camp
         Camp Alpha      BAF-FP-120709-092   Camp Alpha, and smoke detectors present are not maintained       Alpha
                                             An excessive dead-end corridor exists in building 15735 on       Camp
            15735        BAF-FP-120709-093   Camp Alpha.                                                      Alpha
                                             Provide exit signage in the vehicle maintenance bay on Camp      Camp
            15783        BAF-FP-120709-094   Alpha                                                            Alpha
                                             The interior foam insulation coating in the gym, building        Camp
            15854        BAF-FP-120709-095   15854, is highly flammable                                       Alpha
                                             The interior foam insulation coating portions of the MWR         Camp
            15849        BAF-FP-120709-096   facility, building 15849, is not compliant                       Alpha
                                             A light bulb in the emergency light is burnt out in Building     Camp
            15854        BAF-FP-120709-097   15854, the Camp Alpha gym                                        Alpha
            25175        BAF-FP-120709-098   An exit door is obstructed for Medical Storage Building 25175
                                             Medical Staff Housing Building 25180 has a fire alarm manual
            25180        BAF-FP-120709-099   pull station mounted at 37 inches, which is less than the
                                             minimum of 42 inches required by NFPA 72
                                             The exit discharge stairs for the Chapel, building 15817, are
            15817        BAF-FP-120709-100   noncompliant
                                             The stairs for the primary means of egress from the MWR
            15920        BAF-FP-120709-101   (Dragon), building 15920, are noncompliant




130 │ DODIG-2013-099
                                                                                                               Appendices



Bagram Finding Log Continued
Fire Protection	       19 August 2012

   Building         Finding Number                                 Abstract
                                       MWR (Dragon) Building 15920 does not have panic hardware
    15920          BAF-FP-120709-102   on the egress door and does not have an illuminated exit sign
                                       over the main exit door
                                       The fire extinguishers at the Distinguished Guest Quarters,
    25032          BAF-FP-120709-103   Building 25032, are not properly mounted
   45122A,                             Fire sprinkler systems are not provided for the Army Materiel       AFSB
  45127, and     BAF-FP-120709-104A    Command (AMC) 401st Army Field Support Brigade (AFSB)              Phase V
    45131                              Phase V lodging compound
   45122A,                             Smoke/heat detection is not provided in the bathrooms for           AFSB
  45127, and     BAF-FP-120709-105A    the Army Materiel Command (AMC) 401st Army Field Support           Phase V
    45131                              Brigade (AFSB) Phase V lodging compound
                                       A large JP8 fuel storage tank is located within 16 inches of
    25059          BAF-FP-120709-106   Hangar 25059
                                       The stair enclosures in the Distinguished Visitor Quarters
    25032        BAF-FP-120709-107A    Building 25032 have missing or incorrectly mounted smoke
                                       detectors
                                       The means of egress for the Distinguished Visitor Quarters
    25032          BAF-FP-120709-108   Building 25032 is not protected with a fire rated barrier
                                       In Temporary Office Tent 24097A, an emergency light fixture
   24097A        BAF-FP-120709-109A    and illuminated exit sign were non-operational during testing,
                                       and the smoke detector is missing
                                       There is a general lack of inspection, testing, and maintenance
     BAF           BAF-FP-120709-110                                                                        BAF
                                       for fire protection and life safety systems on Bagram Airfield
                                       The Base Camp Master Plan for Bagram Airfield (BAF) lacks an
     BAF         BAF-FP-120709-111A                                                                         BAF
                                       effective fire protection plan
                                       The perimeter of building 15920 has overgrown vegetation in
    15920          BAF-FP-120709-112   violation of USFOR-A Fire Prevention Policy
                                       The step down from the exit door exceeds the allowable
    25032          BAF-FP-120709-113   drop for the primary means of egress from the Distinguished
                                       Visitor's Quarters, Building 25032
                                       Building 25059 is not storing all paint in flammable storage
    25059          BAF-FP-120709-114   cabinets.
                                       The hazardous material sign does not appropriately reflect the
    25059          BAF-FP-120709-115   actual hazard of the materials being stored in a storage shed
                                       adjacent to Hangar Building 25059
                                       The Unit #2 Control Room, Power Plant Building 32470B,
    32470B       BAF-FP-120709-116A    combination emergency/exit light was non- operational
                                       The hazardous material sign does not appropriately reflect the
    15920          BAF-FP-120709-117   actual hazard of the materials being stored in a storage shed
                                       adjacent to Building 15920, the Dragon MWR
                                       Fire extinguishers at the Power Station are lacking evidence of
 Power Station     BAF-FP-120709-118   routine inspection and maintenance




                                                                                                         DODIG-2013-099 │ 131
Appendices



      Bagram Finding Log Continued
      Fire Protection	       19 August 2012

           Building       Finding Number                                 Abstract
                                             The Main Control Room smoke detector was non- operational
           32470B        BAF-FP-120709-119   in Power Plant building 32470B
                                             DFIP Buildings lack seismic bracing for the fire sprinkler
             DFIP        BAF-FP-120709-120                                                                    DFIP
                                             systems
                                             The perimeter of DFIP Buildings are overgrown with
             DFIP        BAF-FP-120709-121                                                                    DFIP
                                             vegetation
                                             The fire extinguisher cabinet in the Headquarters building
            66482        BAF-FP-120709-122                                                                    DFIP
                                             conference room is empty
                                             Building 66482 does not have complete building coverage for
            66482        BAF-FP-120709-123                                                                    DFIP
                                             sprinkler protection
                                             Building 66482, Battalion Headquarters, does not have an
            66482      BAF-FP-120709-124B                                                                     DFIP
                                             accessible manual fire alarm pull box
                                             Building 67403 does not have manual fire alarm pull boxes by
            67403        BAF-FP-120709-125                                                                    DFIP
                                             either exit
                                             The Detention Facility in Parwan (DFIP) has fire hydrants that
             DFIP        BAF-FP-120709-126                                                                    DFIP
                                             are not protected from damage
                                             An exit door from DFIP Headquarters building 66482 is
            66482        BAF-FP-120709-127                                                                    DFIP
                                             blocked
                                             Fire extinguishers at the Detention Facility in Parwan (DFIP)
            67403        BAF-FP-120709-128                                                                    DFIP
                                             have not been inspected and are not properly mounted
            66175        BAF-FP-120709-129   The fire suppression system for the DFIP is not automatic        DFIP
                                             An excessive quantity of Class 3 oxidizer (Calcium
            66175        BAF-FP-120709-130   Hypochlorite) is being stored in the fire pump room, building    DFIP
                                             66175
                                             Building 66691, Medical Housing Unit, has a non exit door that
            66691        BAF-FP-120709-131                                                                    DFIP
                                             is not labeled with a "No Exit" sign
                                             The Fire Hose Cabinet in Building 66587 is not readily
            66587        BAF-FP-120709-132                                                                    DFIP
                                             accessible for fire fighting operations
             DFIP        BAF-FP-120709-133   The DFIP fire alarm system has multiple troubles and errors      DFIP
                                             Fire suppression is not provided in Battalion Headquarters,
            66482      BAF-FP-120709-134A                                                                     DFIP
                                             Building 66482, under the raised floor
                                             Numerous fire sprinklers are in contact with support hangers
            66477        BAF-FP-120709-135   and ceiling components in the Detention Facility in Parwan       DFIP
                                             (DFIP), building 66477
                                             Numerous sprinklers are located too close to ceiling beams in
            67403        BAF-FP-120709-136                                                                    DFIP
                                             Building 67403
                                             Exit door configurations do not allow free and clear egress
            66594        BAF-FP-120709-137                                                                    DFIP
                                             from Operations, in building 66594
                                             Concealed type sprinkler heads are used in a non- listed
            66587        BAF-FP-120709-138                                                                    DFIP
                                             application in building 66587




132 │ DODIG-2013-099
                                                                                                             Appendices



Bagram Finding Log Continued
Fire Protection	       19 August 2012

   Building         Finding Number                                 Abstract
                                       Fire alarm control panel cannot be accessed in the Medical
    66691          BAF-FP-120709-139                                                                      DFIP
                                       Housing Unit, building 66691
  15804 and                            The perimeter of buildings 15804 and 15805 are overgrown
                   BAF-FP-120709-140
    15805                              with vegetation
                                       Smoke alarm (battery type) in building 15915 did not have any
    15915          BAF-FP-120709-141   UL label/stamp
                                       Numerous fire extinguishers in buildings 15804 and 15805
  15804 and                            are lacking evidence of being inspected on a monthly basis,
                   BAF-FP-120709-142
    15805                              and the records do not demonstrate that at least the last 12
                                       monthly inspections have been performed
                                       A fire extinguisher in the Military Police Station, building
    15915          BAF-FP-120709-143   15915, was lacking evidence of being inspected on a monthly
                                       basis
                                       The egress pathway on the second level of Building 15915 is
    15915          BAF-FP-120709-144   obstructed
    15915          BAF-FP-120709-145   Building 15915 does not have emergency lighting
    15915          BAF-FP-120709-146   Building 15915 has insufficient directional exit signage
                                       Building 15915, Military Police Station, has a non exit door
    15915          BAF-FP-120709-147   that is labeled with an "Exit" sign
                                       The Military Police Station, building 15915, does not have an
    15915          BAF-FP-120709-148   illuminated exit sign over main exit doors
  15804 and                            Numerous emergency light fixtures in buildings 15804 and
               BAF-FP-120709-149A
    15805                              15805 were not functional during testing
                                       Smoke detection is either not provided throughout buildings
  15804 and    BAF-FP-120709-150A      15804 and 15805, or were disabled and not properly
    15805                              maintained
  15804 and                            The interior exit stairwells are being used for storage in
                   BAF-FP-120709-151
    15805                              buildings 15804 and 15805
  15804 and        BAF-FP-120709-152   Exit stairs for Buildings 15804 and 15805 are noncompliant
    15805
                                       Buildings 15805 "Motel 8" has insufficient illuminated exit/
    15805          BAF-FP-120709-153   directional signage
                                       There is a significant elevation change on either side of the
    15805          BAF-FP-120709-154   main entry/exit door of Motel 8
  15804 and                            Building 15804 and 15805 second floor fire escape stairs do
                   BAF-FP-120709-155
    15805                              not meet NFPA code requirements
  15804 and                            Buildings 15804, "Motel 6" and 15805, "Motel 8", have only
                   BAF-FP-120709-156
    15805                              one means of egress on the second floors
  15804 and                            Buildings 15804 and 15805 have corridor and exit
                   BAF-FP-120709-157
    15805                              arrangements that violate code




                                                                                                       DODIG-2013-099 │ 133
Appendices



      Bagram Finding Log Continued
      Fire Protection	       19 August 2012

           Building       Finding Number                                Abstract
            14993        BAF-FP-120709-158   Building 14993 has obstructed egress from the stage
            25108        BAF-FP-120709-159   Building 25108 does not have automatic fire detection
            25108        BAF-FP-120709-160   Building 25108 does not have emergency lighting
                                             The building 25108 fire extinguisher is not mounted and
            25108        BAF-FP-120709-161   monthly maintenance has not been regularly conducted
                                             There is insufficient smoke detector coverage in the Post
           14843A        BAF-FP-120709-162   Exchange
                                             The Post Exchange does not have panic hardware on the exit
           14843A        BAF-FP-120709-163
                                             doors
           14843A        BAF-FP-120709-164   The Post Exchange does not have sprinkler protection
           14843A        BAF-FP-120709-165   Building 14843A smoke detectors are not properly located.
                                             The fire extinguishers at building 14843A have not been
           14843A        BAF-FP-120709-166   inspected and are not properly mounted
            24094        BAF-FP-120709-167   Building 24094 smoke detectors are not properly located
                                             Many smoke detectors in Building 24094 were nonfunctional
            24094      BAF-FP-120709-168A    and not properly maintained
          14996 and                          Smoke detectors in buildings 14996 and 14993 are not
                         BAF-FP-120709-169
            14993                            properly located and maintained
                                             Fire extinguishers in Building 24094 have not been inspected
            24094        BAF-FP-120709-170   and are not properly mounted
          14996 and                          Some fire extinguishers in Buildings 14996 and 14993 are not
                         BAF-FP-120709-171
            14993                            properly inspected and maintained
                                             The minimum required fire separation distance between US
            24094        BAF-FP-120709-172   Army Garrison Command Building 24094 and surrounding
                                             buildings has not been met
                                             Building 14843A does not have illuminated exit signs in many
           14843A      BAF-FP-120709-173A    locations
                                             The upper corridor in the US Army Garrison Command
            24094        BAF-FP-120709-174   Building 24094 creates a dead end corridor length that
                                             exceeds the 50 feet maximum
            24094        BAF-FP-120709-175   There is overgrown brush in the vicinity of Building 24094
           14843A        BAF-FP-120709-176   There is overgrown brush in the vicinity of Building 14843A
                                             An emergency light/exit sign combination device did not
           14843A        BAF-FP-120709-177   function in Building 14843A
                                             Smoke detectors do not function and are not properly located
            25103        BAF-FP-120709-178   in building 25103, Camp Cunningham Laundry
                                             The threshold at the entry/exit doors of building 25103,
            25103      BAF-FP-120709-179A    exceeds 1/2"




134 │ DODIG-2013-099
                                                                                                                 Appendices



Bagram Finding Log Continued
Fire Protection	       19 August 2012

   Building         Finding Number                                 Abstract
                                       The means of egress for buildings 15804 and 15805 exceeds
  15804 and    BAF-FP-120709-180A      threshold height and changes in floor elevation at the door
    15805                              openings
                                       Numerous emergency light fixtures in Building 24094 were not
                                       functional during testing and there is no emergency lighting
    24094          BAF-FP-120709-181   provided in a lean-to facility that was built onto Building
                                       24094
                                       Building 24094 has an exit sign that did not illuminate during
    24094          BAF-FP-120709-182   testing and has direction arrows that mistakenly indicate to
                                       exit to the left or right
                                       Two generators and one fuel tank, all with JP8 fuel, show 3
    24094          BAF-FP-120709-183   different fire hazard signs outside of building 24094
                                       The tension fabric structures used for the Dragon Gym and
  14993 and        BAF-FP-120709-184   the Dragon Arena do not meet minimum separation distance
    14996                              requirements
                                       US Army Garrison Command Building 24094 exit doors have
    24094          BAF-FP-120709-185   trip hazards
                                       The US Army Garrison Command Building 24094 interior
    24094          BAF-FP-120709-186   exit access stair is not separated from the remainder of the
                                       building by fire rated construction
                                       US Army Garrison Command Building 24094 has door
    24094      BAF-FP-120709-187A      openings in the means of egress that are too low
                                       US Army Garrison Command Building 24094 has noncompliant
    24094          BAF-FP-120709-188   stairs in the means of egress pathway
                                       Building 14993 has a 50 gallon fuel tank without a means
    14993          BAF-FP-120709-189   of secondary containment and it is within 12 feet of a high
                                       occupancy tent
                                       Building 14993 has an exit sign on the East exit that did not
    14993          BAF-FP-120709-190   illuminate during testing and does not have an illuminated exit
                                       sign over the North exit
                                       There is no established and documented self-help labor
     BAF           BAF-FP-120709-191   program on BAF
                                       The basement office in the US Army Garrison Command
    24094      BAF-FP-120709-192A      Building 24094 has a single means of egress and less than 6
                                       feet of headroom
                                       The US Army Garrison Command Building 24094 north exit
    24094          BAF-FP-120709-193   access corridor opens into a wood framed lean-to office
                                       The basement office in the US Army Garrison Command
    24094          BAF-FP-120709-194   Building 24094 has no emergency or exit lights
                                       The US Army Garrison Command Building 24094 second floor
    24094          BAF-FP-120709-195   exterior exit stair is not protected from fire spreading from the
                                       first floor windows and door of the building




                                                                                                           DODIG-2013-099 │ 135
Appendices



      Bagram Finding Log Continued
      Fire Protection	       19 August 2012

           Building       Finding Number                                 Abstract
                                             The Aqueous Film Forming Foam (AFFF) concentrate in use at
            27328        BAF-FP-120709-196   Hangar 27331 does not conform to military standards
          27328 and                          Seismic bracing is not provided for fire suppression piping in
                         BAF-FP-120709-197
            27331                            buildings 27328 or 27331
                                             Building 27337, AC-130 sheet metal shop, lacks seismic
            27337        BAF-FP-120709-198   bracing for the fire sprinkler systems
                                             Building 27331, AC-130 Hangar, does not have sufficient fire
            27331        BAF-FP-120709-199   separation distance from building 27337, AC-130 sheet metal
                                             shop
                                             Building 27328, Fire Pump House for Hangar 27331, does not
            27328        BAF-FP-120709-200   have dielectric fittings on dissimilar material unions and welds
                                             Building 27331, AC-130 Hangar, fire sprinkler system does not
            27331        BAF-FP-120709-201   provide complete building coverage
                                             Building 27328 fire sprinkler pipe joining material does not
            27328        BAF-FP-120709-202   meet NFPA 13
                                             A fire sprinkler deflector in Building 27328 does not have
            27328        BAF-FP-120709-203   sufficient clearance from the ceiling beam
                                             Standard Spray Pendent sprinkler heads are installed in an
            27328      BAF-FP-120709-204A    upright configuration
                                             The bladder tank in building 27328 appears to have ruptured,
            27328        BAF-FP-120709-205   allowing the foam and water to mix in the tank
                                             AC-130 Hangar Building 27331 and associated Fire Pump
            27331        BAF-FP-120709-206   Building 27328 wet-pipe sprinkler piping does not have
                                             seismic protection clearance
                                             A fire sprinkler deflector in Building 27331 is obstructed by
            27331        BAF-FP-120709-207   HVAC duct insulation
                                             A sleeping room in Building 27331, AC-130 Hangar, does not
            27331        BAF-FP-120709-208   have a smoke detector installed
                                             A fire extinguisher in Building 27337 is not properly inspected
            27337        BAF-FP-120709-209   and maintained
                                             Building 27331 has an exit sign on the North exit that did not
            27331        BAF-FP-120709-210   illuminate during testing
                                             Smoke detectors in Building 25021 are not properly located
            25021      BAF-FP-120709-211A    and maintained
            25018,
            25012,                           Numerous deficiencies were noted with smoke detectors in
                       BAF-FP-120709-212A
          25003, and                         Buildings 25018, 25012, 25003, and 25005A
           25005A
                                             Smoke/heat detection is not provided in some areas of
            25112        BAF-FP-120709-213   Building 25112




136 │ DODIG-2013-099
                                                                                                               Appendices



Bagram Finding Log Continued
Fire Protection	       19 August 2012

   Building         Finding Number                                Abstract
                                       Building 27331 does not have appropriate manual fire alarm
    27331          BAF-FP-120709-214   pull boxes by all exits
                                       Building 27331 has an obstructed fire hydrant that is not
    27331          BAF-FP-120709-215   protected
                                       Foam concentrate piping is not stainless steel or filament-
    27328          BAF-FP-120709-216   wound fiberglass in building 27328
                                       The valves controlling water flow from the water storage tanks
    27328       BAF-FP-120709-217A     at building 27328 are incorrect
                                       A sprinkler on the second level, east side of building 27337,
    27337          BAF-FP-120709-218   appears to be leaking
                                       Large ventilation / air-moving units are provided for Hangar
    27331          BAF-FP-120709-219   27331 without smoke detection
    27328          BAF-FP-120709-220   There is no supply of spare sprinkler heads in building 27328
                                       AC-130 Hangar, Building 27331, has wet-pipe sprinkler system
    27331          BAF-FP-120709-221   deficiencies
                                       The Hangar Building 27331 fire alarm system is non-
    27331          BAF-FP-120709-222   operational
                                       AC-130 Hangar, Building 27331, has a fire extinguisher location
    27331          BAF-FP-120709-223   sign but no fire extinguisher or hanger
   25023A          BAF-FP-120709-224   A smoke detector in Building 25023A is disabled
    27337          BAF-FP-120709-225   There is no supply of spare sprinkler heads in building 27337
    35587          BAF-FP-120709-226   There is no supply of spare sprinkler heads in building 35587
    25021          BAF-FP-120709-227   Egress is obstructed for building 25021, Transient Lodging Tent
    25003,
   25005A,                             Camp Cunningham Housing Buildings have obstructed
                BAF-FP-120709-228A
  25012, and                           egresses
    25018
    Camp
 Cunningham B   BAF-FP-120709-229A     Camp Cunningham Housing B-Huts have obstructed egresses
     Huts
                                       Building 25121B has storage area under the staircase that is
    25121B         BAF-FP-120709-230   not separated from the stairs by fire resistant construction
                                       Building 24299, Pat Tillman Memorial USO, has exit doors that
    24299          BAF-FP-120709-231   swing against the flow of egress
                                       Building 25112, Camp Cunningham HQ, has noncompliant exit
    25112          BAF-FP-120709-232   stairs
                                       There is a pile of combustible scrap lumber and pallets stacked
    27331          BAF-FP-120709-233   adjacent to building 27331




                                                                                                         DODIG-2013-099 │ 137
Appendices



      Bagram Finding Log Continued
      Fire Protection	       19 August 2012

           Building       Finding Number                                Abstract
                                             A lack of smoke detector coverage was observed in Building
            24299        BAF-FP-120709-234   24299
                                             There are overgrown weeds and a wood pile next to Building
            25214        BAF-FP-120709-235   25214
                                             The jockey pump and main fire pumps in building 35587 are
            35587        BAF-FP-120709-236   turned off, likely due to a broken valve
                                             The fire pumps in building 35587, the pump house for the Air
            35587        BAF-FP-120709-237   Traffic Control Tower, are not being tested or maintained
            25003,
           25005A,                           The means of egress for Camp Cunningham Housing buildings
                         BAF-FP-120709-238
          25012, and                         are not protected with a fire rated barrier
            25018
          25012 and                          Camp Cunningham Housing Buildings have electrical service
                         BAF-FP-120709-239
            25003                            transformers located too close to the building
                                             Building 25117A, The Pebble Fitness Center tent has one of
           25117A        BAF-FP-120709-240   the two main means of egress obstructed
                                             The interior fibrous insulation coating in the Rock Gym,
            25107        BAF-FP-120709-241   building 25107, is highly flammable
                                             Camp Cunningham Housing Building exterior exit stairs are
          25003 and      BAF-FP-120709-242   not separated from the interior of the building by fire rated
           25005A                            self-closing and latching doors
          25003 and                          Camp Cunningham Housing Building interior stairs are not
                         BAF-FP-120709-243
           25005A                            protected by a fire barrier
          25003 and                          The fire alarm systems for Camp Cunningham Housing
                         BAF-FP-120709-244
           25005A                            buildings 25003 and 25005A are inoperable
                                             Smoke detectors in Buildings 25117A and 25218 are missing,
         25117A and    BAF-FP-120709-245A    disabled, not mounted, and/or located down too low from the
           25218                             ceiling
                                             A fire extinguisher in Building 25218 is not properly inspected
            25218        BAF-FP-120709-246   and maintained
            25003,
           25005A,                           Camp Cunningham RLBs have nonfunctional emergency lights
                         BAF-FP-120709-247
          25012, and                         and emergency exit fixtures
            25018
            25018,                           Fire extinguishers in Buildings 25018, 25003, and 25005A are
          25003, and     BAF-FP-120709-248   not securely mounted
           25005A
          25012 and                          Camp Cunningham RLBs have door frames with low head
                         BAF-FP-120709-249
            25018                            clearance
            25018,                           Monthly inspection record labels on fire extinguishers in
          25003, and     BAF-FP-120709-250   Buildings 25018, 25003, and 25005A indicate that some
           25005A                            monthly inspections were not performed




138 │ DODIG-2013-099
                                                                                                                 Appendices



Bagram Finding Log Continued
Fire Protection	       19 August 2012

   Building         Finding Number                                 Abstract
                                       The storage shed outside of building 25023A is labeled with
   25023A          BAF-FP-120709-251   incorrect information on the hazardous materials warning sign
                                       (NFPA 704 Diamond)
                                       The monthly inspection record label on a 30 lb. fire
    25112          BAF-FP-120709-252   extinguisher in Building 25112 indicates that some monthly
                                       inspections were not performed
   25023A          BAF-FP-120709-253   There is overgrown vegetation near building 25023A
                                       The building 25214 rear door egress path is blocked and needs
    25214          BAF-FP-120709-254   to be marked "NO EXIT"
                                       The building 25121B fire alarm circuit breaker is not marked
    25121B         BAF-FP-120709-255   and not protected from tampering
                                       Exit/directional signage illumination is insufficient in building
    25121B         BAF-FP-120709-256   25121B
                                       The second floor game room in building 25121B has no exit
    25121B         BAF-FP-120709-257   signs
                                       The interior exit stairwell is being used for storage in building
    35586B         BAF-FP-120709-258   35586B
                                       Building 25214 has not been provided with smoke detector
    25214          BAF-FP-120709-259   coverage
                                       There is trash and wood piled up adjacent to building 25121B
    25121B         BAF-FP-120709-260   in violation of USFOR-A fire prevention policy
                                       Building 25121B has a nonfunctional emergency lighting
    25121B         BAF-FP-120709-261   fixture
                                       A fire extinguisher in Building 35586B is being used as a door
    35586B         BAF-FP-120709-262   prop
                                       Several sprinkler heads in building 35586B still had the
    35586B         BAF-FP-120709-263   shipping protective caps on them which may prevent
                                       discharge
                                       The staircase fire doors in building 35586B have missing
    35586B         BAF-FP-120709-264   hardware and do not operate correctly
    35586B         BAF-FP-120709-265   Building 35586B has an obstructed manual fire alarm pull box
                                       Building 35586B has numerous nonfunctional emergency
    35586B         BAF-FP-120709-266   lighting fixtures
                                       Building 35586B, Air Traffic Control Cab has several sprinkler
    35586B     BAF-FP-120709-267A      escutcheons that are too far below the ceiling
                                       The Air Traffic Control Tower (ATC) fire alarm control panel
    35586B         BAF-FP-120709-268   (FACP) is in alarm.
                                       The MWR Fitness Gym "The Rock, building 25107, fire alarm
    25107          BAF-FP-120709-269   control panel (FACP) is in alarm status




                                                                                                           DODIG-2013-099 │ 139
Appendices



      Bagram Finding Log Continued
      Fire Protection	       19 August 2012

           Building       Finding Number                                 Abstract
                                             The fire alarm circuit breaker building 25107 is not marked or
            25107        BAF-FP-120709-270   protected from tampering
           35586B        BAF-FP-120709-271   Building 35586B has an obstructed fire egress
            35762        BAF-FP-120709-272   Building 35762 has inappropriate locks for a means of egress
                                             The interior exit stairwells are being used for storage in
            24095        BAF-FP-120709-273   building 24095
                                             Building 24095 of the 455th Air Expeditionary Wing, lacks
            24095        BAF-FP-120709-274   seismic bracing for the fire sprinkler systems.
                                             Building 24095 of the 455th Air Expeditionary Wing, does not
            24095        BAF-FP-120709-275   provide complete building sprinkler system coverage
                                             Building 24095 of the 455th Air Expeditionary Wing, has a non
            24095        BAF-FP-120709-276   working illuminated emergency exit sign
                                             Fire extinguishers in building 24095 are not properly inspected
            24095        BAF-FP-120709-277   and maintained
            24095        BAF-FP-120709-278   Fire extinguishers in building 24095 are not properly installed
            24095        BAF-FP-120709-279   Building 24095 has a nonfunctional emergency lighting fixture
                                             Building 35762 has a step in the path of egress that is not
            35762        BAF-FP-120709-280   fixed in place
                                             Building 35762 has varnish stored in a non-approved storage
            35762        BAF-FP-120709-281   room
                                             Building 35591 emergency light fixture was not functional
            35591        BAF-FP-120709-282   during testing
                                             The mechanical room in building 24095 is being used to store
            24095        BAF-FP-120709-283   combustible and flammable material
                                             Fire sprinkler pipe joining material in building 24095 does not
            24095        BAF-FP-120709-284   comply with NFPA 13
                                             The means of egress for building 35771C is restricted in width
           35771C        BAF-FP-120709-285   due to excessive door projection into the passageway
                                             The main entrance double doors in building 24059 have
            24095        BAF-FP-120709-286   missing and modified door hardware, which obstruct egress
                                             Building 24095, has conduit and duct work penetrating fire
            24095        BAF-FP-120709-287   rated walls with the openings lacking fire-rated protection
          24049 and                          Buildings 24049 and 24051 have an electrical service
                         BAF-FP-120709-288
            24051                            transformer located too close to the buildings
           25216,                            Buildings 25216, 25214 and 25218 are not separated by 12
          25214 and    BAF-FP-120709-289A    feet from the adjacent structures
            25218
                                             Building 25117A is not separated by the required 20 feet from
           25117A        BAF-FP-120709-290   the adjacent permanent structure




140 │ DODIG-2013-099
                                                                                                              Appendices



Bagram Finding Log Continued
Fire Protection	       19 August 2012

   Building         Finding Number                                 Abstract
                                       Building 16844 fire alarm circuit breaker is not correctly
    16844          BAF-FP-120709-291   marked and not protected from tampering
                                       Building 16844 fire alarm control panel does not report to BAF
    16844          BAF-FP-120709-292   Fire Department Dispatch
                                       Building 16844 has a plastic bag covering and disabling a fire
    16844          BAF-FP-120709-293   alarm smoke detector
                                       Building 24049 does not have fire suppression systems for
    24049          BAF-FP-120709-294   kitchen cooking equipment
                                       Building 25132 does not have adequate fire suppression
    25132          BAF-FP-120709-295   systems for kitchen cooking equipment
    24051          BAF-FP-120709-296   A smoke detector was missing in building 24051
    25132          BAF-FP-120709-297   Building 25132 does not have an automatic fire alarm system
    24049          BAF-FP-120709-298   Building 24049 does not have an automatic fire alarm system
                                       Two large JP8 fuel storage tanks are located too close to
    24049          BAF-FP-120709-299   building 24049 without means of secondary containment
                                       The fire water supply post indicator valve near building
    24087B         BAF-FP-120709-300   24087B is not protected from damage
                                       The fire alarm control panel for building 24095 is in non-
    24095          BAF-FP-120709-301   operational condition displaying multiple alarms
  24087B and                           Buildings 24087B and 24087C fire pumps have not been
                   BAF-FP-120709-302
    24087C                             commissioned
                                       Building 24095 fire sprinkler coverage is obstructed in
    24095          BAF-FP-120709-303   mechanical room and electrical room
    24087B         BAF-FP-120709-304   Building 24087B has an incorrect fire sprinkler head installed
                                       The building 24095 fire sprinkler riser assembly does not have
    24095          BAF-FP-120709-305   dielectric fittings on dissimilar material unions and welds
                                       The building 24095 fire suppression water supply Post
    24095          BAF-FP-120709-306   Indicator Valve (PIC) shows the water supply is partially shut
                                       off
    24095          BAF-FP-120709-307   Building 24095 has an exit sign that is burnt out
                                       The movie room in the 8 Ball MWR, building 24051, has an
    24051          BAF-FP-120709-308   obstructed exit
                                       A door not intended for emergency exit use in building 24051
    24051          BAF-FP-120709-309   has conflicting signage
                                       Smoke detectors were missing, disabled, nonfunctional, and
    24049          BAF-FP-120709-310   not properly maintained in the Koele Dining Facility (DFAC),
                                       building 24049
    24049          BAF-FP-120709-311   Building 24049 has a nonfunctional emergency lighting fixture




                                                                                                        DODIG-2013-099 │ 141
Appendices



      Bagram Finding Log Continued
      Fire Protection	       19 August 2012

           Building       Finding Number                                 Abstract
                                             Smoke/heat detection is not provided in some areas of
            24049        BAF-FP-120709-312   building 24049
                                             Smoke detectors in building 24043 are installed too low from
            24043        BAF-FP-120709-313   the ceiling
                                             Fire extinguishers in building 25132 are not properly inspected
            25132        BAF-FP-120709-314   and maintained
                                             Building 24049, Koele Dining Facility (DFAC), has exit door
            24049        BAF-FP-120709-315   frames with lower than required head clearance
                                             Building 24049, Koele Dining Facility (DFAC) has inappropriate
            24049        BAF-FP-120709-316   locks for a means of egress
                                             Building 24095 is constructed as a non-combustible structure,
            24095        BAF-FP-120709-317   but combustible material was used in remodel work
                                             Exit/directional signage illumination is insufficient in the cold
            25132        BAF-FP-120709-318   storage building adjacent to building 25132
                                             Building 25132 has a nonfunctional emergency light fixture
            25132        BAF-FP-120709-319   and illuminated exit sign
                                             The fire extinguisher in the kitchen cooking area for the
            25132        BAF-FP-120709-320   Dragon Dining Facility (DFAC), building 25132, is inaccessible
                                             The building 24095 fire sprinkler riser water motor gong is
            24095        BAF-FP-120709-321   mounted incorrectly
                                             Building 24095 has missing drop in ceiling tiles that will delay
            24095        BAF-FP-120709-322   fire sprinkler activation
            24051        BAF-FP-120709-323   Building 24051 hazardous material storage sign is not legible
                                             Deficiencies were noted with smoke detectors in building
            25132        BAF-FP-120709-324   25132
                                             A kitchen hood grease drip tray is not installed in the Dragon
            25132        BAF-FP-120709-325   Dining Facility (DFAC), building 25132
                                             The building 25132 storage cabinet hazardous material
            25132        BAF-FP-120709-326   sign does not appropriately reflect the actual hazard of the
                                             materials being stored
                                             The Sandwich Shop fire extinguisher is inaccessible in building
            25132        BAF-FP-120709-327   25132
            25132        BAF-FP-120709-328   Building 25132 has inappropriate locks for a means of egress
                                             The smoke detectors in multiple facilities across BAF do not
             BAF         BAF-FP-120709-329   communicate with other detectors located within those
                                             facilities
                                             The interior exit stairwells of building 14782 are being used        Camp
            14782        BAF-FP-120709-330   for storage with the potential to interfere with egress             Montrond
                                             Exit/directional signage illumination and emergency lighting is      Camp
             CM          BAF-FP-120709-331   insufficient in Camp Montrond buildings                             Montrond




142 │ DODIG-2013-099
                                                                                                              Appendices



Bagram Finding Log Continued
Fire Protection	       19 August 2012

   Building         Finding Number                                Abstract
                                       There is systemic lack of inspection and maintenance on fire      Camp
     CM            BAF-FP-120709-332   extinguishers in Camp Montrond                                   Montrond
                                       The Camp Montrond Dining Facility (DFAC) kitchen, building        Camp
    14983          BAF-FP-120709-333   14983, does not have a working fire suppression system for       Montrond
                                       kitchen cooking equipment
                                       Camp Montrond has buildings with door opening headroom            Camp
     CM            BAF-FP-120709-334   less than the required 6’8” clearance and ceiling height less    Montrond
                                       than the required 7' clearance
                                       The building 14882 storage cabinet hazardous material             Camp
    14882          BAF-FP-120709-335   sign does not appropriately reflect the actual hazard of the     Montrond
                                       materials being stored
                                                                                                         Camp
   14769A          BAF-FP-120709-336   Building 14769A has only one means of egress                     Montrond
                                       Systemic deficiencies were noted with the installation and        Camp
     CM        BAF-FP-120709-337A      maintenance of smoke detectors throughout Camp Montrond,         Montrond
                                       and smoke detection is not provided in many locations
                                                                                                         Camp
     CM        BAF-FP-120709-338A      There is overgrown vegetation near building 14782                Montrond
                                       Camp Montrond building 14782 second floor fire escape stairs      Camp
    14782          BAF-FP-120709-339   do not meet NFPA code requirements                               Montrond
                                       Building 14769C main exit door swings inward against the          Camp
    14769C         BAF-FP-120709-340   direction of egress                                              Montrond
                                       Building 14882 has flammable combustible storage under the        Camp
    14882          BAF-FP-120709-341   egress stairs                                                    Montrond
                                       he exit stair for building 14782 does not meet requirements       Camp
    14782          BAF-FP-120709-342   for consistent, even treads and risers                           Montrond

     CM            BAF-FP-120709-343   Billeting structures (sleeping quarters) do not have adequate     Camp
                                       fire separation between buildings                                Montrond
                                       Building 15805, "Motel 8", contains an area of higher hazard
    15805          BAF-FP-120709-344   that is not separated by fire-rated construction
    24095          BAF-FP-120709-345   Building 24095 has an unprotected fire hydrant
                                       The building 24095 fire hydrant pumper connection is
    24095      BAF-FP-120709-346A      orientated wrong
                                       Building fire alarm systems are not connected to the base fire
     BAF       BAF-FP-120709-347A      department
                                       The building 16844 fire alarm control panel has a trouble
    16844          BAF-FP-120709-348   alarm signal




                                                                                                        DODIG-2013-099 │ 143
Appendices




                 Appendix C Continued
                 Notice of Concerns and Responses - BAF
                 CENTCOM Response to BAF NOCs (Nov 11, 2012)




144 │ DODIG-2013-099
                                                                                                                                                                                                                                                      Appendices

                                                BAF ELECTRICAL FINDINGS
                                     TOTALS                                                                                                        Legend
                                     Complete                                                                        132                           EU                    END USER ITEM
                                     Building Occupant Issue                                                         93                            LHS                   LIFE, HEALTH, SAFETY
                                     In Progress                                                                     65                            NMI                   NEED MORE INFO
                                     Not Started                                                                     29                            NON LHS               NOT A LHS
                                     Variance                                                                        11                            NOT ELEC.             NOT AN ELECTRICAL ISSUE
                                                                                                                                                   PRIME POWER           PRIME POWER
                                                                      TOTAL                                         330                            TDB                   TECHNICAL DIRECTION BULLETIN

    Building      Finding Number                                     Abstract                                    MSOW Status     Repair Status           Camp/Location      COMMENTS                         ACTION TAKEN                     LHS *
                                     Two air-conditioning units in building 25120C were found permanently
     25120C      BAF-EL-120709-001   wired to power with no visible means of disconnecting in the case they          Yes           Variance                                     TDB                Covered By TDB issued by TF POWER
                                                    malfunction or maintenance is required.
                                     There is an inadequately closed opening in which conductors enter the
     25120C     BAF-EL-120709-002A                                                                                   Yes          Complete                                    NON LHS               OPENED / CLOSED WO 14424038
                                                         junction box in Building 25120C.
                                      There is an unused opening in the distribution panel outside Building
     25048       BAF-EL-120709-004                                                                                   Yes          In Progress                            LHS/PRIME POWER                    Will plug opening
                                                                       25048
                                       There is inadequate working clearance in front of an air-conditioner
     25048      BAF-EL-120709-005A                                                                                   Yes          In Progress                                 NON LHS                       Contract or Waiver
                                                        disconnect outside Building 25048
                                      The service entrance cable outside of building 25118B is not properly
     25118B      BAF-EL-120709-006                                                                                   Yes          Complete                                    NON LHS               OPENED / CLOSED WO # 13614858
                                                                     supported
                                       There is a Non-Metallic (NM) cable run outside Building 25048 in a
     25048       BAF-EL-120709-007                                                                                   Yes          Complete                                    NON LHS                OPENED / CLOSED WO 13596097
                                                    location that is not permitted by NFPA 70.
     25118A      BAF-EL-120709-008    The neutral wire insulation is misidentified in color in building 25118A       Yes          Complete                                    NON LHS               OPENED / CLOSED WO 14327331
                                     The PVC conduit entering the rear of the panel box is not connected to
     25118A     BAF-EL-120709-009A                                                                                   Yes          Complete                                    NON LHS               OPENED / CLOSED WO 14338441
                                                       the panel box in building 25118A
                                     There is an improperly routed flexible cord through a hole in the wall in                 Building Occupant                                                 Building Occupant notified of issue and
     25048       BAF-EL-120709-010                                                                                   Yes                                                        EU
                                                                 building 25048                                                       Issue                                                               instructed to correct

                                      Electrical Metallic Tubing (EMT) conduit connections at junction boxes
     25118A      BAF-EL-120709-011                                                                                   NO           Complete                                      LHS                              Repaired
                                               are not securely grounded/bonded in building 25118A
                                                                                                                               Building Occupant                                                 Building Occupant notified of issue and
     25048       BAF-EL-120709-012       Two power strips were found run in series inside building 25048             Yes                                                        EU
                                                                                                                                      Issue                                                               instructed to correct
                                                                                                                                                                                                Building Occupant Issue: Fixed on the Spot;
     25048      BAF-EL-120709-013A          A power strip was found to be defective in building 25048                Yes          Complete                                      EU
                                                                                                                                                                                                Power Strip removed by Building Occupant

                                      There is no main bonding jumper in the main service equipment panel                                                                                       Will verify bonding at transformer. This is
     25118B      BAF-EL-120709-014                                                                                   Yes          In Progress                            LHS/PRIME POWER                                                       *
                                                            outside building 25118B                                                                                                                          theater standard
                                       There are no means of disconnect for six air-conditioners outside of
     25048       BAF-EL-120709-015                                                                                   Yes           Variance                                     TDB                Covered By TDB issued by TF POWER
                                                                 building 25048
                                                                                                                                                                                                THIS DEFICIENCY WAS UNABLE TO BE
                                     There is an improperly color-coded grounding conductor running from
     25048       BAF-EL-120709-016                                                                                   Yes          Not Started                                 NON LHS      LOCATED. Once located the ground conductor
                                                     panel 16-4-A-4 outside building 25048
                                                                                                                                                                                            will be marked with green tape throughout.

                                      Power panel 16-14 outside Hanger Building 25059 no longer has a 3-R
     25059       BAF-EL-120709-017                                                                                   NO           In Progress                                   LHS                         Will replace panel
                                            rain-tight rating and can no longer be properly accessed

                                     The main distribution panel outside building 25118A, a male latrine, has
     25118A      BAF-EL-120709-018                                                                                   Yes          In Progress                            LHS/PRIME POWER          Will plug opening and tighten locknut
                                                 an unused opening and loose bonding locknut

                                        There are numerous flexible cords and cables that have the outer
     25059       BAF-EL-120709-019                                                                                   NO           In Progress                                 NON LHS                           Will repair
                                      sheath pulled out of plugs or boxes in Aircraft Hanger building 25059

                                        There is a chain limiting access to an air-conditioner control box in
     25170       BAF-EL-120709-020                                                                                   Yes          In Progress                                 NON LHS                  Will evaluate chain location
                                                  Building 25170, the Craig Joint Theater Hospital
                                     There are unused openings in a generator control box in building 25170,
     25170       BAF-EL-120709-021                                                                                   Yes          In Progress                              PRIME POWER                      Will Plug openings
                                                           the Craig Joint Theater Hospital
                                      A flexible cord is being run under a floor mat and used as a substitute                  Building Occupant                                                 Building Occupant notified of issue and
     25059       BAF-EL-120709-022                                                                                   NO                                                         EU
                                                 for fixed wiring in Aircraft Hanger building 25059                                   Issue                                                               instructed to correct




146 │ DODIG-2013-099
                                                                                                                                                                                                                                               Appendices

Building      Finding Number                                      Abstract                                    MSOW Status     Repair Status     Camp/Location     COMMENTS                        ACTION TAKEN                         LHS *
                                   A receptacle in building 25059, Hangar, C Company Medical room 6-
 25059      BAF-EL-120709-023A                                                                                    NO           In Progress                            LHS                Will be repaired by 30 NOV 2012
                                               101, along the east wall has reversed polarity
                                   There are improperly located, unprotected batteries connected to a
 25170      BAF-EL-120709-024       battery charger near the main back-up generator in the Craig Joint            Yes          In Progress                      LHS/PRIME POWER     Evaluating for project or battery relocation
                                                     Theater Hospital, building 25170
                                 There are disconnected ground conductors in the emergency generator
 25170      BAF-EL-120709-025A     room and the switch room in building 25170, the Craig Joint Theater            Yes          In Progress                       PRIME POWER                  Evaluating for project
                                                                  Hospital
                                  Numerous flexible cords have no grounding contacts in building 25059                      Building Occupant                                        Building Occupant notified of issue and
 25059      BAF-EL-120709-026                                                                                     NO                                                  EU                                                                *
                                                              Aircraft Hangar.                                                     Issue                                                      instructed to correct
                                  Flexible cords are being used as substitutes for fixed wiring in Aircraft                 Building Occupant                                        Building Occupant notified of issue and
 25059      BAF-EL-120709-027                                                                                     NO                                                  EU
                                                          Hanger building 25059                                                    Issue                                                      instructed to correct
                                  Non-metallic wiring is surface mounted without protection or proper
 25059      BAF-EL-120709-028                                                                                     NO           In Progress                         NON LHS              TF POWER will repair by DEC 2014
                                          support throughout the Aircraft Hangar, building 25059
                                 The entire standby power system is non-operational in building 25170,
 25170      BAF-EL-120709-030A                                                                                    Yes          Complete                         LHS/PRIME POWER                 Repairs in progress                     *
                                                      the Craig Joint Theater Hospital
                                    There are numerous electrical code violations associated with the
                                                                                                                            Building Occupant                                        Building Occupant notified of issue and
 25048      BAF-EL-120709-031A     power strip used for some outdoor fence lighting in the west yard of           Yes                                                 EU                                                                *
                                                                                                                                   Issue                                                      instructed to correct
                                                              building 25048
                                  Circuit breaker panel 16-18-A-4 has unused openings, no "dead front"
                                                                                                                                                                                     Openings will be plugged and dead front
 25059      BAF-EL-120709-032    cover, and inadequate working clearance in the Aircraft Hangar building          NO           In Progress                            LHS
                                                                                                                                                                                                     ordered
                                                             25059, gym area

 25059      BAF-EL-120709-033     A metal pull box has a missing cover in Aircraft Hangar building 25059          NO           In Progress                         NON LHS                    Cover will be replaced
                                 A metal receptacle box not securely mounted in Aircraft Hangar building
 25059      BAF-EL-120709-034                                                                                     NO           In Progress                         NON LHS                          Will secure
                                                             25059, Gym area
                                   Circuit breakers are not properly identified on a sub panel in Aircraft                  Building Occupant                                        Building Occupant notified of issue and
 25059      BAF-EL-120709-035                                                                                     NO                                               NON LHS
                                                          Hangar building 25059                                                    Issue                                                      instructed to correct
                                                                                                                                                                                  Located communication (AFN) lines, not
                                                                                                                                                                                  power lines. Torn loose signal cable which
                                 There are low hanging overhead power conductors strung along Disney                                                                              was likely low hanging and torn loose by a
Disney St   BAF-EL-120709-036    St. A Mine Resistant Ambush Protected Vehicle was found with one of              NO           Complete                               LHS         vehicle antenna as it drove under. Coiled up          *
                                           it's antennas in contact with one of the conductors                                                                                    the signal cable and secured it against the
                                                                                                                                                                                  utility pole so it would not present a trip
                                                                                                                                                                                  hazard to pedestrians.


                                  There are metal raceway sections that are not electrically continuous                                                                            Building Occupant has engage a contract to
 25059      BAF-EL-120709-037                                                                                     NO           In Progress                            LHS
                                         (solidly bonded) in the Aircraft Hangar, building 25059                                                                                                    repair.

                                   There are wires in contact with sharp metal edges of raceways and                                                                               Building Occupant has engage a contract to
 25059      BAF-EL-120709-038                                                                                     NO           In Progress                            LHS
                                            enclosures in the Aircraft Hangar, building 25059                                                                                                       repair.
                                 A wire was found making a poor connection in sub-panel 16-18-A-1-A in                                                                             Building Occupant has engage a contract to
 25059      BAF-EL-120709-039                                                                                     NO           In Progress                            LHS
                                                     Aircraft Hangar building 25059                                                                                                                 repair.
                                    An electrical metallic tubing installation was noted in the Aircraft
                                                                                                                                                                                   Building Occupant has engage a contract to
 25059      BAF-EL-120709-040A    Hangar, building 25059, with no chaffing bushing installed to protect           NO           In Progress                         NON LHS
                                                                                                                                                                                                    repair.
                                                       the wiring from sharp edges

                                                                                                                                                                                  Contract is in place for re-wiring the fixtures.
                                  The hangar's high bay lighting Electrical Metallic Tubing (EMT) has an
                                                                                                                                                                                  While the write-up does not reference a code
 25059      BAF-EL-120709-041A    electrical frequency vibration and is warm/hot to the touch in Aircraft         NO           In Progress                            LHS                                                               *
                                                                                                                                                                                    violation, conduit overfill is suspect for
                                                          Hangar, building 25059
                                                                                                                                                                                            causing the heating issue.

                                  The aluminum metal blank material used to cover a hole on sub-panel                                                                              Building Occupant has engage a contract to
 25059      BAF-EL-120709-042                                                                                     NO           In Progress                         NON LHS
                                      16-18-A-1-A is too thin in the Aircraft Hangar, building 25059                                                                                                repair.

                                  There is no main bonding jumper in the main service equipment panel                                                                               Will verify bonding at transformer. This is
 25054      BAF-EL-120709-043                                                                                     Yes          In Progress                      LHS/PRIME POWER                                                         *
                                              16-4-B-1 outside building 25054, a male latrine                                                                                                    theater standard
                                     An unapproved application of underground feeder cable, and an
 25048      BAF-EL-120709-044      unsecured receptacle box were found upstairs in building 25048, a              Yes          Complete                               LHS               OPENED / CLOSED WO 14327340
                                                              medical clinic
                                   There are improperly color coded grounding conductors in the Life
 25170      BAF-EL-120709-045       Safety Board (LDB[sic]) panel enclosure in the Craig Joint Theater            Yes          Complete                            NON LHS              OPENED / CLOSED WO 14364279
                                                        Hospital, building 25170
                                  There is inadequate working clearance in front of two air-conditioner
                                                                                                                                                                                  Will either seek a waiver or engage contract to
 25170      BAF-EL-120709-047     disconnects located outside the Craig Joint Theater Hospital, building          Yes          Not Started                         NON LHS
                                                                                                                                                                                                       repair
                                                                  25170




                                                                                                                                                                                                                                     DODIG-2013-099 │ 147
                                                                                                                                                                                                                                                        Appendices

    Building      Finding Number                                      Abstract                                     MSOW Status     Repair Status        Camp/Location          COMMENTS                         ACTION TAKEN                    LHS *
                                                                                                                                                                                                 Building Occupant notified of issue and
                                     A flexible cord is being run through a doorway and exposed to physical                      Building Occupant
     25059       BAF-EL-120709-048                                                                                     NO                                                          EU            instructed to correct. May include new
                                                    damage in Aircraft Hangar, building 25059                                           Issue
                                                                                                                                                                                                      circuits in the contract to repair.
                                       There is inadequate working clearance in front of several electrical                                                                                     Will either seek a waiver or use contract to
     25059       BAF-EL-120709-049                                                                                     NO           Not Started                                 NON LHS
                                                   panels in theAircraft Hangar, building 25059                                                                                                                      repair
                                     Junction box and receptacle box covers are missing or unsecured in the
     25170       BAF-EL-120709-050                                                                                     Yes          Complete                                    NON LHS             OPENED / CLOSED WO 14339207
                                                   Craig Joint Theater Hospital, building 25170
                                      There are unprotected conductors and an unused opening in a pump
     25170       BAF-EL-120709-051    motor control box in the Craig Joint Theater Hospital, building 25170            Yes          Complete                                    NON LHS             OPENED / CLOSED WO 14339213
                                                            Craig Joint Theater Hospital

                                       A standard junction box is installed in a damp location outside the
     25170       BAF-EL-120709-052                                                                                     Yes          Complete                                       LHS             OPENED / CLOSED WO # 13614868
                                      mechanical room, at the Craig Joint Theater Hospital, building 25170
                                        There are numerous flexible cords and cables that have the outer
     25170       BAF-EL-120709-053     sheath pulled out of equipment boxes       in the Craig Joint Theater           Yes          Complete                                       LHS              OPENED / CLOSED WO 14339220
                                                             Hospital, building 25170
                                                                                                                                                                                               TF POWER will take initial mitigation actions,
                                     The load connected to the branch circuit in the Aircraft Hanger, building
     25059       BAF-EL-120709-054                                                                                     NO           In Progress                                    LHS         and building occupant has engaged contract
                                                   25059, exceeds the branch circuit capacity
                                                                                                                                                                                                             for final repair.
                                     A liquidtight flexible metal conduit is strapped by non-listed means in
     25170       BAF-EL-120709-055                                                                                     Yes          Complete                                    NON LHS             OPENED / CLOSED WO 14339194
                                                 the Craig Joint Theater Hospital, building 25170
                                     There is a defective Ground-Fault Current Interrupter (GFCI) receptacle
     25180       BAF-EL-120709-056                                                                                     Yes          Complete                                       LHS              OPENED / CLOSED WO 14411007                  *
                                                     in building 25180, the Letterman Barracks
                                                                                                                                                                                                CHECKED ALL BOXES, ALL WERE PROPERLY
     25118A      BAF-EL-120709-057        A junction box is unsecured in a male latrine, building 25118A               Yes           Complete                                   NON LHS
                                                                                                                                                                                                       SECURED TO THE WALLS
                                       There are several loose grounding strap bolts in building 25180, the
     25180       BAF-EL-120709-058                                                                                     Yes          Complete                                       LHS              OPENED / CLOSED WO 14411014
                                                                Letterman Barracks
                                     A flexible cord was found attached to the floor in place of fixed wiring in                 Building Occupant                                               Building Occupant notified of issue and
     25180       BAF-EL-120709-059                                                                                     Yes                                                         EU
                                                      the Letterman Barracks, building 25180                                            Issue                                                             instructed to correct
                                         There is a broken handle for the main disconnect box outside the
     25180       BAF-EL-120709-060                                                                                     Yes          Complete                                       LHS              OPENED / CLOSED WO 13489530
                                                        Letterman Barracks, building 25180
                                       There are unlisted floor mounted receptacle outlet boxes and listed
     15817       BAF-EL-120709-061     receptacle outlet boxes missing covers in the Enduring Faith Chapel,            Yes          Complete                                       LHS              OPENED / CLOSED WO 13489368
                                                                  building 15817
                                       Three receptacle boxes and receptacle mounting attachments were
     15817       BAF-EL-120709-062                                                                                     Yes          Complete         Enduring Faith Chapel      NON LHS             OPENED / CLOSED WO 14315275
                                             found loose at the Enduring Faith Chapel, building 15817
                                     A main power panel was found severely damaged at the Enduring Faith
     15817       BAF-EL-120709-063                                                                                     Yes          In Progress                              LHS/PRIME POWER   Evaluating for project or materials in theater
                                                              Chapel, building 15817
                                      Several unused openings were found in distribution panel 15-33.6-A-2
     15817       BAF-EL-120709-064                                                                                     Yes           Complete        Enduring Faith Chapel         LHS              OPENED / CLOSED WO 14315263
                                       and other electrical boxes at Enduring Faith Chapel, building 15817

                                      Wiring for an air-conditioning unit's disconnect is not protected from
     15817       BAF-EL-120709-065                                                                                     Yes           Complete        Enduring Faith Chapel      NON LHS             OPENED / CLOSED WO 14315269
                                          water damage outside Enduring Faith Chapel, building 15817

                                       A flexible cord was found attached to the baseboard with a drywall                        Building Occupant                                               Building Occupant notified of issue and
     15916       BAF-EL-120709-066                                                                                     Yes                                                         EU
                                                    screw in the Chapel Annex, building 15916                                           Issue                                                             instructed to correct
                                        Nonmetallic-sheathed cable (NM) was noted in the Chapel Annex,
     15916       BAF-EL-120709-067                                                                                     Yes          Not Started                                 NON LHS           A project will be undertaken to repair
                                     building 15916, in a surface mounted application which is not approved
                                       There is inadequate protection for Nonmetallic-sheathed cable and
     15916       BAF-EL-120709-068   wiring at a light switch box in the Blessed Sacrament Chapel in building          Yes          Complete                                    NON LHS            OPENED / CLOSED WO # 13614845
                                                                       15916
                                     Energized wires were left exposed outside the Enduring Faith Chapel,
     15817       BAF-EL-120709-069                                                                                     Yes          Complete                                       LHS              OPENED / CLOSED WO 13489373
                                                                   building 15817
                                      A receptacle junction box is not securely fastened in place at Moral,
     15920       BAF-EL-120709-070                                                                                     Yes          Complete                                    NON LHS             OPENED / CLOSED WO 14315287
                                                    Welfare & Recreation (MWR), building 15920
                                      A Flexible cord is being used as a substitute for fixed wiring at Moral,                   Building Occupant                                               Building Occupant notified of issue and
     15920       BAF-EL-120709-071                                                                                     Yes                                                         EU
                                                    Welfare & Recreation (MWR), building 15920                                          Issue                                                             instructed to correct
                                        The grounding electrode conductor for the Safety Office, building
     15813       BAF-EL-120709-072                                                                                     Yes          Complete                                       LHS              OPENED / CLOSED WO 14315829
                                                   15813, is not protected from physical damage
                                        An underground feeder (UF) rated cable is used in an unapproved
     16534B      BAF-EL-120709-073                                                                                     Yes          Complete                                       LHS              OPENED / CLOSED WO 14338450
                                     application outside the Century Post, building 16534B, in Camp McCool
                                           A Service Panel powered directly from a transformer has no
                                                                                                                                                                                                Will verify bonding at transformer. This is
     16534B      BAF-EL-120709-074    disconnecting means or overcurrent protection outside a Sentry Post,             Yes          In Progress         Camp McCool          LHS/PRIME POWER                                                     *
                                                                                                                                                                                                             theater standard
                                                        building 16534B at Camp McCool




148 │ DODIG-2013-099
                                                                                                                                                                                                                                       Appendices

Building     Finding Number                                      Abstract                                    MSOW Status     Repair Status     Camp/Location   COMMENTS                     ACTION TAKEN                       LHS *
                                   An energized exhaust fan's flexible cord is damaged exposing wire
16530      BAF-EL-120709-075                                                                                     Yes           Complete                            LHS             OPENED / CLOSED WO 13489478
                                     conductors in a male shower, building 16530 in Camp McCool

                                    There is Nonmetallic (NM) sheathed cable used in an unapproved
                                                                                                                                                                             Project will be undertaken to replace wire with
16533B     BAF-EL-120709-076      surface mounted application in the Medical Clinic Bunker 6, building           Yes          In Progress      Camp McCool       NON LHS
                                                                                                                                                                                         appropriate conductors.
                                                        16533B in Camp McCool
                                There are no readily accessible power disconnection means for Chigo air-
26002D     BAF-EL-120709-077      conditioning units located at "B Hut" buildings 26002B, 26002C, and            Yes           Variance                           TDB            Covered By TDB issued by TF POWER
                                                        26002D in Camp McCool
                                There are unprotected energized air-conditioner wires at B Hut 26002B
26002B     BAF-EL-120709-078                                                                                     Yes          Complete                             LHS             OPENED / CLOSED WO 14328330
                                                            in Camp McCool
                                There is an unapproved wire splice in an air-conditioner cable at Moral,
15920      BAF-EL-120709-079                                                                                     Yes          Complete                           NON LHS           OPENED / CLOSED WO 13579644
                                              Welfare & Recreation (MWR), building 15920
                                    There is Nonmetallic (NM) sheathed cable used in an unapproved
15849      BAF-EL-120709-080       surface mount application at Camp Alpha laundry room/recreation               Yes          Complete          Camp Alpha       NON LHS           OPENED / CLOSED WO 13645720
                                                          room, building 15849
                                   There is inadequate working clearance in front of two distribution                      Building Occupant                                    Building Occupant notified of issue and
15849      BAF-EL-120709-081                                                                                     Yes                            Camp Alpha         EU
                                       panels at the Camp Alpha laundry room, building 15849                                      Issue                                                  instructed to correct
                                     There is an unused opening in a junction box directly west of
15849      BAF-EL-120709-082       distribution panel 15-16.02-B-3 at the Camp Alpha laundry room,               Yes          Complete          Camp Alpha         LHS             OPENED / CLOSED WO 14315280
                                                             building 15849
                                 There is a mounting screw missing from a receptacle causing a loose
15849      BAF-EL-120709-083    faceplate at the Camp Alpha recreation room, building 15849, upstairs            Yes          Complete          Camp Alpha       NON LHS           OPENED / CLOSED WO 13645715
                                                       near the stairwell doorway
                                 There is 4" PVC electrical conduit that is not glued and is separating at
15851      BAF-EL-120709-084                                                                                     NO           In Progress       Camp Alpha       NON LHS            Will be repaired by 30 NOV 2012
                                         the joints outside the Rooster Barracks, building 15851

                                   There is Nonmetallic (NM) sheathed cable used in an unapproved
15837A     BAF-EL-120709-085                                                                                     Yes          Not Started       Camp Alpha       NON LHS         A project will be undertaken to repair
                                       application in a "B-Hut", building 15837A in Camp Alpha

                                   An unsafe junction box was found in a "B-Hut" building 15837A, in
15837A     BAF-EL-120709-086                                                                                     Yes          Complete          Camp Alpha         LHS             OPENED / CLOSED WO 14315235
                                                                Camp Alpha
                                Two flexible cords were found missing the ground prongs on their plugs
                                                                                                                           Building Occupant                                    Building Occupant notified of issue and
15856A     BAF-EL-120709-087     in the motor pool repair facility, building 15856A, and outside building        Yes                            Camp Alpha         EU                                                           *
                                                                                                                                  Issue                                                  instructed to correct
                                                          15783 in Camp Alpha
                                 One portable lampholder was found damaged and another was of the
                                                                                                                           Building Occupant                                    Building Occupant notified of issue and
15783      BAF-EL-120709-088      incorrect type at the motor pool repair facility building 15783, Camp          Yes                            Camp Alpha         EU
                                                                                                                                  Issue                                                  instructed to correct
                                                                    Alpha
                                A heavy duty 60 amp extension cord has its outer sheath pulled out of
                                                                                                                           Building Occupant                                    Building Occupant notified of issue and
15783      BAF-EL-120709-089    the junction box's cable clamp and no cable support at the motor pool            Yes                            Camp Alpha         EU
                                                                                                                                  Issue                                                  instructed to correct
                                              repair facility, building 15783, Camp Alpha
                                 A receptacle outlet box is not securely fastened to the wall at motor
15783      BAF-EL-120709-090                                                                                     Yes          Complete          Camp Alpha       NON LHS           OPENED / CLOSED WO 14315348
                                          pool repair facility, building 15783, in Camp Alpha
                                 There is a damaged light fixture with exposed wires in the downstairs
15783      BAF-EL-120709-091                                                                                     Yes           Complete         Camp Alpha         LHS             OPENED / CLOSED WO 13489384
                                 stairwell at the motor pool repair facility building 15783, Camp Alpha

                                 Damaged flexible cords and cables were found at buildings 45127 and
45127      BAF-EL-120709-092A                                                                                    NO           In Progress      AFSB Phase V        LHS                   Cords will be replaced.
                                                                  45131
45131      BAF-EL-120709-093A              An unsafe junction box was found at building 45131                    NO           In Progress      AFSB Phase V        LHS              Will be repaired by 30 NOV 2012
                                 There is a unsafe light switch with a missing damp/wet location cover
45131      BAF-EL-120709-094A                                                                                    NO           In Progress      AFSB Phase V        LHS              Will be repaired by 30 NOV 2012
                                                         found at building 45131
                                  A distribution panel at the PAX terminal, building 25209, was found
25209      BAF-EL-120709-095        with a missing dead front panel exposing energized parts to any              Yes          In Progress                      PRIME POWER   Non LHS will order deadfront or replace panel
                                                  personnel accessing circuit breakers
                                  A desktop mounted power converter/transformer is defective in the                        Building Occupant                                     Building Occupant notified of issue and
25209      BAF-EL-120709-096                                                                                     Yes                               PAX             EU
                                            CDDOC room in the PAX terminal, building 25209                                        Issue                                                   instructed to correct
                                                                                                                                                                             Items removed and adequate clearance exists.
                                  There is inadequate working space in front of electrical panels and a
25209      BAF-EL-120709-097                                                                                     Yes           Complete            PAX             EU         Building Occupant notified not to use area as
                                    disconnect box in room 62 of the PAX terminal, building 25209
                                                                                                                                                                                                storage.
                                 There is no illumination in the mechanical room at the Distinguished
25032      BAF-EL-120709-099                                                                                     Yes          Complete                           NON LHS           OPENED / CLOSED WO 13656131
                                            Visitor's (DV) billeting quarters, building 25032
                                 A series of flexible cords were found connected together and routed
                                                                                                                           Building Occupant                                    Building Occupant notified of issue and
66482      BAF-EL-120709-100     over a sharp metal brace in the Tarheel Conference Room of building             Yes                               DFIP            EU
                                                                                                                                  Issue                                                  instructed to correct
                                            66482 in the Detention Facility in Parwan (DFIP)




                                                                                                                                                                                                                             DODIG-2013-099 │ 149
                                                                                                                                                                                                                                              Appendices

     Building         Finding Number                                     Abstract                                     MSOW Status     Repair Status     Camp/Location   COMMENTS                     ACTION TAKEN                     LHS *
                                         A receptacle and faceplate were found unsecured and separating from
                                                                                                                                    Building Occupant                                    Building Occupant notified of issue and
      66482         BAF-EL-120709-101A      the outlet box in the server room in the Battalion Headquarters,              Yes                               DFIP          NON LHS
                                                                                                                                           Issue                                                  instructed to correct
                                                building 66482, in the Detention Facility in Parwan (DFIP)


                                          An unused opening was found in panel BCP-SERVER-2 in the Battalion                        Building Occupant                                    Building Occupant notified of issue and
      66482         BAF-EL-120709-102                                                                                     Yes                               DFIP            LHS
                                         Headquarters, building 66482 in the Detention Facility in Parwan (DFIP)                           Issue                                                  instructed to correct


                                          There is a conduit entering through the door opening of a panel in the
                                                                                                                                    Building Occupant                                    Building Occupant notified of issue and
      66482         BAF-EL-120709-103      Battalion Headquarters, building 66482, in the Detention Facility in           Yes                               DFIP            LHS
                                                                                                                                           Issue                                                  instructed to correct
                                                                       Parwan (DFIP)

                                          There are unsupported cables at the Main Distribution Panel-4 of the
                                                                                                                                    Building Occupant                                    Building Occupant notified of issue and
      66482         BAF-EL-120709-104       KIOSK4 Power Distribution Center, beside building 66482 in the                Yes                               DFIP        PRIME POWER
                                                                                                                                           Issue                                                  instructed to correct
                                                          Detention Facility in Parwan (DFIP)

                                           There are unprotected cables running out of a conduit body opening
                                                                                                                                    Building Occupant                                    Building Occupant notified of issue and
      66482         BAF-EL-120709-105     into the back of a panel outside the server room in the Battalion Head          Yes                               DFIP          NON LHS
                                                                                                                                           Issue                                                  instructed to correct
                                            Quarters, building 66482 in the Detention Facility in Parwan (DFIP)


                                          A conduit pull box is missing a cover in the Repair and Utility Facility,                 Building Occupant                                    Building Occupant notified of issue and
      66477         BAF-EL-120709-106                                                                                     Yes                               DFIP          NON LHS
                                               building 66477 in the Detention Facility in Parwan (DFIP)                                   Issue                                                  instructed to correct


                                         There is a damaged dead front cover in a panel enclosure, in the Repair
                                                                                                                                    Building Occupant                                    Building Occupant notified of issue and
      66477         BAF-EL-120709-107     and Utility Facility, building 66477 in the Detention Facility in Parwan        Yes                               DFIP          NON LHS
                                                                                                                                           Issue                                                  instructed to correct
                                                                            (DFIP)
                                                                                                                                                                                         The DFIP at BAF is no longer American-
                                          There is no overload protection for a new grinder pump motor in the                       Building Occupant
   Lift Station 1   BAF-EL-120709-108                                                                                     NO                                DFIP            LHS       occupied. Building Occupant notified of issue
                                            sewage Lift Station 1, at the Detention Facility In Parwan (DFIP)                              Issue
                                                                                                                                                                                                 and advised to correct
                                           Panel BCP-L&P-MP8 is missing a dead front cover leaving energized
      66482         BAF-EL-120709-109A    electrical parts exposed in building 66482 in the Detention Facility in         Yes           Complete            DFIP            LHS            O&M VERIFIED, LHS NOT PRESENT
                                                                      Parwan (DFIP)
                                                                                                                                                                                         The DFIP at BAF is no longer American-
                                           The new grinder pump motors in the sewage Lift Station 1 have no                         Building Occupant
   Lift Station 1   BAF-EL-120709-110                                                                                     NO                                DFIP          NON LHS     occupied. Building Occupant notified of issue
                                            disconnecting means, at the Detention Facility In Parwan (DFIP)                                Issue
                                                                                                                                                                                                  and advised to correct
                                                                                                                                                                                         The DFIP at BAF is no longer American-
                                           A junction box was found open with conductors exposed to physical                        Building Occupant
   Lift Station 2   BAF-EL-120709-111                                                                                     NO                                DFIP            LHS       occupied. Building Occupant notified of issue
                                           damage near Lift Station 2 at the Detention Facility In Parwan (DFIP)                           Issue
                                                                                                                                                                                                  and advised to correct
                                                                                                                                                                                         The DFIP at BAF is no longer American-
                                         There is improperly supported and unsecured conduit at Lift Station 2 of                   Building Occupant
   Lift Station 2   BAF-EL-120709-112                                                                                     NO                                DFIP          NON LHS     occupied. Building Occupant notified of issue
                                                         the Detention Facility in Parwan (DFIP)                                           Issue
                                                                                                                                                                                                  and advised to correct
                                         An unapproved junction box cover was found in building 66691, at the                       Building Occupant                                    Building Occupant notified of issue and
      66691         BAF-EL-120709-113                                                                                     Yes                               DFIP          NON LHS
                                                          Detention Facility in Parwan (DFIP)                                              Issue                                                   instructed to correct
                                          There is an unprotected ground cable running through a hole in the
                                                                                                                                    Building Occupant                                    Building Occupant notified of issue and
      66691         BAF-EL-120709-114       Medical Housing Unit, building 66691 in the Detention Facility in             Yes                               DFIP          NON LHS
                                                                                                                                           Issue                                                  instructed to correct
                                                                    Parwan (DFIP)

                                         A water heater with inaccessible power wiring was found in the Medical                     Building Occupant                                    Building Occupant notified of issue and
      66691         BAF-EL-120709-115                                                                                     Yes                               DFIP            LHS
                                         Housing Unit, building 66691 in the Detention Facility in Parwan (DFIP)                           Issue                                                  instructed to correct

                                           A grounding conductor was found not connected to the grounding
                                                                                                                                    Building Occupant                                    Building Occupant notified of issue and
      66691         BAF-EL-120709-116A    electrode at the container building outside the Medical Housing Unit,           Yes                               DFIP            LHS
                                                                                                                                           Issue                                                  instructed to correct
                                                building 66691, in the Detention Facility in Parwan (DFIP)
                                            There are unused openings in disconnect boxes in the Vocational
                                                                                                                                    Building Occupant                                    Building Occupant notified of issue and
      67403         BAF-EL-120709-117      Training Center, building 67403 in the Detention Facility In Parwan            Yes                               DFIP            LHS
                                                                                                                                           Issue                                                  instructed to correct
                                                                         (DFIP)
                                           A gutter cover is not securely fastened to the gutter in the Medical                     Building Occupant                                    Building Occupant notified of issue and
      66691         BAF-EL-120709-119                                                                                     Yes                               DFIP          NON LHS
                                         Housing Unit, building 66691, in the Detention Facility in Parwan (DFIP)                          Issue                                                  instructed to correct
                                           The receptacle in the electrical room of building 66594 has reversed                     Building Occupant                                    Building Occupant notified of issue and
      66594         BAF-EL-120709-120                                                                                     Yes                               DFIP            LHS
                                                                          polarity                                                         Issue                                                   instructed to correct
                                                                                                                                                                                         The DFIP at BAF is no longer American-
                                          There is an improper connection of conduit in the fire pump room in                       Building Occupant
      66175         BAF-EL-120709-121                                                                                     NO                                DFIP          NON LHS     occupied. Building Occupant notified of issue
                                               building 66175 of the Detention Facility in Parwan (DFIP)                                   Issue
                                                                                                                                                                                                  and advised to correct




150 │ DODIG-2013-099
                                                                                                                                                                                                                                            Appendices

Building     Finding Number                                      Abstract                                     MSOW Status     Repair Status     Camp/Location     COMMENTS                       ACTION TAKEN                       LHS *
                                                                                                                                                                                     The DFIP at BAF is no longer American-
                                 There is an unsecured junction box cover and a receptacle box cover in                     Building Occupant
66179      BAF-EL-120709-122                                                                                      NO                                DFIP           NON LHS        occupied. Building Occupant notified of issue
                                the Water Treatment Building in the Detention Facility In Parwan (DFIP)                            Issue
                                                                                                                                                                                             and advised to correct
                                                                                                                                                                                     The DFIP at BAF is no longer American-
                                There are numerous instances of improper color coding and marking at                        Building Occupant
 DFIP      BAF-EL-120709-123A                                                                                     NO                                DFIP           NON LHS        occupied. Building Occupant notified of issue
                                              the Detention Facility In Parwan (DFIP)                                              Issue
                                                                                                                                                                                             and advised to correct
                                  The main panel after the transformer is not grounded to earth in the
                                                                                                                            Building Occupant                                        Building Occupant notified of issue and
66477      BAF-EL-120709-124B     Repair and Utility Facility, building 66477 in the Detention Facility In        Yes                               DFIP        LHS/PRIME POWER                                                      *
                                                                                                                                   Issue                                                      instructed to correct
                                                                Parwan (DFIP)
                                  There is no automatic battery charging means for the batteries that
                                                                                                                                                                                     The DFIP at BAF is no longer American-
                                   start the engine that drives the main fire suppression system water                      Building Occupant
66175      BAF-EL-120709-125                                                                                      NO                                DFIP           NON LHS        occupied. Building Occupant notified of issue
                                 pump in the fire pump house, building 66175, in the Detention Facility                            Issue
                                                                                                                                                                                             and advised to correct
                                                              In Parwan (DFIP)
                                Energized parts are not guarded against accidental contact in a panel by
45329      BAF-EL-120709-126      an air-conditioning unit, outside vehicle storage warehouse, building           NO           In Progress                            LHS            Repair will be completed by 30 NOV 12
                                                                    45329

                                                                                                                                                                                  THE PANEL LOCATED IN THE FEMALE LATRINE
                                  The main service disconnect panel is located in the female latrine of
26107B     BAF-EL-120709-127                                                                                      Yes           Complete                           NON LHS         IS A CDP, THE MAIN IS NOT IN THE LATRINE
                                                           building 26107B
                                                                                                                                                                                  BUT LOCATED ON THE OUTSIDE 16-05-B-2-1
                                There is a section of electrical metallic tubing (EMT) that is not properly
25209      BAF-EL-120709-128                                                                                      Yes          Complete                            NON LHS             OPENED / CLOSED WO 14328409
                                              fastened at the PAX terminal, building 25209
25209      BAF-EL-120709-129    There is a receptacle faceplate missing at PAX terminal, building 25209           Yes          Complete                               LHS               OPENED / CLOSED WO 13489543
                                 A flexible cord was not properly attached to the cord's plug at the PAX                    Building Occupant                                        Building Occupant notified of issue and
25209      BAF-EL-120709-130                                                                                      Yes                               PAX               EU
                                                         terminal, building 25209                                                  Issue                                                      instructed to correct
                                 There is an unused opening in a junction box at Distinguished Visitor's
25032      BAF-EL-120709-131                                                                                      Yes          Complete                               LHS              OPENED / CLOSED WO 14327275
                                                  (DV) billeting quarters building 25032
                                 A small refrigerator was found with an improper splice in the flexible                     Building Occupant                                        Building Occupant notified of issue and
25209      BAF-EL-120709-132                                                                                      Yes                               PAX               EU
                                  cord in the palletization room of the PAX terminal, building 25209                               Issue                                                      instructed to correct
                                                                                                                            Building Occupant
15805      BAF-EL-120709-133      Power strips were found run in series in buildings 15804 and 15805              Yes                              Motel 6            EU              Notified Bldg Safety POC, SFC Waites.
                                                                                                                                   Issue
                                There are no readily accessible power disconnecting means for Chigo air-
15805      BAF-EL-120709-134                                                                                      Yes           Variance                             TDB              Covered By TDB issued by TF POWER
                                       conditioning units located at buildings 15804 and 15805

                                  There are exposed and abandoned energized wires outside Motel 8,
15805      BAF-EL-120709-135                                                                                      Yes          Complete                               LHS               OPENED / CLOSED WO 13489379
                                                           building 15805
                                  There are unused openings in the panel box inside Motel 8, building
15805      BAF-EL-120709-136                                                                                      Yes          Complete            Motel 8            LHS              OPENED / CLOSED WO 14315254
                                                                15805

                                A flexible cord was found routed through a doorway in Motel 6, building                                                                           Work Order submitted and new convenience
15804      BAF-EL-120709-137                                                                                      Yes          Complete            Motel 6         NON LHS
                                                                 15804                                                                                                                      outlets were installed

                                 There is inadequate working clearance in front of two power panels in                                                                              This item is complete, adequate clearance
15804      BAF-EL-120709-138                                                                                      Yes          Complete                               EU
                                                         Motel 6, building 15804                                                                                                                     visible
                                Electrical metallic tubing (EMT) conduit was found damaged in Motel 6,
15804      BAF-EL-120709-139                                                                                      Yes          Complete            Motel 6         NON LHS             OPENED / CLOSED WO 14315349
                                                              building 15804
                                   There is no lighting provided in a "storage closet" where electrical
15804      BAF-EL-120709-140                                                                                      Yes          Complete                            NON LHS              OPENED / CLOSED WO 13579672
                                              panels are located in Motel 6, building 15804
                                   Several floor mounted receptacle mounting boxes are missing the
15854      BAF-EL-120709-141                                                                                      Yes          Complete          Camp Alpha           LHS               OPENED / CLOSED WO 13489356
                                   protective receptacle covers at Camp Alpha Gym, building 15854

                                Two plug ground prongs were found broken off inside wall receptacles
15735      BAF-EL-120709-142    in Camp Alpha, one in the Joint Operation Center (JOC), building 15735            Yes          Complete          Camp Alpha        NON LHS             OPENED / CLOSED WO 14315322                   *
                                           and one in the Chapel Annex, building 15835A

                                 A flexible cord (power strip) is used as a substitute for fixed wiring at                  Building Occupant                                        Building Occupant notified of issue and
15835B     BAF-EL-120709-143                                                                                      Yes                            Camp Alpha           EU
                                       Camp Alpha Commons Memorial Chapel, building 15835B                                         Issue                                                      instructed to correct

                                 There are nonmetallic, plastic, "nail on" style receptacle outlet boxes
15835B     BAF-EL-120709-144                                                                                      Yes           Complete         Camp Alpha           LHS              OPENED / CLOSED WO 14315218
                                 used in an unapproved application in building 15835B at Camp Alpha
                                A receptacle outlet located within 6 feet of a sink is not GFCI protected
15843      BAF-EL-120709-145                                                                                      Yes          Complete          Camp Alpha           LHS               OPENED / CLOSED WO 13489361                  *
                                          at the Speer Clinic, building 15843, in Camp Alpha




                                                                                                                                                                                                                                  DODIG-2013-099 │ 151
                                                                                                                                                                                                                                         Appendices

    Building      Finding Number                                     Abstract                                     MSOW Status     Repair Status     Camp/Location      COMMENTS                  ACTION TAKEN                    LHS *
                                       There is a Nonmetallic (NM) sheathed cable used in an unapproved
     15843       BAF-EL-120709-146                                                                                    Yes          Complete           Camp Alpha        NON LHS         OPENED / CLOSED WO 13645721
                                          application at the Speer Clinic, building 15843, Camp Alpha

                                     There are no readily accessible means of disconnect for air-conditioners
     15843       BAF-EL-120709-147                                                                                    Yes           Variance          Camp Alpha         TDB          Covered By TDB issued by TF POWER
                                           outside of the Speer Clinic, building 15843, in Camp Alpha

                                      There is an open ground circuit and reversed polarity condition at all
     15915      BAF-EL-120709-148A          wall receptacles tested in building 15915, Military Police                Yes          Complete                               LHS           OPENED / CLOSED WO 13530081
                                                     Station/Bagram Provost Marshal Office

                                         There is an unlocked knife switch power panel at Military Police                       Building Occupant                                    Building Occupant notified of issue and
     15915       BAF-EL-120709-149                                                                                    Yes                                                 EU
                                             Station/Bagram Provost Marshal Office, building 15915                                     Issue                                                  instructed to correct
                                                                                                                                                                                  Verified the respective transformer Xo and
                                     There is no main bonding jumper in the first disconnecting means in the
     32470B      BAF-EL-120709-150                                                                                    NO           Complete                               LHS     Ground were bonded. This is the bonding         *
                                           service panel in the Power Station Control Building, 32470B
                                                                                                                                                                                  method used in theater.
                                       There is an exposed underground service entrance cable that is not
     15915       BAF-EL-120709-151    protected from damage entering the Military Police Station/Bagram               Yes          Complete                               LHS          OPENED / CLOSED WO # 13614828
                                                     Provost Marshal Office, building 15915
                                      The grounding contacts are missing from some shredder power cord                          Building Occupant                                    Building Occupant notified of issue and
     24094       BAF-EL-120709-152                                                                                    Yes                            Garrison Bldg        EU                                                      *
                                                 plugs in the Garrison Command Building, 24094                                         Issue                                                  instructed to correct
                                     The panel doors of the "Balance of Plant Panel (SCADA) 00-BOP-PANEL"
     32470B      BAF-EL-120709-153      are not adequately bonded to the enclosure in the Power Station               NO           Complete                               LHS     bonded the doors.
                                                             Control Building, 32470B
                                     There were several examples of power strips and extension cords found
                                                                                                                                Building Occupant                                    Building Occupant notified of issue and
     24094       BAF-EL-120709-154   run in series in rooms 112, 114, 213, and the Main Conference Room in            Yes                            Garrison Bldg        EU
                                                                                                                                       Issue                                                  instructed to correct
                                                 the Garrison Command Building, building 24094

                                      There are no readily accessible power disconnection means for Chigo
     24094       BAF-EL-120709-155    type air-conditioning units located at the Garrison Command Building            Yes           Variance                             TDB          Covered By TDB issued by TF POWER
                                                                       24094
                                                                                                                                                                                  Verified that there is adequate working room
                                     There is inadequate working clearance in front of electrical panel 15-4-B-
     14993       BAF-EL-120709-156                                                                                    Yes           Complete                              EU      and panel opens to 90 degrees; bleacher was
                                          3 in the Dragon Arena/ Basketball Court Tent, building 14993
                                                                                                                                                                                                      moved.
                                         There are electrical receptacles filled with paint at the Garrison
     24094       BAF-EL-120709-157                                                                                    Yes          In Progress       Garrison Bldg        EU        Building Occupant submitting work order
                                                            Command, building 24094
                                        There is an unused opening in an outlet box in the Dragon Arena/
     14993       BAF-EL-120709-158                                                                                    Yes          Complete                               LHS           OPENED / CLOSED WO 14315309
                                                      Basketball Court Tent, building 14993.
                                      There is a floor use type receptacle outlet box missing its cover in the
     14993       BAF-EL-120709-159                                                                                    Yes          Complete                               LHS           OPENED / CLOSED WO 13489411
                                               Dragon Arena/Basketball Court Tent, building 14993

                                       There is a loose receptacle box in the Dragon Arena Basketball Court
     14993       BAF-EL-120709-160                                                                                    Yes          Complete                             NON LHS         OPENED / CLOSED WO 14315316
                                                                Tent, building 14993
                                         There is an open ground circuit in an extension cord tested in the                     Building Occupant                                    Building Occupant notified of issue and
     14993       BAF-EL-120709-161                                                                                    Yes                                                 EU                                                      *
                                                Dragon Arena Basketball Court Tent, building 14993                                     Issue                                                  instructed to correct
                                        There is a distribution panel missing the circuit directory at Moral,
     15920       BAF-EL-120709-162                                                                                    Yes          Complete                             NON LHS         OPENED / CLOSED WO 13579622
                                                    Welfare & Recreation (MWR) building 15920
                                     A defective Ground-Fault Circuit Interrupter (GFCI) was observed on the
     25209       BAF-EL-120709-163                                                                                    Yes          Complete                               LHS           OPENED / CLOSED WO 14328401               *
                                                    outside wall of PAX terminal, building 25209
                                     There are several lampholders with broken and missing parts mounted
     15804       BAF-EL-120709-164                                                                                    Yes          Complete                               LHS           OPENED / CLOSED WO 13579657
                                                  on the exterior walls of Motel 6, building 15804

                                     There are numerous flexible cords being used as a substitution for fixed
     15804       BAF-EL-120709-165                                                                                    Yes           Complete            Motel 6           EU          New convenience receptacles installed
                                                     wiring in "Motel 6", building 15804

                                      There is a metal pull box not grounded/bonded in the Female latrine
     24094       BAF-EL-120709-166                                                                                    Yes          Complete                               LHS           OPENED / CLOSED WO 13489492
                                               room 106 at the Garrison Command Building, 24094
                                       There is a junction box with exposed energized wiring near the attic
     24094       BAF-EL-120709-167                                                                                    Yes          Complete                               LHS           OPENED / CLOSED WO 13489504
                                             access ladder in the Garrison Command Building 24094

                                      A flexible cord was found missing the ground prong on the plug in the                     Building Occupant                                    Building Occupant notified of issue and
     14993       BAF-EL-120709-168                                                                                    Yes                                                 EU                                                      *
                                                Dragon Arena/Basketball Court Tent, building 14993                                     Issue                                                  instructed to correct

                                     There are numerous instances of Nonmetallic (NM) sheathed cable used
     14843A      BAF-EL-120709-169      in unapproved applications throughout the Main Post Exchange,                 Yes          In Progress      Main Post Office    NON LHS           Will be repaired by DEC 2014
                                                               building 14843A




152 │ DODIG-2013-099
                                                                                                                                                                                                                                            Appendices

 Building       Finding Number                                     Abstract                                     MSOW Status     Repair Status     Camp/Location      COMMENTS                  ACTION TAKEN                         LHS *
                                     Standard interior receptacles are installed on the outside of building
                                                                                                                                                                                Circuit Has been locked out and replacement
  25108       BAF-EL-120709-170    25108, where weatherproof boxes and Ground-Fault Circuit Interrupter             NO           In Progress                            LHS                                                          *
                                                                                                                                                                                  material will be installed by 30 NOV 2012
                                                  (GFCI) protected receptacles are required
                                   There are numerous instances of Nonmetallic (NM) sheathed cable used                                                                           Contract est. time line to rewire facility 3
  25108       BAF-EL-120709-171                                                                                     NO           In Progress                          NON LHS
                                    in unapproved applications throughout the "The Attic", building 25108                                                                                          weeks

                                    There are unused openings in junction boxes and panelboards at the
  14843A      BAF-EL-120709-172                                                                                     Yes          Complete                               LHS           OPENED / CLOSED WO 14327324
                                                   Main Post Exchange, Building 14843A
                                   There is inadequate working clearance in front of several panels at the                    Building Occupant                                    Building Occupant notified of issue and
  14843A      BAF-EL-120709-173                                                                                     Yes                           Main Post Office      EU
                                                   Main Post Exchange, building 14843A                                               Issue                                                  instructed to correct
                                    There are several examples of power strips and extension cords found                      Building Occupant                                    Building Occupant notified of issue and
  14843A      BAF-EL-120709-174                                                                                     Yes                           Main Post Office      EU
                                          run in series at the Main Post Exchange, building 14843A                                   Issue                                                  instructed to correct
                                     A power strip receptacle was found with an open ground circuit and
                                                                                                                              Building Occupant                                    Building Occupant notified of issue and
  14843A      BAF-EL-120709-175A     reversed polarity condition in the "cashier's cage" of the Main Post           Yes                           Main Post Office      EU
                                                                                                                                     Issue                                                  instructed to correct
                                                         Exchange, building 14843A

                                      A dry location junction box was found being used in a damp/wet
  14843A      BAF-EL-120709-176                                                                                     Yes           Complete                            NON LHS         OPENED / CLOSED WO 14338463
                                        location outside of the Main Post Exchange, building 14843A

                                     There are no readily accessible power disconnecting means for the                                                                              THIS DEFICIENCY WAS UNABLE TO BE
  14843A      BAF-EL-120709-177                                                                                     Yes          Not Started                           NMI
                                      refrigeration coolers in the Main Post Exchange, building 14843A                                                                                           LOCATED

                                                                                                                                                                                Team I58 located an open wireway in the dike
                                      There is an open wire-way near the center of the dike of the fuel
Power Plant   BAF-EL-120709-178                                                                                     NO            Complete                              LHS      containment portion of the fuel storage area
                                                  storage tank area outside the power plant
                                                                                                                                                                                at the power plant. We installed an LB cover.

                                   A flexible cord is used in an unapproved manner being routed through a                     Building Occupant                                    Building Occupant notified of issue and
  14843A      BAF-EL-120709-179                                                                                     Yes                           Main Post Office      EU
                                          hole in the wall in the Main Post Exchange, building 14843A                                Issue                                                  instructed to correct
                                     There is an ineffective ground rod connection outside the Main Post
  14843A      BAF-EL-120709-180                                                                                     Yes          Complete                               LHS           OPENED / CLOSED WO 14327294
                                                           Exchange, building 14843A.
                                                                                                                                                                                These are data cables and the installation will
                                    There is a damaged conduit with insulated conductors exposed within
Power Plant   BAF-EL-120709-181                                                                                     NO           In Progress                            LHS      be repaired once final site conditions have
                                               the fuel tank storage dike area at the Power Plant
                                                                                                                                                                                              been completed.

                                   There is an unused opening in an outlet receptacle box in the Air Force
  25108       BAF-EL-120709-182                                                                                     NO           Complete                               LHS                Repaired by TF POWER
                                       Moral Welfare and Recreation (MWR) Center, building 25108

                                   There are numerous missing light bulbs on a light string on the outside
                                                                                                                              Building Occupant                                    Building Occupant notified of issue and
  25108       BAF-EL-120709-183     of the building at the Air Force Moral Welfare and Recreation (MWR)             NO                                                  EU
                                                                                                                                     Issue                                                  instructed to correct
                                                            Center, building 25108
                                   A flexible cord has the outer sheath pulled out of the rear of the plug at
  25108       BAF-EL-120709-184      the Air Force Moral Welfare and Recreation (MWR) Center, building              NO           Complete                             NON LHS              Repaired by TF POWER
                                                                     25108
                                   There is inadequate working clearance in front of a circuit panel at the
  25108       BAF-EL-120709-185                                                                                     NO           Not Started                          NON LHS     Will evaluate for waiver or contract repair
                                   Air Force Moral Welfare and Recreation (MWR) Center, building 25108

                                   An AR-5000 power convertor was found showing an open ground circuit
                                                                                                                              Building Occupant                                  Could not locate transformer/polarity on all
  25108       BAF-EL-120709-186A     and reversed polarity condition at the Air Force Morale Welfare and            NO                                                 NMI
                                                                                                                                     Issue                                      test recepticles showed proper configuration
                                                 Recreation (MWR) Center, building 25108
                                   There is inadequate working clearance in front of the disconnect box for
  27328       BAF-EL-120709-187                                                                                     NO           Not Started                          NON LHS     Will evaluate for waiver or contract repair
                                   the jockey pump in the AC-130 Hangar Fire Pump House, building 27328

                                   There are improperly color coded insulated grounding conductors in the                                                                         Will identify conductors with proper color
  27328       BAF-EL-120709-188                                                                                     NO           In Progress                          NON LHS
                                                AC-130 Hangar Pump House, building 27328                                                                                                          phase tape.
                                   There are inaccessible junction boxes in a hallway and office room area                    Building Occupant                                    Building Occupant notified of issue and
  27331       BAF-EL-120709-189                                                                                     Yes                                                 EU
                                                   in the AC-130 Hangar, building 27331                                              Issue                                                  instructed to correct
                                    There is inadequate working clearance in front of several panels in the
  27337       BAF-EL-120709-190                                                                                     Yes          Not Started                            EU            Flight Line Pass being requested
                                                      Sheet Metal Shop, building 27337
                                   There is no automatic charging means for the fire pump batteries in the                                                                      Contract will be established to install battery
  27328       BAF-EL-120709-191                                                                                     NO           Not Started                          NON LHS
                                               AC-130 Hangar Fire Pump House, building 27328                                                                                                       chargers

                                   The jockey pump disconnect is not properly grounded in the Fire Pump
  27328       BAF-EL-120709-192                                                                                     NO           In Progress                            LHS             Will be repaired by TF POWER
                                               House for the AC-130 Hangar, building 27328
                                    Multiple extension cords are plugged into each other ("daisy chained")                    Building Occupant                                    Building Occupant notified of issue and
  27331       BAF-EL-120709-193                                                                                     Yes                                                 EU
                                   and are of the wrong type at the AC-130 Aircraft Hangar, building 27331                           Issue                                                  instructed to correct




                                                                                                                                                                                                                                  DODIG-2013-099 │ 153
                                                                                                                                                                                                                                      Appendices

    Building      Finding Number                                     Abstract                                    MSOW Status     Repair Status      Camp/Location    COMMENTS                 ACTION TAKEN                    LHS *
                                                                                                                                                                                 NEED A FLIGHT LINE BADGE TO ENTER THIS
                                       There are unsecured receptacles and a faceplate in the Sheet Metal
     27337       BAF-EL-120709-194                                                                                   Yes          Not Started                         NON LHS   AREA, IN PROGRESS OF CONTACTING STACY C
                                                             Shop, building 27337
                                                                                                                                                                                          COKER FOR APPLICATION
                                       There is a loose ground connection in the AC-130 Hangar Fire Pump
     27328       BAF-EL-120709-195                                                                                   NO           In Progress                           LHS                   Contract repair
                                                              House, building 27328
                                      There are live parts not being guarded from contact, by an approved
     27331       BAF-EL-120709-196    enclosure, in the smoke shack outside of the AC-130 Hanger, building           Yes          Not Started                         LHS/EU                 Will be repaired
                                                                      27331

                                     Two flexible cords were found to be missing the grounding contact pin                     Building Occupant                                  Building Occupant notified of issue and
     27331       BAF-EL-120709-197                                                                                   Yes                                                EU                                                     *
                                         (ground prong) in the AC-130 Aircraft Hangar, Building 27331                                 Issue                                                instructed to correct
                                      A flexible cord (extension cord) has the outer sheath pulled out of the
                                                                                                                               Building Occupant                                  Building Occupant notified of issue and
     27331       BAF-EL-120709-198     plug exposing the conductor wires to damage at the AC-130 Aircraft            Yes                                                EU
                                                                                                                                      Issue                                                instructed to correct
                                                              Hangar, building 27331
                                     There is a flexible cord with a broken ground prong found in the Sheet                    Building Occupant                                  Building Occupant notified of issue and
     27337       BAF-EL-120709-199                                                                                   Yes                                                EU                                                     *
                                                            Metal Shop, building 27337                                                Issue                                                instructed to correct
                                     There is inadequate working clearance in front of the electrical panel in
     25021       BAF-EL-120709-200                                                                                   NO           Not Started      Camp Cunningham    NON LHS               contract or waiver
                                                     the transient lodging tent, building 25021
                                       There is an unsupported switch box hanging by conductors in Hotel
     25021       BAF-EL-120709-201                                                                                   NO           Complete         Camp Cunningham      LHS                     TFP Repair
                                                             California, building 25021

                                       There are two Liquidtight Flexible Metal Conduit (LFMC) fittings not
     27331       BAF-EL-120709-202                                                                                   Yes          Not Started                           EU         Will be repaired by LOGCAP contractor
                                        properly connected at the AC-130 aircraft hangar, Building 27331

                                     There is a service disconnect located inside of a bathroom in the shower
     27331       BAF-EL-120709-203                                                                                   Yes          Complete                              LHS          OPENED / CLOSED WO 14338507
                                                 stall at the AC-130 Aircraft Hangar, building 27331
                                        There are two light fixtures in the men's latrine that are no longer
     27331       BAF-EL-120709-204   suitable for use in a "damp/wet" location in the AC-130 Aircraft Hangar,        Yes          Complete                              LHS          OPENED / CLOSED WO 14328380
                                                                   building 27331
                                       There was a multiple outlet device connected to an extension cord                       Building Occupant                                  Building Occupant notified of issue and
     25021       BAF-EL-120709-205                                                                                   NO                            Camp Cunningham      EU
                                          (daisy chained) in the transient housing tent, building 25021                               Issue                                                instructed to correct
                                     A flexible cord was found used in place of fixed wiring in the hallway in
     25018       BAF-EL-120709-206                                                                                   NO           Complete         Camp Cunningham    NON LHS                   TFP Repair
                                                   Camp Cunningham Housing building 25018
                                     There is an unsecured conduit pull box cover connection to a generator
     25012       BAF-EL-120709-207                                                                                   NO           Complete         Camp Cunningham    NON LHS                   TFP Repair
                                              outside of Camp Cunningham Housing, building 25012

                                       There are several missing or broken receptacle faceplates in Camp
     25012       BAF-EL-120709-208                                                                                   NO           Complete         Camp Cunningham      LHS                     TFP Repair
                                                     Cunningham Housing building 25012
                                      There are several light fixtures missing covers in Camp Cunningham
     25012       BAF-EL-120709-209                                                                                   NO           Complete         Camp Cunningham    NON LHS                   TFP Repair
                                                            Housing, building 25012
                                      A junction box was found with a missing cover in Camp Cunningham
     25012       BAF-EL-120709-210                                                                                   NO           Complete         Camp Cunningham    NON LHS                   TFP Repair
                                                            Housing, building 25012
                                      There is inadequate working clearance in front of electrical panels in
     25003       BAF-EL-120709-211                                                                                   NO           Not Started      Camp Cunningham    NON LHS               Contract or waiver
                                                   Camp Cunningham Housing, building 25003
                                                                                                                                                                                  Bldg is currently under construction per
                                       There are several light fixtures missing covers in Camp Cunningham
     25003       BAF-EL-120709-212                                                                                   NO           In Progress      Camp Cunningham    NON LHS   Change Order 1029--all defienciencies being
                                                             Housing, building 25003
                                                                                                                                                                                                  corrected.
                                     The grounding and grounded conductors are improperly color coded in
     25018       BAF-EL-120709-213                                                                                   NO           In Progress      Camp Cunningham    NON LHS                   TFP Repair
                                                 Camp Cunningham Housing, building 25018
                                     There is a defective Ground-Fault Circuit Interupter (GFCI) receptacle in
     25003       BAF-EL-120709-214                                                                                   NO           Complete         Camp Cunningham      LHS                      Repaired                      *
                                             a latrine in Camp Cunningham Housing, building 25003

                                                                                                                                                                                  Bldg is currently under construction per
                                     Electrical Nonmetallic Tubing (ENT) is not continuous and therefore not
     25003       BAF-EL-120709-215                                                                                   NO           In Progress      Camp Cunningham    NON LHS   Change Order 1029--all defienciencies being
                                           providing the proper conductor protection in building 25003
                                                                                                                                                                                                  corrected.
                                                                                                                                                                                  Bldg is currently under construction per
                                      There are no means of disconnect within sight from water heaters at
     25003       BAF-EL-120709-216                                                                                   NO           In Progress      Camp Cunningham    NON LHS   Change Order 1029--all defienciencies being
                                                  Camp Cunningham Housing, building 25003
                                                                                                                                                                                                  corrected.
                                                                                                                                                                                  Bldg is currently under construction per
                                           A weatherproof receptacle has its cover broken off at Camp
     25003       BAF-EL-120709-217                                                                                   NO           In Progress      Camp Cunningham      LHS     Change Order 1029--all defienciencies being
                                                     Cunningham Housing, building 25003
                                                                                                                                                                                                  corrected.
                                     There are no readily accessible power disconnecting means for Chigo air-
     25003       BAF-EL-120709-218     conditioning units located at Camp Cunningham Housing, building               NO            Variance        Camp Cunningham    NON LHS      Covered By TDB issued by TF POWER
                                                                      25003




154 │ DODIG-2013-099
                                                                                                                                                                                                                                       Appendices

Building     Finding Number                                     Abstract                                    MSOW Status     Repair Status      Camp/Location    COMMENTS                  ACTION TAKEN                         LHS *
                                There are unused openings in a light switch box and junction box at the
25112      BAF-EL-120709-219                                                                                    NO           In Progress                           LHS                       TFP Repair
                                                   Old Russian Tower, building 25112
                                The insulated conductors hanging in the showers in building 25003 are                                                                         Bldg is currently under construction per
25003      BAF-EL-120709-220     not listed for wet/damp locations and are not properly terminated to           NO           In Progress      Camp Cunningham      LHS      Change Order 1029--all defienciencies being
                                                            the junction box                                                                                                                  corrected.
                                 Several outlet devices (power strips) and extension cords were found                     Building Occupant                                   Building Occupant notified of issue and
24299      BAF-EL-120709-221                                                                                    Yes                                USO             EU
                                             connected in series at the USO, Building 24299                                      Issue                                                  instructed to correct
                                There is an unused opening in a junction box in a male latrine, building
25023A     BAF-EL-120709-222                                                                                    Yes          Not Started        Cunningham       LHS/EU       Will be repaired by LOGCAP contractor
                                                                 25023A
                                  A Ground-Fault Circuit Interrupter (GFCI) receptacle outlet box was
25023A     BAF-EL-120709-223       found with a broken cover at a male latrine in Camp Cunningham,              Yes          Not Started        Cunningham       LHS/EU                Cover will be replaced                   *
                                                            building 25023A
                                 There are floor use receptacle outlet boxes missing the covers in the
25117A     BAF-EL-120709-224                                                                                    Yes           Complete                             LHS           OPENED / CLOSED WO 14338477
                                                 Pebble Fitness Center, building 25117A
                                A grounding prong was found broken off inside a floor receptacle in the
25117A     BAF-EL-120709-225                                                                                    Yes          Not Started                           LHS              Receptacle will be replaced                 *
                                                 Pebble Fitness Center, building 25117A
                                There is inadequate working clearance in front of the electrical panel in                 Building Occupant                                   Building Occupant notified of issue and
25117A     BAF-EL-120709-226                                                                                    Yes                                                EU
                                               the Pebble Fitness Center, building 25117A                                        Issue                                                 instructed to correct
                                 Non-metallic wiring is surface mounted without proper protection or
25117A     BAF-EL-120709-227                                                                                    Yes          Not Started                         NON LHS   FORCE PROTECTION, AWAITING DIRECTIONS
                                       support in the Pebble Fitness Center, building 25117A

                                A grounding prong was found broken off inside a floor receptacle in the
25218      BAF-EL-120709-228                                                                                    Yes          Not Started                           LHS              Receptacle will be replaced                 *
                                              Learning Resource Center, building 25218
                                  There are two outlet boxes missing covers in the Learning Resource
25218      BAF-EL-120709-229                                                                                    Yes           Complete                             LHS           OPENED / CLOSED WO 13489465
                                                        Center building 25218
                                 There are numerous flexible cords missing the grounding contacts at                      Building Occupant                                   Building Occupant notified of issue and
25107      BAF-EL-120709-230                                                                                    NO                                                 EU                                                           *
                                               The Rock Fitness Center, building 25107                                           Issue                                                 instructed to correct
25218      BAF-EL-120709-231    There is unsupported nonmetalic (NM) cable throughout building 25218            Yes           Complete                           NON LHS         OPENED / CLOSED WO 14339245
                                Electrical Metallic Tubing (EMT) is missing locking/bonding nuts at The
25107      BAF-EL-120709-232                                                                                    NO           In Progress                         NON LHS                     TFP Repair
                                                   Rock Fitness Center, Building 25107
                                  There are no readily accessible power disconnecting means for the
25124A     BAF-EL-120709-233       Chigo air-conditioning units in the B-Huts in Camp Cunningham,               Yes           Variance          Cunningham       NON LHS       Covered By TDB issued by TF POWER
                                                      buildings 25023B and 25124A

                                  There is surface mounted non-metallic (NM) cable without proper
25124A     BAF-EL-120709-234    protection or support units inside and underneath the B-Huts in Camp            Yes          Not Started                         NON LHS        contract for repair will be initiated
                                         Cunningham, buildings 25023B, 25023D and 25124A
                                There are no automatic charging means for the batteries that start the
                                                                                                                                                                           Contract will be established to install battery
35587      BAF-EL-120709-235     two pump engines in the fire pump room, building 35587 for the Air             Yes          Not Started                         NON LHS
                                                                                                                                                                                              chargers
                                                          Traffic Control Tower
                                A flexible cord was found being used as a substitute for fixed wiring at                  Building Occupant                                   Building Occupant notified of issue and
25107      BAF-EL-120709-236                                                                                    NO                                                 EU
                                                The Rock Fitness Center, building 25107.                                         Issue                                                 instructed to correct
                                  Unused openings were found on three junction boxes at The Rock
25107      BAF-EL-120709-237                                                                                    NO           In Progress                           LHS                       TFP Repair
                                                     Fitness Center, building 25107
                                There is a defective Atlas SVC 5000 power convertor/regulator powering                    Building Occupant                                   Building Occupant notified of issue and
25107      BAF-EL-120709-238A                                                                                   NO                                                 EU
                                       the refrigerator in The Rock Fitness Center, building 25107                               Issue                                                 instructed to correct

                                 There is inadequate working clearance in front of several panels in the
35586B     BAF-EL-120709-239                                                                                    Yes          Not Started                         NON LHS    Waiver or Contract for Repair will be issued
                                               Air Traffic Control Tower, building 35586B
                                    There is no main bonding jumper connected in the main service
                                                                                                                                                                             Will verify bonding at transformer. This is
35991      BAF-EL-120709-240       disconnect for the building, located outside the Approach Control,           NO           In Progress                           LHS                                                          *
                                                                                                                                                                                          theater standard
                                                              building 35991
                                There are service disconnects located in two bathroom areas in the Air                                                                     PANELS WITH IN BATHROOMS (LATRINES) ARE
35586B     BAF-EL-120709-241                                                                                    Yes           Variance                            TDB
                                                Traffic Control Tower, building 35586B                                                                                       WITH IN EVERY BATHROOM IN THEATER

                                                                                                                                                                            FOUND TWO GFCI'S IN THE WHOLE TRAFFIC
                                  A Ground-Fault Circuit Interrupter (GFCI) receptacle is not properly                                                                       CONTROL TOWER AND THEY BOTH WERE
35586B     BAF-EL-120709-242                                                                                    Yes           Complete                             LHS                                                          *
                                      secured at the Air Traffic Control Tower, building 35586B                                                                                PROPERLY SECURED AND WORKING,
                                                                                                                                                                                 INSPECTED COMPLETE TOWER

                                A section of Electrical Metallic Tubing (EMT) is not properly attached to
35586B     BAF-EL-120709-243                                                                                    Yes           Complete                           NON LHS         OPENED / CLOSED WO 14424057
                                    a junction box at the Air Traffic Control Tower, Building 35586B

                                    There is a broken light fixture being supported by the insulated
35586B     BAF-EL-120709-244      conductors observed outside the Air Traffic Control Tower, building           Yes           Complete                             LHS           OPENED / CLOSED WO 13489346
                                                                 35586B.




                                                                                                                                                                                                                             DODIG-2013-099 │ 155
                                                                                                                                                                                                                                         Appendices

    Building      Finding Number                                     Abstract                                     MSOW Status     Repair Status     Camp/Location   COMMENTS                  ACTION TAKEN                       LHS *
                                     There is an improper splice in a Tripp-Lite Uninterrupted Power Supply                     Building Occupant                                Building Occupant notified of issue and
     25209       BAF-EL-120709-245                                                                                    Yes                               PAX            EU
                                          (UPS) power cord found in the PAX terminal, building 25209                                   Issue                                              instructed to correct

                                     There are multiple enclosures without equipment identification labeling
     35586B      BAF-EL-120709-246                                                                                    Yes          Complete                          NON LHS        OPENED / CLOSED WO 14424065
                                      in the electrical room of the Air Traffic Control Tower, building 35586B
                                      A desktop fan was found hanging from it's flexible cord at the "Snack                     Building Occupant                                Building Occupant notified of issue and
     25058       BAF-EL-120709-247                                                                                    NO                                               EU
                                                            Shack", building 25058                                                     Issue                                              instructed to correct
                                        Receptacles installed inside and outside of building 35762 where
     35762       BAF-EL-120709-248      Ground-Fault Circuit Interrupter (GFCI) protected receptacles are             NO           In Progress                         LHS                      TFP Repair                        *
                                           required, were tested and found to not be GFCI protected
                                       There is an unused opening in a panelboard at the Housing Office,
     35768       BAF-EL-120709-249                                                                                    NO           In Progress                         LHS                      TFP Repair
                                                                  building 35768.
                                      There is a refrigerator with a missing grounding prong in the Housing                     Building Occupant                                Building Occupant notified of issue and
     35768       BAF-EL-120709-250                                                                                    NO                                               EU                                                         *
                                                               Office, building 35768                                                  Issue                                              instructed to correct
                                      There is no dedicated equipment space in front of the motor control                       Building Occupant                                Building Occupant notified of issue and
     27331       BAF-EL-120709-251                                                                                    Yes                                              EU
                                               center at the AC-130 Aircraft Hangar building 27331                                     Issue                                              instructed to correct
                                       Three power transformers were found to be defective at the AMC                           Building Occupant                                Building Occupant notified of issue and
     35770      BAF-EL-120709-252A                                                                                    NO                                               EU
                                                          Laundry Facility, building 35770                                             Issue                                              instructed to correct
                                     There is inadequate working clearance in front of the electrical panel in
     35770       BAF-EL-120709-253                                                                                    NO           Not Started                       NON LHS                Contract or Waiver
                                                     the AMC Laundry Facility, building 35770
                                     There is unsecured and unsupported conduit outside the AMC Laundry
     35770       BAF-EL-120709-254                                                                                    NO           In Progress                       NON LHS                    TFP Repair
                                                              Facility, building 35770
                                     There is a junction box on an outside wall not grounded, and not rated
     35770       BAF-EL-120709-255                                                                                    NO           In Progress                         LHS                      TFP Repair
                                          for outdoor use at the AMC Laundry Facility, building 35770

                                      There is a flexible cord that has the outer sheath pulled out of plug at
     35770       BAF-EL-120709-256                                                                                    NO           In Progress                       NON LHS                    TFP Repair
                                                              the AMC Laundry Facility
                                       A receptacle faceplate is broken and wires entering the box are not
     35762       BAF-EL-120709-257                                                                                    NO           In Progress                       NON LHS                    TFP Repair
                                           protected from damage at Sabre Recreation Building 35762

                                      During inspection of building 16844, Water Treatment Plant #2, it was
     16844       BAF-EL-120709-258                                                                                    Yes          Complete                            LHS          OPENED / CLOSED WO 14315357
                                                 observed that a branch circuit was overloaded
                                     There is no readily available disconnecting means for an air-conditioner
     35771C      BAF-EL-120709-259                                                                                    NO            Variance                         NON LHS       Covered By TDB issued by TF POWER
                                        in the Re-locatable Building (RLB) room 246, in building 35771C

                                        A receptacle tested indicates an open ground circuit and reversed
     35762      BAF-EL-120709-260A    polarity condition at the Sabre Morale, Welfare and Recreation Center           NO           In Progress                         LHS                      TFP Repair
                                                              (MWR), building 35762
                                        There are no automatic charging means for the fire pump engine                                                                         Contract will be established to install battery
     24087C      BAF-EL-120709-261                                                                                    NO           Not Started                       NON LHS
                                      batteries in the two Fire Pump Rooms, buildings 24087B and 24087C                                                                                           chargers

                                      A flexible cord is being used as a substitute for fixed wiring in the 1st
                                                                                                                                Building Occupant                                Building Occupant notified of issue and
     24095       BAF-EL-120709-262     floor conference room of the 455th Air Expeditionary Wing, building            Yes                               455th          EU
                                                                                                                                       Issue                                              instructed to correct
                                                                       24095
                                     Power strips were found run in series inside various offices at the 455th                  Building Occupant                                Building Occupant notified of issue and
     24095       BAF-EL-120709-263                                                                                    Yes                               455th          EU
                                                      Air Expeditionary Wing, building 24095                                           Issue                                              instructed to correct
                                         Two non-listed power converters were found wired with exposed
                                                                                                                                Building Occupant                                Building Occupant notified of issue and
     24095       BAF-EL-120709-264      energized conductors on the outside of the device in the 455th Air            Yes                               455th          EU
                                                                                                                                       Issue                                              instructed to correct
                                                    Expeditionary Wing (AEW), building 24095
                                           Three branch circuits were found overloaded in the 455th Air
     24095       BAF-EL-120709-265                                                                                    Yes          Complete                            LHS          OPENED / CLOSED WO 14315382
                                                        Expeditionary Wing, building 24095
                                     There are improperly secured receptacles with attached faceplate at the
     24095       BAF-EL-120709-266                                                                                    Yes          Complete                          NON LHS        OPENED / CLOSED WO 14315415
                                                   455th Air Expeditionary Wing, building 24095
                                     There is an unidentified disconnect in the mechanical room of the 455th
     24095       BAF-EL-120709-267                                                                                    Yes          Complete                          NON LHS        OPENED / CLOSED WO 14315389
                                                      Air Expeditionary Wing,building 24095
                                        There are two instances of improper conduit connections in the
     24095       BAF-EL-120709-268                                                                                    Yes           Complete                         NON LHS        OPENED / CLOSED WO 14315430
                                      mechanical room of the 455th Air Expeditionary Wing, building 24095

                                       A pull box cover was found not properly secured in the mechanical
     24095       BAF-EL-120709-269                                                                                    Yes          Complete                          NON LHS         OPENED / CLOSED WO 13656158
                                                              room of building 24095
                                      Several broken or missing faceplates and missing receptacles exposing
     24095       BAF-EL-120709-270                                                                                    Yes          Complete                            LHS           OPENED / CLOSED WO 13489508
                                                 live wires were found in offices in building 24095
                                          An unsafe receptacle junction box was found in the 455th Air
     24095       BAF-EL-120709-271                                                                                    Yes          Complete                            LHS          OPENED / CLOSED WO 14315401
                                                        Expeditionary Wing, building 24095




156 │ DODIG-2013-099
                                                                                                                                                                                                                                      Appendices

Building     Finding Number                                       Abstract                                  MSOW Status     Repair Status     Camp/Location   COMMENTS                     ACTION TAKEN                       LHS *
                                 Two flexible cords were found with no plug grounding pin (prongs) in                     Building Occupant                                    Building Occupant notified of issue and
24095      BAF-EL-120709-272                                                                                    Yes                               455th           EU                                                           *
                                                              building 24095                                                     Issue                                                  instructed to correct
                                   Two unlisted European type power convertors/transformers were
                                                                                                                          Building Occupant                                    Building Occupant notified of issue and
24095      BAF-EL-120709-273A      found with open ground circuit and reversed polarity condition in            Yes                               455th           EU
                                                                                                                                 Issue                                                  instructed to correct
                                                              building 24095
                                A defective Ground-Fault Circuit Interrupter (GFCI) receptacle was found
24095      BAF-EL-120709-274                                                                                    Yes          Complete                             LHS             OPENED / CLOSED WO 13489513                  *
                                              in the 2nd floor male latrine in building 24095
                                A flexible cord is being used as a substitute for fixed wiring at the MWR                                                                    DEFICIENCY WAS A MONITOR PATCH CORD
24051      BAF-EL-120709-275                                                                                    Yes          Complete                             EU
                                                    8 Ball movie theater, building 24051                                                                                            FOR COMPUTER/PROJECTOR
                                There are no readily accessible power disconnecting means for Chigo air-
24051      BAF-EL-120709-276                                                                                    Yes           Variance                           TDB            Covered By TDB issued by TF POWER
                                       conditioning units located at MWR 8 Ball, building 24051

                                Two flexible cords were found being improperly used in the MWR 8 Ball,
24051      BAF-EL-120709-277                                                                                    Yes          Complete                             EU                          Corrected
                                                            building 24051.
                                 There is inadequate working clearance in front of electrical panels and
24049      BAF-EL-120709-278                                                                                    Yes          In Progress                        NON LHS                   Contract or Waiver
                                  disconnect boxes in the Koele Dining Facility (DFAC), building 24049

                                 There are energized wires exposed in two junction boxes in the Koele
24049      BAF-EL-120709-279                                                                                    Yes          Complete                             LHS             OPENED / CLOSED WO 13489487
                                                   Dining Facility (DFAC), building 24049
                                     A receptacle was noted in building 24049 that was not securely
24049      BAF-EL-120709-280                                                                                    Yes          Complete                           NON LHS           OPENED / CLOSED WO 14315363
                                                         fastened to its outlet box
                                    There were two instances found of unprotected surface mounted
24049      BAF-EL-120709-281       nonmetallic (NM) cable in the Koele Dining Facility (DFAC), building         Yes          Complete                           NON LHS           OPENED / CLOSED WO 13579611
                                                                    24049
                                A transformer was found unlocked and unattended outside of the 8 Ball
24051      BAF-EL-120709-282                                                                                    Yes          In Progress                      PRIME POWER             Transformer will be locked
                                                           MWR, building 24051
                                A flexible power cord was found missing the ground contact on the plug
24049      BAF-EL-120709-283                                                                                    Yes          Complete                             LHS             OPENED / CLOSED WO 13579596                  *
                                            in the Koele Dining Facility (DFAC), building 24049
                                An open weatherproof rated electrical panel enclosure was discovered
24051      BAF-EL-120709-284                                                                                    Yes          Complete          8 Ball MWR         LHS             OPENED / CLOSED WO 14315244
                                                 outside of the 8 Ball MWR, building 24051
                                 Two flexible cords were found missing their grounding contacts at the
25132      BAF-EL-120709-285                                                                                    Yes          Complete                             EU                         CORRECTED                         *
                                                       Dragon DFAC Building 25132
                                         There are two missing covers on the wiring gutter in the
25132      BAF-EL-120709-286       mechanical/electrical room of the Dragon Dinning Facility, building          Yes          Complete         Dragon DFAC       NON LHS           OPENED / CLOSED WO 13656103
                                                                    25132
                                  Two receptacles are not securely mounted in the outlet boxes at the
25132      BAF-EL-120709-287                                                                                    Yes          Not Started                         NMI                 Unable to locate receptacles
                                                       Dragon DFAC, building 25132
                                Two damaged and improperly repaired flexible cords were found in the                      Building Occupant                                    Building Occupant notified of issue and
25132      BAF-EL-120709-288                                                                                    Yes                           Dragon DFAC         EU
                                                   Dragon Dining Facility, building 25132                                        Issue                                                  instructed to correct
                                    There is an incomplete panel schedule in an electrical panel in the
25132      BAF-EL-120709-289                                                                                    Yes          Complete         Dragon DFAC       NON LHS           OPENED / CLOSED WO 13580757
                                               Dragon Dining Facility (DFAC), building 25132
                                  A conduit body is missing a cover exposing energized wires inside in
25132      BAF-EL-120709-290                                                                                    Yes          Complete         Dragon DFAC         LHS             OPENED / CLOSED WO 13489523
                                                               building 25132
                                   Four receptacles are wired incorrectly at the Dragon Dining Facility
25132      BAF-EL-120709-291A                                                                                   Yes          Complete                             LHS             OPENED / CLOSED WO 14383693                  *
                                                          (DFAC), building 25132
                                An octagon junction box was found with an incompatible square cover
24049      BAF-EL-120709-292                                                                                    Yes           Complete                          NON LHS           OPENED / CLOSED WO 14315374
                                        in the Koele Overflow Dining Facility, building 24049

                                 A receptacle was found contaminated with paint at the Dragon DFAC,
25132      BAF-EL-120709-293                                                                                    Yes          Complete                           NON LHS           OPENED / CLOSED WO 14383712
                                                            building 25132
                                 A flexible cord powering a "swamp cooler" in building 25132 has the
25132      BAF-EL-120709-294                                                                                    Yes          Complete         Dragon DFAC       NON LHS           OPENED / CLOSED WO 13656114
                                                  outer sheath pulled out of the plug
                                A defective Ground Fault Circuit Interrupter (GFCI) receptacle was found                                                                    Condition was investigated all GFCI receptacles
25132      BAF-EL-120709-295                                                                                    Yes           Complete        Dragon DFAC         LHS                                                          *
                                          at the Dragon Dining Facility (DFAC), building 25132                                                                               tested in the facility and unable to duplicate
                                  A power strip and extension cord were found daisy chained at the                        Building Occupant                                    Building Occupant notified of issue and
25132      BAF-EL-120709-296                                                                                    Yes                           Dragon DFAC         EU
                                            Dragon Dining Facility (DFAC), building, 25132                                       Issue                                                  instructed to correct
                                 A wire with damaged insulation inside a disconnect box was found at
25132      BAF-EL-120709-297                                                                                    Yes          Complete                           NON LHS           OPENED / CLOSED WO 14339241
                                                    Dragon DFAC, building 25132
                                There is no visible means of disconnect for a booster water heater unit
25132      BAF-EL-120709-298                                                                                    Yes          Complete                           NON LHS           OPENED / CLOSED WO 14364614
                                          at the Dragon Dining Facility (DFAC), building 25132

                                     There were unsecured flexible cables suspended from service
25132      BAF-EL-120709-299                                                                                    Yes           Complete        Dragon DFAC       NON LHS           OPENED / CLOSED WO 13656151
                                    disconnects at the Dragon Dining Facility (DFAC), building 25132




                                                                                                                                                                                                                          DODIG-2013-099 │ 157
                                                                                                                                                                                                                                Appendices

    Building      Finding Number                                    Abstract                                     MSOW Status     Repair Status     Camp/Location   COMMENTS              ACTION TAKEN                   LHS *
                                     There were three instances of multiple outlet devices (power strips) and
                                                                                                                               Building Occupant                              Building Occupant notified of issue and
     14977       BAF-EL-120709-300     extension cords connected together in the Medical Facility, building          Yes                           Camp Montrond      EU
                                                                                                                                      Issue                                            instructed to correct
                                                           14977, in Camp Montrond

                                      Several flexible cords were found used improperly and as a substitute
     14977       BAF-EL-120709-301                                                                                   Yes           Complete        Camp Montrond    NON LHS     OPENED / CLOSED WO 14315335
                                     for fixed wiring in the Camp Montrond Medical Facility, building 14977
                                       Two defective European type power convertors/transformers were
                                                                                                                               Building Occupant                              Building Occupant notified of issue and
     14977       BAF-EL-120709-302   found that are also not Underwriters Laboratory (UL) listed in the Camp         Yes                           Camp Montrond      EU
                                                                                                                                      Issue                                            instructed to correct
                                                    Montrond Medical Facility, building 14977
                                       There is an unused opening in a junction box in the Camp Montrond
     14977       BAF-EL-120709-303                                                                                   Yes          Complete         Camp Montrond      LHS       OPENED / CLOSED WO 14315333
                                                         Medical Facility, building 14977
                                      There is unsecured and unsupported Electrical Metallic Tubing (EMT)
     14977       BAF-EL-120709-304                                                                                   Yes           Complete        Camp Montrond    NON LHS     OPENED / CLOSED WO 14315340
                                        conduit in the Camp Montrond Medical Facility, building 14977


                                     There is inadequate working clearance in front of distribution panels at                  Building Occupant                              Building Occupant notified of issue and
     14985       BAF-EL-120709-305                                                                                   Yes                           Camp Montrond      EU
                                              Camp Montrond Dining Facility (DFAC), building 14985                                    Issue                                            instructed to correct

                                       There are four ceiling fans that have exposed wire exiting Electrical
                                                                                                                               Building Occupant                              Building Occupant notified of issue and
     14985       BAF-EL-120709-306    Metallic Tubing (EMT) conduit which is not protected from damage at            Yes                           Camp Montrond      EU
                                                                                                                                      Issue                                            instructed to correct
                                                     Camp Montrond DFAC, building 14985
                                      Numerous flexible cords are missing the grounding contacts at Camp                       Building Occupant                              Building Occupant notified of issue and
     14985       BAF-EL-120709-307                                                                                   Yes                           Camp Montrond      EU
                                                 Montrond Dining Facility (DFAC) building 14985                                       Issue                                            instructed to correct

                                     There are numerous instances of Nonmetallic (NM) sheathed cable used
     14977       BAF-EL-120709-308    in unapproved applications throughout the Camp Montrond Medical                Yes          Complete         Camp Montrond    NON LHS     OPENED / CLOSED WO 14315319
                                                            Facility, building 14977

                                         There are unused openings in two junction boxes in the upstairs
     14882       BAF-EL-120709-309                                                                                   Yes          Complete         Camp Montrond      LHS       OPENED / CLOSED WO 13489441
                                                      shower/laundry room, building 14882
                                     A receptacle was found recessed into the face plate of the outlet box in
     14782       BAF-EL-120709-310                                                                                   Yes          Complete         Camp Montrond      LHS       OPENED / CLOSED WO 14315315
                                                      Camp Montrond office building 14782
                                      There are several flexible cords and cables that have the outer sheath
     14985       BAF-EL-120709-311     pulled out of plugs or boxes at the Camp Montrond DFAC, building              Yes          Complete         Camp Montrond    NON LHS     OPENED / CLOSED WO 14315292
                                                                       14985
                                          There is Nonmetallic (NM) sheathed cable used in unapproved
     14985       BAF-EL-120709-312                                                                                   Yes          Not Started      Camp Montrond    NON LHS              will be repaired
                                            applications at the Camp Montrond DFAC, building 14985
                                     There is inadequate working clearance in front of distribution panels in
     14983       BAF-EL-120709-313                                                                                   NO           Not Started      Camp Montrond    NON LHS             Contract or Waiver
                                        the Camp Montrond Kitchen & Preparation area, building 14983

                                      There are numerous flexible cables that are not properly supported at
     14983       BAF-EL-120709-314                                                                                   NO           In Progress      Camp Montrond    NON LHS              Will be repaired
                                               the Camp Montrond DFAC Kitchen, building 14983

                                       Several flexible cords were found with no grounding contacts in the                     Building Occupant                              Building Occupant notified of issue and
     14782       BAF-EL-120709-315                                                                                   Yes                           Camp Montrond      EU
                                                      Camp Montrond office building 14782                                             Issue                                            instructed to correct
                                          A non-approved circuit breaker handle tie was found at Camp
     14983       BAF-EL-120709-316                                                                                   NO           In Progress      Camp Montrond      LHS                   TFP Repair
                                                         Montrond Kitchen, building 14983
                                     Several instances were found of flexible cords used improperly and as a
                                                                                                                               Building Occupant                              Building Occupant notified of issue and
     14951       BAF-EL-120709-317      substitute for permanent wiring in the Joint Operations Command              Yes                           Camp Montrond      EU
                                                                                                                                      Issue                                            instructed to correct
                                                              Center, building 14951

                                     The distribution panel has unused openings allowing access to live wires
     14983       BAF-EL-120709-318                                                                                   NO           In Progress      Camp Montrond      LHS                   TFP Repair
                                             at Camp Montrond Kitchen & Prep area, building 14983
                                      Non-listed, plumbing type Polyvinyl Chloride (PVC) conduit was found
     14983       BAF-EL-120709-319    used in an electrical installation in the Camp Montrond Dining Facility        NO           In Progress      Camp Montrond    NON LHS                 TFP Repair
                                                          (DFAC) Kitchen, building 14983
                                     A disconnect is subject to excessive radiant heat from nearby stove tops
     14983       BAF-EL-120709-320       and there is inadequate working clearance around it at the Camp             NO           In Progress      Camp Montrond    NON LHS                 TFP Repair
                                                         Montrond Kitchen, building 14983
                                       A light switch box cover is missing in the Joint Operations Command
     14951       BAF-EL-120709-321                                                                                   Yes          Complete         Camp Montrond      LHS       OPENED / CLOSED WO 13489440
                                                               Center, building 14951
                                      A Ground-Fault Circuit Interrupter (GFCI) receptacle cover is missing in
     14766       BAF-EL-120709-322                                                                                   Yes          Complete         Camp Montrond      LHS       OPENED / CLOSED WO 13489455
                                                         the female latrine, building 14766
     14966B      BAF-EL-120709-323   Nonmetallic cable (NM) was incorrectly installed under, building 14966B         Yes          Not Started      Camp Montrond    NON LHS              Will be repaired




158 │ DODIG-2013-099
                                                                                                                                                                                                                                               Appendices




     Building          Finding Number                                     Abstract                                     MSOW Status     Repair Status     Camp/Location     COMMENTS                   ACTION TAKEN                     LHS *
                                          Two European type power convertors/transformers were found that are
                                                                                                                                     Building Occupant                                     Building Occupant notified of issue and
      14977          BAF-EL-120709-324A    not Underwriters Laboratory (UL) listed in the Camp Montrond Office             Yes                           Camp Montrond       LHS/EU
                                                                                                                                            Issue                                                   instructed to correct
                                                                      Building, 14977
                                           There was a broken receptacle faceplate found in the Camp Montrond
     14769A          BAF-EL-120709-325                                                                                     Yes          Complete         Camp Montrond         LHS           OPENED / CLOSED WO 13489350
                                                                   MWR, building 14769A
                                           A flexible cord was found with an improper repair in the game room of                     Building Occupant                                     Building Occupant notified of issue and
     14769A          BAF-EL-120709-326                                                                                     Yes                           Camp Montrond         EU
                                                    the Heredia MWR in Camp Montrond, building 14769A                                       Issue                                                   instructed to correct
                                          A flexible cord was found with no grounding pin in the Camp Montrond                       Building Occupant                                     Building Occupant notified of issue and
     14769C          BAF-EL-120709-327                                                                                     Yes                           Camp Montrond         EU
                                                                  Chapel building 14769C                                                    Issue                                                   instructed to correct
                                            Two instances of flexible cords were found used improperly and as a                      Building Occupant                                     Building Occupant notified of issue and
     14769C          BAF-EL-120709-328                                                                                     Yes                           Camp Montrond         EU
                                           substitute for fixed wiring in Camp Montrond Chapel, building 14769C                             Issue                                                   instructed to correct

                                           Two flexible cords were found used improperly and as a substitute for                     Building Occupant                                     Building Occupant notified of issue and
      14767          BAF-EL-120709-329                                                                                     Yes                           Camp Montrond         EU
                                              permanent wiring in the Miller Fitness Center, building 14767                                 Issue                                                   instructed to correct
                                           There is an unused opening in two junction boxes in the Miller Fitness
      14767          BAF-EL-120709-330                                                                                     Yes          Complete         Camp Montrond         LHS           OPENED / CLOSED WO 13489448
                                                         Center, building 14767, in Camp Montrond
                                          Two flexible cords were found improperly repaired in the Miller Fitness                    Building Occupant                                     Building Occupant notified of issue and
      14767          BAF-EL-120709-331                                                                                     Yes                           Camp Montrond         EU
                                                                   Center, building 14767                                                   Issue                                                   instructed to correct
                                          There is a defective power strip in the Camp Montrond Joint Operations                     Building Occupant                                     Building Occupant notified of issue and
      14951          BAF-EL-120709-332                                                                                     Yes                           Camp Montrond         EU                                                       *
                                                                   Center building 14951                                                    Issue                                                   instructed to correct
                                           Circuit breakers are not identified and labeled in an electrical panel at
      14985          BAF-EL-120709-333                                                                                     Yes          Complete         Camp Montrond      NON LHS          OPENED / CLOSED WO 13681245
                                                   Camp Montrond Dining Facility (DFAC), building 14985
                                            During the review of the exterior of Camp Montrond Re-locatable                          Building Occupant                                     Building Occupant notified of issue and
Camp Montrond RLBs   BAF-EL-120709-334                                                                                     NO                            Camp Montrond         EU
                                          Buildings (RLBs), several panels were found to have no circuit directory                          Issue                                                   instructed to correct
                                          A ground pin was found broken off in a receptacle in the Miller Fitness
      14767          BAF-EL-120709-335                                                                                     Yes          Complete         Camp Montrond         LHS           OPENED / CLOSED WO 13645723                *
                                                                Center building 14767
                                          During the review of buildings 14993 and 14996, it was noted the Main
                                          Distribution Panel is not safely/correctly connected to the main system
      14996          BAF-EL-120709-336                                                                                     Yes          In Progress                      LHS/PRIME POWER           Evaluating for project               *
                                           grounding electrode at the first disconnecting means, and several sub
                                                           panels were grounded independently




                                                                                                                                                                                                                                     DODIG-2013-099 │ 159
                                                                                                                                                                                                               Appendices

                                              BAF FIRE FINDINGS
                                     TOTALS
                                     Complete                                                 85
                                     Seeking Waiver                                            1
                                     In Progress                                              255
                                     Variance                                                  2

                                                             TOTAL                            343

                                                                                                                    Responsible
     Building     Finding Number                           Abstract                           SOR   Repair Status      Party                                     Comments                                LHS
                                     Building 25118A does not have automatic fire
     25118A      BAF-FP-120709-001                                                            Yes    In Progress       USG        Project by contract required
                                     detection.
                                     Building 25055 does not have a functioning smoke                                             Smoke Detectors have been installed per fire warden responsible for
      2505       BAF-FP-120709-002                                                            No     Complete          USG
                                     detector.                                                                                    building.
                                     Storage shed outside of Building 25118A is labeled
                                                                                                                                  This deficiency corrected per AHJ NFPA 704 symbols not required at
                                     with incorrect information on the hazardous materials
     25118A      BAF-FP-120709-003                                                            No     Complete          USG        this location per force protection instructions. NFPA 704 placard
                                     warning sign (NFPA 704 Diamond)
                                                                                                                                  was removed.

                                     There is a lack of emergency lighting and exit signage                                       Work Orders for emergency lighting and exit signage ahs been
     250048      BAF-FP-12709-004A                                                            No     Complete          USG
                                     throughout building 25048                                                                    requested per fire warden responsible for building.
                                     The fire pumps in building 25170, Craig Joint Theater                                        ACO Has instructed FLUOR to start maintenance and operation
     25170       BAF-FP-12709-005    Hospital, are not being tested or maintained             YES    Complete         FLUOR       inspections of all fire suppression systems to be started within the
                                                                                                                                  next few months
                                     Building 25048 does not have smoke detectors in all                              FIRE        Smoke Detectors have been installed per fire warden responsible for
     25048       BAF-FP-12709-006                                                             No     Complete
                                     rooms.                                                                          WARDEN       building.
                                     The visual notification devices (strobes) are not
     25170       BAF-FP-12709-008                                                             No     In Progress      FLUOR        Project by Contract required.
                                     synchronized.
                                     Fire hydrant located near the fire pump room at
                                                                                                                                  Fire Warden completing Work Order to have Bollards Installed per
     25170       BAF-FP-12709-009A   building 25170 is not protected from damage.             No     In Progress       USG
                                                                                                                                  code
                                     Building 25118B does not have automatic fire
     25118B      BAF-FP-12709-010                                                             No     In Progress       USG         Project by Contract required.
                                     detection system.
                                     Conduit housing fire alarm wiring is not secured.                                            Fire Warden was informed of the deficiency and elected to correct
     25170       BAF-FP-12709-011                                                             No     In Progress      FLUOR       this deficiency. Follow-up will be required to ensure compliance of
                                                                                                                                  this deficiency.
                                     Building 25170 fire sprinkler seismic bracing is not
                                                                                                                                  Further inspection TI from FLUOR to determine installation process
     25170        BAF-FP-12709-12    compliant.                                               No     In Progress       USG
                                                                                                                                  with correction of other deficiencies by new repair request.
                                     Fire department Connection (FDC) is not clearly                                              Fire Warden Completing Work Order to have new signs installed per
     25170        BAF-FP-12709-13                                                             No     Complete          USG
                                     identified.                                                                                  code.
                                     Materials stored in rooms F117 and F103 of building
                                                                                                                      FIRE
     25170       BAF-FP-12709-14A    25170, is too close to the ceiling within 18"            No     Complete                     Fire Warden removed items and placed them in another location.
                                                                                                                     WARDEN
                                     Plumbing, conduit, and duct work penetrating fire
                                                                                                                                  Fire Warden was informed of the deficiency and elected to correct
                                     rated walls. In numerous instances these                                         FIRE
     25170        BAF-FP-12709-15                                                             Yes    In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                     penetrations were observed to be lacking fire rated                             WARDEN
                                                                                                                                  this deficiency.
                                     protection.
                                     Sprinkler heads in building 25170, are spaced outside
     25170        BAF-FP-12709-16                                                             No     In Progress       USG         Project by Contract required.
                                     the maximum allowable distance.




160 │ DODIG-2013-099
                                                                                                                                                                                                                   Appendices

                                                                                                                      Responsible
   Building       Finding Number                             Abstract                          SOR   Repair Status       Party                                   Comments                                    LHS
                                     Patient Rooms in Hospitals Intensive care unit/
                                                                                                                                     The building O&M was assumed with alarm system in place. Alarm
                                     emergency ward do not have smoke detectors or
    25170         BAF-FP-12709-17A                                                             No     In Progress        USG        system may be maintained in current arrangement under standard
                                     visibility from the nurses' station.
                                                                                                                                    O&M function. Project by Contract required.

                                     Insufficient smoke detection in the storage room                                   FIRE        Fire warden completing work order to have Battery Operated Smoke
    25170         BAF-FP-12709-18A                                                             No      Complete
                                     F103 and Nutritional medicine area.                                               WARDEN       detectors installed.
                                     An exit corridor within the Hospital obstructed with                               FIRE
    25170         BAF-FP-12709-19A                                                             No      Complete
                                     storage of cleaning supplies.                                                     WARDEN
                                     Standard-response sprinkler heads installed in the
                                                                                                                                     The building O&M was assumed with alarm system in place. Alarm
                                     same compartment as quick-response sprinkler head.
    25170         BAF-FP-12709-20                                                              No     In Progress        USG        system may be maintained in current arrangement under standard
                                                                                                                                    O&M function. Project by Contract required.

                                     Hanging signs obstruct water flow from sprinkler                                   FIRE        Fire warden completing work order to have signs relocated to not
    25170         BAF-FP-12709-22                                                              No     In Progress
                                     heads.                                                                            WARDEN       obstruct sprinkler heads.
                                     Door "feet" have been installed, defeating the
                                                                                                                                    "Feet" should be removed as doors act as fire stop. Fire Warden
    25170         BAF-FP-12709-21    required self-closing feature of the doors in building    No     In Progress        USG
                                                                                                                                    advised. Completion will be verified by follow-up inspection.
                                     25170
    25170         BAF-FP-12709-23    Fire doors are not self-latching in the hospital          No     In Progress        USG         Project by Contract required.
                                     The stairs serving the occupiable roof deck of building                                         Project by Contract required…after risk assessment, a waiver may
    25058         BAF-FP-12709-24A                                                             NO    Seeking Waiver      USG
                                                  25058 are out of compliance                                                       be sought from CENTCOM.
                                     Does not have adequate fire suppression systems for                                FIRE        Fire warden completing work order to have the items corrected and
    25058         BAF-FP-12709-25                                                              YES    In Progress
                                     the stove                                                                         WARDEN       suppression system installed as required.
                                     Building contains a mixture of highly combustible
                                     materials and is located adjacent to building 25048                                FIRE        Fire Warden completing Operational Risk Assessment and looking
    25050A        BAF-FP-12709-26                                                              No     In Progress
                                     which is used as a medical clinic                                                 WARDEN       for other ways to store this items in another facility.

25118A, 25118B,                      The perimeter of buildings are overgrown with                                      FIRE        Buildings cleared off vegetations by Fluor buildings scheduled for
                  BAF-FP-12709-27                                                              No      Complete
25120C, 25122C                       vegetation                                                                        WARDEN       demolition.
                                     Fire separation distance does not meet code between
                                                                                                                                    All wood B-Hut buildings scheduled for demolition FY13. The new
                                     buildings 25120C and neighboring buildings.
    25120C        BAF-FP-12709-28A                                                             No     In Progress        USG        buildings will have proper spacing as required. Reference Sand Book
                                                                                                                                    space distance requirements adequate for temporary construction.

                                     A hazardous self-help wooden structure and storage
                                                                                                                        FIRE        Follow-up with Fire Warden and facility manager to determine COA
    25048         BAF-FP-12709-29    are has been constructed adjacent to building 25048.      No     In Progress
                                                                                                                       WARDEN       for construction of non authorized areas adjacent to buildings.
                                     The fire extinguisher at buildings have not been                                   FIRE        Fire Warden corrected and has been instructed and trained on
    25050A        BAF-FP-12709-30                                                                      Complete
                                     inspected and are improperly mounted.                                             WARDEN       proper procedures.
                                     The fire extinguisher at buildings have not been                                   FIRE        Fire Warden corrected and has been instructed and trained on
    25048         BAF-FP-12709-31                                                              No      Complete
                                     inspected and are improperly mounted.                                             WARDEN       proper procedures.
                                     The fire extinguisher at buildings have not been                                   FIRE        Fire Warden corrected and has been instructed and trained on
    25120C        BAF-FP-12709-32                                                              No      Complete
                                     inspected and are improperly mounted.                                             WARDEN       proper procedures.
                                     Hangar Building is not protected by a fire suppression                                          Completing risk assessment to determine whether a waiver or
    25059         BAF-FP-12709-33                                                              No     In Progress        USG
                                     system.                                                                                        project by contract is required.
                                     Hanger is not separated from adjacent structures by                                             This building was accepted in its current location and can not be
    25059         BAF-FP-12709-34A   the minimum separation distance                           No     In Progress        USG        moved without new construction. A waiver will be sought from
                                                                                                                                    CENTCOM
                                     Hangar has been altered using combustible                                                      The building occupants were informed of the deficiency. Fire
    25059         BAF-FP-12709-35    construction materials.                                   No     In Progress        USG        Warden will Follow -up for this deficiency will be required to ensure
                                                                                                                                    compliance.
                                     The service and storage area in the Hanger is not
                                                                                                                                     Completing risk assessment to determine whether a waiver or
    25059         BAF-FP-12709-36    separated from other areas in the building by fire        No     In Progress        USG
                                                                                                                                    project by contract is required.
                                     rated construction.
                                     Building has exit doors that are too short                                                      Completing risk assessment to determine whether a waiver or
    45329         BAF-FP-12709-37                                                              No     In Progress        USG
                                                                                                                                    project by contract is required.




                                                                                                                                                                                                            DODIG-2013-099 │ 161
                                                                                                                                                                                                              Appendices

                                                                                                                   Responsible
     Building     Finding Number                             Abstract                        SOR   Repair Status      Party                                      Comments                               LHS
                                    The Fire Riser Room door is mislabeled as the Fire
     45329        BAF-FP-12709-38                                                            No     Complete          USG        Fire warden completed work order to have item completed
                                    Pump Room
                                    Fire sprinkler pipe joining material does not meet
     45329        BAF-FP-12709-39                                                            No     In Progress       USG        Project by contract required
                                    code.
                                    The means of egress from building sleeping quarters
                                    passes through the hangar storage and service bay to                                          Completing risk assessment to determine whether a waiver or
     25059       BAF-FP-12709-41B                                                            No     In Progress      USAG                                                                                *
                                    get to a point of egress from the building.                                                  project by contract is required.

                                    The exhaust vents for the back up generator are                                  FIRE
     25170        BAF-FP-12709-42                                                            No     In Progress
                                    supported by sprinkler piping.                                                  WARDEN
                                    Sleeping quarters dead end corridor length exceeds                                            The building occupants were informed of the deficiency.
                  BAF-FP-12709-43   the allowable distance                                          In Progress       USG        Completing risk assessment to determine whether a waiver or             *
     25059                                                                                                                       project by contract is required.
                                    There is no fire alarm system in the building sleeping                                       Project by contract required, battery operated detectors will be
     25059        BAF-FP-12709-44                                                            No     In Progress       USG                                                                                *
                                    quarters.                                                                                    placed in the interim.
                                    Sleeping rooms do not have smoke detectors as                                    FIRE        Project by contract required, battery operated detectors will be
     25059        BAF-FP-12709-45                                                            No     In Progress                                                                                          *
                                    required.                                                                       WARDEN       placed in the interim.
                                    doors in the means of egress do not have proper head                                          The current storage room is used for MP evidence. Any changes
     25059        BAF-FP-12709-46   room and swing direction                                 No     In Progress       USG        will require re-design and addition of materials to comply with this
                                                                                                                                 requirement.
                                    door opening widths in the means of egress are less                                          Fire Warden was informed of the deficiency and elected to correct
     25059       BAF-FP-12709-47A   than required.                                           Yes    In Progress       USG        this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                                 this deficiency.
                                    An exit from building is partially blocked                                                   Occupants were informed of the deficiency and elected to correct
                                                                                                                     FIRE
     25059        BAF-FP-12709-49                                                            No     Complete                     this deficiency Follow-up will be required to ensure compliance of
                                                                                                                    WARDEN
                                                                                                                                 this deficiency.
                                    Does not have illuminated exit signs in many                                     FIRE
     25059        BAF-FP-12709-50                                                            No     In Progress                  Work request initiated by FP
                                    locations.                                                                      WARDEN
                                    does not have panic hardware on egress doors.                                    FIRE
     15817        BAF-FP-12709-51                                                            No     In Progress                  work order initiated by FP
                                                                                                                    WARDEN
                                    Missing smoke detectors                                                          FIRE        Fire warden has turned in work order to correct this deficiency
     15817        BAF-FP-12709-52                                                            No     In Progress
                                                                                                                    WARDEN       awaiting correction.
                                    Interior exit stairwells are being used for storage in                                       Occupants were informed of the deficiency and elected to correct
                                    the passenger terminal.                                                          FIRE        this deficiency . Follow-up will be required to ensure compliance of
     25209        BAF-FP-12709-53                                                            No     Complete
                                                                                                                    WARDEN       this deficiency. Upon Follow up Occupants did not submit SOR; SOR
                                                                                                                                 initiated by FP
                                    Passenger terminal fire sprinkler seismic bracing is
     25209        BAF-FP-12709-54                                                            No     In Progress       USG        Project by contract required.
                                    not compliant
                                    Sprinkler drain piping is not labeled in the passenger                           FIRE        Fire warden has turned in work order to correct this deficiency
     25209        BAF-FP-12709-55                                                            No     In Progress
                                    terminal                                                                        WARDEN       awaiting correction.
                                    Floor level change at door openings exceeds the
                                                                                                                     FIRE        In accordance with NFPA EXIT path the rise has been exceeded. Fire
     15813       BAF-FP-12709-56A   maximum allowable distance.                              No     In Progress
                                                                                                                    WARDEN       warden was advised to turn in work request to have this item fixed.
                                    Modular housing buildings 5868 and 5882 do not                                   FIRE         Completing risk assessment to determine whether a waiver or
     25209        BAF-FP-12709-57                                                            No     In Progress                                                                                          *
                                    provide the required fire sprinkler system.                                     WARDEN       project by contract is required.
                                    smoke detectors are missing or disabled                                                      Fire Warden was informed of the deficiency and elected to correct
     15813       BAF-FP-12709-58A                                                            No     In Progress      FLUOR       this deficiency. Follow-up will be required to ensure compliance of
                                                                                                                                 this deficiency.
                                    smoke detectors are missing or disabled                                                      Fire Warden was informed of the deficiency and elected to correct
     26003C      BAF-FP-12709-59A                                                            No     In Progress      FLUOR       this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                                 this deficiency.
                                    Egress door was secured from the outside and                                     FIRE        Fire Warden corrected and has been instructed and trained on
     26107B      BAF-FP-12709-60A                                                            No     Complete
                                    marked as not an exit.                                                          WARDEN       proper procedures.
                                    Fire extinguisher's have not been inspected and is not                           FIRE        Fire Warden corrected and has been instructed and trained on
     26107B       BAF-FP-12709-61                                                            No     Complete
                                    properly mounted.                                                               WARDEN       proper procedures.



162 │ DODIG-2013-099
                                                                                                                                                                                                               Appendices

                                                                                                                   Responsible
   Building      Finding Number                           Abstract                           SOR   Repair Status      Party                                      Comments                                LHS
CAMP MCKOOL B-                      B-Huts at Camp Mckool have non compliant exit
                 BAF-FP-12709-62                                                             No     In Progress       USG        B-Huts scheduled for demolition FY-13
     HUTS                           stairs.
                                    Chapel Annex, building missing several smoke                                      FIRE       Fire Warden corrected and has been instructed and trained on
    15916        BAF-FP-12709-63                                                             No     Complete
                                    detectors.                                                                      WARDEN       proper procedures.
                                    MWR Building 15920 does not have smoke detectors.                                Travis      Fire Warden corrected and has been instructed and trained on
    15920        BAF-FP-12709-64                                                             No     In Progress
                                                                                                                    Garland      proper procedures.
                                    sleeping quarters are not protected by fire rated                                             Completing risk assessment to determine whether a waiver or
    25059        BAF-FP-12709-65                                                             No     In Progress       USG
                                    walls.                                                                                       project by contract is required.
                                    Laundry building 25055 has missing non operational                               FIRE        Fire Warden corrected and has been instructed and trained on
    25055        BAF-FP-12709-66                                                             No     Complete
                                    smoke detectors.                                                                WARDEN       proper procedures.
                                    Does not have smoke/heat detectors or carbon                                                  This building was accepted in its current location and can not be
    25054        BAF-FP-12709-67                                                             No     In Progress       USG
                                    monoxide detectors                                                                           moved without new construction.
                                    Does not have sufficient fire separation distance from
    15817        BAF-FP-12709-68A                                                            No     In Progress       USG        Waiver will be sought from CENTCOM.
                                    building 15819.
                                    Means of egress travel distance for the hangar
                                                                                                                                  Completing risk assessment to determine whether a waiver or
    25059        BAF-FP-12709-69    sleeping quarters exceeds the allowable distances        No     In Progress       USG                                                                                 *
                                                                                                                                 project by contract is required.
                                    required by NFPA 101
                                    does not have panic hardware on egress doors.                                                Fire warden has turned in work order to correct this deficiency
    15916        BAF-FP-12709-70                                                             No     In Progress       USG
                                                                                                                                 awaiting correction.
                                    Main assembly room of the chapel does not have two                                            Completing risk assessment to determine whether a waiver or
    15916        BAF-FP-12709-71                                                             No     In Progress       USG
                                    means of egress.                                                                             project by contract is required.
                                    Housing building 25180 has partially obstructed                                  FIRE
    25180        BAF-FP-12709-72A                                                            No     Complete
                                    means of egress.                                                                WARDEN
                                    Fire extinguisher has not been inspected or properly                             FIRE
    25059        BAF-FP-12709-73                                                             Yes    Complete
                                    mounted.                                                                        WARDEN
                                    fire extinguishers have not been inspected                                       FIRE
    15817        BAF-FP-12709-74                                                             Yes    Complete
                                                                                                                    WARDEN
                                    Fire extinguisher mounted on the exterior of the                                 FIRE
    15821A       BAF-FP-12709-75                                                             No     Complete
                                    building has not been inspected.                                                WARDEN
                                    Has raised door thresholds that exceed the allowable
    25059        BAF-FP-12709-76                                                             No     In Progress       USG        Small contract repair required
                                    height.
                                    The means of egress for physical Training/Exercise                                            Completing risk assessment to determine whether a waiver or
    25070        BAF-FP-12709-77                                                             No     In Progress       USG
                                    tent is not level                                                                            project by contract is required.
                                    Building does not have emergency egress lighting.                                FIRE
    25180        BAF-FP-12709-79                                                             No     In Progress                  Project by contract required.
                                                                                                                    WARDEN
                                    The fire extinguisher has not been inspected                                                 Occupants were informed of the deficiency and elected to correct
                                                                                                                     FIRE
    25180        BAF-FP-12709-80                                                             No     Complete                     this deficiency. Follow-up will be required to ensure compliance of
                                                                                                                    WARDEN
                                                                                                                                 this deficiency.
                                    building laundry has a permanently locked door that                              FIRE
    25055        BAF-FP-12709-81A                                                            No     Complete
                                    is not labeled with a "No Exit" sign.                                           WARDEN
                                    Aircraft Hangar has exit discharge stairs that are non                                        Completing risk assessment to determine whether a waiver or
    25059        BAF-FP-12709-82                                                             No     In Progress       USG
                                    compliant.                                                                                   project by contract is required.
                                    Plans for construction/renovation projects are not                                           Process in place is review of the IFUB Boards. Some plans are
                                    submitted for review by a certified fire inspector and                                       reviewed by ITT other plans are sent to the Base Civil Engineer. All
     BAF         BAF-FP-12709-83                                                             No     In Progress       USG
                                    registered fire protection engineer                                                          MILCON construction projects have full design reviews by all
                                                                                                                                 disciplines.
                                    Medical storage tent has raised threshold at door that                           FIRE
    25175        BAF-FP-12709-84                                                             No     In Progress
                                    exceeds the allowable height.                                                   WARDEN
                                    has no smoke detectors as required.                                              FIRE
    25175        BAF-FP-12709-85                                                             No     Complete                     Corrected on the spot by occupant
                                                                                                                    WARDEN
                                    main assembly room east exit door does not meet                                               Completing risk assessment to determine whether a waiver or
    15916        BAF-FP-12709-86                                                             No     In Progress       USG
                                    door height requirements.                                                                    project by contract is required.
                                    The width of the primary means of egress is too                                               Completing risk assessment to determine whether a waiver or
    15920        BAF-FP-12709-87                                                             No     In Progress       USG
                                    narrow for building.                                                                         project by contract is required.




                                                                                                                                                                                                        DODIG-2013-099 │ 163
                                                                                                                                                                                                                 Appendices

                                                                                                                        Responsible
     Building       Finding Number                             Abstract                           SOR   Repair Status      Party                                    Comments                               LHS
                                       Medical Staff housing building has fire rated doors                                            Non-density list facility. PWO must initiate alternate means of
      25180         BAF-FP-12709-88                                                               No     In Progress       USG                                                                              *
                                       that cannot be fully closed.                                                                   repair.
                                       Fire separation distance does not meet code between
      25170         BAF-FP-12709-89    buildings 25175 and neighboring buildings.                 No     In Progress       USG        A waiver from CENTCOM will be sought

                                       There is a lack on inspection and maintenance on fire
                                                                                                                          FIRE        Fire Warden corrected and has been instructed and trained on
   Camp Alpha       BAF-FP-12709-90    extinguishers                                              NO     Complete
                                                                                                                         WARDEN       proper procedures. Camp Alpha scheduled for demolition FY13
                                       B-Huts at Camp Mckool have non compliant exit                                      FIRE         Completing risk assessment to determine whether a waiver or
   Camp Alpha       BAF-FP-12709-91                                                               No     In Progress
                                       stairs.                                                                           WARDEN       project by contract is required.
                                       Smoke detection is not provided throughout buildings
                                                                                                                          FIRE
   Camp Alpha       BAF-FP-12709-92    and smoke detectors are not maintained.                    No     In Progress                  Battery powered smoke detectors will be installed.
                                                                                                                         WARDEN
                                       Excessive dead end corridor exist in building 15735                                             Completing risk assessment to determine whether a waiver or
      15735         BAF-FP-12709-93                                                               No     In Progress       USG
                                                                                                                                      project by contract is required.
                                       Provide exit signage in the vehicle maintenance bay                                FIRE
      15783         BAF-FP-12709-94                                                               No     Complete
                                       on Camp Alpha                                                                     WARDEN
                                       The interior foam insulation coating in the rock gym is                                         Completing risk assessment to determine whether a waiver or
      15854         BAF-FP-12709-95                                                               No     In Progress       USG
                                       highly flammable                                                                               project by contract is required.
                                       The interior foam insulation coating in the rock gym is                                         Completing risk assessment to determine whether a waiver or
      15849         BAF-FP-12709-96                                                               No     In Progress       USG
                                       highly flammable                                                                               project by contract is required.
                                       A light bulb in the emergency light is inoperative                                 FIRE
      15854         BAF-FP-12709-97                                                               No     Complete
                                                                                                                         WARDEN
                                       Medical staff housing building has fire alarm manual
      25180         BAF-FP-12709-99    pull station mounted 37" which is less than 42"            No     In Progress       USG        This is not an issue and a waiver will be granted.
                                       required by NFPA 72
                                       Exit discharge stairs for the chapel, building 15817 are                                       There is a need for panic hardware. Completing risk assessment for
      15817        BAF-FP-12709-100    non compliant                                              No     In Progress       USG        the stairs to determine whether a waiver or project by contract is
                                                                                                                                      required.
                                       Stairs for the primary means of egress from the MWR
                                                                                                                          Travis       Completing risk assessment to determine whether a waiver or
      15920        BAF-FP-12709-101    (Dragon) building 15920 are non compliant                  No     In Progress
                                                                                                                         Garland      project by contract is required.
                                       MWR (Dragon) Building 15920 does not have panic
                                       hardware on the egress door and does not have an                                   Travis       Completing risk assessment to determine whether a waiver or
      15920        BAF-FP-12709-102                                                               No     In Progress
                                       illuminated exit sign over the main exit door.                                    Garland      project by contract is required.

                                       The fire extinguishers at the distinguished guest
                                                                                                                          FIRE
      25032        BAF-FP-12709-103    quarters, building 25302, are not properly mounted.        No     Complete
                                                                                                                         WARDEN
                                       Fire Sprinkler systems are not provided for the ARMY
  45122A, 45127,                       Material Command (AMC) 401st Army Field Support                                                 Completing risk assessment to determine whether a waiver or
                   BAF-FP-12709-104A                                                              No     In Progress       USG
      45131                            Brigade Phase V Lodging Compound                                                               project by contract is required.

                                       Smoke/heat detection is not provided for the Army
  45122A, 45127,                                                                                                                      Project by contract required. Battery powered smoke detectors will
                   BAF-FP-12709-105A   Field Support Phase V lodging Compound.                    No     In Progress       USG
      45131                                                                                                                           be used in the interim.
                                       A large JP8 fuel storage tank is located with 16 inches                            FIRE        Fire warden has turned in work order to correct this deficiency
      25059        BAF-FP-12709-106                                                               No     In Progress
                                       of Hangar 25059                                                                   WARDEN       awaiting correction.
                                       The stair enclosures in the distinguished visitor
                                                                                                                          FIRE
      25032        BAF-FP-12709-107A   quarters building 25032 have missing or incorrectly        No     Complete
                                                                                                                         WARDEN
                                       mounted smoke detectors.
                                       The means of egress for bldg 25032 ins not protected                                            Completing risk assessment to determine whether a waiver or
      25032        BAF-FP-12709-108                                                               No     In Progress       USG
                                       with a rated barrier.                                                                          project by contract is required.




164 │ DODIG-2013-099
                                                                                                                                                                                                             Appendices

                                                                                                                    Responsible
  Building       Finding Number                             Abstract                          SOR   Repair Status      Party                                   Comments                                LHS
                                    Temporary office 24097A, an emergency light fixture
                                    and illuminated exit sign were non operational during                             FIRE
  24097A        BAF-FP-12709-109A                                                             No     Complete
                                    testing, and smoke detector is missing.                                          WARDEN

                                    There is a general lack of inspection, testing and                                            This deficiency is currently being staffed and personnel to start
    BAF         BAF-FP-12709-110    maintenance for fire protection and life safety           No     In Progress       USG        maintenance and testing of all fire alarm and fire suppression
                                    systems on Bagram Air Field                                                                   systems should begin within 120 days.
                                    The Base master Plan for Bagram Airfield (BAF) lacks                                          This is not a code violation nor required by higher headquarters
    BAF         BAF-FP-12709-11A                                                              No     non-concur        USG
                                    an effective fire protection plan.                                                            guidance.
                                    The perimeter of building 15920 has overgrown
                                                                                                                      FIRE
   15920        BAF-FP-12709-112    vegetation in violation of NFPA and USOFOR-A Fire         No     Complete
                                                                                                                     WARDEN
                                    Prevention Policy
                                    The step down from the exit door exceeds the
                                                                                                                      FIRE         These buildings are temporary and will be replaced by permanent
   25032        BAF-FP-12709-113    allowable drop from the primary means of egress           No     In Progress
                                                                                                                     WARDEN       structures which meet or exceed this requirement.
                                    from bldg 25032.
                                    Building 25059 is not storing all paint in flammable                              FIRE
   25059        BAF-FP-12709-114                                                              No     Complete
                                    storage cabinets                                                                 WARDEN
                                    The hazardous material sign does not appropriately
                                    reflect the actual hazard of the materials being stored                           FIRE
   25059        BAF-FP-12709-115                                                              No     Complete
                                    in a storage sheet adjacent to hanger building 25059                             WARDEN

                                    Unit #2 control room, power plant building 32470B,
                                                                                                                      FIRE
  32470B        BAF-FP-12709-116A   combination emergency/exit light was non                  No     Complete
                                                                                                                     WARDEN
                                    operational.
                                    The hazardous material sign does not appropriately
                                    reflect the actual hazard of the materials being stored                           FIRE
   15920        BAF-FP-12709-117                                                              No     Complete
                                    in a storage sheet adjacent to hanger building 15920                             WARDEN

                                    Fire extinguishers at the power station are lacking of
                                                                                                                      FIRE
Power Station   BAF-FP-12709-118    evidence of routine inspection and maintenance in         No     Complete
                                                                                                                     WARDEN
                                    accordance with NFPA 10
                                    The main control room smoke detector was non                                      FIRE
  32470B        BAF-FP-12709-119                                                              No     Complete
                                    operation in power plant building 32470B                                         WARDEN
                                    DFIP Buildings lack seismic bracing for the fire
    DFIP        BAF-FP-12709-120                                                              No     In Progress       USG
                                    suppression system
                                    The perimeter of the DFIP buildings are overgrown                                 FIRE
    DFIP        BAF-FP-12709-121                                                              No     Complete
                                    with vegetation                                                                  WARDEN
                                    The fire extinguisher cabinet in the Headquarters
                                                                                                                      FIRE
   66482        BAF-FP-12709-122    building conference room is empty.                        No     Complete
                                                                                                                     WARDEN
                                    Building does not have a complete sprinkler system                               401st Fire
   66482        BAF-FP-12709-123                                                              No     In Progress                                                                                        *
                                    with 100% coverage.                                                               Warden
                                    Battalion Headquarters, does not have an accessible
                                                                                                                     401st Fire    Completing risk assessment to determine whether a waiver or
   66482        BAF-FP-12709-124B   manual fire alarm pull box at either exit door per               In Progress
                                                                                                                      Warden      project by contract is required.
                                    NFPA 72
                                    building does not have an accessible manual fire
                                                                                                                     401st Fire    Completing risk assessment to determine whether a waiver or
   67403        BAF-FP-12709-125    alarm pull box at either exit door per NFPA 72                   In Progress
                                                                                                                      Warden      project by contract is required.
                                    The facility has fire hydrants that re not protected                                           Completing risk assessment to determine whether a waiver or
    DFIP        BAF-FP-12709-126                                                                     In Progress       USG
                                    from damage                                                                                   project by contract is required.
                                    An exit door from DFIP Headquarters building 66482                                FIRE
   66482        BAF-FP-12709-127                                                                     Complete
                                    is blocked.                                                                      WARDEN
                                    Fire extinguishers at the DFIP have not been                                      FIRE
   67403        BAF-FP-12709-128                                                                     Complete
                                    inspected and are not properly mounted.                                          WARDEN




                                                                                                                                                                                                      DODIG-2013-099 │ 165
                                                                                                                                                                                                                   Appendices

                                                                                                                        Responsible
     Building      Finding Number                             Abstract                            SOR   Repair Status      Party                                   Comments                                  LHS
                                      The Fire suppression system for the DFIP is not
      66175       BAF-FP-12709-129                                                                       In Progress
                                      automatic
                                      An excessive quantity of class 3 oxidizer (Calcium                                              Fire Warden was informed of the deficiency and elected to correct
                                                                                                                          FIRE
      66175       BAF-FP-12709-130    Hypochlorite) is being stored in the fire pump room                In Progress                  this deficiency Follow-up will be required to ensure compliance of
                                                                                                                         WARDEN
                                      bldg 66175                                                                                      this deficiency.
                                      Building 66691, Medical Housing unit has a no exit
                                                                                                                          FIRE
      66691       BAF-FP-12709-131    door that is not labeled with a "NO EIXT" sign                     In Progress
                                                                                                                         WARDEN
                                      Fire Hose cabinet in bldg 66587 is not readily                                                  Fire Warden was informed of the deficiency and elected to correct
                                                                                                                          FIRE
      66587       BAF-FP-12709-132    accessible for fire fighting operations.                           In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                         WARDEN
                                                                                                                                      this deficiency.
                                      DFIP Fire Alarm system has multiple troubles and                                                Fluor/ITT Responsible for fire alarm maintenance and inspections.
       DFIP       BAF-FP-12709-133                                                                       In Progress      FLUOR
                                      errors.                                                                                         Work should begin within 120 days.
                                      Fire suppression is not provided in Battalion
                                                                                                                                       Completing risk assessment to determine whether a waiver or
      66482       BAF-FP-12709-134A   Headquarters, Building 66482 under the raised floor                In Progress       USG
                                                                                                                                      project by contract is required.
                                      Numerous fire sprinklers are in contact with support
      66477       BAF-FP-12709-135    hangers and ceiling components in the detection                    In Progress       USG
                                      facility bldg 66477
                                      Numerous sprinklers located too closet to ceiling                                                Completing risk assessment to determine whether a waiver or
      67403       BAF-FP-12709-136                                                                       In Progress       USG
                                      beams in building 67403                                                                         project by contract is required.
                                      Exit door configurations do not allow free and clear                                             Completing risk assessment to determine whether a waiver or
      66594       BAF-FP-12709-137                                                                       In Progress       USG
                                      egress from operations, building 66594                                                          project by contract is required.
                                      Concealed type sprinkler head are used in a non listed                                           Completing risk assessment to determine whether a waiver or
      66587       BAF-FP-12709-138                                                                       In Progress       USG
                                      application in bldg 66587                                                                       project by contract is required.
                                      Fire alarm control panel cannot be accessed in the                                              Fire Warden was informed of the deficiency and elected to correct
      66691       BAF-FP-12709-139    medical housing unit, building 66691                               In Progress       USG        this deficiency. Follow-up will be required to ensure compliance of
                                                                                                                                      this deficiency.
                                      The perimeter of buildings are overgrown with                                       FIRE
   15804, 15805    BAF-FP-12709-40                                                                       Complete
                                      vegetation                                                                         WARDEN
                                      Smoke Alarm in building 15915 did not have any UL                                               Fire Warden was informed of the deficiency and elected to correct
                                                                                                                          FIRE
      15915       BAF-FP-12709-141    Listing/Stamp (battery type)                                NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                         WARDEN
                                                                                                                                      this deficiency.
                                      Numerous fire extinguishers are lacking evidence of
                                      being inspected on a monthly basis, and the record                                              Fire Warden was informed of the deficiency and elected to correct
                                                                                                                          FIRE
   15804, 15805   BAF-FP-12709-142    do not demonstrate that at least the last 12 monthly        NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                         WARDEN
                                      inspections have been performed                                                                 this deficiency.

                                      fire extinguisher in the military police station building
                                                                                                                          FIRE
      15915       BAF-FP-12709-143    15915, was lacking evidence of being inspected on a         NO     Complete
                                                                                                                         WARDEN
                                      monthly basis.
                                      The egress path way on 2nd level is obstructed                                      FIRE
      15915       BAF-FP-12709-144                                                                NO     Complete
                                                                                                                         WARDEN
                                      Building does not have emergency lighting                                                       Non concur with findings as facility has an automatic generator
      15915       BAF-FP-12709-145                                                                NO     Complete          USG
                                                                                                                                      without delay reference NFPA 101, NFPA 1
                                      Building has insufficient directional exit signage                                              Fire Warden was informed of the deficiency and elected to correct
                                                                                                                          FIRE
      15915       BAF-FP-12709-146                                                                NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                         WARDEN
                                                                                                                                      this deficiency.
                                      Building has a non exit door that is labeled with an
                                                                                                                          FIRE        Fire Warden was informed of the deficiency and elected to correct
      15915       BAF-FP-12709-147    exit sign                                                   Yes    In Progress
                                                                                                                         WARDEN       this deficiency. Follow-up will be required to ensure compliance .
                                      Does not have an illuminated exit sign over main exit
                                                                                                                          FIRE        Fire Warden was informed of the deficiency and elected to correct
      15915       BAF-FP-12709-148    doors                                                       NO     In Progress
                                                                                                                         WARDEN       this deficiency . Follow-up will be required to ensure compliance




166 │ DODIG-2013-099
                                                                                                                                                                                                              Appendices

                                                                                                                  Responsible
  Building      Finding Number                              Abstract                        SOR   Repair Status      Party                                   Comments                                   LHS
                                   Emergency light fixtures are not functional during                                FIRE
15804, 15805   BAF-FP-12709-149A                                                            NO     In Progress
                                   testing                                                                         WARDEN
                                   Smoke detection is either not provided or were                                    FIRE
15804, 15805   BAF-FP-12709-150A                                                            NO     In Progress
                                   disabled and not properly maintained                                            WARDEN
                                   Interior exit stairwells are being used for storage                                          Fire Warden was informed of the deficiency and elected to correct
                                                                                                                    FIRE
15804, 15805   BAF-FP-12709-151                                                             NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                   WARDEN
                                                                                                                                this deficiency.
                                   Exit stairs for are non compliant                                                             Completing risk assessment to determine whether a waiver or
15804, 15805   BAF-FP-12709-152                                                             NO     In Progress       USG
                                                                                                                                project by contract is required.
                                   Motel 8 has insufficient illuminated exit/directional                                        Fire Warden was informed of the deficiency and elected to correct
                                                                                                                    FIRE
   15805       BAF-FP-12709-153    signage                                                  NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                   WARDEN
                                                                                                                                this deficiency.
                                   There is a significant elevation change on either side
                                                                                                                                Completing risk assessment to determine whether a waiver or
   15805       BAF-FP-12709-154    of the main entry/exit door for motel 8                  NO     In Progress       USG
                                                                                                                                project by contract is required.
                                   Second floor fire escape stairs do not meet NFPA                                             Completing risk assessment to determine whether a waiver or
15804, 15805   BAF-FP-12709-155                                                             NO     In Progress       USG
                                   code requirements.                                                                           project by contract is required.
                                   Motel 6 & Motel 8 have only one means of egress on                                           Completing risk assessment to determine whether a waiver or
15804, 15805   BAF-FP-12709-156                                                             NO     In Progress       USG
                                   the 2nd floors                                                                               project by contract is required.
                                   both buildings have corridor and exit arrangements                                           Completing risk assessment to determine whether a waiver or
15804, 15805   BAF-FP-12709-157                                                             NO     In Progress       USG
                                   that violate code                                                                            project by contract is required.
                                   Building has obstructed egress from the stage                                                Fire Warden was informed of the deficiency and elected to correct
                                                                                                                    FIRE
   14993       BAF-FP-12709-158                                                             NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                   WARDEN
                                                                                                                                this deficiency.
                                   Building does not have automatic fire detection                                              Completing risk assessment to determine whether a waiver or
   25108       BAF-FP-12709-159                                                             NO     In Progress       USG
                                                                                                                                project by contract is required.
                                   Does not have emergency lighting                                                             Fire Warden was informed of the deficiency and elected to correct
                                                                                                                    FIRE
   25108       BAF-FP-12709-160                                                             NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                   WARDEN
                                                                                                                                this deficiency.
                                   Fire extinguisher is not mounted and monthly                                     FIRE
   25108       BAF-FP-12709-161                                                             NO     Complete
                                   maintenance has not bee regularly conducted.                                    WARDEN
                                   Insufficient smoke detector coverage in the post                                             Fire Warden was informed of the deficiency and elected to correct
                                                                                                                    FIRE
  14843A       BAF-FP-12709-162    exchange                                                 NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                   WARDEN
                                                                                                                                this deficiency.
                                   The post exchange does not have panic hardware on                                            Fire Warden was informed of the deficiency and elected to correct
                                                                                                                    FIRE
  14843A       BAF-FP-12709-163    the exit doors.                                          NO     In Progress                  this deficiency. Follow-up will be required to ensure compliance of
                                                                                                                   WARDEN
                                                                                                                                this deficiency.
                                   Post exchange does not have sprinkler protection                                             Completing risk assessment to determine whether a waiver or
  14843A       BAF-FP-12709-164                                                             NO     In Progress       USG
                                                                                                                                project by contract is required.
                                   Smoke detectors are not properly mounted                                                     Fire Warden was informed of the deficiency and elected to correct
                                                                                                                    FIRE
  14843A       BAF-FP-12709-165                                                             NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                   WARDEN
                                                                                                                                this deficiency.
                                   Fire extinguishers have not been inspected and not                                           Fire Warden was informed of the deficiency and elected to correct
                                                                                                                    FIRE
  14843A       BAF-FP-12709-166    properly mounted.                                        NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                   WARDEN
                                                                                                                                this deficiency.
                                   Smoke detectors are not properly located                                                     Fire Warden was informed of the deficiency and elected to correct
                                                                                                                    FIRE
   24094       BAF-FP-12709-167                                                             NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                   WARDEN
                                                                                                                                this deficiency.
                                   Smoke detectors are not properly located                                                     Fire Warden was informed of the deficiency and elected to correct
                                                                                                                    FIRE
   24094       BAF-FP-12709-168A                                                            NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                   WARDEN
                                                                                                                                this deficiency.
                                   Smoke detectors in building 24094 are non functional                                         Fire Warden was informed of the deficiency and elected to correct
                                                                                                                    FIRE
14996, 14993   BAF-FP-12709-169    and not properly maintained                              NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                   WARDEN
                                                                                                                                this deficiency.




                                                                                                                                                                                                       DODIG-2013-099 │ 167
                                                                                                                                                                                                                 Appendices

                                                                                                                      Responsible
     Building      Finding Number                             Abstract                          SOR   Repair Status      Party                                   Comments                                  LHS
                                      fire extinguishers in building 24094 have not been                                 FIRE
      24094       BAF-FP-12709-170                                                              NO     In Progress
                                      inspected are not properly mounted                                               WARDEN
                                      Some fire extinguishers in buildings 14996 and 14993
                                                                                                                        FIRE
   14996, 14993   BAF-FP-12709-171    are not properly inspected and maintained                 NO     In Progress
                                                                                                                       WARDEN
                                      The minimum required fire separation distance
                                      between US Army Garrison Bldg 24094 and
      24094       BAF-FP-12709-172                                                              NO     In Progress       USG        A waiver from CENTCOM will be sought
                                      surrounding buildings has not been met

                                      Does not have illuminated exit signs in many                                                  Fire Warden was informed of the deficiency and elected to correct
                                                                                                                        FIRE
     14843A       BAF-FP-12709-173A   locations.                                                NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                       WARDEN
                                                                                                                                    this deficiency.
                                      The upper corridor in the Bldg 24094 creates a dead
                                                                                                                                    Completing risk assessment to determine whether a waiver or
      24094       BAF-FP-12709-174    end corridor length that exceeds 50 ft. maximum           NO     In Progress       USG
                                                                                                                                    project by contract is required.
                                      There is overgrown brush in the vicinity of Bldg 24094                            FIRE
      24094       BAF-FP-12709-175                                                              NO     Complete                     FLUOR Completed removal of vegetation
                                                                                                                       WARDEN
                                      There is overgrown brush in the vicinity of Bldg                                  FIRE
     14843A       BAF-FP-12709-176                                                              NO     Complete                     FLUOR Completed removal of vegetation
                                      14843A                                                                           WARDEN
                                      Emergency light/exit sign combination device did not                              FIRE
     14843A       BAF-FP-12709-177                                                              NO     In Progress
                                      function in building 14843A                                                      WARDEN
                                      Smoke detectors do not function and are not properly
      25103       BAF-FP-12709-178    located in building 25103, Camp Cunningham Laundry        NO     In Progress       USG

                                      The threshold at the entry/exit doors of building                                             Completing risk assessment to determine whether a waiver or
      25103       BAF-FP-12709-179A                                                             NO     In Progress       USG
                                      25103, exceeds 1/2"                                                                           project by contract is required.
                                      The means of egress for buildings 15804 and 15805
                                                                                                                                    Completing risk assessment to determine whether a waiver or
   15804, 15805   BAF-FP-12709-180A   exceeds threshold height and changes in floor             NO     In Progress       USG
                                                                                                                                    project by contract is required.
                                      elevation at the door openings.
                                      Numerous emergency light fixtures in building 24094
                                      were not functional during testing and there is not                               FIRE
      24094       BAF-FP-12709-181                                                              NO     In Progress
                                      emergency lighting provided in a lean-to facility that                           WARDEN
                                      was added on the building.
                                      Building 24094 has an exit sign that did not illuminate
                                                                                                                        FIRE
      24094       BAF-FP-12709-182    during testing and has directional arrows that indicate   Yes    In Progress
                                                                                                                       WARDEN
                                      the wrong way.
                                      Two generators and one fuel tank all with JP8 fuel
                                                                                                                        FIRE
      24094       BAF-FP-12709-183    show 3 different fire hazard signs outside of building    NO     In Progress
                                                                                                                       WARDEN
                                      The tension fabric structures used for the Dragon
                                      Gym and the Dragon Arena do not meet minim                                        Travis      Facilities are temporary in nature. Size and space do no allow for
      8882        BAF-FP-12709-184                                                              NO     In Progress
                                      separation distance requirements.                                                Garland      proper separation distance as required. ORM process approval

                                      Exit doors have trip hazards
                                                                                                                                    The exit pathways will have to go replacement in order to be in
      24094       BAF-FP-12709-185                                                              NO     In Progress       USG
                                                                                                                                    compliance. Place work order to fix and bring into compliance.
                                      Interior exit access stair is not separated from the
                                                                                                                                    Completing risk assessment to determine whether a waiver or
      24094       BAF-FP-12709-186    remainder of the building by fire rated construction.     NO     In Progress       USG
                                                                                                                                    project by contract is required.
                                      Has door openings in the means of egress that are too                                         Completing risk assessment to determine whether a waiver or
      24094       BAF-FP-12709-187A                                                             NO     In Progress       USG
                                      low                                                                                           project by contract is required.
                                      Non compliant stairs in the means of egress pathway                                           Completing risk assessment to determine whether a waiver or
      24094       BAF-FP-12709-188                                                              NO     In Progress       USG
                                                                                                                                    project by contract is required.




168 │ DODIG-2013-099
                                                                                                                                                                                                              Appendices

                                                                                                                  Responsible
  Building      Finding Number                             Abstract                         SOR   Repair Status      Party                                      Comments                                LHS
                                   a 50 gallon fuel tank without a means of secondary
                                                                                                                    FIRE
   14993       BAF-FP-12709-189    containment and its with 12 of an occupied dwelling.     NO     In Progress
                                                                                                                   WARDEN
                                   Exit sign on the east exit that does not illuminated
                                                                                                                    FIRE
   14993       BAF-FP-12709-190    during testing and does not have a exit sign over the    NO     In Progress
                                                                                                                   WARDEN
                                   North Exit.
                                   There is no established and documented self-help                                             This is not a violation of any code requirement and an inappropriate
    BAF        BAF-FP-12709-191                                                             NO     non-concur        USG
                                   labor program on BAF                                                                         finding.
                                   The basement of Bldg 24094 has single means of                                               Completing risk assessment to determine whether a waiver or
   24094       BAF-FP-12709-192A                                                            NO     In Progress       USG
                                   egress and les than 6' of headroom.                                                          project by contract is required.
                                   North exit access corridor opens into a wood framed                                          Completing risk assessment to determine whether a waiver or
   24094       BAF-FP-12709-193                                                             NO     In Progress       USG
                                   lean-to office                                                                               project by contract is required.
                                   Basement of building 24094 has no emergency or exit                                          Completing risk assessment to determine whether a waiver or
   24094       BAF-FP-12709-194                                                             NO     In Progress       USG
                                   lights.                                                                                      project by contract is required.
                                   Second floor exterior exit stair is not protected from
                                                                                                                                Completing risk assessment to determine whether a waiver or
   24094       BAF-FP-12709-195    fire spreading from fist floor windows and doors of      YES    In Progress       USG
                                                                                                                                project by contract is required.
                                   the building.
                                   ARFF concentrate in use at Hangar 27331 does not
   27328       BAF-FP-12709-196                                                             YES    In Progress       USG
                                   conform to military standards
                                   Seismic bracing is not provided for fire suppression                                         Completing risk assessment to determine whether a waiver or
27328, 27331   BAF-FP-12709-197                                                             NO     In Progress       USG
                                   piping in building 27328, 27331                                                              project by contract is required.
                                   Building 27337 sheet metal shop, lacks seismic                                               Completing risk assessment to determine whether a waiver or
   27337       BAF-FP-12709-198                                                             NO     In Progress       USG
                                   bracing for the fire sprinkler system                                                        project by contract is required.
                                   Fire pump house for hangar does not have sufficient
   27331       BAF-FP-12709-199    separation distance from building 27337 sheet metal      NO     In Progress       USG        A waiver from CENTCOM will be sought
                                   shop
                                   Fire pump house for hangar does not have dielectric
   27238       BAF-FP-12709-200    fittings on dissimilar material unions and welds.        NO     In Progress       USG

                                   Hangar fire sprinkler system does not provide                                                Completing risk assessment to determine whether a waiver or
   27331       BAF-FP-12709-201                                                             NO     In Progress       USG
                                   complete building coverage.                                                                  project by contract is required.
                                   Fire sprinkler pipe joining material does not meet                                           Completing risk assessment to determine whether a waiver or
   27328       BAF-FP-12709-202                                                             NO     In Progress       USG
                                   NFPA 13.                                                                                     project by contract is required.
                                   Fire sprinkler deflector in building 27238 does not
                                                                                                                                Completing risk assessment to determine whether a waiver or
   27238       BAF-FP-12709-203    have sufficient clearance from the ceiling beam.         NO     In Progress       USG
                                                                                                                                project by contract is required.
                                   Standard spray pendent sprinkler heads are installed                                         Completing risk assessment to determine whether a waiver or
   27238       BAF-FP-12709-204A                                                            NO     In Progress       USG
                                   in a upright configuration.                                                                  project by contract is required.
                                   The bladder tank in building 27238 appears to have
   27238       BAF-FP-12709-205    ruptured, allowing the foam and water to mix in the      NO     In Progress       USG        USG will determine options for repair with O & M.
                                   tank.
                                   Pump building 27238 wet pip sprinkler piping does                                            Completing risk assessment to determine whether a waiver or
   27331       BAF-FP-12709-206                                                             NO     In Progress       USG
                                   not have seismic protection clearance                                                        project by contract is required.
                                   Fire sprinkler detector is obstructed by HVAC duct
   27331       BAF-FP-12709-207                                                             NO     In Progress       USG        Project by contract required.
                                   installation.
                                   A sleeping room in building 27331 does not have                                  FIRE
   27331       BAF-FP-12709-208                                                             NO     In Progress                  Battery powered smoke detectors will be installed.
                                   smoke detector as required.                                                     WARDEN
                                   Fire extinguisher is not properly inspected as                                               Fire Warden was informed of the deficiency and elected to correct
                                                                                                                    FIRE
   27337       BAF-FP-12709-209    required.                                                NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                   WARDEN
                                                                                                                                this deficiency.
                                   Exit sign on the North exit that did no illuminate                               FIRE
   27331       BAF-FP-12709-210                                                             NO     In Progress
                                   during testing.                                                                 WARDEN
                                   Smoke detectors are not properly located and                                     FIRE
   25021       BAF-FP-12709-211A                                                            NO     In Progress
                                   maintained.                                                                     WARDEN




                                                                                                                                                                                                       DODIG-2013-099 │ 169
                                                                                                                                                                                                                   Appendices

                                                                                                                          Responsible
      Building        Finding Number                             Abstract                           SOR   Repair Status      Party                                  Comments                                 LHS
   25018, 25012,                         Numerous deficiencies were noted with smoke                                         FIRE
                     BAF-FP-12709-212A                                                              NO     In Progress                project by contract required.
 25003, and 25005A                       detectors.                                                                        WARDEN
                                         Smoke/heat detection is not provided in some areas                                  FIRE
      25112          BAF-FP-12709-213                                                               YES    In Progress                project by contract required.
                                         of the building                                                                   WARDEN
                                         Building 27331 does not have appropriate manual fire
      27331          BAF-FP-12709-214                                                               NO     In Progress       USG      project by contract required.
                                         alarm pull boxes by all exits.
                                         Building 27331 has an obstructed fire hydrant that is                              FIRE
      27331          BAF-FP-12709-215                                                               NO     In Progress                project by contract required.
                                         not protected                                                                     WARDEN
                                         Foam concentrate piping is not stainless steel or
      27328          BAF-FP-12709-216                                                               NO     In Progress       USG      project by contract required.
                                         filament-sound fiberglass in building 27238
                                         The valves controlling water flow from the water
      27328          BAF-FP-12709-217A                                                              NO     In Progress       USG      Project by contract required.
                                         storage tanks are incorrect
                                         Sprinkler on the second level, east side of the building                                     Fire Warden was informed of the deficiency and elected to correct
                                                                                                                            FIRE
      27337          BAF-FP-12709-218    is leaking                                                 NO     In Progress                this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                           WARDEN
                                                                                                                                      this deficiency.
                                         Large ventilation/air-moving units are provided for
                                                                                                                                      Completing risk assessment to determine whether a waiver or
      27331          BAF-FP-12709-219    Hangar 27331 without smoke detection                       NO     In Progress       USG
                                                                                                                                      project by contract is required.
                                         There is no supply of spare sprinkler heads in building.
      27238          BAF-FP-12709-220                                                               NO     In Progress       USG
                                         Has wet pip sprinkler deficiencies                                                           Completing risk assessment to determine whether a waiver or
      27331          BAF-FP-12709-221                                                               NO     In Progress       USG
                                                                                                                                      project by contract is required.
      27331          BAF-FP-12709-222    Fire alarm system is non operational                       NO     In Progress      FLUOR     FLUOR responsible for Fire Alarm maintenance and O&M
                                         Extinguisher location sign but no fire extinguisher or                                       Fire Warden was informed of the deficiency and elected to correct
                                                                                                                            FIRE
      27331          BAF-FP-12709-223    hanger.                                                    NO     In Progress                this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                           WARDEN
                                                                                                                                      this deficiency.
                                         Smoke detector in building is disabled                                             FIRE
      25023A         BAF-FP-12709-224                                                               NO     In Progress                Project by contract required.
                                                                                                                           WARDEN
      27337          BAF-FP-12709-225    No supply of spare sprinkler heads as required             NO     In Progress      USG
      35587          BAF-FP-12709-226    No supply of spare sprinkler heads as required             NO     In Progress      USG
                                         Egress is obstructed for building 25021, transient                                           Fire Warden was informed of the deficiency and elected to correct
                                                                                                                            FIRE
      25021          BAF-FP-12709-227    lodging tent                                               NO     In Progress                this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                           WARDEN
                                                                                                                                      this deficiency.
  25003, 25005A,                         Camp Cunningham Housing B-Huts have obstructed                                     FIRE
                     BAF-FP-12709-228A                                                              NO     Complete
   25012, 25018                          egress.                                                                           WARDEN
                                         Camp Cunningham Housing B-Huts have obstructed
Camp Cunningham B-                                                                                                          FIRE
                     BAF-FP-12709-229A   egress.                                                    NO     Complete
       Huts                                                                                                                WARDEN
                                         Storage area under stairs that is not separated from                                         Completing risk assessment to determine whether a waiver or
      25121B         BAF-FP-12709-230                                                               NO     In Progress       USG
                                         stairs by fire resistant construction                                                        project by contract is required.
                                         USO Has doors that swing inward against the path of                                          Completing risk assessment to determine whether a waiver or
      24299          BAF-FP-12709-231                                                               NO     In Progress       USG
                                         egress.                                                                                      project by contract is required.
                                         Building has non compliant exit stairs                                                       Completing risk assessment to determine whether a waiver or
      25112          BAF-FP-12709-232                                                               NO     In Progress       USG
                                                                                                                                      project by contract is required.
                                         Pile of combustible scrap lumber and pallets stacked
      27331          BAF-FP-12709-233                                                               NO     In Progress        NO
                                         adjacent to building 27331
                                         Smoke detector coverage is lacking in building 24299                               FIRE
      24299          BAF-FP-12709-234                                                               NO     In Progress                Project by contract required.
                                                                                                                           WARDEN
                                         There are overgrown weeds and wood pile next to                                    FIRE
      25214          BAF-FP-12709-235                                                               NO     In Progress
                                         Bldg 25214                                                                        WARDEN
                                         The jockey pump and main fire pumps in building                                              Fluor is responsible for Fire suppression maintenance and should
      35587          BAF-FP-12709-236                                                               NO     In Progress       USG
                                         35587 are turned off.                                                                        perform a TI to determine the best COA to fix.
                                         Fire pumps in building 35587, pump house for Air
                                                                                                                                      Fluor is responsible for Fire suppression maintenance and should
      35587          BAF-FP-12709-237    Traffic control tower are not being tested or              NO     In Progress       USG
                                                                                                                                      perform a TI to determine the best COA to fix.
                                         maintained.



170 │ DODIG-2013-099
                                                                                                                                                                                                                  Appendices

                                                                                                                      Responsible
   Building       Finding Number                            Abstract                            SOR   Repair Status      Party                                      Comments                                LHS
                                     Means of egress for camp Cunningham housing are
25003, 25005A,                                                                                                                      Completing risk assessment to determine whether a waiver or
                 BAF-FP-12709-238    not protected with fire rated barrier.                     NO     In Progress       USG
 25012 25018                                                                                                                        project by contract is required.
                                     Buildings have electrical service transformers located                                         Completing risk assessment to determine whether a waiver or
25012, 25003     BAF-FP-12709-239                                                               NO     In Progress       USG
                                     too close to the building                                                                      project by contract is required.
                                     building tenet has one the two main egress                                         FIRE
   25117A        BAF-FP-12709-240                                                               NO     Complete
                                     obstructed                                                                        WARDEN
                                     Interior fibrous insulation coating in the rock gym is                                         Completing risk assessment to determine whether a waiver or
    25107        BAF-FP-12709-241                                                               NO     In Progress       USG                                                                                 *
                                     flammable.                                                                                     project by contract is required.
                                     Housing building exterior exit stairs are not separated
                                                                                                                                    Completing risk assessment to determine whether a waiver or
25003, 25005A    BAF-FP-12709-242    from the interior of the building by fire rated self-      NO     In Progress       USG
                                                                                                                                    project by contract is required.
                                     closing and latching doors
                                     Buildings interior stairs are not protected by a fire                                          Completing risk assessment to determine whether a waiver or
25003, 25005A    BAF-FP-12709-243                                                               NO     In Progress       USG
                                     barrier.                                                                                       project by contract is required.
                                     Fire alarm systems for housing buildings 25003 and
25003, 25005A    BAF-FP-12709-244                                                               YES    In Progress       USG        FLUOR responsible for Fire Alarm maintenance and O&M
                                     25005A are inoperable.
                                     Smoke detectors are missing, disabled, not mounted                                             Fire Warden was informed of the deficiency and elected to correct
                                                                                                                        FIRE
25117A, 25218    BAF-FP-12709-245A   and or located down to low from ceiling.                   NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                       WARDEN
                                                                                                                                    this deficiency.
                                     Fire extinguisher is not properly inspected and                                    FIRE
    25218        BAF-FP-12709-246                                                               NO     Complete
                                     maintained                                                                        WARDEN
25003, 25005a,                       Non functional emergency lights and emergency exit
                 BAF-FP-12709-247                                                               NO     In Progress      USAG
 25012, 25018                        fixtures.
                                     Fire extinguishers are not securely mounted.                                                   Fire Warden was informed of the deficiency and elected to correct
25018, 25003,                                                                                                           FIRE
                 BAF-FP-12709-248                                                               NO     Complete                     this deficiency . Follow-up will be required to ensure compliance of
   25005A                                                                                                              WARDEN
                                                                                                                                    this deficiency.
                                     Door frames with low head clearance.
                                                                                                                                     The building O&M was assumed without a proper fire rated self
25012, 25018     BAF-FP-12709-249                                                               NO     In Progress      USAG
                                                                                                                                    closing and latching doors. Buildings scheduled for demolition FY13
                                     Monthly inspection record labels on fire extinguishers
25018, 25003,                                                                                                           FIRE
                 BAF-FP-12709-250    indicated that some monthly inspections are not            NO     Complete
   25005a                                                                                                              WARDEN
                                     performed.
                                     Storage shed outside building is labeled with incorrect
                                                                                                                        FIRE
   25023A        BAF-FP-12709-251    information on hazardous materials warning sign            NO     Complete
                                                                                                                       WARDEN
                                     (NFPA 704 Diamond)
                                     monthly inspection record on 30 Lb. fire extinguisher
                                                                                                                        FIRE
    25112        BAF-FP-12709-252    that some months are not inspected.                        NO     Complete
                                                                                                                       WARDEN
                                     Overgrown vegetation near building 25023A                                          FIRE
   25023A        BAF-FP-12709-253                                                               NO     Complete
                                                                                                                       WARDEN
                                     Rear door egress path is blocked and needs to be                                   FIRE
    25214        BAF-FP-12709-254                                                               NO     Complete
                                     marked "NO EXIT"                                                                  WARDEN
                                     Fire alarm circuit breaker is not marked and not                                   FIRE
   25121B        BAF-FP-12709-255                                                               NO     In Progress
                                     protected from tampering.                                                         WARDEN
                                     Exit/directional signage illumination is insufficient in                           FIRE
   25121B        BAF-FP-12709-256                                                               NO     Complete
                                     building 25121B                                                                   WARDEN
                                     Second floor game room has no exit signs.                                                      Fire Warden was informed of the deficiency and elected to correct
                                                                                                                        FIRE
   25121B        BAF-FP-12709-257                                                               NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                       WARDEN
                                                                                                                                    this deficiency.
                                     The interior exit stairwell is being used for storage.                             FIRE
   35586B        BAF-FP-12709-258                                                               NO     Complete
                                                                                                                       WARDEN
                                     Does not have adequate smoke detector coverage                                     FIRE
    25214        BAF-FP-12709-259                                                               NO     In Progress                  project by contract required.
                                                                                                                       WARDEN
                                     trash wood piled up adjacent to building                                           FIRE
   25121B        BAF-FP-12709-260                                                               NO     Complete
                                                                                                                       WARDEN



                                                                                                                                                                                                           DODIG-2013-099 │ 171
                                                                                                                                                                                                              Appendices

                                                                                                                   Responsible
     Building     Finding Number                          Abstract                           SOR   Repair Status      Party                                      Comments                               LHS
                                     Has non functional emergency lighting fixture                                    FIRE
     25121B      BAF-FP-12709-261                                                            NO     Complete
                                                                                                                    WARDEN
                                     Fire extinguisher in building 35586B still had the
                                                                                                                     FIRE
     35586B      BAF-FP-12709-262    shipping protective caps on them which may prevent      NO     Complete
                                                                                                                    WARDEN
                                     discharge.
                                     Several sprinkler head in building still had the
                                                                                                                     FIRE
     35586B      BAF-FP-12709-263    shipping protective caps on them which may prevent      NO     Complete
                                                                                                                    WARDEN
                                     discharge.
                                     Staircase fire doors have missing hardware and do not                                       Fire Warden was informed of the deficiency and elected to correct
     35586B      BAF-FP-12709-264    operate correctly.                                      Yes    In Progress       USG        this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                                 this deficiency.
                                     Has an obstructed manual fire alarm pull box.                                               The building occupants have been informed of this deficiency and
                                                                                                                     FIRE
     35586B      BAF-FP-12709-265                                                            NO     Complete                     have elected to bring this into code compliance by the use of stone
                                                                                                                    WARDEN
                                                                                                                                 gravel to level the area.
                                     Has numerous nonfunctional emergency lighting                                               The building occupants have been informed of this deficiency and
                                                                                                                     FIRE
     35586B      BAF-FP-12709-266    fixture                                                 NO     Complete                     have elected to bring this into code compliance by the use of stone
                                                                                                                    WARDEN
                                                                                                                                 gravel to level the area.
                                     Air Traffic Control Cab has several sprinkler                                   FIRE
     35586A      BAF-FP-12709-267A                                                           NO     In Progress
                                     escutcheons that are too far below the ceiling                                 WARDEN
                                     Building is in Fire alarm and requires maintenances                                         Flour responsible for Fire Alarm maintenance and should begin
     35586B      BAF-FP-12709-268                                                            NO     In Progress       USG
                                                                                                                                 maintenance within 120 days
                                     Rock Gym fire alarm is in alarm status                                                      Flour responsible for Fire Alarm maintenance and should begin
     25107       BAF-FP-12709-269                                                            NO     In Progress       USG
                                                                                                                                 maintenance within 120 days
                                     Fire alarm circuit breaker building is not marked or                            FIRE
     25107       BAF-FP-12709-270                                                            NO     Complete
                                     protected from tampering.                                                      WARDEN
                                     Building has obstructed egress                                                  FIRE
     35568B      BAF-FP-12709-271                                                            NO     Complete
                                                                                                                    WARDEN
                                     Bldg has inappropriate locks for means of egress.                               FIRE
     35762       BAF-FP-12709-272                                                            NO     Complete
                                                                                                                    WARDEN
                                     Exit stairwells are being used for storage                                      FIRE
     24095       BAF-FP-12709-273                                                            NO     Complete
                                                                                                                    WARDEN
                                     Does not provide complete building sprinkler system
     24095       BAF-FP-12709-274                                                            NO     In Progress       USG        Project by contract required.
                                     coverage.
                                     Does not provide for seismic bracing for the fire                                           Completing risk assessment to determine whether a waiver or
     24095       BAF-FP-12709-275                                                            NO     In Progress       USG
                                     sprinkler system                                                                            project by contract is required.
                                     Has non working illuminated emergency exit sign.                                FIRE
     24095       BAF-FP-12709-276                                                            NO     Complete
                                                                                                                    WARDEN
                                     Fire extinguishers are not properly inspected and                               FIRE
     24095       BAF-FP-12709-277                                                            NO     Complete
                                     maintained.                                                                    WARDEN
                                     Fire extinguishers are not properly installed.                                  FIRE
     24095       BAF-FP-12709-278                                                            NO     Complete
                                                                                                                    WARDEN
                                     Has non functional emergency lighting fixture                                   FIRE
     24095       BAF-FP-12709-279                                                            NO     Complete
                                                                                                                    WARDEN
                                     has a step in the path of egress that is not fixed in                                       Fire Warden was informed of the deficiency and elected to correct
                                                                                                                     FIRE
     35762       BAF-FP-12709-280    place.                                                  NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                    WARDEN
                                                                                                                                 this deficiency.
                                     has varnish stored in a non approved storage room.                                          Fire Warden was informed of the deficiency and elected to correct
                                                                                                                     FIRE
     35762       BAF-FP-12709-281                                                            NO     Complete                     this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                    WARDEN
                                                                                                                                 this deficiency.
                                     Emergency light fixtures are not functional during                                          Fire Warden was informed of the deficiency and elected to correct
                                                                                                                     FIRE
     35591       BAF-FP-12709-282    testing                                                 No     Complete                     this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                    WARDEN
                                                                                                                                 this deficiency.
                                     Mechanical room is being used to store combustible                                          Fire Warden was informed of the deficiency and elected to correct
                                                                                                                     FIRE
     24095       BAF-FP-12709-283    and flammable materials                                 NO     Complete                     this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                    WARDEN
                                                                                                                                 this deficiency.



172 │ DODIG-2013-099
                                                                                                                                                                                                                     Appendices

                                                                                                                         Responsible
     Building         Finding Number                              Abstract                         SOR   Repair Status      Party                                Comments                                      LHS
                                         Fire sprinkler pipe joining material does not comply                               FIRE     Completing risk assessment to determine whether a waiver or
      24095          BAF-FP-12709-284                                                              NO     In Progress
                                         with NFPA 13                                                                     WARDEN project by contract is required.
                                         Means of egress for building is restricted in width due
                                                                                                                           FIRE        Completing risk assessment to determine whether a waiver or
     35771C          BAF-FP-12709-285    to excessive door projection into the passageway.         NO     In Progress
                                                                                                                          WARDEN       project by contract is required.
                                         Main entrance double doors in building have missing                                           Fire Warden was informed of the deficiency and elected to correct
                                                                                                                           FIRE
      24095          BAF-FP-12709-286    and modified door hardware which obstructs egress.        NO     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                          WARDEN
                                                                                                                                       this deficiency.
                                         has conduit and duct work penetrating fire rated
                                                                                                                           FIRE
      24095          BAF-FP-12709-287    walls with the openings lacking fire-rated protection     NO     In Progress                  project by contract required.
                                                                                                                          WARDEN
                                         Have electrical service transformer located too close
                                                                                                                                        The building occupants were informed of their responsibilities to
                                         to the building.
  24049, 24051       BAF-FP-12709-288                                                              NO     In Progress       USG        comply with the USFOR-A Fire Warden Program. The inspection is
                                                                                                                                       the responsibility under the USFOR-A Fire Prevention SOP 2-8(e).

                                         Buildings are not separated by required 20' from
                                                                                                                                        The building occupants were informed of their responsibilities to
                                         adjacent permanent structure.
2516, 25214, 25218   BAF-FP-12709-289A                                                                    In Progress       USG        comply with the USFOR-A Fire Warden Program. The inspection is
                                                                                                                                       the responsibility under the USFOR-A Fire Prevention SOP 2-8(e).

                                         Buildings are not separated by required 20' from
     25117A          BAF-FP-12709-290                                                                     In Progress       USG        A waiver from CENTCOM will be sought
                                         adjacent permanent structure.
                                         Fire alarm circuit breaker is not correctly marked and                                        Fire Warden was informed of the deficiency and elected to correct
      16844          BAF-FP-12709-291    not protected from tampering.                                    Complete       FIRE WARDEN   this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                                       this deficiency.
                                         Fire alarm control panel does not report to MONACO
      16844          BAF-FP-12709-292                                                                     In Progress       USG        FLUOR responsible for Fire Alarm maintenance and O&M
                                         D-21 as required
                                         Plastic bag covering and disabling fire alarm smoke                                           Fire Warden was informed of the deficiency and elected to correct
                                                                                                                           FIRE
      16844          BAF-FP-12709-293    detector.                                                 No     Complete                     this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                          WARDEN
                                                                                                                                       this deficiency.
                                         Does not have fire suppression systems for kitchen
      24049          BAF-FP-12709-294                                                              No     In Progress       USG        project by contract required.
                                         cooking equipment.
                                         Does not have fire suppression systems for kitchen
      25132          BAF-FP-12709-295                                                              no     In Progress       USG        project by contract required.
                                         cooking equipment.
                                         Smoke detector was missing in building 24051                                                  Fire Warden was informed of the deficiency and elected to correct
                                                                                                                           FIRE
      24051          BAF-FP-12709-296                                                              No     Complete                     this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                          WARDEN
                                                                                                                                       this deficiency.
                                         Do not have an automatic fire alarm system as
      25132          BAF-FP-12709-297                                                              No     In Progress       USG        project by contract required.
                                         required.
                                         Do not have an automatic fire alarm system as
      24049          BAF-FP-12709-298                                                              No     In Progress       USG        project by contract required.
                                         required.
                                         Two large Jp8 fuel storage tanks are located too close
                                                                                                                           FIRE        Completing risk assessment to determine whether a waiver or
      24049          BAF-FP-12709-299    to building without means of secondary containment.       NO     In Progress
                                                                                                                          WARDEN       project by contract is required.
                                         Fire water supply post indicator valve near building is
     24087B          BAF-FP-12709-300                                                              No     In Progress       USG        project by contract required.
                                         not protected from damage.
                                         Fire alarm control panel is in non operational                                    FIRE
      24095          BAF-FP-12709-301                                                              No     In Progress                  FLUOR responsible for Fire Alarm maintenance and O&M
                                         condition displaying multiple alarms.                                            WARDEN
                                         Fire pumps have not been commissioned.                                            FIRE
 24087B, 24087C      BAF-FP-12709-302                                                              No     In Progress                  FLUOR responsible for Fire Alarm maintenance and O&M
                                                                                                                          WARDEN
                                         Fire sprinkler coverage is obstructed in mechanical                               FIRE
      24095          BAF-FP-12709-303                                                              No     In Progress                  project by contract required.
                                         room and electrical room.                                                        WARDEN
      24087          BAF-FP-12709-304    has incorrect fire sprinkler head installed.              No     In Progress      USG
                                         fire sprinkler riser assembly does not have dielectric
      24095          BAF-FP-12709-305    fittings on dissimilar material unions and welds.         No     In Progress       USG




                                                                                                                                                                                                              DODIG-2013-099 │ 173
                                                                                                                                                                                                                Appendices

                                                                                                                     Responsible
     Building     Finding Number                            Abstract                           SOR   Repair Status      Party                                      Comments                               LHS
                                    Fire suppression water supply post indicator valve
     24087       BAF-FP-12709-306                                                              No     In Progress       USG
                                    shows water supply is partially shut off.
                                    has an EXIT sign that is burnt out.                                                            Fire Warden was informed of the deficiency and elected to correct
                                                                                                                       FIRE
     24095       BAF-FP-12709-307                                                              No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                      WARDEN
                                                                                                                                   this deficiency.
                                    The movie room in the 8 Ball MWR, has an obstructed                                            Fire Warden was informed of the deficiency and elected to correct
                                                                                                                       Travis
     24051       BAF-FP-12709-308   exit.                                                      No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                      Garland
                                                                                                                                   this deficiency.
                                    A door not intended for emergency exit use in                                                  Fire Warden was informed of the deficiency and elected to correct
                                                                                                                       FIRE
     24051       BAF-FP-12709-309   building has conflicting signage                           No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                      WARDEN
                                                                                                                                   this deficiency.
                                    Smoke detectors were missing, disabled,
                                                                                                                                   Fire Warden was informed of the deficiency and elected to correct
                                    nonfunctional, and not properly maintained in the                                  FIRE
     24049       BAF-FP-12709-310                                                              No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                    Koele Dining Facility (DFAC), building 24049                                      WARDEN
                                                                                                                                   this deficiency.

                                    Has an nonfunctional emergency lighting fixture.                                               Fire Warden was informed of the deficiency and elected to correct
                                                                                                                       FIRE
     24049       BAF-FP-12709-311                                                              No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                      WARDEN
                                                                                                                                   this deficiency.
                                    Smoke/heat detection is not provided in some areas                                 FIRE
     24049       BAF-FP-12709-312                                                              No     In Progress                  project by contract required.
                                    of the building                                                                   WARDEN
                                    Smoke detectors in building are installed too low from                             FIRE
     224043      BAF-FP-12709-313                                                              No     In Progress                  project by contract required.
                                    the ceiling.                                                                      WARDEN
                                    Fire extinguishers in buildings are not properly                                               Fire Warden was informed of the deficiency and elected to correct
                                                                                                                       FIRE
     25132       BAF-FP-12709-314   inspected and maintained                                   No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                      WARDEN
                                                                                                                                   this deficiency.
                                    DFAC has exit door frames with lower than required
     24049       BAF-FP-12709-315                                                              No     In Progress       USG
                                    head clearance.
                                    Building has inappropriate locks for a means of
     24049       BAF-FP-12709-316                                                              No     In Progress      USAG
                                    egress.
                                    Is constructed as a non-combustible structure, but
                                                                                                                                   Completing risk assessment to determine whether a waiver or
     24095       BAF-FP-12709-317   combustible material was used in remodel work.             No     In Progress      USAG
                                                                                                                                   project by contract is required.
                                    Exit directional signage illumination is insufficient in                                       Fire Warden was informed of the deficiency and elected to correct
                                                                                                                       FIRE
     25132       BAF-FP-12709-318   the cold storage are of the building                       No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                      WARDEN
                                                                                                                                   this deficiency.
                                    Has non nonfunctional emergency light fixture and                                              Fire Warden was informed of the deficiency and elected to correct
                                                                                                                       FIRE
     25132       BAF-FP-12709-319   illuminated exit sign                                      No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                      WARDEN
                                                                                                                                   this deficiency.
                                    Fire extinguisher in the kitchen cooking area for the                                          Fire Warden was informed of the deficiency and elected to correct
                                                                                                                       FIRE
     25132       BAF-FP-12709-320   DFAC is inaccessible.                                      No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                      WARDEN
                                                                                                                                   this deficiency.
                                    Fire sprinkler riser water motor gong is mounted
     24095       BAF-FP-12709-321                                                              No     In Progress      USAG        FLUOR responsible for Fire Alarm maintenance and O&M
                                    incorrectly.
                                    Has missing drop in ceiling tiles that will delay fire                                         Fire Warden was informed of the deficiency and elected to correct
                                                                                                                       FIRE
     24095       BAF-FP-12709-322   sprinkler activation.                                      No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                      WARDEN
                                                                                                                                   this deficiency.
                                    Hazardous material storage sign is not legible.                                                Fire Warden was informed of the deficiency and elected to correct
                                                                                                                       FIRE
     24051       BAF-FP-12709-323                                                              No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                      WARDEN
                                                                                                                                   this deficiency.
                                    Deficiencies were noted with smoke detectors.                                                  Fire Warden was informed of the deficiency and elected to correct
                                                                                                                       FIRE
     25132       BAF-FP-12709-324                                                              No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                      WARDEN
                                                                                                                                   this deficiency.
                                    Kitchen hood grease drip tray is not installed in the                                          Fire Warden was informed of the deficiency and elected to correct
                                                                                                                       FIRE
     25132       BAF-FP-12709-325   required location per NFPA 96.                             No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                      WARDEN
                                                                                                                                   this deficiency.



174 │ DODIG-2013-099
                                                                                                                                                                                                            Appendices

                                                                                                                Responsible
Building    Finding Number                             Abstract                           SOR   Repair Status      Party                                    Comments                                  LHS
                               Storage cabinet hazardous material sign does not                                               Fire Warden was informed of the deficiency and elected to correct
                                                                                                                  FIRE
25132      BAF-FP-12709-326    appropriately reflect the actual hazard of the             No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                 WARDEN
                               materials being stored                                                                         this deficiency.
                               Sandwich shop fire extinguisher is inaccessible                                                Fire Warden was informed of the deficiency and elected to correct
                                                                                                                  FIRE
25132      BAF-FP-12709-327                                                               No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                 WARDEN
                                                                                                                              this deficiency.
                               Has inappropriate locks for means of egress                                                    Fire Warden was informed of the deficiency and elected to correct
                                                                                                                  FIRE
25132      BAF-FP-12709-328                                                               No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                 WARDEN
                                                                                                                              this deficiency.
                               Smoke detectors in multiple facilities across BAF do                                           Completing risk assessment to determine whether a waiver or
  BAF      BAF-FP-12709-329                                                               No     In Progress      USAG
                               not communicate with each other.                                                               project by contract is required.
                               Interior exit stairwells of building 14782 are being                                           Fire Warden was informed of the deficiency and elected to correct
                                                                                                                  FIRE
14782      BAF-FP-12709-330    used for storage with the potential to interfere with      No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                 WARDEN
                               egress                                                                                         this deficiency.
                               Exit/directional signage illumination is insufficient in                                       Fire Warden was informed of the deficiency and elected to correct
                                                                                                                  FIRE
  CM       BAF-FP-12709-331    building camp monitored                                    No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                 WARDEN
                                                                                                                              this deficiency.
                               There is systemic lack of inspection and maintenance                                           Fire Warden was informed of the deficiency and elected to correct
                                                                                                                  FIRE
  CM       BAF-FP-12709-332    on fire extinguishers in Camp Montrond                     No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                 WARDEN
                                                                                                                              this deficiency.
                               Camp Montrond Dining Facility (DFAC) kitchen,
                                                                                                                              Fire Warden was informed of the deficiency and elected to correct
                               building 14983, does not have a working fire                                       FIRE
14983      BAF-FP-12709-333                                                               No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                               suppression system for kitchen cooking equipment.                                 WARDEN
                                                                                                                              this deficiency.

                               Camp Montrond has buildings with door opening
                               headroom less than the required clearance and                                      FIRE        Completing risk assessment to determine whether a waiver or
  CM       BAF-FP-12709-334                                                               No     In Progress
                               ceiling height less than the require 7' clearance.                                WARDEN       project by contract is required.

                               The building 14882 storage cabinet hazardous
                                                                                                                              Fire Warden was informed of the deficiency and elected to correct
                               material sign does not appropriately reflect the actual                            FIRE
14882      BAF-FP-12709-335                                                               No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                               hazard of the materials being stored.                                             WARDEN
                                                                                                                              this deficiency.

                               Building has on one means of egress                                                            Fire Warden was informed of the deficiency and elected to correct
                                                                                                                  FIRE
14769A     BAF-FP-12709-336                                                               No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                 WARDEN
                                                                                                                              this deficiency.
                               Systemic deficiencies were noted with the installation
                               and maintenance of smoke detectors throughout
                                                                                                                  FIRE        Completing risk assessment to determine whether a waiver or
  CM       BAF-FP-12709-337A   Camp Montrond, and smoke detection is not                  No     In Progress
                                                                                                                 WARDEN       project by contract is required.
                               provided in many locations.

                               There is overgrown vegetation near building 14782                                  FIRE
  CM       BAF-FP-12709-338A                                                              No     Complete
                                                                                                                 WARDEN
                               Camp Montrond building 14782 second floor fire
                                                                                                                              Completing risk assessment to determine whether a waiver or
14782      BAF-FP-12709-339    escape stairs do not meet NFPA code requirements           No     In Progress      USAG
                                                                                                                              project by contract is required.
                               Main exit door swings inward against the direction of                                          Fire Warden was informed of the deficiency and elected to correct
                                                                                                                  FIRE
14769      BAF-FP-12709-340    egress                                                     No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                 WARDEN
                                                                                                                              this deficiency.
                               Has flammable combustible storage under the egress                                             Fire Warden was informed of the deficiency and elected to correct
                                                                                                                  FIRE
14882      BAF-FP-12709-341    stairs.                                                    No     In Progress                  this deficiency . Follow-up will be required to ensure compliance of
                                                                                                                 WARDEN
                                                                                                                              this deficiency.
                               Exit stair does not meet requirements for consistent,                                          Completing risk assessment to determine whether a waiver or
14782      BAF-FP-12709-342                                                               No     In Progress      USAG
                               even treads and risers.                                                                        project by contract is required.
                               Billeting structures do not have adequate fire                                                 Completing risk assessment to determine whether a waiver or
  CM       BAF-FP-12709-343                                                               No     In Progress      USAG
                               separation between buildings.                                                                  project by contract is required.



                                                                                                                                                                                                     DODIG-2013-099 │ 175
                                                                                                Appendices




Appendix C Continued
Notice of Concerns and Responses - BAF
OIG Response to CENTCOM - BAF
We commend the Bagram Garrison Command and Task Force POWER on their rapid
response in initiating the correction of findings identified during the assessment of
Bagram Air Field as indicated in their “Response to Notice of Concern (Fire and Electrical
Standards)”, dated 11 Nov 2012 (see appendix C). This evidenced by actions described in
Item 7, and the Finding Tracking Spread Sheets attached to their NOC response documents.

We recognize the value of TF POWER and its mission but we disagree with CENTCOM’s
statement, “The government civilian and military staff is sufficient to perform those roles
in a comprehensive and outstanding fashion.” TF POWER has 196 contract electrical
inspectors in Afghanistan, but the number of DoD OIG findings suggest that the TF
POWER workforce is insufficient to meet the requirements of this critical mission. Also
CENTCOM’s position is contrary to the conversations we had with the garrison command’s
military and civilian support staff regarding adequate resources. The garrison commands
we interviewed reported that they had a lack of government dedicated electricians to
be effective. This is consistent with the 331 electrical findings at BAF and an additional
109 electrical findings at KAF. The Bagram Garrison Command indicated that it was
understaffed but was in the process of acquiring Government civilian electricians and
other tradesmen to assist in maintenance and repairs. We believe this is a step in the right
direction.

Item 6 of CENTCOM response to the DoD OIG NOC states:

     Non-concur with the recommendation and emphasis on fire protection plans
     in base camp master plans as a solution for fire code discrepancies. This is
     not a required component of a base camp master plan and it will not eliminate
     any root causes for the findings discovered in the DoD IG inspection. There
     are sufficient fire protection standards for contingency environments. Please
     reference the following partial list of relevant publications:

         a.	 AF Engineering Technical Letter (ETL) 09-4: Fire Protection Engineering
             Criteria – Expeditionary and Force Projection Operational Theaters

         b.	 USCENTCOM regulation 415-1, Construction and Base Camp Development
             in the USCENTCOM Area of Responsibility “The Sand Book”




                                                                                          DODIG-2013-099 │ 177
Appendices



                          c.	 ARCENT Policy letter dated 15 Jul 09, Fire Safety Management & Design
                             Policy for Construction in the USARCENT AOR

                          d.	 DoD is currently scheduled to release a new UFC governing contingency
                             construction Nov 2012.

                 We remain in agreement with the Sand Book, section 5-7, (3) (b), which states, “An
                 effective fire protection plan is critical to the safety of personnel, facilities, and equipment.
                 The plan provides alternatives to the impracticable criteria in the UFC.” According to the
                 Sand Book, Appendix C, Item 7 (f), the fire protection plan is listed as a component of the
                 BCMP. Also, the Sand Book, Section 5-7, (3)(c) and (d), and further clarified in Figure
                 5-4, allows the use of the documents referenced in item 6 for temporary construction
                 (defined as 6 months to less than 2 years) only and requires compliance with the UFC for
                 semipermanent construction (defined as 2 years to less than 25 years). Exceptions are
                 allowed with an approved FPP.

                 TF POWER granted exceptions to electrical findings as identified in the Finding Tracking
                 Spread Sheets in Attachment 1 of the NOC response. Findings that identified issues with
                 air conditioners permanently wired to power with no visible means of disconnect have
                 been granted exceptions. However, if an air conditioner malfunctions, power to the unit
                 could not easily be secured, which presents a fire hazard. It also presents an electrical
                 shock and/or electrocution hazard to personnel performing maintenance or servicing.
                 Failure to provide a visible means of disconnect violates NFPA 70, National Electrical
                 Code 2008, Article 440.14, which states, “Disconnecting means shall be located within
                 sight from and readily accessible from the air-conditioning or refrigerating equipment.”
                 For these reasons, we consider it unsafe to continue the practice of providing no means
                 of power disconnect.




178 │ DODIG-2013-099
                                                 Appendices




Appendix D
CENTCOM Comments (Received June 3, 2013)




                                           DODIG-2013-099 │ 179
Appendices




180 │ DODIG-2013-099
      Appendices




DODIG-2013-099 │ 181
      Appendices




DODIG-2013-099 │ 183
Appendices




184 │ DODIG-2013-099
      Appendices




DODIG-2013-099 │ 185
Appendices




188 │ DODIG-2013-099
      Appendices




DODIG-2013-099 │ 189
Acronyms and Abbreviations



                 Acronyms and Abbreviations
                             AHJ Authority Having Jurisdiction
                       AT&L (I&E) Acquisition, Technology and Logistics (Installations & Environment)
                             BAF Bagram Air Field
                           BCMP Base Camp Master Plan
                            BOS-I Base Operations Support-Integration
                            BRCC Bagram Regional Contracting Command
                       CENTCOM U.S. Central Command
                          C-JTSCC CENTCOM Joint Theater Support Contracting Command
                          CJOA-A Combined/Joint Operations Area-Afghanistan
                             COR Contracting Officer’s Representative
                             DFIP Detention Facility in Parwan
                           DCG-S Deputy Commanding General for Support
                              FPP Fire Protection Plan
                             GFCI Ground Fault Circuit Interrupter
                            HVAC Heating, Ventilation, and Air Conditioning

                               IG Inspector General
                            JENG USFOR-A Joint Engineering
                             KAF Kandahar Air Field
                             KBC Kabul Base Cluster
                         LOGCAP Logistics Civil Augmentation Program
                           MRAP Mine Resistant Ambush Protected
                             NEC National Electrical Code
                            NFPA National Fire Protection Association
                             NOC Notice of Concern
                             OIG Office of Inspector General
                             RCC Regional Contracting Command
                         SIPRNET SECRET Internet Protocol Router Network
                             TDB Technical Directive Bulletins
                       TF POWER Task Force POWER
                             UFC Unified Facilities Criteria
                        USFOR-A U.S. Forces-Afghanistan




190 │ DODIG-2013-099
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
